<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2009 
budget request for programs within the subcommittee's 
jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition \1\ composed 
of the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including Titles I and II 
of Public Law 480, and therefore strongly opposes the administration's 
repeatedly rejected proposal to divert food aid funding to cash 
assistance programs.
---------------------------------------------------------------------------
    \1\ The ad hoc coalition is composed of the America Cargo Transport 
Corp., American Maritime Congress, American Maritime Officers, American 
Maritime Officers' Service, American Soybean Association, Global 
Container Lines Ltd., Global Food and Nutrition Inc., International 
Food Additives Council, International Organization of Masters, Mates & 
Pilots, Liberty Maritime Corporation, Maersk Line, Ltd., Marine 
Engineers' Beneficial Association, Maritime Institute for Research and 
Industrial Development, National Association of Wheat Growers, National 
Corn Growers Association, National Council of Farmer Cooperatives, 
Seafarers International Union, Sealift, Inc., Tosi Maritime 
Consultants, LLC, Transportation Institute, United Maritime Group, LLC, 
USA Dry Pea & Lentil Council, USA Rice Federation, U.S. Dry Bean 
Council, and U.S. Wheat Associates, Inc.
---------------------------------------------------------------------------
                 GUIDING PRINCIPLES OF FOOD AID POLICY

    The coalition recognizes that American food assistance policy is 
well-established and founded on certain guiding principles, including:
  --Meeting America's humanitarian obligation to sustain international 
        aid programs, with U.S. participation in such programs 
        constituting more than 50 percent of all food aid worldwide.
  --Employing food assistance programs overseas as stepping stones for 
        economic growth and development, helping break the cycle of 
        hunger and poverty.
  --Employing food assistance programs to demonstrate American 
        compassion for disadvantaged populations, thereby enhancing 
        goodwill toward America.

                     THE SHARP DECLINE IN FOOD AID

    Food aid has enjoyed broad, bipartisan support for many decades. 
The strength of our commitment has made the United States the world's 
leading supplier of humanitarian assistance. American food aid has 
saved countless lives while bolstering American agriculture and helping 
aid recipients strengthen and stabilize their economies.
    In recent years, however, food aid shipments have declined sharply. 
Food aid shipments have decreased 71 percent, from 9.1 million tons in 
1999 to a low of 2.7 million tons in 2007, as illustrated in the 
following chart:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: United States Maritime Administration.
    In short, food aid shipment levels are now less than one third of 
what they were a decade ago. Therefore, we respectfully request that 
this steady erosion of food aid be reversed, and that funding be 
restored to sustainable levels to assure the continued effectiveness 
and stability of these important and historically successful programs.

            THE ADMINISTRATION'S BUDGET FOR FISCAL YEAR 2009

    The administration proposes to continue last year's total 
elimination of funding for Title I.
    Over the last several years, as funding for Title I has 
disappeared, the vast majority of food aid donations have been provided 
through the Food for Peace (Public Law 480) Title II program, which the 
administration proposes to further reduce by $439 million from the 
actual fiscal year 2007 levels. Moreover, under the President's budget, 
Title II food aid would be reduced by up to $305 million and converted 
to overseas aid purchases at the discretion of the Administrator for 
USAID. The reduction will almost certainly violate the statutory 
minimum of 2.5 million metric tons of food aid required by Title II.
    The administration has requested $100 million for the McGovern-Dole 
International Food for Education and Child Nutrition Program 
(``IFEP''), representing approximately 70,000 tons of commodities. This 
proposal represents a 22 percent decrease in food shipped from last 
year's proposal of 90,000 tons shipped under McGovern-Dole.
    Lastly, the administration has signaled, once again, that no 
surplus commodities will be made available for donation in fiscal year 
2009 under the authority provided by Section 416(b) of the Agricultural 
Act of 1949. This represents another year of diminished reliance on the 
successful 416(b) program, which is funded through the Commodity Credit 
Corporation (``CCC''). As USAID has explained, the mothballing of 
416(b) has resulted in the decline of overall food aid resources 
available and additional pressures to re-direct Title II non-emergency 
program resources to emergency programs.
    The administration's recommendations, taken together, would lead to 
significant reductions in food aid. For the reasons set forth below, 
the coalition urges this subcommittee to sustain Title II funding, 
reinvigorate the Title I program, and reject, for the fourth time, the 
administration's proposal to divert up to a quarter of Title II 
appropriations into a discretionary account for USAID.

         RESTORATION OF OVERALL FOOD ASSISTANCE PROGRAM LEVELS

    The coalition recommends that food aid be restored over time to 
sustainable levels in the range of 5 million to 6 million metric tons 
of grain equivalent in each fiscal year. In fiscal year 2009, this 
would require restoration of Title I funding, an increase in funding to 
meet the minimum 2.5 million metric tons required by statute, and 
greater use of existing authorities of the CCC.
    USDA's fiscal year 2009 Budget Summary justifies the elimination of 
Title I as necessary because recipient countries have been more 
interested in direct grants under Title II than concessional sales 
under Title I.
    In order to ensure that countries with the direst need have 
sufficient donated food aid, the coalition recommends that USDA offer 
the Title I concessional sales program to countries that can afford it. 
Among the countries receiving Title II-funded grants in recent years, 
some reasonably could afford to make the transition from grant 
assistance to concessional sales, using the direct loan authority of 
Title I.
    To the extent that the Title I funding truly cannot be used for 
concessional sales, it may be converted to donations on full grant 
terms through the Food for Progress (``FFP'') program. There is strong 
demand for Title I funding channeled through FFP: For fiscal year 2007, 
100 proposals were submitted by PVOs and 16 by governments, but only 11 
new proposals were approved.

         ELIMINATION OF TITLE II FUNDING FOR ``LOCAL PURCHASE''

    The coalition is strongly opposed to the administration's attempts 
to eliminate up to 25 percent ($305 million) of Public Law 480 Title II 
funding in favor of an experimental program whereby the USAID 
Administrator will be granted unchecked discretion to divert U.S. 
agriculture appropriations to foreign growers and manufacturers. This 
Committee wisely rejected this proposal during each of the last three 
budget cycles and it should emphatically reject it once more.
    The administration's proposal for a new ``local purchase'' program 
would require new legislative authority. However, after extensive 
consideration, the Agriculture Committees wisely declined to create 
such a program inside Public Law 480 during recent debate on the Farm 
Bill--neither the House nor the Senate versions pending before the 
conference includes such an initiative in Public Law 480.
    Moreover, a local purchase program inside Public Law 480 would be 
redundant. USAID already has existing authority that it uses for local 
purchases through the International Disaster and Famine Assistance 
Program (``IDFA'') pursuant to the Foreign Assistance Act of 1961. The 
Foreign Operations appropriators provided new funds for local purchase 
through the IDFA in 2008 and the administration has proposed continuing 
the program under that existing authority in fiscal year 2009.
    The wisdom of local purchase remains in question. The experts agree 
that relying upon underdeveloped local food markets seriously risks 
destabilizing them by spiking local food prices and widening the circle 
of food insecurity. Local purchase also raises serious food safety 
issues such as aflatoxin poisoning. Lastly, diverting large sums of 
cash into places such as sub-Saharan Africa raises real concerns about 
corruption and abuse.
    In addition to being an unwise policy, the administration's 
proposal is politically unsound. As the Congress admonished the 
administration when it first proposed the 25 percent diversion of 
Public Law 480, the proposal ``place[s] at risk a carefully balanced 
coalition of interests which have served the interest of international 
food assistance programs for well more than 50 years.'' The European 
experience is telling: When the Europeans migrated to local purchase, 
their contributions to world hunger relief dropped dramatically. The 
world's hungry cannot afford for us to follow in their footsteps.

                    CONCLUSIONS AND RECOMMENDATIONS

    Mr. Chairman, the coalition is committed to maintaining U.S. food 
assistance programs at responsible levels in order to meet humanitarian 
needs and enhance the potential for economic growth in recipient 
countries. Our recommendation is to increase, over time, annual food 
assistance at combined program levels of between 4.0 million and 6.0 
million metric tons of grain equivalent. This can be accomplished, as 
in the past, with a blend of programs supported by direct 
appropriations and CCC program authorities.
    The coalition respectfully recommends the following:
  --Title I program levels should be restored to responsible levels so 
        that the unique efficiencies of the program are not lost and 
        more people can be fed.
  --The Title II program should be increased to $1.8 billion in order 
        to satisfy the 2.5 million MT required by statute, and 
        responsibly increased to $2 billion over time.
  --In committee report language, the Committee should reiterate its 
        fiscal year 2003 directive to the administration to make 
        greater use of existing CCC authorities to expand food aid to 
        regions in critical need, and once more explicitly reject the 
        administration's proposal to convert Public Law 480 into a 
        redundant ``local purchase'' initiative.
    The food aid programs save lives. They have been the bulwark of 
American humanitarian assistance since the days of the Marshall Plan, 
and they deserve the support of your subcommittee, the Congress, and 
the entire Nation.
                                 ______
                                 

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation has identified three general 
areas for increased emphasis and funding for USDA programs in the 
fiscal year 2009 agriculture spending bill. They are:
  --Programs that strengthen rural communities.
  --Programs that expand export markets for agriculture.
  --Food safety and protection programs.
    Within these categories, we would like to call your attention to 
specific programs deserving of your support.
Programs that Strengthen Rural Communities
    Business and Industry (B&I) Direct and Guaranteed Loans finance 
business cooperatives and industry acquisition, construction, 
conversion, expansion, and repair in rural areas. Loan funds can be 
used to finance the purchase, and development of land, supplies and 
materials, and pay start-up costs of rural businesses.
    Broadband Loans and Grants support acquisition and construction of 
broadband facilities in under-served rural areas that are currently at 
a disadvantage in gaining access to these newer technologies, in part, 
because the costs per user are higher than in more urbanized areas.
    The Enhancement of Access to Broadband Service in Rural Areas 
program provides loans, grants, and loan guarantees to construct, 
improve and acquire facilities and equipment to provide broadband 
service to rural areas with less than 20,000 residents.
    Value-Added Agricultural Production Grants provide grants to assist 
farmers and ranchers in creating greater value for agricultural 
commodities. A portion of the funding is reserved for the establishment 
of Agricultural Demonstration Centers, which provide training and 
technical assistance to new or expanding value-added agricultural 
enterprises.
    Distance Learning and Telemedicine Loans and Grants provide 
financial assistance to rural community facilities, e.g., schools, 
libraries, hospitals and medical centers. These programs help rural 
schools and hospitals obtain and use advanced telecommunications for 
health and educational services.
    Community Facility Direct and Guaranteed Loans are made for 
constructing, enlarging or improving essential community facilities in 
rural areas and towns with populations of less than 20,000. 
Applications for health and public safety projects receive the highest 
priority.
    The Renewable Energy and Energy Efficiency Program offers grants, 
guaranteed loans and combination grant/guaranteed loans to help 
agricultural producers and rural small businesses purchase and install 
renewable energy systems and make energy efficiency improvements in 
rural areas.
    The Resource Conservation and Development (RC&D) program supports 
economic development and resource protection. This program, in 
cooperation with rural development councils, helps local volunteers 
create new businesses, form cooperatives, develop marketing and agri-
tourism activities, improve water quality and flood control, improve 
leadership and other business skills, and implement renewable energy 
projects.
    The Revolving Fund (RFP) Grant Program helps communities acquire 
safe drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents.
Programs that Expand Export Markets for Agriculture
    The Market Access Program, the Foreign Market Development Program, 
the Emerging Markets Program and the Technical Assistance for Specialty 
Crops program are effective export development and expansion programs. 
These programs have resulted in record increases in demand for U.S. 
agriculture and food products abroad.
    Public Law 480 programs serve as the primary means by which the 
United States provides needed foreign food assistance through the 
purchase of U.S. commodities. In addition to providing short-term 
humanitarian assistance, the program helps to develop long-term 
commercial export markets.
    The International Food for Education Program is an effective 
platform for delivering severely needed food aid and educational 
assistance.
    As trade between countries increases, so too does the threat of new 
invasive and noxious pests that can destroy America's agricultural and 
natural resources. Animal Plant Health Inspection Service (APHIS) Plant 
Protection and Quarantine personnel and facilities, especially the 
plant inspection stations, are necessary to protect U.S. agriculture 
from costly pest problems that enter the United States from foreign 
lands.
    APHIS trade issues resolution and management activities are 
essential for an effective response when other countries raise pest and 
disease concerns (i.e., sanitary and phytosanitary measures) to 
prohibit the entry of American products. APHIS must be active at U.S. 
ports and in overseas locations to monitor pest and disease conditions, 
negotiate trading protocols and to intervene when foreign officials 
wrongfully prevent the entry of American imports.
    APHIS Biotechnology Regulatory Services (BRS) play an important 
role in overseeing the permit, notification and deregulation process 
for products of biotechnology. BRS personnel and activities are 
essential to ensure public confidence and international acceptance of 
biotechnology products.
    Foreign Agricultural Service (FAS) staffing is needed to expand 
services to cover all existing and potential market posts. We urge 
continued support for the Office of the Secretary for cross-cutting 
trade negotiations and biotechnology resources.
    The U.S. Codex Office is essential to developing harmonized 
international standards for food and food products. Codex standards 
provide uniformity in food rules and regulations by allowing countries 
to adopt similar levels of safety protection for consumers while 
concurrently facilitating transparency in food trade.
    The Chemical Use Survey conducted by the National Agricultural 
Statistics Service is the only crop-complete, publicly available source 
of information on actual on-farm pesticide and fertilizer usage. In the 
2008 and 2009 budget cycles, USDA chose to not conduct the Chemical Use 
Survey allegedly due to lack of adequate funding. Survey data are 
critically needed by public and private interests to assess real world 
chemical use. The data improve the accuracy and effectiveness of 
analysis of risk and environmental exposures, and are used to defend 
the safety of U.S. farm products in export markets.
Food Safety and Protection Programs
    The continued safety of food is absolutely crucial to the public, 
production agriculture and the food industry. Agencies responsible for 
food safety lack the resources they need to reasonably establish 
safety, especially food imported from other countries. While food 
imports have increased about 50 percent in the past 5 years, the number 
of FDA food import inspectors has fallen about 20 percent. It is 
essential that the funding for the Food and Drug Administration's food 
protection functions be set at $812 million, $192 million more than 
last year.
    Increased funding for USDA's Food Safety Inspection Service also is 
imperative. Specifically, we urge an increase to at least $952 million, 
up from $930 million, for FSIS with a focus on full staffing and 
training of inspectors. FSIS is in the midst of a 60-day enhanced 
surveillance program to verify and analyze humane animal handling 
activities in all federally inspected establishments. If the 
investigation determines that more welfare inspections are necessary, 
we support increased funding beyond the above request to hire the 
necessary number of additional inspection personnel.
    AFBF has serious concerns about the administration's request for 
new user fees for inspection activities. Food safety is for the public 
good and as such, it is a justified use of public funds.
                                 ______
                                 

     Prepared Statement of the American Forest & Paper Association

    On behalf of the American Forest & Paper Association (AF&PA), I am 
pleased to submit the following testimony regarding the fiscal year 
2009 U.S. Department of Agriculture budget. AF&PA is the national trade 
association of the forest products industry, representing forest 
landowners, pulp, paper, paperboard, and wood products manufacturers. 
Our companies are in the business of producing products essential for 
everyday life from renewable & recyclable resources that sustain the 
environment. The forest products industry accounts for approximately 6 
percent of the total U.S. manufacturing output and employs more than a 
million people with an estimated annual payroll exceeding $50 billion.
    AF&PA supports the sustainable management of our Nation's forests 
and encourages increased funding to advance forestry research, combat 
invasive species, and enhance food packaging innovations. The following 
recommendations concern fiscal year 2009 appropriations for the U.S. 
Department of Agriculture.

 COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE (CSREES)

    There is a critical need to focus resources on research and 
outreach that address forest productivity, wood utilization, 
nanotechnology, and conversion of wood to produce bioenergy/
bioproducts. This practical research and outreach will advance our 
capacity to produce healthier, faster-growing forests and 
environmentally-sustainable products, and will also contribute to the 
stewardship of the Nation's nonFederal forestlands. CSREES and its 
partnering universities play a key role on-the-ground in meeting this 
need.
  --McIntire-Stennis Cooperative Forestry Research Program.--AF&PA is 
        concerned with the President's fiscal year 2009 request of 
        $19.4 million and recommends instead that the program be 
        maintained at the fiscal year 2008 enacted level of $24.8 
        million. This program is a Federal-State partnership for 
        university research on forest resources and supports cutting-
        edge research on forest productivity, wood utilization, and 
        development of new technologies. AF&PA opposes the President's 
        proposal to divert 62 percent of existing funds to competitive 
        funding, as it would undermine valuable forestry research being 
        conducted by our Nation's universities. Instead, we encourage a 
        phased approach to building in a competitive grants component 
        to the program.
  --National Research Initiative (NRI) Competitive Grants Program.--
        AF&PA supports the President's request of $256 million, but 
        with increased focus on forestry research. These grants provide 
        a source of funding for basic and applied research on forest 
        resources, including their management and utilization. In 
        recent years, however, less than 6 percent of available funding 
        has been allocated for forestry-related research. Given the 
        considerable potential of the program to contribute to the 
        Nation's sustainable forestry research needs, that percentage 
        should be increased, with specific focus on grants that support 
        the Agenda 2020 Technology Alliance, such as the Pine Genome 
        Initiative and nanotechnology research. Working in partnership 
        with universities and the private sector, Federal funding for 
        the Agenda 2020 program supports research to develop and deploy 
        wood production systems that are ecologically sustainable, 
        socially acceptable, and economically viable, in order to 
        enhance forest conservation and the global competitiveness of 
        forest product manufacturing and biorefinery operations in the 
        United States.
  --Renewable Resources Extension Act (RREA) Program.--AF&PA recommends 
        an increase over the President's request of $4 million. RREA 
        provides the foundation for extension and outreach efforts 
        delivered to private landowners through universities. Cutting-
        edge forestry research is of limited benefit unless it can be 
        effectively delivered to the Nation's forest landowners.
           animal and plant health inspection service (aphis)
  --Emerging Plant Pests Program.--AF&PA encourages increased funding 
        for this program in order to support eradication and control 
        efforts targeting the Sirex woodwasp, emerald ash borer, Asian 
        longhorned beetle, and sudden oak death pathogen. All four 
        introduced organisms have already done significant ecological 
        and economic damage and threaten further damage to trees in our 
        forests and communities. Without sufficient funding to prevent 
        movement of these insects and diseases through infested wood, 
        nursery stock, and other materials, the economic cost could 
        escalate to hundreds of billions of dollars. Specific funding 
        recommendations include:
    --$5 million for Sirex woodwasp (zero was enacted in fiscal year 
            2008)
    --$45 million for Emerald ash borer ($15 million over fiscal year 
            2008 enacted)
    --$30 million for Asian longhorned beatle ($10 million over fiscal 
            year 2008 enacted)
    --$10 million for Sudden oak death ($5 million over fiscal year 
            2008 enacted)

                   FOOD AND DRUG ADMINISTRATION (FDA)

  --Food Contact Notification (FCN) Program.--AF&PA urges Congress to 
        support the FDA's proposed fiscal year 2009 budget of $182 
        million for the Center for Food Safety and Applied Nutrition 
        (CFSAN), which includes the resources needed to continue 
        operation of the Food Contact Notification program (FCN). This 
        highly successful program provides efficient review and timely 
        approval of new food packaging materials and additives. New 
        food-contact materials have enhanced the safety and security of 
        the U.S. food supply while increasing the availability of 
        environmentally friendly products. The elimination of the FCN 
        program would be an enormous detriment to manufacturers seeking 
        clearances for new food-contact materials to be introduced in 
        the U.S. marketplace. The FCN program is essential for 
        continued paper and paperboard food packaging innovation, and 
        for ensuring the most effective protection of packaged foods 
        during transportation, storage, and ultimate use by the 
        consumer.

                               CONCLUSION

    AF&PA appreciates the opportunity to provide the subcommittee with 
testimony regarding the fiscal year 2009 budget for the U.S. Department 
of Agriculture. If implemented, increased funding for the programs 
listed above will help promote the sustainable management of our 
Nation's public and private lands and the products that are produced 
from these lands.
                                 ______
                                 

  Prepared Statement of the American Honey Producers Association, Inc.

    Chairman Kohl and Members of the subcommittee, my name is Mark 
Brady from Waxahachie, Texas, and I currently serve as President of the 
American Honey Producers Association (``AHPA''). I am pleased today to 
submit the following statement on behalf of the AHPA, a national 
organization of commercial beekeepers actively engaged in honey 
production and crop pollination throughout the country. The purpose of 
this statement is bring to your attention unprecedented threats to 
American beekeepers and to U.S. agriculture and to request that you 
dedicate significant new funding to expand vitally needed honeybee 
research.
    In early 2007, the National Research Council at the National 
Academy of Sciences characterized the beekeeping industry as having 
serious problems and being in ``crisis mode''--a point echoed and 
emphasized in the USDA action plan regarding recent honeybee threats. 
As you know, the situation for beekeepers has only gotten worse in the 
past year as the still-mysterious condition known as Colony Collapse 
Disorder (``CCD'') continues to devastate large populations of 
honeybees, with no imminent signs of relief. Despite extensive, 
coordinated work over the last year by experts from government, 
academia and the private sector, the causes and solutions for CCD have 
yet to be identified, and funding for research is running out. New 
funding is urgently needed to support the Agricultural Research Service 
(``ARS'') and other Department of Agriculture programs to address CCD 
and other serious threats to honeybee health. In addition, new funds 
are required to support the private and academic sectors in their vital 
and groundbreaking research on CCD and other health-related challenges.
    In past fiscal years, this subcommittee has supported the 
beekeeping industry through funding for agricultural research 
activities. As you know, in the fiscal year 2003 cycle, the 
subcommittee rejected a proposal that would have resulted in the 
elimination of three ARS laboratories that are indispensable to the 
survival of our industry. In the years since then, the subcommittee has 
worked to restore proposed cuts in honeybee research. Such support has 
helped the ARS to address some of the most critical research needs of 
the industry. For this past support, the AHPA and its many members 
thank you sincerely.
    As I speak to you today, U.S. beekeepers are facing the most 
extraordinary challenges. CCD is ravaging bee colonies across the 
United States. In 2007, some beekeepers experienced losses up to 90 
percent of their bee populations. In 2008, preliminary surveys by USDA 
scientists indicate that the impact this year is likely to be even more 
severe. The Department's experts estimate that at least 37 percent of 
U.S. commercial honeybees are likely to fall victim to CCD in 2008. For 
example, one of our AHPA members with significant operations in 
California has already reported losses of 66 percent of his entire bee 
population.
    The causes of CCD are still unknown. CCD may be caused by a 
complicated mix of factors, including the stresses caused by continuing 
infestations of mites and pests, recent imports of foreign honeybees 
and by the high demands of pollination services today. However, CCD's 
effects are well known. Hundreds of news articles and many in-depth 
media reports have chronicled a looming disaster facing American 
beekeepers and the producers of over 90 fruit, vegetable and fiber 
crops that rely on honeybee pollination.
    Over the past year, Congressional leaders and the administration 
have significantly underscored the priority of honeybee health through 
significant new authorizations in the pending Farm Bill and in proposed 
increases for honeybee research in the fiscal year 2009 budget. 
Moreover, experts in the academic and private sectors and U.S. farm 
leaders have repeatedly been emphasizing the need to make research on 
honeybee health a much higher national priority.
    All of these developments point to a reality that all of us can no 
longer afford to ignore--the fact that U.S. honeybee research has been 
substantially under funded for many years. The emergence of CCD shines 
a bright light on the inadequacies of current honeybee research, 
particularly on the lack of capacity to address new challenges and to 
take long-term steps to assure honeybee health. In saying this, we do 
not mean to diminish the vital, ongoing work of ARS and other honeybee 
scientists. They do their job and they do it very well. In recent 
years, however, honeybee research has become largely confined to four 
ARS laboratories. Universities and the private sector have 
substantially scaled back their efforts due to a lack of available 
funds. Moreover, ARS laboratories lack sufficient resources even for 
current honeybee research priorities. For example, we understand that 
ARS currently lacks funds even to test high priority CCD samples that 
ARS scientists have already collected.
    To meet the needs of the American beekeeper and to stave off a 
pending agricultural crisis for growers and consumers, we respectfully 
urge the subcommittee to appropriate $20 million in new research funds 
dedicated toward CCD and other honeybee health research projects. As 
you know, the Senate version of the 2008 Farm Bill includes an 
authorization of $100 million over 5 years for such initiatives. A $20 
million appropriation in fiscal year 2009 would reflect that 
authorization, and would provide government, academic and private 
sector researchers with the vital resources needed to combat CCD and 
other emerging threats and assure long-term honeybee health. Such 
funding would be a prudent investment in the U.S. farm infrastructure, 
which, along with U.S. consumers, derives tens of billions of dollars 
of benefit directly from honeybee pollination.
    Finally, we specifically suggest increased funding in the amount of 
at least $250,000 for promising honeybee genome research at the ARS 
laboratory in Baton Rouge. Genome research is likely to be central to 
resolving mysterious threats such as CCD and to ensuring bee health and 
productivity for generations to come.
    We understand that the administration's fiscal year 2009 Budget 
would make permanent prior funding levels for certain critical honeybee 
research conducted at the four ARS Honeybee Research Laboratories, and 
would add $800,000 in new funding dedicated to combating the grave 
threat posed by CCD. We appreciate and support the administration's 
proposal to make permanent baseline funding for the ARS research 
laboratories. We also support the administration's proposal to increase 
funding for CCD research. However, we believe strongly that an increase 
in $800,000 does not come close to meeting the growing demands imposed 
by CCD and other threats to honeybee health. The significant 
authorizations for honeybee health research in both the House and 
Senate versions of the Farm Bill also show that the authorizing 
committees, as well as Congress as a whole, agree that substantial new 
resources are needed.
    We also understand that the administration proposes to close the 
Honeybee Research Laboratory in Weslaco, Texas. We respectfully but 
strongly oppose the administration's proposal. The four ARS Honeybee 
Research Laboratories provide the first line of defense against exotic 
parasitic mites, Africanized bees, viruses, and brood diseases. 
Equally, the laboratories are needed to respond to new pests, pathogens 
and other conditions such as CCD that pose very serious and growing 
threats to the viability and productivity of honeybees and the plants 
they pollinate. At a time when there is an urgent need to ramp up 
research on honeybee health, it would be unwise to close the Weslaco 
facility.
    Traditionally, each ARS lab has focused on specific research 
disciplines, resulting in expertise that is difficult if not impossible 
to transport to other laboratories. The Weslaco facility specializes in 
essential research on parasites and necessary inter-governmental 
cooperation exercises aimed at preventing the importation of foreign 
born diseases. Although we have been assured that the Weslaco funds 
would be re-distributed among the remaining three ARS laboratories, a 
disruption of this magnitude runs directly counter to the current 
critical needs of the beekeeper industry. In 2009, we need to 
accelerate existing research and substantially ramp up our research 
capacity to address current and emerging threats. Closing Weslaco would 
only reduce honeybee research capacity and distract current scientists 
from important ongoing work.

            THE IMPORTANCE OF HONEYBEES TO U.S. AGRICULTURE

    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. The role of pollination is also 
vital to the health of all Americans given the dietary importance of 
fruit, vegetables and nuts, most of which are dependent on pollination. 
Honeybees are necessary for the production of such diverse crops as 
almonds, apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    The importance of this pollination to contemporary agriculture 
cannot be understated. In fact, the value of such pollination is vastly 
greater than the total value of honey and wax produced by honeybees. 
More than 140 billion honeybees, representing 2 million colonies, are 
transported by U.S. beekeepers across the country every year to 
pollinate crops.
    The importance of honeybees--and the U.S. honey industry which 
supplies the honeybees for pollination--is illustrated by the 
pollination of California's almond crop. California grows 100 percent 
of the nation's almond crop and supplies 80 percent of the world's 
almonds. Honeybees are transported from all over the Nation to 
pollinate California almonds, which is the largest single crop 
requiring honeybees for pollination. More than 1 million honeybee hives 
are needed to pollinate the 600,000 acres of almond groves that line 
California's Central Valley. That means nearly half of the managed 
honey-producing colonies in the United States are involved in 
pollinating almonds in California during February and early March.
    Many other U.S. agriculture producers require extensive honeybee 
pollination for their crops, including blueberry, avocado, and cotton 
growers. Cattle and farm-raised catfish industries also benefit from 
honeybee pollination, as pollination is important for growing alfalfa, 
which is fodder for cattle and farm-raised fish. As OnEarth magazine 
noted recently, the fate of California's almond crop rests ``on the 
slender back of the embattled honeybee.''

                       THREATS TO U.S. HONEYBEES

    Since 1984, the survival of the honeybee has been threatened by 
continuing infestations of mites, pests and other conditions for which 
appropriate controls must continually be developed by scientists at the 
four ARS laboratories and other highly qualified research institutions. 
These longstanding and worsening infestations have caused great strain 
on the American honeybee to the point where some U.S. honey producers 
have felt the need--for the first time in over 80 years--to import bees 
from New Zealand and Australia for pollination. The strain exerted by 
infestations has only been exacerbated over the past 2 years by the 
emergence of CCD. Ironically, leading scientists and industry leaders 
have concluded that there is likely a correlation between the 
introduction of foreign bees and the emergence of CCD.
    CCD remains a mystery to both beekeepers and scientists, and ARS 
researchers and other researchers will need significant new resources 
to determine the causes of CCD and to develop effective treatment 
strategies. This research is complex, as there are a wide range of 
factors that--either alone or in combination--may be causes of this 
serious condition. Areas for research include the stress from the 
movement of bees to different parts of the country for extensive 
commercial pollination, the additional stress of pollinating crops, 
such as almonds, that provide little honey to the bees, and the impact 
of certain crop pesticides and genetic plants with altered pollination 
characteristics. Additionally, continuing infestations of the highly 
destructive Varroa mite, combined with other pests and mites, are also 
thought to compromise the immune systems of bees and may leave them 
more vulnerable to CCD. At the same time, researchers will need to 
focus on the many reported instances in which otherwise healthy, pest-
free, stationary bee colonies are also suffering collapse or problems 
with reproduction.

                   ONGOING AND NEW CRITICAL RESEARCH

    AHPA, others in the industry, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under funding of U.S. bee research. In recent 
years, the Federal Government has spent very modest amounts at each ARS 
Honeybee Research Laboratory--for a sector that directly contributes 
$15 billion per year to the U.S. farm economy.
    Worse still, funding amounts have not been increased to account for 
growing bee health concerns. USDA honeybee researchers remain under 
funded. As noted above, current funding shortages have caused important 
CCD-related bee samples to go untested. Additionally, despite their 
ability to provide significant and innovative new research on emerging 
bee threats, researchers in the academic and private sectors also lack 
the necessary financial resources for these vital tasks. With the 
emergence of CCD, there is a serious gap between the threats faced by 
U.S. honeybees and the capacity of our researchers to respond. Closing 
this gap will require significant new resources. It is estimated that 
each new scientist, technician and the support materials that they need 
will cost an additional $500,000 per year.
    To address these challenges, the AHPA respectfully requests an 
appropriation in fiscal year 2009 of at least $20 million to be 
dedicated to combat CCD and conduct other essential honeybee research. 
We recommend that such funding be allocated consistent with the 
authorizations provided in the 2008 House and Senate Farm Bills. It is 
particularly noteworthy that, of all the ``high priority'' items listed 
in the Senate Farm Bill, honeybee health research was the only item 
provided with a dedicated authorization amount. Accordingly, the AHPA 
strongly supports Senator Tim Johnson's request that the subcommittee 
make significant dedicated allocations for honeybee research, including 
$5.64 million to ARS facilities (no less than $3.08 million of which 
should be designated for research at the four ARS Honeybee Research 
Laboratories), $1.79 million to an ARS Area Wide CCD Research Program 
divided evenly between the Beltsville, MD and the Tucson, Arizona 
research laboratories, $10.26 million to the Cooperative State 
Research, Education, and Extension Service (``CSREES'') to support 
governmental, academic and private sector research, and $2.31 million 
to the Animal and Plant Health Inspection Service. Together, we believe 
that this funding would represent an appropriate commitment to existing 
research and provide the infusion of necessary new funds to combat CCD 
and assure the long-term health of U.S. honeybee colonies.
    Since the beekeeping industry is too small to support the cost of 
needed research, publicly-funded honeybee research by the four ARS bee 
laboratories is absolutely key to the survival of the U.S. honey and 
pollination industry. For example, the pinhead-sized Varroa mite is 
systematically destroying bee colonies and has been considered by many 
in recent years to be the most serious threat to honeybees. Tracheal 
mites are another contributing factor to the loss of honeybees. 
Tracheal mites infest the breathing tubes of adult honeybees and also 
feed on the bees' blood. The mites essentially clog the bees' breathing 
tubes, blocking the flow of oxygen and eventually killing the infested 
bees.
    The industry is also plagued by a honeybee bacterial disease that 
has become resistant to antibiotics designed to control it, and a 
honeybee fungal disease for which there is no known treatment.
    These pests and diseases, especially Varroa mites and the bacterium 
causing American foulbrood, are now resistant to chemical controls in 
many regions of the country. Further, we have seen that these pests are 
building resistance to newly-developed chemicals more quickly than in 
the past, thereby limiting the longevity of chemical controls.
    As previously mentioned, the cause or causes of CCD are unknown. 
Thus, pest, viral and bacterial disease research takes on added 
significance. First, pest, viral and bacterial disease research may 
itself provide insight into the discovery of CCD's root causes. Second, 
whether pests and bacterial diseases are directly a factor in CCD or 
not, they nonetheless continue to threaten bee population health and 
vitality. Given CCD's particularly devastating impact on bee 
populations, even greater emphasis must be placed on mitigating known 
threats in order to achieve the overall goal of ensuring adequate honey 
production and pollination capacity.
    In addition to pest and bacterial disease research, the sequencing 
of the honeybee genome in 2006 at Baylor University has opened the door 
to creating highly effective solutions to bee health and population 
problems via marker-assisted breeding. Marker-assisted breeding would 
permit the rapid screening of potential breeders for specific DNA 
sequences that underlie specific desirable honeybee traits. The 
sequenced honeybee genome is the necessary key that will allow 
scientists to discover the important DNA sequences.
    Because of the sequenced honeybee genome, it is now possible to 
apply molecular biological studies to the development of marker-
assisted breeding of honeybees. Marker-facilitated selection offers the 
first real opportunity to transform the beekeeping industry from one 
that has been dependent upon a growing number of expensive pesticides 
and antibiotics into an industry that is free of chemical inputs and 
that is economically viable in today's competitive global marketplace. 
Additionally, this new sequencing capacity may prove central to 
identifying both the cause of and solutions to CCD. New pathogens have 
recently been identified in the United States that are thought to be 
associated with CCD. Genetic research can be utilized to determine 
whether a comparative susceptibility to such pathogens exists among 
various bee populations, and if so, can serve to facilitate breeding 
with enhanced resistance.
    The ARS Honeybee Research Laboratories work together to provide 
research solutions to problems facing businesses dependent on the 
health and vitality of honeybees. The key findings of these 
laboratories are used by honey producers to protect their producing 
colonies and by farmers and agribusinesses to ensure the efficient 
pollination of crops. Each of the four ARS Honeybee Research 
Laboratories (which are different in function from the ARS Wild Bee 
Research Laboratory at Logan, Utah) focuses on different problems 
facing the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. Furthermore, each of the four ARS Honeybee Research 
Laboratories has unique strengths and each is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. Given the multi-factor 
research capacity needed to address the scourge of CCD, it is important 
that each research laboratory is permitted to continue and expand upon 
their unique strengths.
    And while to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone-even when fully funded-will have the capacity to 
meet today's research needs. This is why last year, after analyzing the 
new and serious threats to U.S. honeybees, Congress, representatives of 
the farm sector and leading researchers developed the research 
priorities that were incorporated into both the House and Senate 
versions of the Farm Bill and in separate House and Senate pollination 
legislation. In addition to increased resources for ARS research, these 
experts pressed for new funding, through CSREES, for government, 
academic and private sector research. They also urged new bee 
surveillance programs through the Animal and Plant Health Inspection 
Service to address the current alarming lack of accurate information 
about the condition of U.S. bee colonies.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading Universities have significant bee research 
capabilities. In recent years, non-Federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Funding the 2008 Farm Bill authorization of $10.26 million for the 
Department of Agriculture's Cooperative State Research, Education, and 
Extension Services (CSREES) would go a long way toward achieving this 
goal.
    CSREES is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for CSREES would provide 
important flexibility in allocating badly needed Federal dollars among 
government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing $2.31 million 
under the 2008 Farm Bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.

                               CONCLUSION

    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your subcommittee's understanding of the 
critical importance of these ARS laboratories.
    By way of summary, the American Honey Producers Association 
strongly encourages at least $20 million in new funding for CCD and 
other honeybee research spread among the four ARS Honeybee Research 
Laboratories, other ARS research facilities across the country, the 
Cooperative State Research, Education, and Extension Service at the 
Department of Agriculture, and the Animal and Plant Health Inspection 
Service. In addition, AHPA opposes the proposed closure of the Weslaco 
ARS research laboratory, and supports the administration's proposal to 
make permanent baseline funding levels at each of the ARS Honeybee 
Research Laboratories. Finally, AHPA specifically requests an increase 
of $250,000 for the genome research project at the ARS Baton Rouge 
Honeybee Research Laboratory.
    Only through critical research can we have a viable U.S. beekeeping 
industry and continue to provide stable and affordable supplies of bee-
pollinated crops, which make up fully one-third of the U.S. diet. I 
would be pleased to provide answers to any questions that you or your 
colleagues may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 31 Tribal 
Colleges and Universities (TCUs) that comprise the list of 1994 Land 
Grant Institutions, thank you for this opportunity to share our funding 
requests for fiscal year 2009.
    This statement is presented in three parts: (a) a summary of our 
fiscal year 2009 funding recommendation, (b) a brief background on 
Tribal Colleges and Universities, and (c) an outline of the 1994 Tribal 
College Land Grant Institutions' plan for using our land grant programs 
to fulfill the agricultural potential of American Indian communities, 
and to ensure that American Indians have the skills and support needed 
to maximize the economic development potential of their resources.

                          SUMMARY OF REQUESTS

    We respectfully request the following funding levels for fiscal 
year 2009 for our land grant programs established within the USDA 
Cooperative State Research, Education, and Extension Service (CSREES) 
and the Rural Development mission area. In CSREES, we specifically 
request: $5.0 million for the 1994 Institutions' competitive extension 
grants program; $3.0 million for the 1994 Institutions' competitive 
research grants program; $3.342 million for the higher education equity 
grants; $12 million payment into the Native American endowment fund; 
and in the Rural Development--Rural Community Advancement Program 
(RCAP), that $5.0 million be provided for each of the next 5 fiscal 
years for the TCU Essential Community Facilities Grants Program. RCAP 
grants help to address the critical facilities and infrastructure needs 
at the colleges to increase our capacity to participate fully as land 
grant partners.

             BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES

    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
over 140 years after enactment of the first land grant legislation, the 
1994 Land Grant Institutions, as much as any other higher education 
institutions, exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched 40 years ago with the 
establishment of Navajo Community College, now Dine College, serving 
the Navajo Nation. Rapid growth of TCUs soon followed, primarily in the 
Northern Plains region. In 1972, six tribally controlled colleges 
established the American Indian Higher Education Consortium to provide 
a support network for member institutions. Today, AIHEC represents 36 
Tribal Colleges and Universities--31 of which comprise the current list 
of 1994 Land Grant Institutions located in 11 States. However, with the 
passage of the Farm Bill reauthorization, the 1994 Institutions expect 
to welcome another AIHEC member institution, Ilisagvik College in 
Barrow, AK, as the 32nd tribal college (1994) land grant institution. 
Our institutions were created specifically to serve the higher 
education needs of American Indian students. They serve many thousands 
of Indian full- and part-time students and community members from over 
250 federally recognized tribes.
    The 1994 Land Grant Institutions are accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. Most of the 1994 Land Grant Institutions are 
located on Federal trust territory. Therefore, states have no 
obligation, and in most cases, provide no funding to TCUs. In fact, 
most States do not even provide funds to our institutions for the non-
Indian State residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 20 percent 
of our student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their State land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of Tribal Colleges and 
Universities, American Indian communities are availing themselves of 
resources needed to foster responsible, productive, and self-reliant 
citizens. It is essential that we continue to invest in the human 
resources that will help open new avenues to economic development, 
specifically through enhancing the 1994 Institutions' land grant 
programs, and securing adequate access to information technology.

     1994 LAND GRANT PROGRAMS--AMBITIOUS EFFORTS TO REACH ECONOMIC 
                         DEVELOPMENT POTENTIAL

    In the past, due to lack of expertise and training, millions of 
acres on our reservations lie fallow, under-used, or have been 
developed through methods that have caused irreparable damage. The 
Equity in Educational Land Grant Status Act of 1994 is addressing this 
situation and is our hope for future advancement.
    Our current land grant programs remain small, yet very important to 
us. It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. With increased capacity 
and program funding, we will become even more significant contributors 
to the agricultural base of the Nation and the world.
    Competitive Extension Grants Programs.--The 1994 Institutions' 
extension programs strengthen communities through outreach programs 
designed to bolster economic development; community resources; family 
and youth development; natural resources development; agriculture; as 
well as health and nutrition education and awareness.
    In the fiscal year 2008, $3,298,000 was appropriated for the 1994 
Institutions' competitive extension grants. Although initially 
appropriated at the same level as fiscal year 2007, due to the 
perennial across-the-board rescission now routinely imposed, our 
programs have a decreased baseline each year. Without adequate funding, 
1994 Institutions' ability to maintain existing programs and to respond 
to emerging issues such as food safety and homeland security, 
especially on border reservations, is severely limited. Increased 
funding is needed to support these vital programs designed to address 
the inadequate extension services that have been provided to Indian 
reservations by their respective state programs. It is important to 
note that the 1994 extension program does not duplicate the Federally 
Recognized Tribes Extension Program, formerly the Indian Reservation 
Extension Agent program. 1994 Tribal College Land Grant programs are 
very modestly funded. The 1994 Tribal College Land Grant Institutions 
have applied their ingenuity for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Some examples of 1994 extension programs include: 
United Tribes Technical College in North Dakota is providing health and 
wellness education and outreach to students and their families, with a 
focus on ensuring that young mothers understand the importance of good 
early childhood nutrition. Lac Courte Oreilles Ojibwa Community College 
in Wisconsin is strengthening the household economies of local 
reservation communities by offering financial education curriculum in 
managing budgets, saving for the future, and understanding the credit 
basics. These are just two examples of the innovative programs being 
conducted at 1994 Institutions. To continue and expand these successful 
programs, we request that the subcommittee support this competitive 
program by appropriating $5.0 million to sustain the growth and further 
success of these essential community-based extension programs.
    1994 Competitive Research Program.--As the 1994 Tribal College Land 
Grant Institutions enter into partnerships with 1862/1890 land grant 
institutions through collaborative research projects, impressive 
efforts to address economic development through land use have emerged. 
The 1994 Research program illustrates an ideal combination of Federal 
resources and tribal college-state institutional expertise, with the 
overall impact being far greater than the sum of its parts. We 
recognize the severe budget constraints under which Congress is 
currently functioning. However, $1,533,000 appropriated in fiscal year 
2008 is grossly inadequate to develop capacity and conduct necessary 
research at our institutions. The 1994 Research program is vital to 
ensuring that TCUs may finally be recognized as full partners in the 
nation's land grant system. Many of our institutions are currently 
conducting applied research, yet finding the resources to conduct this 
research to meet their communities' needs is a continual challenge. 
This research authority opens the door to new funding opportunities to 
maintain and expand the research projects begun at the 1994 
Institutions, but only if adequate funds are secured and sustained. A 
total research budget of $1,533,000, for which 31 institutions compete 
for funding, is clearly inadequate. Priority issue areas currently 
being studied at 1994 Institutions include: sustainable agriculture 
and/or forestry; biotechnology and bioprocessing; agribusiness 
management and marketing; plant and animal breeding and aquaculture 
(including native plant preservation for medicinal and economic 
purposes); human nutrition (including health, obesity, and diabetes); 
and family, community, and rural development. Two examples include: The 
College of Menominee Nation in Wisconsin is collecting and analyzing 
data concerning forest health and sustainability that will help its 
tribal forest managers meet the growing demand for forest products 
while protecting the woodlands environment for future generations. Fort 
Berthold Community College in North Dakota is conducting agricultural 
trials to determine the economic feasibility of local Juneberry 
production. Juneberries are an important source of nutrition in many 
tribal communities. These are two examples of 1994 Research projects. 
We strongly urge the subcommittee to fund this program at a minimum of 
$3.0 million to enable our institutions to develop and strengthen their 
research capacity.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Tribal College Land Grant Institutions with 
academic programs. Through the modest appropriations first made 
available in fiscal year 2001, the TCU Land Grant Institutions have 
begun to support courses and to conduct planning activities 
specifically targeting the unique needs of their respective 
communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. If 
more funds were available through the Educational Equity Grant Program, 
Tribal College Land Grant Institutions could devote more of their 
endowment yield dollars to supplement other facilities projects needed 
to address their continuing and often critical infrastructure needs. We 
request that the subcommittee appropriate $3,342,000--returning the 
program funding level to the pre-across-the-board rescission level that 
was once again imposed on non-defense appropriated funding--to allow 
the 1994 Tribal College Land Grant Institutions to build upon their 
courses and successful activities that have been launched.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Tribal College Land Grant Institutions' account 
remain with the U.S. Treasury. Only the annual interest yield, less the 
USDA's administrative fee, is distributed to the 1994 Institutions. The 
USDA has reported the latest gross annual interest yield to be 
$3,209,000. After the USDA's administrative fee of $128,360 is 
deducted, the net interest yield is $3,080,640, which is the amount 
available to be distributed among the eligible 1994 Tribal College Land 
Grant Institutions, by statutory formula. Despite an appropriated 
payment of $11,880,000 into the corpus, the amount available to be 
distributed to the 1994 Institutions in 2008 is $38,988 less than the 
net yield distributed in spring of 2007. In addition to the reduced 
interest yield available, historically USDA's administrative fee 
amounts to a payment that is larger than the amount paid to 75 percent 
of the 1994 Tribal College Land Grant Institutions. While we have not 
yet been provided with this year's distribution breakdown of amounts to 
each of the 1994 Institutions we fully expect similar results. We 
respectfully ask that the subcommittee review the Department's 
administrative fee and consider reducing it for the 1994 Endowment 
Program, so that more of these already limited funds can be utilized by 
the 1994 Tribal College Land Grant Institutions to continue to conduct 
vital community-based programs.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this endowment assists 
1994 Tribal College Land Grant Institutions in establishing and 
strengthening their academic programs in such areas as curriculum 
development, faculty preparation, instruction delivery, and to help 
address critical facilities and infrastructure issues. Many of the 
colleges have used the endowment in conjunction with the Education 
Equity Grant funds to develop and implement their academic programs. As 
earlier stated, TCUs often serve as primary community centers and 
although conditions at some have improved substantially, many of the 
colleges still operate under less than satisfactory conditions. In 
fact, most of the TCUs continue to cite improved facilities as one of 
their highest priorities. Several of the colleges have indicated the 
need for immediate new construction and substantial renovations to 
replace buildings that have long exceeded their effective life spans 
and to upgrade existing facilities to address accessibility and safety 
concerns.
    Endowment payments increase the size of the corpus held by the U.S. 
Treasury and thereby increase the annual interest yield disbursed to 
the 1994 Tribal College Land Grant Institutions. These additional funds 
would continue to support faculty and staff positions and program needs 
within 1994 agriculture and natural resources departments, as well as 
to help address the critical and very expensive facilities needs at 
these institutions. Currently, the amount that each college receives 
from this endowment is not adequate to address both curriculum 
development and instruction delivery, and completely insufficient to 
address the necessary facilities and infrastructure projects at these 
institutions. In order for the 1994 Tribal College Land Grant 
Institutions to become full partners in this nation's great land grant 
system, we need and, through numerous treaty obligations, are due the 
facilities and infrastructure necessary to fully engage in education 
and research programs vital to the future health and well being of our 
reservation communities. We respectfully request the subcommittee fund 
the fiscal year 2009 endowment payment at $12.0 million--returning the 
payment amount to the pre across-the-board rescission level imposed 
each year on non-defense appropriated funding.
    Rural Community Advancement Program (RCAP).--In fiscal year 2008, 
$4.0 million of the RCAP funds appropriated for loans and grants to 
benefit federally recognized American Indian tribes were targeted for 
essential community facility grants for TCUs. This is a decrease of 
$414,000 from the fiscal year 2007 funding level. Currently, this 
program requires that the TCU Essential Community Facilities Grants be 
subject to the Rural Development graduated scale for determining each 
institution's share of non-Federal matching funds. The scale dictates 
the TCU share to be 25, 45, 65, or 85 percent of the grant award. At a 
minimum, a TCU has to pay a non-Federal match of 25 percent of the 
grant. Tribal colleges are chartered by their respective tribes, which 
are in a government-to-government relationship with the Federal 
Government. Due to this relationship, tribal colleges have very limited 
access to non-Federal dollars making non-Federal matching requirements 
a significant barrier to our colleges' ability to compete for these 
much needed funds. The 2002 Farm Security and Rural Investment Act 
(Public Law 107-171) included language limiting the non-Federal match 
requirement for the Rural Cooperative Development Grants to no more 
than 5 percent in the case of a 1994 institution. We seek to have this 
same language applied to the TCU Essential Community Facilities grants 
so that more 1994 Institutions are able to participate in this much 
needed program. We urge the subcommittee to designate $5.0 million each 
year of the next 5 fiscal years to afford the 1994 Institutions the 
means to aggressively address critical facilities needs, thereby 
allowing them to better serve their students and respective 
communities. Additionally, we request that Congress include language 
directing the agency to limit the non-Federal matching requirement for 
this program to not more than 5 percent, to help all of the1994 land 
grant institutions to effectively address critical facilities and 
construction issues in their communities.

                               CONCLUSION

    The 1994 Land Grant Institutions have proven to be efficient and 
effective vehicles for bringing educational opportunities to American 
Indians and the promise of self-sufficiency to some of this Nation's 
poorest and most undeveloped regions. The modest Federal investment in 
the 1994 Tribal College Land Grant Institutions has already paid great 
dividends in terms of increased employment, education, and economic 
development. Continuation of this investment makes sound moral and 
fiscal sense. American Indian reservation communities are second to 
none in their potential for benefiting from effective land grant 
programs and, as earlier stated, no institutions better exemplify the 
original intent of the land grant concept than the 1994 Land Grant 
Institutions.
    We appreciate your support of the 1994 Tribal College Land Grant 
Institutions and their role in the Nation's land grant system and we 
ask you to renew your commitment to help move our students and 
communities toward self-sufficiency. We look forward to continuing our 
partnership with you, the U.S. Department of Agriculture, and the other 
members of the Nation's land grant system--a partnership with the 
potential to bring equitable educational, agricultural, and economic 
opportunities to Indian Country.
    Thank you for this opportunity to present our funding proposals to 
the subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2009 appropriations 
recommendations.
                                 ______
                                 

     Prepared Statement of the American Sheep Industry Association

    The American Sheep Industry Association (ASI) is a federation of 
state member associations representing 70,000 sheep producers in the 
United States. The sheep industry views numerous agencies and programs 
of the U.S. Department of Agriculture as important to lamb and wool 
production. Sheep industry priorities include expanding sheep 
operations and inventory by strengthening the infrastructure of the 
industry primarily through the programs of USDA, APHIS, Veterinary 
Services and Wildlife Services, as well as targeted research and 
education being critical. The industry and the benefits to rural 
communities will be strengthened by fully funding critical predator 
control activities, national animal health efforts, and expanding 
research opportunities.
    We appreciate this opportunity to comment on the USDA fiscal year 
2009 budget.

           ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)

Scrapie
    The American Sheep Industry Association believes that the 
administration's request of $17.487 million is an inadequate level of 
funding if scrapie eradication is to be achieved in the reasonably near 
future. ASI urges the subcommittee to increase the funding for scrapie 
eradication by at least $11.2 million beyond the administration's 
request for a total of $28.687 million in fiscal year 2009.
    Scrapie is one of the families of transmissible spongiform 
encephalopathies (TSEs), all of which are the subject of great 
importance and interest around the globe. USDA/APHIS, along with the 
support and assistance of the livestock and allied industries, began an 
aggressive program to eradicate scrapie in sheep and goats 4 years ago. 
The plan USDA/APHIS is implementing is designed to eradicate scrapie by 
2010. Through a subsequent monitoring and surveillance program, the 
United States could be declared scrapie-free by 2017. Becoming scrapie-
free will have significant positive economic impact to the livestock, 
meat and feed industries and, of course, rid our flocks and herds of 
this fatal animal disease. Through a concerted effort, USDA/APHIS, 
along with industry and State regulatory efforts, is in the position to 
eradicate scrapie from the United States with a multi-year attack on 
this animal health issue. As the collective and aggressive efforts of 
Federal and State eradication efforts have included expanded slaughter-
surveillance and diagnostics, the costs are, as expected, escalating.
    ASI has made it clear to USDA that the appropriations requests of 
recent years have been inadequate for successful eradication of 
scrapie. When the scrapie eradication program was first being 
implemented in 2000, USDA/APHIS projected the cost to be $170,259,083 
over the first 7 years of the 10-year eradication program with a peak 
in cost at $31,974,354 in the 5 year and projected funding decreasing 
afterwards. At the end of 2007, $110,283,000 (not counting rescissions) 
has been spent and peak-year funding was only $18.6 million in 2006 
(see exhibit A ``Scrapie Funding Comparisons'').
    The program cannot function properly without sufficient funding for 
diagnostic support, surveillance, and enforcement of compliance 
activities that are dedicated to scrapie eradication as an animal 
health priority. We believe that funding the scrapie eradication 
program at an appropriate level will help provide for an achievable 
eradication program and eventually scrapie-free status for the United 
States. As with the other successful animal disease eradication 
programs conducted by USDA/APHIS in the past, strong programs at the 
State level are key. Without strong, appropriately-funded scrapie 
programs at the State level, eradication will not become a reality. 
Only a fraction of what USDA/APHIS projected for State scrapie 
cooperative agreements has been spent. In addition to recommending 
funding of $28.687 million for fiscal year 2009, we urge the 
subcommittee to send a clear message to USDA to (A) make scrapie 
eradication a top disease eradication priority within USDA and the 
APHIS field staff with a focus on animal identification compliance and 
enforcement; and (B) increase the slaughter-surveillance numbers so 
that the disease can be found and dealt with wherever it resides.
Wildlife Services
    With well over one-quarter million sheep and lambs lost to 
predators each year, the Wildlife Services (WS) program of USDA/APHIS 
is vital to the economic survival of the sheep industry. The value of 
sheep and lambs lost to predators and predator control expenses are 
second only to feed costs for sheep production. Costs associated with 
depredation currently exceed our industry's veterinary, labor and 
transportation costs.
    Wildlife Services' cooperative nature has made it the most cost 
effective and efficient program within the Federal Government in the 
areas of wildlife management and public health and safety. Wildlife 
Services has more than 2,000 cooperative agreements with agriculture, 
forestry groups, private industry, State game and fish departments, 
departments of health, schools, county and local governments to 
mitigate the damage and danger that the public's wildlife can inflict 
on private property and public health and safety.
    ASI requests the subcommittee to eliminate the administration's 
proposed $2.78 million decrease to Wildlife Services operations for 
``cost share reduction.'' Such a reduction would place a larger burden 
on the livestock industry, as well as county and State government 
cooperators which already fund far more of the livestock protection 
programs than does Federal sources. ASI also requests the subcommittee 
to either eliminate the proposed $5.34 million increase for Wildlife 
Monitoring and Surveillance and the Oral Rabies Vaccination Program, or 
increase the budget by that amount. As it stands in the administration 
budget, the $5.34 million is an unfunded mandate and will require 
Wildlife Services to redirect the funds from the other operational 
programs such as livestock protection.
    We urge the subcommittee to fund the livestock industry's request 
for the western region of Wildlife Services operations of livestock 
protection at $19 million and the eastern region at $3.6 million.
    The western region requires an additional $8.3 million to meet the 
$19 million Federal sourced level of the livestock protection program. 
Federal funding available for livestock predation management by the 
Western Region program has remained relatively constant for 
approximately 16 years. WS program cooperators have been forced to fund 
more and more of the costs of the program. WS Western Region base 
funding has increased only 5.6 percent in the past 10 years while 
cooperative funding has increased 110 percent. This increase has 
primarily come from individual livestock producers, associations, 
counties, and States.
    The eastern region requires $3.6 million of increased 
appropriations to meet the need of the eleven states that participate 
in livestock protection programs with only $878,000 in current funding 
($650,000 of which is non-Federal). The $3.6 million needed for the 
Wildlife Services Eastern Region would help fund livestock predation 
protection programs in Pennsylvania, Virginia, West Virginia, 
Mississippi, Minnesota, Michigan, Florida, Ohio, Tennessee, Kentucky, 
and Wisconsin.
    Additionally, new Federal mandates and program investments such as 
narrow-banding of radios, computer record keeping and compliance with 
the Endangered Species Act are requiring a larger portion of the 
already stretched budget and negatively impacting the amount of 
livestock predation management work that WS can conduct.
    We encourage and support continued recognition in the 
appropriations process for fiscal year 2009 of the importance of aerial 
hunting as one of Wildlife Services' most efficient and cost-effective 
core programs. It is used not only to protect livestock, wildlife and 
endangered species, but is a crucial component of the Wildlife Services 
rabies control program. ASI is concerned about the recent crash that 
resulted in two fatalities and requests the subcommittee to consider 
including $1 million to replace seven aircraft in the Wildlife 
Services' fleet that are over 35 years of age.
    Similar to the increasing needs in the aerial hunting program, we 
encourage continued emphasis in the programs to assist with management 
of wolf depredation in the States of Montana, Idaho, Wyoming, 
Minnesota, Wisconsin, Michigan, New Mexico and Arizona. Additionally, 
program expenses are expected in the States surrounding the Montana, 
Idaho and Wyoming wolf populations. Last year funds were reduced in 
Montana, Idaho, and Wyoming by 25 percent, and the fiscal year 2009 
budget recommends an additional 50 percent reduction. ASI urges the 
subcommittee to restore the wolf control funds in these three States to 
the fiscal year 2007 level of $1.5 million. Mexican wolves in Arizona 
and New Mexico are expanding their ranges and Wildlife Services cannot 
keep pace with the control requirements. We encourage the subcommittee 
to provide an additional $500,000 to these two States for control 
activities. The wolf program of Minnesota, Wisconsin and Michigan was 
also reduced by 25 percent and needs to be restored to the $1 million 
annual appropriation.
    It is strongly supported that appropriations be provided for 
$586,000 for additional wolf costs anticipated in Washington, Oregon, 
Nevada, Utah, Colorado and North Dakota.

                 WILDLIFE SERVICES METHODS DEVELOPMENT

    The sheep industry considers control of canid predation on sheep as 
a major concern and believes an array of control tools and 
methodologies, which includes predacides, is critical. Weather 
conditions, topography, different species of predators, vegetation 
cover, and government regulations all pose situations in which one tool 
may not work for a period and another tool must be employed. ASI 
supports the development of additional tools that are effective in 
controlling predation. The USDA, APHIS, Wildlife Services, Methods 
Development Center is currently evaluating a theobromine and caffeine 
mixture as a possible tool for predation management. The mixture 
induces mortality in coyotes with minimal pre-mortality symptoms. The 
mixture is selectively toxic to canids and is present in high 
concentrations in the extract of tea, coffee, and cocoa plants. Because 
theobromine and caffeine are readily available to persons and pets, the 
medical community has developed antidotes. The agency estimates that it 
will cost $1.5 million to complete field studies and other EPA 
registration requirements. ASI urges the subcommittee to recommend 
funding for this research and registration effort in the fiscal year 
2009 budget.

                 FARM AND FOREIGN AGRICULTURAL SERVICES

Foreign Agricultural Service (FAS)
    The sheep industry participates in FAS programs such as the Market 
Access Program (MAP), Quality Samples Program (QSP) and the Foreign 
Market Development Program (FMD). ASI strongly supports appropriations 
at the full authorized level for these critical Foreign Agricultural 
Service programs. ASI is the cooperator for American wool and sheep 
pelts and has achieved solid success in increasing exports of domestic 
product. Exports of American wool have increased dramatically with 
approximately 60 percent of U.S. production now competing overseas.

             NATURAL RESOURCES CONSERVATION SERVICE (NRCS)

    ASI urges increased appropriations for the range programs of the 
Soil Conservation Service to benefit the private range and pasture 
lands of the United States with conservation assistance. We support the 
budget item and recommend an increased level for the Grazing Lands 
Conservation Initiative, which ASI has worked jointly with other 
livestock and range management organizations, to address this important 
effort for rangelands in the United States.

                   RESEARCH, EDUCATION AND ECONOMICS

    Our industry is striving to be profitable and sustainable as a user 
of and contributor to our natural resource base. Research, both basic 
and applied, and modern educational programming is essential if we are 
to succeed. We have been disappointed in the decline in resources USDA 
has been targeting toward sheep research and outreach programs. In 
order for the sheep industry to continue to be more globally 
competitive, we must invest in the discovery and adoption of new 
technologies for producing, processing and marketing lamb and wool. We 
urge the subcommittee to recommend a bold investment in sheep and wool 
research.

Agricultural Research Service
    We continue to vigorously support the administration's funding of 
research concerning emerging and exotic diseases. Emerging and exotic 
diseases continue to have significant impact on industry global 
competitiveness due to animal health and trade issues related to 
endemic, exotic and wildlife interface disease issues. The continued 
and expanded support of animal disease research is urgently needed to 
protect the U.S. livestock industry. Scrapie, the Transmissible 
Spongiform encephalopathy of sheep, remains an industry priority and we 
respectively request that the subcommittee urge ARS to continue 
important research aimed at rapid diagnostic methods and the role of 
other small ruminants as environmental sources of the TSE agent in 
transmission of TSEs within the United States and the world to further 
understand the basis of genetic resistance and susceptibility to this 
devastating disease.
    Due to the extreme importance of Agricultural genomics in enhancing 
the global competitiveness of sheep production and the recent progress 
toward acquiring the sheep genome, we respectively request that this 
initiative be expanded to include sheep genomics. Endemic, exotic and 
domestic agricultural animal--wildlife interface infectious diseases 
continue to impose significant impact on the economy of animal 
agriculture and related food supply. Most recently the presumed 
infectious disease risk associated with contact between domestic and 
bighorn sheep has led to significant economic hardship. Genomics 
represents a unifying tool for many scientific disciplines and is 
capable of providing research resolutions to the most difficult disease 
and resulting economic losses. Genomic research efforts should be 
directed at early determination of which sheep are susceptible to 
disease and responsible for economic losses. High throughput genomics 
has ushered in a new era of unifying research regarding the ability to 
link control of chronic, economically important diseases such as OPPV 
and important production traits. There are a number of infectious 
diseases across domestic and wild animals that will benefit from this 
research focus. It is becoming clear that not all infected animals 
transmit diseases with equal efficiency; in fact it appears that the 
``super shedders'' are a small portion of an infected population. In 
addition to aiding in the control of chronic infectious diseases such 
as OPPV, caseous lymphadenitis and foot rot, control of Big Horn Sheep 
pneumonia and internal parasitism should be aided by this genomics 
approach. Early detection of susceptibility and resistance will lead to 
practical intervention strategies. With this in mind, we respectively 
request that the subcommittee support a ``Genomics Competitive Global 
Health'' initiative by enhancing the ARS, Animal Disease Research 
Unit's budget by $1 million to use in collaboration with Utah State 
University, the University of Idaho, the United States Sheep Experiment 
Station, Dubois and Washington State University. This initiative is to 
apply the emerging sheep genomic tools to research directed at 
resolving important disease problems and their resulting economic 
losses.
    Research into Johne's disease has received additional funding 
through ARS over the past several years with a focus on cattle. Johne's 
disease is also endemic in the U.S. sheep population and is not well 
understood as a sheep disease. The same food safety concerns exist in 
both sheep and cattle; other countries are also very concerned about 
Johne's in sheep. We urge the subcommittee to send a strong message to 
ARS that Johne's disease in sheep should receive more attention with an 
emphasis on diagnostics.
    We appreciate and support USDA's strategic goals and note that 
strategic goal (3) ``Enhance Domestic Rural and Farm Economies States 
in part as follows: Work to expand production and market opportunities 
for bioenergy and biobased products''. In response to this strategic 
goal of the USDA, we request that the subcommittee recommend $400,000 
as a targeted increase for the ARS USDA-Eastern Regional Research 
Center (ERRC) at Wyndmoor, Pennsylvania to be directed toward research 
on wool at the molecular level focusing on anti-microbial properties, 
flame retardation and enhancement of fiber properties through enzyme 
treatments targeting high priority military needs and other niche 
market applications for consumers.

 COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE (CSREES)

    A virtual map of the sheep genome has recently been completed. The 
virtual map provides a good low-resolution picture of the sheep genome. 
It is largely a result of genome mapping efforts (human, bovine, and 
mouse) and provides a solid starting place for a higher resolution 
sequence of the sheep genome. A more complete sheep genome sequence is 
now essential because, as expected, there are significant 
inconsistencies in the virtual map that will hinder the use of SNPs in 
animal or population evaluations. The USDA Animal Genomics Strategic 
Planning Task Force recently released a ``Blueprint for USDA Efforts in 
Agricultural Animal Genomics''. In this document, it is stated: . . . 
sheep . . . should have a high quality draft genome sequence 
(approximately 6X). This level of genome sequence quality is necessary 
for accurate functional genomics studies as well as comparative 
analyses''. By investing in sequencing the sheep genome now, the United 
States helps insure our competitive position in the global marketplace 
for sheep, wool and their products. We urge the subcommittee to remind 
USDA/CSREES that sheep genome sequencing should be a high priority for 
the National Research Initiative (NRI) competitive grants program.
    The Minor Use Animal Drug Program has had great benefit to the U.S. 
sheep industry. The research under this category is administered as a 
national program ``NRSP-7'' cooperatively with FDA/CVM to provide 
research information for the approval process on therapeutic drugs that 
are needed. Without this program, American sheep producers would not 
have effective products to keep their sheep healthy. We appreciate the 
administration's request for fiscal year 2009 of $582,000 for this 
program, and we urge the subcommittee to recommend that it be funded at 
least at this level to help meet the needs of our rapidly changing 
industry and increasing costs for research necessary to meet the 
requirements for approving additional therapeutics for sheep.
    On-going funding for the Food Animal Residue Avoidance Databank 
(FARAD) program is critically important for the livestock industry in 
general and especially for ``minor species'' industries, such as sheep, 
where extra-label use of therapeutic products is more the norm rather 
than the exception. We urge the subcommittee to recommend that funding 
be restored for this program at the level of $1.5 million in 2009 to 
help meet the needs of the animal industries. FARAD provides 
veterinarians the ability to accurately prescribe products with 
appropriate withdrawal times protecting both animal and human health as 
well as the environment.
    On-going research to improve value quantification and marketing of 
wool is critically important to the sheep and wool industry. ASI urges 
the Subcommittee's support to restore and continue the CSREES special 
grants program for wool research at least to the level of $298,000 for 
fiscal year 2009.
    The Livestock Marketing Information Center (LMIC) is a unique and 
very effective cooperative effort. This is not a state specific effort; 
it operates as a national virtual ``Center of Excellence'' for 
Extension education, research, and public policy. Members of the LMIC 
represent 26 Land Grant Universities, 6 USDA agencies, and a variety of 
associate institutions. In conjunction with the USDA's Economic 
Research Service (ERS), this cooperative effort started in the mid-
1950's. This effort is an integral part of U.S. livestock marketing and 
outlook programs for cattle, hogs, sheep, dairy and poultry. Demands on 
the LMIC staff continue to increase from other USDA agencies, Land 
Grant Universities, State governments, commodity associations and 
directly from producers. We strongly support funding be continued at 
least at the previously funded level (2006) of $194,000 for the 
Livestock Marketing Information Center (LMIC) in fiscal year 2009. The 
coordinating office for this national Land Grant University directed 
effort is located in Lakewood, Colorado. As in the past, line-item 
funding should be directed through the USDA CSREES.

      FOOD AND DRUG ADMINISTRATION, CENTER FOR VETERINARY MEDICINE

    The Minor Use & Minor Species Animal Health Act of 2004 included a 
provision to make competitive grants available to fund studies to 
support new animal drug approval for new animal drug products for minor 
use and minor species indications that have already obtained 
``designated'' status. This grants program parallels the human orphan 
drug grants program. The final rule became effective October, 2007 for 
the administration of this program. All drugs labeled for sheep fall 
under the minor-use category, therefore this program should be very 
helpful to our industry. ASI appreciates the administration's request 
of $1 million for this program and we urge Congress' support.

                 EXHIBIT A--SCRAPIE FUNDING COMPARISONS
------------------------------------------------------------------------
                                               APHIS
                  Year                    projections in  Funds received
                                               2000        by APHIS \1\
------------------------------------------------------------------------
2000....................................  ..............     $12,991,000
2001....................................      $6,310,778       3,024,000
2002....................................      20,000,000       9,122,000
2003....................................      20,438,943      15,373,000
2004....................................      30,056,592      15,607,000
2005....................................      31,974,354      17,768,000
2006....................................      30,794,507      17,911,000
2007....................................      26,994,991      18,487,000
2008....................................      26,994,991      17,980,000
2009....................................      26,994,991  ..............
------------------------------------------------------------------------
\1\ Does not count rescissions.

                                 ______
                                 

    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    The Federation of American Societies for Experimental Biology 
(FASEB) is grateful for the opportunity to submit testimony for the 
record in support of the vital research programs of the United States 
Department of Agriculture (USDA). FASEB comprises 21 scientific 
societies representing more than 80,000 life science researchers, and 
our mission is to advance biological science through collaborative 
advocacy for research policies that promote scientific progress and 
education and lead to improvements in human health. FASEB enhances the 
ability of biomedical and life scientists to improve--through their 
research--the health, well-being and productivity of all people.
    Greater investment in basic and applied agricultural research is 
essential, as threats proliferate and demands for a more nutritious 
food supply continues to increase. The USDA funds research through its 
intramural arm, the Agriculture Research Service (ARS), and competitive 
grants program, the National Research Initiative (NRI). The ARS support 
allows optimization of the competitive funds offered through the NRI by 
providing essential research facilities via its research centers across 
the country. These symbiotic programs provide the infrastructure and 
continuous generation of new knowledge that allow for rapid progress 
towards meeting national needs.
    A recent report by the Economic Research Service (ERS) found 
``strong and consistent evidence that investment in agricultural 
research has yielded high returns per dollar spent'' citing mean rates 
of returns of 53 percent.\1\ However, our Nation's investment in 
agricultural research has been declining (Figure 1), threatening our 
ability to sustain the vitality of our research portfolio. The NRI has 
not yet reached even half of its initial authorization of $500 million, 
and ARS funding has been waning. Continuation of this neglect will 
inevitably undermine the success of the USDA's research programs. Thus 
it is imperative that the breadth and competitive nature of the NRI 
portfolio be maintained and expanded to ensure our Nation's excellence 
in agricultural research and the well-being of all Americans.
---------------------------------------------------------------------------
    \1\ Fuglie, KO and Heisey PW. (2007) Economic returns to public 
agricultural research. USDA Economic Research Service, Economic Brief 
#10. http://www.ers.usda.gov/Publications/EB10/

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 1.--Research at the USDA has been declining in relation to total 
 Federal spending on non-defense research & development (R&D), putting 
  our competitive portfolio of agricultural research at serious risk.

    Agriculture and the research which advances it remain of crucial 
importance to our economy and quality of life. Research supported by 
USDA contributes to our understanding of the nutrition that underlies 
our health; it protects human life and our food supply from pandemic 
disease and introduced pathogens; it allows us to respond quickly to 
emerging issues like Colony Collapse Disorder or foot-and-mouth 
disease; and has led the way in development of bioenergy resources. 
Below are a few examples of the important contributions resulting from 
USDA-funded research.

Human Nutrition, Health, and Policy
    Nutrition is the foundation upon which human and animal health is 
built, and whose mysteries fascinate the American people like no other 
aspect of science. This is perhaps most evident in the daily news 
stories that seek to uncover the optimal diet required to maximize 
health or minimize risk of disease. Research has identified the 
critical role that nutrition plays in a myriad of health conditions, 
from cancer to heart disease to diabetes. Perhaps the most striking 
evidence of the importance of nutrition to health is the alarming 
increase in the rates of obesity in this country, especially in 
children and adolescents. Further research is essential as we seek to 
understand the causes, both innate and environmental, of this public 
health crisis.
    The USDA is uniquely positioned to conduct nutrition and food-
related research because of its singular perspective on the entire food 
system, from crop to livestock to food supply to human consumption. No 
other agency has the capacity to understand the connections among food, 
the food supply and its production, and the health of our Nation. 
Through its research programs, the USDA is making the connection 
between what we eat and the healthfulness of our lifestyle.
  --Folate and Colon Cancer.--Folate, a B-complex vitamin, is strongly 
        implicated in the prevention of colorectal cancer. It has been 
        estimated that the risk of developing colorectal cancer in 
        people consuming the largest amounts of dietary folate is 30-40 
        percent lower than in people consuming less folate. NRI-
        supported scientists are investigating the mechanisms by which 
        differences in folate intake can protect against cancer and 
        other diseases, which may provide evidence for increasing the 
        Dietary Reference Intake values for folate. This is a necessary 
        first step in developing effective public health measures which 
        would use folate as a cancer preventive measure and improve the 
        health of the Nation.
  --Obesity.--Our country is facing a rising storm of health problems 
        related to increasing rates of obesity, in both adults and 
        children, including diabetes, hypertension, and heart disease. 
        The direct and indirect costs of obesity represent a $100 
        billion annual burden on the U.S. economy. The USDA is funding 
        cutting edge research at universities across the Nation, where 
        scientists are examining genetic and metabolic factors that 
        influence obesity, including the balance of protein, fat, and 
        carbohydrate, dietary calcium and milk intake, the roles of the 
        hormones leptin and ghrelin, as well as the effects of 
        conjugated linoleic acid, and new and genetically modified 
        foods. Unique research projects linked to dietary interventions 
        are being carried out in rural towns in three States in the 
        West, in African American communities in the South, and in 
        Native American communities.
  --Functional Foods for Disease Prevention.--Antioxidants have been 
        shown to be of primary importance in preventing age-related 
        disease and health problems, including cancer and coronary 
        heart disease, two of our Nation's leading causes of death. 
        USDA-funded scientists are working to develop functional foods, 
        rich in antioxidants, which could provide nutritional benefit 
        while protecting against disease. Scientific data suggests that 
        processing of wheat could maximize the antioxidant capacity of 
        this cornerstone of our food supply. Researchers have developed 
        a processing procedure to enhance the antioxidant availability 
        in wheat-based food ingredients that involves no chemical or 
        organic solvents and generates no waste. These processing 
        procedures require no special equipment or operation and may be 
        easily scaled up for commercial production.

Safety of Our Food Supply
    Over the past year, our national attention has focused on food 
safety and the security of our food supply. The research programs of 
the USDA are at the forefront of developing new technologies to protect 
our food supply and discovering new ways to detect and neutralize 
threats to our crops, livestock, and food products. Research activities 
range from food-borne illnesses to microbial resistance to food 
processing safety to biosecurity at our borders. Moreover, projects 
funded by NRI and ARS are addressing concerns not only related to our 
domestic supply of foods, but also those items that we import from 
international partners. As the United States forges new ties and 
reinforces existing relationships in our increasingly global economy, 
it becomes even more critically important to ensure agricultural 
research is delivering the knowledge to protect our citizens and the 
foods they eat.
  --International Food Safety.--Concerns have been raised about the 
        safety of food products and goods imported from other Nations. 
        Researchers at the University of Minnesota are setting up 
        models to examine the role of the role of imported food 
        products in the local and global dissemination of food-borne 
        pathogens. Using epidemiological data, these models will enable 
        development of intervention to reduce the risk of disease 
        outbreaks due to food imports. Meanwhile, another team of NRI-
        funded scientists is developing edible food sensors, made of 
        luminescent nanoparticles. These tiny sensors will be able to 
        screen foods for a host of safety and quality issues, from 
        presence of bacteria and toxins to pH, in a rapid, easy-to-use 
        and inexpensive manner.
  --Preventing Salmonella Outbreaks.--The multibillion dollar American 
        poultry industry loses 10 to 15 percent of its potential income 
        to disease annually. Additionally, microbes that infect poultry 
        represent a major human health risk, particularly Salmonella 
        which causes over one million cases of illness and results in 
        500 deaths in the United States each year. Using sophisticated 
        DNA technologies, USDA-funded scientists are identifying the 
        genes related to disease resistance and response in poultry. 
        Understanding the genetic basis for the immune response to 
        Salmonella and other diseases may lead to breeding of disease-
        resistant birds, as well as vaccine development.
  --Biohazard Detecting Cloth.--Through use of nanotechnology, NRI-
        funded scientists at Cornell University have created a cloth 
        that has the ability to detect bacteria, viruses, and other 
        biohazards. When the cloth contacts a contaminant or hazardous 
        substance, a dye is released, providing a rapid response test 
        that allows visualization of the threat with the naked eye. 
        This has applications in detecting foodborne diseases at food 
        preparation or manufacturing sites, screening for bioterror 
        agents like anthrax, and even confirmation that operating rooms 
        or medical facilities are clear of pathogens.

Responding to Emerging Threats
    When beekeepers across the country began to report the alarming and 
mysterious loss of 50-90 percent of bees from their hives, the USDA 
took the lead in mobilizing research resources to find the source of 
what is now know as Colony Collapse Disorder (CCD). This is only one 
example of how a unique and emerging agricultural threat can swiftly 
challenge our Nation's economy, health or food supply. A new outbreak 
of foot and mouth disease in Europe, the looming specter of pandemic 
avian flu, and the continuing threat of mad cow disease all illustrate 
the need for the research resources required to address new and 
emerging pathogens and diseases. Only with an adequately funded 
agriculture research infrastructure can our Nation be prepared to react 
and rapidly counter threats to our health and food supply.
  --Virus Implicated in Colony Collapse Disorder.--Scientists funded by 
        the USDA have recently announced discovery of a virus that may 
        be linked to Colony Collapse Disorder (CCD), which has 
        decimated bee colonies across the country. Bees are essential 
        for the pollination of nearly 100 fruit and vegetable crops 
        worldwide, and play an integral role us U.S. agricultural 
        products representing an estimated economic value of more than 
        $14.6 billion. Identification of Israeli Acute Paralysis Virus 
        (IAPV) as a marker for CCD is a breakthrough step in solving 
        this major agricultural problem. The USDA has also announced a 
        strategic CCD Research Action Plan which will focus, among 
        other things, on ways to improve the general health of bees to 
        reduce their susceptibility to IAPV, CCD, and other disorders.
  --Avian Influenza.--Avian influenza is a threat to both the 
        multibillion dollar U.S. poultry industry and to human health. 
        A major challenge in dealing with this disease is being able to 
        differentiate between infected birds and vaccinated birds, as 
        well as to be able to rapidly differentiate between different 
        strains of avian flu. Through DNA microarray technology, USDA 
        funded scientists are developing fast and accurate tests that 
        will be cost effective for producers and allow more rapid 
        response to outbreaks of avian influenza worldwide.

Bioenergy and Climate Change
    Bioenergy has the potential to not only reduce our dependence on 
foreign oils but to provide a clean, sustainable fuel source that may 
help mitigate global climate change. The USDA funds research projects 
that produce science-based knowledge and technologies supporting the 
efficient, economical, and environmentally friendly conversion of 
biomass, specifically agricultural residuals, into value-added 
industrial products and biofuels. Furthermore, USDA-funded research is 
responding to the issue of climate change by contributing to our 
understanding of the causes and effects of this phenomenon and how to 
best protect our natural resources. Agricultural and forestry resources 
are vitally important to both our development of biobased resources and 
our ability to address the threat of climate change. As such, 
agricultural research is essential to addressing these national 
priorities.
  --From Switchgrass to Biofuels.--Switchgrass has great potential to 
        be a major biofuel source for the United States--it grows 
        quickly, is readily adaptable to diverse conditions, and it 
        efficiently captures the energy of the sun, converting it to 
        cellulose which can be used as a clean alternative fuel source. 
        Unlike other crops, we know very little about the genetics of 
        switchgrass, information that is critical for enhancing 
        breeding and maximizing the potential of this important 
        bioenergy crop. University of Georgia scientists, funded by the 
        NRI, are creating a genetic resource library and mapping out 
        genetic traits that will allow producers to select lines with 
        higher biofuel potential.
  --Cost effective Biodiesel.--Biodiesel is a clean burning and 
        renewable fuel produced from plant oils and animal fats. 
        Unfortunately, biodiesel is currently expensive to produce 
        because of high feedstock costs, high manufacturing costs, and 
        the requirement to dispose of a low-purity glycerol byproduct. 
        NRI-funded researchers are seeking ways to improve the 
        biodiesel production process and develop alternative approaches 
        for the byproduct glycerol. Through use of sophisticated 
        distillation technologies and catalysts, they are developing 
        manufacturing process that will lower the costs of producing 
        biodiesel, lead to a better-quality biodiesel product that 
        exceeds current standards, reduce waste formation, and 
        eliminate the troublesome by-product.
  --Predicting the Effects of Climate Change.--Global climate change is 
        likely to affect the croplands on which we are dependent for 
        food. At the USDA's Rainfall Manipulation Plots facility, 
        researchers are able to alter temperature and precipitation 
        over grasslands to simulate estimated climate change outcomes. 
        These long-term studies are providing invaluable information on 
        how crops will react to complex ecosystem changes associated 
        with climate change. Understanding the impact of this 
        phenomenon can greatly enhance the ability of producers and 
        policymakers to prepare for or mitigate negative effects.

A Vision for the Future
    The focus on agricultural research resulting from reauthorization 
of the Farm Bill presents a unique opportunity to strengthen and 
enhance our national system of agricultural research.
  --National Institute of Food and Agriculture.--FASEB fully endorses 
        the establishment of a National Institute for Food and 
        Agriculture (NIFA), within the USDA, dedicated to funding 
        competitive, peer-reviewed basic research in agriculture. This 
        is an unparalleled opportunity to enhance our system of 
        supporting high quality, fundamental research, allowing 
        advancement of current knowledge and bolstering the superiority 
        of American agriculture. However, in order to ensure success of 
        such an endeavor, NIFA must be fully funded, in contrast to the 
        current trend of underfunding that has plagued current 
        agricultural research programs.

The United States is Best Served Through Investment in Agricultural 
        Research
    From the critical basic research supported at universities 
throughout the Nation to the important work carried out by the Human 
Nutrition Research Centers, USDA research programs deserve to be 
supported at the highest level possible. We must maintain and magnify 
the breadth and competitive nature of the agricultural research 
portfolio, to ensure the United States' economic vitality and the well-
being of all Americans.

                  FASEB FEDERAL FUNDING RECOMMENDATION

    FASEB supports funding the USDA's National Research Initiative 
Competitive Grants Program in fiscal year 2009 at the $257 million 
level recommended in the President's 2008 budget and the Agricultural 
Research Service at $1.377 billion, which restores the fiscal year 2005 
level, adjusted for inflation.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit testimony in support of increased appropriations 
for the Food and Drug Administration (FDA) for fiscal year 2009. The 
ASM continues to believe that the FDA budget request is below the 
amount required to ensure that public health is protected through 
research and science based regulatory activities. The FDA regulates 
products worth nearly $1.5 trillion annually, about 20 percent of 
consumer spending in the United States. Repeated reports of 
contaminated or otherwise defective foods and other products, both 
domestic and imported over the past year, illustrate the crucial need 
for a strong FDA.
    The administration's proposed fiscal year 2009 FDA budget requests 
nearly $2.4 billion, a net increase of $130 million, or 5.7 percent 
over fiscal year 2008. The request includes $1.77 billion in budget 
authority and $628 million as industry user fees. The budget plan funds 
a full time equivalent staff increase of 526, a much needed addition to 
the FDA's over extended workforce. It also includes funding increases 
earmarked for food safety activities and for medical product safety and 
development, identified by the Agency as two priority initiatives for 
fiscal year 2009.
    The ASM believes that greater investment in the FDA is required and 
recommends that Congress increase the FDA budget by $375 million.
    Challenges confronting FDA, such as rapidly changing new product 
technologies, recently led Agency leadership to solicit a year long 
evaluation of the science underlying the FDA's broad sweeping directive 
to safeguard consumers. Released last November, the study report 
decries the deteriorating state of FDA science and calls for a doubling 
of agency funding over the next 2 years, conclusions supported by the 
ASM and others concerned by chronic shortages in FDA budgets and 
personnel. The report, FDA Science and Mission at Risk, found that the 
number of appropriated personnel in 2007 was roughly the same as 15 
years earlier. It describes 20 unfortunate years of fiscal neglect, 
during which 123 additional statutes have been enacted increasing the 
FDA's already heavy workload.
    As the Nation's scientific regulatory agency, the FDA must stay at 
the leading edge of science and technology. In 2007, U.S. consumers 
purchased roughly $2 trillion worth of imported products from 825,000 
importers, shipped into the country through more than 300 ports of 
entry, elements of the inexorable shift toward economic globalization. 
The FDA assures the safety, efficacy, and security of many of these 
products, including human and animal drugs, biological products, 
medical devices, and more. Its mission also encompasses regulating vast 
numbers of domestic products and most of the Nation's food supply, 
educating the public with accurate, science based information, and 
encouraging innovation in medicines and other goods for public 
consumption. Each year, FDA review prompts multiple recalls of 
unacceptable or fraudulent products. The agency also evaluates an 
impressive list of new products, which last year included approved 
treatments for HIV infection, breast cancer, and hemophilia.

Protecting America's Food Supply
    The proposed fiscal year 2009 FDA budget allocates $662 million for 
food protection activities, a $42.2 million increase over fiscal year 
2008, in part to support the Protecting America's Food Supply 
initiative to improve FDA efforts against foodborne illnesses. In 
November 2007, the FDA presented its new food protection plan, 
coordinated with the just released strategic plan of the Interagency 
Working Group on Import Safety. Using a risk based approach to identify 
potential threats to the food supply before problems arise, the FDA 
food protection plan will emphasize early intervention and reprioritize 
food safety issues to better utilize limited agency resources. The 
budget increase also will help facilitate new agreements just reached 
with China that address import safety issues, two Memoranda of 
Agreement on food, feed, drugs and medical devices signed last 
December.
    From production to consumption, the life cycle of the U.S. food 
supply typically involves a series of processes, facilities, and human 
handlers, opening multiple opportunities for contamination and 
foodborne illnesses. Outbreaks associated with fresh leafy greens and 
packaged dairy are recent examples. Last year, peanut butter 
contaminated with Salmonella bacteria in the processing plant sickened 
more than 300, hospitalizing at least 50 patients and forcing costly 
recalls. In March 2007, the FDA released its Final Guidance for Safe 
Production of Fresh-Cut Fruits and Vegetables as one step to address 
the growing problem of microbial contamination of fresh produce. In 
fiscal year 2008, Federal economists expected U.S. agricultural imports 
to reach a record $75 billion. Food imports have risen sharply in the 
past 5 years, increasing by over 10 percent a year at twice the 
historical rate of import growth. Rising food imports and other factors 
guarantee that problems will persist and the FDA must heighten its 
vigilance over the Nation's food supply.
    In January 2007, the Government Accounting Office (GAO) designated 
the Federal oversight of food safety as a high risk area for the first 
time, warning that related Federal programs are ``in need of broad-
based transformation'' to reduce risks to public health and to the 
economy. In its evaluation report, the GAO pointed out that the FDA, 
responsible for regulating about 80 percent of the U.S. food supply, 
receives only about 24 percent of Federal expenditures for food safety 
inspection. Each month, FDA field inspectors reject hundreds of import 
shipments deemed filthy, decomposing, contaminated with drug residues, 
or otherwise unfit. Unfortunately, inspectors evaluate roughly 1 
percent of the estimated 9 million food and food ingredient shipments 
entering the United States annually, as staff shortages coincide with 
rapidly expanding import numbers.
    In 2006, the FDA's Center for Food Safety and Applied Nutrition 
(CFSAN) regulated an estimated $417 billion worth of domestic food and 
$49 billion worth of imported food, as well as $60 billion in cosmetics 
and $18 billion in dietary supplements. The $182 million proposed for 
CFSAN in fiscal year 2009 is an increase of $10 million over fiscal 
year 2008 and includes an additional 31 full-time employees, for a 
total of 811 FTEs to handle the workload. Increases for CFSAN also will 
target five areas for improvement: preventing contamination, prevention 
through mitigation, import enhancements, surveillance, and prevention 
through research.

Modernizing Medical Product Safety and Development
    Under the administration's fiscal year 2009 proposal, the FDA's 
Medical Product Safety and Development initiative receives an 
additional $17.4 million to enhance the safety of human and animal 
drugs, blood, human tissues, and medical devices. The broad ranging 
initiative will address both imported products and the need for more 
new product innovation among U.S. industries. The proposed budget 
increase also will help implement the Food and Drug Administration 
Amendments Act enacted by Congress last year that sets new requirements 
for FDA food, drug and medical device programs. The budget increase 
will be distributed among the FDA centers and field activities 
specifically assigned oversight of human drugs, biologics, animal drugs 
and feeds, medical devices and radiological health, or toxicological 
research. Current programs need additional funding for modernizing 
laboratories, hiring more field staff, and improving import safety. The 
total fiscal year 2009 budget authority proposed for initiative related 
programs is $887 million, to be supplemented by $21.5 million in user 
fees.
    The recently released report on FDA science provides compelling 
arguments that the FDA regulatory system responsible for this 
initiative is overloaded and underfunded. The importance of a fully 
funded FDA is clear, based on the statistics. In 2006, the Center for 
Devices and Radiological Health (CDRH) regulated manufacturers with 
sales of $110 billion. The Center for Drug Evaluation and Research 
(CDER) oversaw $275 billion in pharmaceutical sales, 2,500 U.S. 
manufacturers, and 2,500 foreign manufacturers. The Center for 
Biologics Evaluation and Research (CBER) typically reviews more than 
800 new products every year. The Center for Veterinary Medicine is 
responsible for products tied to more than 10 billion food producing 
animals, 200 million pets, and more than 90,000 manufacturers.
    Each year, the FDA reviews new products and evaluates questionable 
consumer goods under its huge mandate to protect and improve public 
health. In 2007, the agency's field force investigated pet food 
contaminated by tainted wheat gluten imported from China, with more 
than 100 brands of food recalled by manufacturers. The FDA also 
approved a unique 2 hour blood test that marks a significant advance in 
rapidly detecting drug-resistant staph infections. CDER approved a 
total of 88 new products, including the first drug to treat all degrees 
of Alzheimer's disease and a new breast cancer drug that can replace a 
current one poorly tolerated by many patients. It also approved or 
tentatively approved 682 new, less costly generic drugs, a 33 percent 
increase over the previous year. This February, FDA advisors endorsed a 
new formula for next year's flu vaccine that, unlike most years' 
vaccines, would include all new influenza virus strains. Through its 
CBER programs, the FDA improves donated blood supplies by assessing 
additional testing as needed, in fiscal year 2007 approving screening 
tests for West Nile virus, Chagas disease, and early detection of 
hepatitis C virus and HIV-1.

ASM Recommendation for the FDA in Fiscal Year 2009
    The FDA already regulates more than 375,000 facilities worldwide in 
nearly 100 countries. The volume of FDA regulated imports has doubled 
over the past 5 years. Approximately 15 percent of the U.S. food supply 
is imported and for some items like seafood and fresh fruit, market 
share reaches 60 to 80 percent. If current market trends persist, the 
beleaguered agency's workload will continue to expand rapidly inside 
the United States and elsewhere. It is essential that FDA science 
capabilities, research and field personnel, and infrastructures also 
expand to meet these challenges. Although the administration has 
proposed an increase of $130 million for the fiscal year 2009 budget 
for the FDA, this budget increase is still inadequate. The ASM believes 
the FDA could use a $375 million increase based on the professional 
judgment budget of the FDA Science Board. We believe the Science Board 
Report has provided a sound basis for the allocation of new resources 
for the food supply, biological sciences with emphasis on drug safety, 
science reorganization, scientific capability including training and a 
visiting scientist program, and information technology.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2009 appropriation for the 
U.S. Department of Agriculture (USDA) research and education programs. 
The ASM is the largest single life science organization with more than 
42,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being.
    Agricultural research is vitally important for the improvement of 
animal and plant health, food safety, and the environment. In the 
September 2007 report, ``Economic Returns to Public Agriculture 
Research,'' the USDA Economic Research Service (ERS) reviewed over 35 
economic studies of the social rate of return to investments in 
agriculture. The report shows the average rate of return on public 
investment in agriculture research is 45 percent per every dollar 
invested. These returns are shared by all levels of the agricultural 
continuum, from producers to consumers.
    The ASM is concerned with the President's fiscal year 2009 funding 
proposal for the National Research Initiative (NRI). The NRI is the 
USDA's competitive, peer-reviewed grants program that supports 
extramural research. USDA research efforts in food safety, animal 
disease, alternative fuels, the environment, and other strategic areas 
are producing tangible returns on Federal investments. Although the 
fiscal year 2009 proposal provides an increase of $67 million over 
fiscal year 2008, it directs $61 million of the increase to the 
transferred integrated programs and biofuel research, providing the NRI 
with an actual increase of only $6 million for its base programs if the 
integrated programs are flat funded.
    We urge Congress to provide a 10 percent increase for the NRI in 
fiscal year 2009. The ASM recommends $270 million for the NRI in fiscal 
year 2009. This recommended funding level will provide a 10 percent, or 
$19 million, increase for the NRI base programs, and cover the directed 
funding included in the fiscal year 2009 administration request of $42 
million for the proposed transfer of integrated programs, and $19 
million for bioenergy research.
    The ASM is also concerned with the President's fiscal year 2009 
requested 10 percent cut for the Agricultural Research Service (ARS) 
from fiscal year 2008. The ARS is USDA's primary intramural research 
program, which conducts research to develop practical solutions to 
agricultural problems of high national priority including fundamental, 
long-term, high-risk research that the private sector will not do. The 
ASM urges Congress to provide at least $1.185 billion for the ARS in 
fiscal year 2009, the same level as fiscal year 2008.

Food Safety
    Strong support for the NRI and ARS is needed to provide the 
fundamental research essential to creating efficient and effective 
technologies for the protection of human health and improving the 
safety of agricultural products. This research is critical to 
developing the interventions needed to substantially reduce the 76 
million cases of foodborne illness in the United States that occur each 
year. Changes in society, technology, our environment, and 
microorganisms themselves are affecting the occurrence of foodborne 
bacterial, viral, and mycotic diseases. For example, E. coli O157 first 
emerged in the 1980s and spread through complex ecologies to 
contaminate a growing variety of foods. Multi-drug resistant Salmonella 
are a growing challenge to human and animal health. Infections of 
animals like anthrax, leptospirosis, and brucellosis can spread to 
humans by direct contact and by less obvious routes. Microbial 
adaptation is leading to the introduction through animals and foods of 
new or previously unrecognized human pathogens.
    According to the Centers for Disease Control and Prevention (CDC), 
approximately 76 million people suffer from foodborne disease per year, 
and in 2006, approximately 1,250 foodborne disease outbreaks were 
reported. Investment in research is necessary for improving the 
identification of these pathogens, for developing a better 
understanding of the pathways by which these pathogens make people and 
animals sick, and using this information to improve prevention. 
Additionally, research finds ways to develop and evaluate better 
methods for surveillance, investigation, and prevention.
    As microbes adapt, there is concern that some food-borne bacterial 
pathogens may become resistant to certain antimicrobial agents. It is 
necessary to have continued support for antimicrobial resistance 
monitoring programs, such as the National Antimicrobial Resistance 
Monitoring System (NARMS) and the Collaboration on Animal Health Food 
Safety Epidemiology (CAHFSE) program to generate data that will guide 
the development of appropriate interventions in the food production 
chain to minimize and contain antimicrobial resistant bacterial 
pathogens in the food supply.
    Through the Food and Drug Administration (FDA), the Food Safety and 
Inspection Service (FSIS) and the Animal and Plant Health Inspection 
Service (APHIS), the government is ensuring the Nation's food quality, 
providing safety interventions, and contributing to pathogen reduction. 
The ASM supports the President's fiscal year 2009 requested increases 
for FSIS and APHIS of 2 percent and 6.3 percent above fiscal year 2008, 
respectively.
    In addition to greater investment in research, it is important that 
the USDA collaborate with other agencies, such as the CDC, FDA, NIH, 
EPA, and NSF to ensure that the best research is funded and contributes 
to the food safety strategies of all the Federal agencies.

Bio-Based Products
    Agricultural research is a critical component of discovering 
biobased products such as polymers, lubricants, solvents, composites, 
and energy. The ARS and NRI address research related to biobased 
products that focuses on developing biofuels and bioenergy; better, 
more efficient, and environmentally friendly agricultural materials; 
bio-based products that replace petroleum-based products; and new 
opportunities to meet environmental needs. These efforts include 
developing, modifying, and utilizing new and advanced technologies to 
convert plant and animal commodities and by-products to new products 
and by developing energy crops as well as new crops to meet niche 
market opportunities. Microbial research is essential to understanding 
and creating efficient biomass conversion and production methods, to 
developing new crops from which environmentally friendly and 
sustainable products such as paints and coatings can be made, and to 
producing fuels and lubricants, new fibers, natural rubber, and 
biobased polymers from vegetable oils, proteins, and starches.
    Most of the world's energy needs are currently met through the 
combustion of fossil fuels. With projected increases in global energy 
needs, more sustainable methods for energy production must be 
developed, and production of greenhouse gases will need to be reduced. 
There is continued need for fundamental microbial research that will 
improve biomass characteristics, biomass yield, and sustainability; 
energy sources that are environmentally friendly and renewable; and 
that will enhance our understanding of the impact that removing biomass 
for energy and other products has on the sustainability of soils and 
water.
    As the development and use of biofuels and bioenergy expands, other 
aspects of food production will be affected such as increased corn 
prices for livestock production and decreased exports of agricultural 
commodities. The ASM urges the USDA to expand further research programs 
on alternative bioenergy production such as cellulose-based 
fermentation that would identify new resources and methods that would 
not compete with the food system. These fermentation methods will 
require increased investment in identifying and understanding novel 
microbial pathways for cellulosic degradation.
    Greater support for the NRI and ARS is essential to address the 
challenges of the emerging biobased products industry with programs 
that support research, development, and demonstration. The ASM also 
encourages greater collaboration between and support for the USDA and 
the Department of Energy (DOE) Office of Science on biomass research.

Genomics
    The Microbial Genome Sequencing Program has been supported jointly 
by the NRI and the National Science Foundation (NSF) since fiscal year 
2001. The program supports high-throughput sequencing of the genomes of 
microorganisms and the development and implementation strategies, 
tools, and technologies to make currently available genome sequences 
more valuable to the user community. The availability of genome 
sequences provides the foundation for understanding how microorganisms 
function and live, and how they interact with their environments and 
with other organisms. The sequences are available to and used by the 
investigator community to address issues of scientific and societal 
importance including: novel aspects of microbial biochemistry, 
physiology, metabolism, development and cellular biology; the diversity 
and the roles microorganisms play in complex ecosystems and in global 
geochemical cycles; the impact that microorganisms have on the 
productivity and sustainability of agriculture and natural resources 
(e.g., forestry, soil and water), and on the safety and quality of the 
Nation's food supply; and the organization and evolution of microbial 
genomes, and the mechanisms of transmission, exchange and reshuffling 
of genetic information. This genomic information is also important for 
the development of new strategies for converting cellulosic biofuel 
materials into useful and cost-effective energy sources.
    In fiscal year 2008, as a result of a reduction in funding by the 
NSF, this program received a 30 percent cut, to a total of $10 million. 
The ASM urges Congress to increase support for the USDA genomics 
initiative to restore it to full funding.

Soil Processes
    Since soil sustainability is intrinsically linked to the microbial 
health of the soil, and the health of soil can directly affect its 
ability to filter and clean water, a greater understanding of soil 
microbiology is essential to ensuring sustainability and protecting the 
Nation's natural resources, soil, water, and the food supply.
    The NRI is currently supporting research that will potentially lead 
to an effective treatment to entrap, remove, or inactivate 
cryptosporidia oocysts, which persist in soil and water. Cryptosporidia 
are a potentially fatal protozoan that infects humans, livestock, and 
wildlife. When an effective control system is developed, it may prove 
to be effective in dealing with a variety of pathogens, including 
Salmonella, enteric parasites, and viruses. The ASM urges Congress to 
increase support for the NRI to continue and expand on opportunities in 
soil processes research that are critical for human and animal health 
and environmental well-being.

Conclusion
    The ASM urges Congress to increase research funding for the USDA. 
The ASM is concerned that we are losing ground in the important field 
of agricultural research. Research in the biological and agricultural 
sciences is vital to the Nation's ability to meet current and future 
challenges ranging from the food supply and safety, to cost-effective 
solutions for energy and environmental challenges.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2009 appropriation for the USDA.
                                 ______
                                 

     Prepared Statement of the American Society for Nutrition (ASN)

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2009 
appropriations for the U.S. Department of Agriculture (USDA) and 
specifically, its research programs. ASN is the professional scientific 
society dedicated to bringing together the world's top researchers, 
clinical nutritionists and industry to advance our knowledge and 
application of nutrition to promote human and animal health. Our focus 
ranges from the most critical details of research to very broad 
societal applications. ASN respectfully requests $1.377 billion for 
ARS, with $120 million of the total allocated to the Human Nutrition 
Research program. We request $257 million for the National Research 
Initiative in fiscal year 2009.
    Basic and applied research on nutrition, food production, nutrient 
composition, food processing and nutrition monitoring is critical to 
American health and the U.S. economy. Awareness of the growing epidemic 
of obesity and the contribution of chronic illness to burgeoning health 
care costs has highlighted the need for improved information on dietary 
intake and improved strategies for dietary change. Demand for a safer 
and more nutritious food supply continues to increase. Preventable 
chronic diseases related to diet and physical activity cost the economy 
over $117 billion annually, and this cost is predicted to rise to $1.7 
trillion in the next 10 years. Nevertheless, funding for food and 
nutrition research at USDA has not increased in real dollars since 
1983! This decline in our national investment in agricultural research 
seriously threatens our ability to sustain the vitality of food, 
nutrition and agricultural research programs and in turn, threatens the 
future of our economy and the health of our Nation.
    USDA historically has been identified as the lead nutrition agency 
and the most important federal agency influencing U.S. dietary 
patterns. Through the nutrition and food assistance programs, which 
form roughly 60 percent of its budget, USDA has a direct influence on 
the dietary intake (and ultimately the health) of millions of 
Americans. It is important to better understand the impact of these 
programs on the food choices, dietary intake, and nutritional status of 
those vulnerable populations which they serve. Research is the key to 
achieving this understanding, and it is the foundation upon which U.S. 
nutrition policy is built.
    USDA is in full or in part responsible for the development and 
translation of federal dietary guidance, implementation of nutrition 
and food assistance programs and nutrition education; and, national 
nutrition monitoring. The USDA Human Nutrition Research programs ensure 
nutrition policies are evidence-based, ensure we have accurate and 
valid research methods and databases, and promote new understanding of 
nutritional needs for optimal health.

ARS Human Nutrition Research Program
    USDA has built a program of human nutrition research, housed in six 
centers (HNRCs) \1\ geographically disperse across the Nation and 
affiliated with the ARS, which links producer and consumer interests 
and forms the core of our knowledge about food and nutrition. These 
unique centers are working closely with a wide variety of stakeholders 
to determine just how specific foods, food components, and physical 
activity can act together during specific life-stages (e.g. prior to 
conception, in childhood, in older adult years) to promote health and 
prevent disease. The HNRCs are a critical link between basic food 
production and processing and health, including food safety issues. The 
center structure adds value by fully integrating a multitude of 
nutritional science disciplines that cross both traditional university 
department boundaries and the functional compartmentalization of 
conventional funding mechanisms.
---------------------------------------------------------------------------
    \1\ Of the six HNRCs, three are fully administered by ARS and are 
located in Davis, CA, Beltsville, MD, and Grand Forks, ND. The other 
three are administered through cooperative agreements with Baylor 
University Medical Center in Houston, TX; Tufts University in Boston, 
MA; and, the University of Arkansas in Little Rock.
---------------------------------------------------------------------------
    An important basic premise of research in the HNRCs is that many 
chronic diseases, such as diabetes and obesity, can be prevented by 
lifestyle issues, the most important of which are: consuming 
appropriate amounts of a well-balanced, healthful diet; and regularly 
engaging in adequate levels of physical activity. Using state-of-the-
art facilities and a concentration of critical scientific teams, the 
HNRCs are conducting the highest quality translational research. Also 
of importance are the long-term experiments involving the derivation of 
dietary reference intake values and nutrient requirements of 
individuals. Often compared to the intramural program at the National 
Institutes for Health, these centers tackle projects that are unlikely 
to be funded through other means, such as through competitive grants or 
by industry.
    The proposed 10 percent cut to ARS in fiscal year 2009, coupled 
with flat-funding of the Human Nutrition Research program for over 5 
years, seriously jeopardizes the future of the centers, their important 
research projects, and the critical infrastructure provided by the USDA 
from which the HNRCs and scientists benefit. Specifically, the 
President has proposed eliminating the center located at Grand Forks, 
ND. We are concerned about the proposed elimination of this center, as 
it represents the only HNRC that (1) is located in a major agricultural 
area; (2) focuses on research in rural areas, where obesity and its co-
morbidities, as well as food insecurity, are most prevalent; and (3) 
partners with Native American communities and tribal colleges to 
address obesity, diabetes, heart disease and depression in high-need, 
under-served communities. At a time when the health of our Nation, 
especially its youth, faces significant challenges largely associated 
with nutrition and physical activity, we cannot afford to lose any of 
our HNRCs. In fact, $9 million in additional funds is needed across the 
six HNRCs to ensure they can continue current research projects and to 
restore purchasing power lost to inflation over years of flat budgets.
    ASN supports the inclusion of $12.2 million in the President's 
fiscal year 2009 budget proposal for health and obesity prevention 
research to address the efficacy of the healthful eating and physical 
activity patterns set forth in the Dietary Guidelines in preventing 
obesity in the U.S. population. However, funding for this research 
should not come at the expense of other important ARS nutrition 
research programs. Rather, this funding should be in addition to that 
which is allocated to existing research programs.
    Another example of the unique nutrition research at ARS is the 
nutrition monitoring program, ``What We Eat in America'' (WWEIA). This 
program allows us to know not only what foods Americans are eating, but 
also how their diets directly affect their health. Information from the 
survey guides policies on food safety, food labeling, food assistance, 
military rations, pesticide exposure and dietary guidance. In addition 
to having an impact on billions of dollars in federal expenditures, the 
survey data leverages billions of private sector dollars allocated to 
nutrition labeling, food product development and production. Despite 
this, WWEIA has been flat-funded at $11.5 million for over 12 years. 
The USDA budget for WWEIA must be increased two-fold to $23 million. 
Otherwise, we risk losing this national treasure if we do not restore 
lost funding and strengthen it for the future.

National Research Initiative competitive grants program
    The National Research Initiative (NRI) funds cutting-edge, 
investigator-initiated agricultural research, supporting research on 
key issues of timely importance on a competitive, peer-reviewed basis. 
The NRI aims to improve the Nation's nutrition and health through two 
objectives: (1) to focus on improving human health by better 
understanding an individual's nutrient requirements and nutritional 
value of foods; and (2) to promote research on healthier food choices 
and lifestyles. Projects funded by the Human Nutrition and Obesity 
program are leading to a better understanding of the behavioral and 
environmental factors that influence obesity, and to the development 
and evaluation of effective interventions. For example, NRI grants have 
funded nutrition education interventions focusing on the reduction of 
childhood obesity in low-income families.
    Despite an initial authorization of $500 million per year, funding 
for the NRI has yet to reach $200 million, and less than $20 million 
was available in 2007 for the Human Nutrition and Obesity program. If 
America is to maintain the most nutritious, most affordable, and safest 
food supply in the world, funding levels need to be increased towards 
the NRI's authorized amount, lest continued neglect undermine the 
success of these valuable programs. The breadth and competitive nature 
of the NRI portfolio should be maintained and expanded to ensure this 
critical investigator-initiated research continues to improve the 
health of all Americans.
    The NRI and the Human Nutrition Research Program under ARS are 
symbiotic programs that provide the infrastructure and generation of 
new knowledge that allow for rapid progress towards meeting national 
dietary needs. These programs allow USDA to make the connection between 
what we grow and what we eat. And through strategic nutrition 
monitoring, we learn more about how dietary intake affects our health.
    ASN thanks your Committee for its support of the ARS and the NRI 
Competitive Grants Program in previous years. If we can provide any 
additional information, please contact Mary Lee Watts, ASN Director of 
Public Affairs, at (301) 634-71112 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="076a706673737447697273756e736e68692968756029">[email&#160;protected]</a>
                                 ______
                                 

 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America

    Dear Chairman Kohl, Ranking Member Bennett and Members of the 
Subcommittee, The American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America (ASA-CSSA-SSSA) are 
pleased to submit the following funding recommendations for fiscal year 
2009. ASA-CSSA-SSSA understand the challenges the Senate Agriculture 
Appropriations Subcommittee faces with the tight agriculture budget for 
fiscal year 2009. We also recognize that the Agriculture Appropriations 
bill has many valuable and necessary components, and we applaud the 
efforts of the subcommittee to fund mission-critical research through 
the USDA-Cooperative State, Research, Education and Extension Service 
as well as its intramural research portfolio funded through the 
Agricultural Research Service. We are particularly grateful to the 
subcommittee for funding the National Research Initiative at $191 
million in the fiscal year 2008 Omnibus Appropriations bill. For the 
Agricultural Research Service salaries and expenses, ASA-CSSA-SSSA 
recommend a funding level of $1.124 billion for fiscal year 2009, a 7 
percent increase over the President's recommended fiscal year 2009 
($1.037 billion) funding level and 8.4 percent above fiscal year 2008 
enacted. ASA-CSSA-SSSA also recommend a total funding level of $46.752 
million (the fiscal year 2008 enacted level) for ARS Buildings and 
Facilities which would prevent closure of the 11 ARS facilities. For 
the Cooperative State Research, Education and Extension Service, we 
recommend a funding level of $753 million, a 5 percent increase over 
fiscal year 2008 ($688 million). We recommend funding levels stay at 
$3.4 billion for the Natural Resources Conservation Service in fiscal 
year 2009. Specifics for each of these and other budget areas follow 
below.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

                     AGRICULTURAL RESEARCH SERVICE

    ASA-CSSA-SSSA applaud the Agricultural Research Services' (ARS) 
ability to respond quickly and flexibly to rapidly changing national 
needs. With more than 22 National Programs, ARS and its 2,100 
scientists located at 100 research locations, including a few 
international facilities, works to ensure that Americans have reliable, 
adequate supplies of high-quality food and other agricultural products. 
ARS accomplishes its goals through scientific discoveries that help 
solve problems in crop and livestock production and protection, human 
nutrition, and the interaction of agriculture and the environment. 
Therefore, ASA-CSSA-SSSA strongly oppose the President's fiscal year 
2009 proposal to cut ARS funding for salaries and expenses to $1.037 
billion, further reducing funding by $91 million (-8 percent from 
fiscal year 2008 enacted -$1.128 billion), as well as the elimination 
of 11 ARS facilities totaling more than 354 staff years (more than 4 
percent of fiscal year 2008 total staff years), an approximate cut of 
$33.5 million. These ARS facilities including--Brawley, CA; 
Brooksville, FL; Watkinsville, GA; Morris, MN; Grand Forks, ND; 
Coshocton, OH; East Lansing, MI: Lane, OK; University Park, PA; 
Weslaco, TX; and Laramie, WY--conduct research critical to the 
development and transfer of solutions to agricultural problems of high 
national priority and provide information access and dissemination to: 
ensure high-quality, safe food, and other agricultural products; assess 
the nutritional needs of Americans; sustain a competitive agricultural 
economy; enhance the natural resource base and the environment; and 
provide economic opportunities for rural citizens, communities, and 
society as a whole. ASA-CSSA-SSSA urge the subcommittee to act 
judiciously and not implement such drastic funding cuts for this 
critical intramural research agency. For total Agricultural Research 
Service budget funding, ASA-CSSA-SSSA recommend a funding level of 
$1.124 billion for fiscal year 2009, a 7 percent increase over the 
President's recommended fiscal year 2009 ($1.05 billion) funding level 
and 8.4 percent above fiscal year 2008 enacted.

 COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE (CSREES)

    ASA-CSSA-SSSA are very concerned with the downward trend in funding 
for the research component of CSREES's Strategic Objective 6.2: Enhance 
Soil Quality to Maintain Productive Working Cropland, which as has seen 
funding cut from $34.53 million in fiscal year 2007 to $30.293 in 
fiscal year 2008, a 12.3 percent decrease! Further, ASA-CSSA-SSSA 
strongly oppose the president's proposal to cut this important research 
program by an additional 15.4 percent (-$4.67 million) in fiscal year 
2009, bringing funding down to $25.62 million.

Hatch and McIntire-Stennis Formula Funding
    ASA-CSSA-SSSA understand that the shift of earmarked funds to Hatch 
formula funding (Hatch formula funding reached a record $322.6 million) 
and McIntire-Stennis (McIntire-Stennis was funded at $30 million) which 
occurred in fiscal year 2007, would and did not occur again in fiscal 
year 2008, with funding reduced to $195 million for Hatch and $25 
million for McIntire-Stennis. Nevertheless, the need has never been 
greater to enhance funding for Hatch and McIntire-Stennis formula 
funding if we are to maintain the research capacity at our Nation's 
Land Grant Universities and Colleges of Agriculture necessary to keep 
American agriculture competitive. Therefore, ASA-CSSA-SSSA strongly 
oppose the President's fiscal year 2009 budget proposal, which further 
recommends cuts to both Hatch (to $139 million, a decrease of $56.6 
million from 2008 enacted) and McIntire-Stennis (down by $5.3 million 
to $19.5 million from 2008). ASA-CSSA-SSSA proposes a 10 percent 
increase in fiscal year 2009 funding levels from fiscal year 2008 
levels for Hatch (bringing funding to $215 million) and McIntire-
Stennis ($27 million) programs in order to keep America agriculture 
competitive.
    ASA-CSSA-SSSA also oppose the administration's proposal to change 
the methodology for distributing Hatch formula funds, where 70 percent 
of funding ($98.3 million) versus 25 percent in fiscal year 2008 will 
be directed towards a multistate, competitively awarded grants program. 
As well, we oppose the administration's proposal to change the 
methodology for distributing McIntire-Stennis formula funds where 67 
percent of funding ($13.1 million) versus 25 percent in fiscal year 
2008 will be directed towards the multistate, competitively awarded 
grants program. Such drastic changes would be detrimental to the entire 
USDA research portfolio. Because of their timing and potential regional 
and intra-state impacts, much of the infrastructure needed to conduct 
competitively funded research could be compromised if formula funds 
were to be redirected as proposed, and could irreparably damage 
programs housed at each land-grant university. This would mean a huge 
and potentially damaging loss of national infrastructure to conduct 
agricultural research. The private sector depends heavily on the 
agricultural technology and training provided by the U.S. land grant 
system, and the impact of such a drastic transfer of formula funds to a 
competitive grants program would affect not only the viability of U.S. 
industry but also the health and survival of millions of people across 
the globe. Moreover, investments in formula funded research show an 
excellent annual rate of return.

Cooperative Extension Service
    Extension forms a critical part of research, education and 
extension program integration, the hallmark of CSREES which is not seen 
in other agencies. Unfortunately, the Smith Lever 3(b) and 3(c) account 
has been flat-funded (in constant dollars, this account has seen a 
gradual erosion in funding), in recent years. ASA-CSSA-SSSA support 
$474 million (an increase of $17.6 million or 4 percent over fiscal 
year 2008 enacted, and $42.2 million or 10 percent over the president's 
fiscal year 2009 recommendations) for the continuing education and 
outreach activities of the Extension System. Specifically, ASA-CSSA-
SSSA support $300 million for Smith-Lever Formula 3(b) & (c), an 
increase of $26.8 million or 10 percent over fiscal year 2008 enacted.

National Research Initiative
    ASA-CSSA-SSSA strongly endorse the President's proposed fiscal year 
2009 budget increase of $66 million for the National Research 
Initiative Competitive Grants Program (NRI) which would bring total 
funding for this important research program to a record $257 million in 
fiscal year 2009. However, we do not support the President's proposal 
to transfer Hatch funding or $42.3 million in funding from Sec 406 
(Integrated Research, Education, and Extension program) into the NRI. 
This transfer may result in the loss of critical programs such as the 
Organic Transitions Program. ASA-CSSA-SSSA do support the 
administration's proposal to include additional funding of $19 million 
for the Departments' bioenergy and biobased fuels research initiative.
    ASA-CSSA-SSSA request that any new monies appropriated for the NRI, 
as requested by the administration, allow the Secretary the discretion 
to apply up to 30 percent towards carrying out the NRI integrated 
research, extension and education competitive grants program.
    Sustainable Agriculture Research and Education Programs.--ASA-CSSA-
SSSA applaud the subcommittee for the 17 percent increase in fiscal 
year 2008 SARE funding; however we oppose the administration's request 
to cut funding for SARE by more than $5.2 million. At a minimum, the 
subcommittee should continue to fund SARE at the fiscal year 2008 
enacted level of $14.4 million.
    Organic Farming Transition Program.--ASA-CSSA-SSSA urge the 
subcommittee to fund the Organic Farming Transition Program at $5.0 
million in fiscal year 2009, rejecting the President's proposed 
transfer of the program.
    Indirect Costs.--ASA-CSSA-SSSA applaud the administration's 
proposal to eliminate the indirect cost cap on the NRI which will 
broaden its appeal by putting the NRI on equal footing with other 
Federal competitive grants programs such as those of NSF and NIH. 
However, we are concerned that new funding was not provided to cover 
this change, which would effectively result in either fewer grants 
being awarded, or actual research monies reduced.
    Agrosecurity.--ASA-CSSA-SSSA endorse the administration's request 
($2.0 million) for the Agrosecurity Curricula Development, which we 
consider to be a critical new initiative. Recent security threats 
facing America require new and expanded agricultural research to 
protect our Nation's natural resources, food processing and 
distribution network, and rural communities that will secure America's 
food and fiber system.
    Higher Education.--ASA-CSSA-SSSA urge the subcommittee to fund the 
Institution Challenge Grants at $6.7 million which will restore some of 
the funding lost due to the 2006 rescission and 2007 Continuing 
Resolution. We applaud the administration's budget request of $4.4 
million for the Graduate Fellowships Grants.

                 NATURAL RESOURCES CONSERVATION SERVICE

Conservation Security Program
    The Conservation Security Program provides financial and technical 
assistance to producers who advance the conservation and improvement of 
soil, water, air, energy, plant and animal life, and other conservation 
purposes on Tribal and private working lands. Since 2004, over 22.4 
million collective acres of soil management activities have resulted in 
an increase of over 11 millions tons of carbon sequestration on over 
22.4 million collective acres. ASA-CSSA-SSSA urge the subcommittee to 
fund this important working lands conservation program as an uncapped 
mandatory program, as intended in the 2002 Farm Bill legislation.
Environmental Quality Incentives Program
    The Environmental Quality Incentives Program provides technical 
assistance to eligible farmers and ranchers to address soil, water, 
air, and related natural resource concerns on their lands in an 
environmentally beneficial and cost-effective manner. ASA-CSSA-SSSA 
oppose the president's proposed $201 million cut which would bring 
total funding for EQIP down to $1.05 billion.

                    MARKETING AND REGULATORY PROGRAM

Animal and Plant Health Inspection Service
    In a strengthening global economy, it is essential the government 
take action to prevent disease transference from non-native soils. ASA-
CSSA-SSSA endorse the President's proposed increase of the Plant and 
Disease Exclusion program to $398 million.

Bioenergy
    Impacts from increased biofuel production will not only impact soil 
and water resources, but also agricultural markets. Therefore ASA-CSSA-
SSSA commend the President's proposed increase of $0.4 million for the 
Economic Research Service and $1.8 million for the National 
Agricultural Statistics Service to study the potential effects and 
monitoring of biofuel expansion.
    A balance of funding mechanisms, including intramural, competitive 
and formula funding, is essential to maintain the capacity of the 
United States to conduct both basic and applied agricultural research, 
improve crop and livestock quality, and deliver safe and nutritious 
food products, while protecting and enhancing the Nation's environment 
and natural resources. In order to address these challenges and 
maintain our position in an increasingly competitive world, we must 
continue to support research programs funded through the Agricultural 
Research Service and Cooperative State Research, Education, and 
Extension Service. Congress must enhance funding for agricultural 
research to assure Americans of a safe and nutritious food supply and 
to provide for the next generation of research scientists. According to 
the USDA's Economic Research Service (Agricultural Economic Report 
Number 735), publicly funded agricultural research has earned an annual 
rate of return of 35 percent. This rate of return suggests that 
additional allocation of funds to support research in the food and 
agricultural sciences would be beneficial to the U.S. economy. We must 
also continue support for CSREES-funded education programs which will 
help ensure that a new generation of educators and researchers is 
produced. Finally, we need to ensure support for CSREES-funded 
extension programs to guarantee that these important new tools and 
technologies reach and are utilized by producers and other 
stakeholders.
    As you lead the Congress in deliberation on funding levels for 
agricultural research and conservation, please consider American 
Society of Agronomy, Crop Science Society of America, and Soil Science 
Society of America as supportive resources. We hope you will call on 
our membership and scientific expertise whenever the need arises. Thank 
you for your thoughtful consideration of our requests. For additional 
information or to learn more about the American Society of Agronomy, 
Crop Science Society of America and Soil Science Society of America 
(ASA-CSSA-SSSA), please visit www.agronomy.org, www.crops.org or 
www.soils.org or contact ASA-CSSA-SSSA Director of Science Policy Karl 
Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3358545f5240565d5641735254415c5d5c5e4a1d5c4154">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99f2fef5f8eafcf7fcebd9faebf6e9eab7f6ebfe">[email&#160;protected]</a>, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="016a666d6072646f647341726e686d722f6e7366">[email&#160;protected]</a>).
                                 ______
                                 

           Prepared Statement of the Animal Welfare Institute

 ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)/ANIMAL WELFARE ACT 
                           (AWA) ENFORCEMENT

Administration Request--$21.522 Million--SUPPORT
    Over the past decade, the Committee has responded to the urgent 
need for increased funding for the Animal Care program (AC) to improve 
its inspections of more than 14,000 sites, including commercial 
breeding facilities, laboratories, zoos, circuses, and airlines, to 
ensure compliance with AWA standards. AC now has 105 inspectors, 
compared to 64 inspectors at the end of the 1990s. In 2006, they 
conducted more than 20,000 inspections, involving over 1 million 
animals in research facilities alone. This budget request of 
$21,522,000 will sustain the progress that has been made, as well as 
enable AC to hire more inspectors to handle its burgeoning 
responsibilities as the number of licensed/registered facilities 
continues to increase.

              APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES

Administration Request--$13.694 Million--SUPPORT
    APHIS' Investigative and Enforcement Services division is essential 
to meaningful enforcement of the AWA. Among other things, it 
investigates alleged violations of the AWA and undertakes appropriate 
enforcement action. Of the $13,694,000 for IES in the President's 
budget, $725,000 will be used to improve enforcement of federal animal 
welfare laws. The volume of animal welfare cases is rising 
significantly as new facilities become licensed and registered and AC 
is able to conduct more inspections.

  AGRICULTURAL RESEARCH SERVICE/NAL/ANIMAL WELFARE INFORMATION CENTER 
                                 (AWIC)

Administration Request--$0 OPPOSE NEEDED--$1.8 Million Line Item
    It is disturbing that the President's budget proposes elimination 
of the Animal Welfare Information Center. This would be a serious 
mistake that would adversely impact the welfare of animals used in 
research--and the quality of the research produced using animals. 
AWIC's services are vitally important to the Nation's biomedical 
research enterprise because they facilitate compliance with specific 
requirements of the federal animal welfare regulations and policies 
governing animal-related research.
    In fact, the AWIC was established by Congress under the Improved 
Standards for Laboratory Animals Act (the 1985 amendment to the Animal 
Welfare Act) to serve as a clearinghouse, training center, and 
educational resource for institutions using animals in research, 
testing and teaching. The Center is the single most important resource 
for helping personnel at more than 1,200 U.S. research facilities meet 
their responsibilities under the AWA. Supported by a modest funding 
level, its services are available to all individuals at these 
institutions, including cage washers, animal technicians, research 
investigators, attending veterinarians, Institutional Animal Care and 
Use Committee (IACUC) representatives and the Institutional Official.
    AWIC provides data on alleviating or reducing pain and distress in 
experimental animals (including anesthetic and analgesic procedures), 
reducing the number of animals used for research where possible, 
identifying alternatives to the use of animals for specific research 
projects, and preventing the unintended duplication of animal 
experiments. The Center collects, updates, and disseminates material on 
humane housing and husbandry, the functions and responsibilities of 
IACUCs, animal behavior, improved methodologies, psychological well-
being of primates, and exercise for dogs.
    There is general consensus between the biomedical research industry 
(including the National Association for Biomedical Research) and the 
animal welfare community about the need for increased funding. A number 
of individuals representing these disparate interests have endorsed the 
request for $1.8 million in funding for AWIC, see ttp://
www.awionline.org/pdf/Senate_AG_AWIC_SignOnMar08.pdf. The AWIC helps to 
improve the conduct of research, including the care provided to the 
animals who are used, thereby ensuring a reduction in variables that 
might skew the research. Better science is the end result.
    The AWIC website (http:www.nal.usda.gov/awic) is one of the most 
accessed sites at the NAL, with over 4 million hits in fiscal year 
2007, a 10 percent increase over fiscal year 2006. It provides valuable 
information on issues of importance not only to the science community 
but also to the agriculture and public health communities, including 
BSE and avian influenza, two of the top areas of inquiry for visitors 
to its website. In fiscal year 2007, in addition to hundreds of 
millions of kbytes of information downloaded from the website, more 
than 70,000 hard copies, paper and CD, were distributed as well. In 
fact, the number of CDs distributed increased 46 percent between fiscal 
year 2006 and fiscal 2007. AWIC staff provided over 1,300 personal 
reference services. They conducted 10 formal ``IACUC 101'' training 
workshops. Twenty-five exhibitions and/or presentations were conducted 
at such venues as the 6th World Congress on the Use of Animals in 
Research, Teaching, and Testing (Japan 2007), American Association for 
Laboratory Animal Science (AALAS) annual meeting, Society of 
Neuroscience, New Jersey Association for Biomedical Research, American 
Veterinary Medical Association, International Conference on 
Environmental Enrichment, American Association for the Advancement of 
Science and, Scientists Center for Animal Welfare meetings, and the 
Public Responsibility in Medicine and Research annual meeting.
    We greatly appreciate Congress' past support for AWIC to carry out 
its programs. Given its indispensability not only to assisting with 
compliance with the AWA but also to providing up-to-date information on 
a range of issues, from BSE to primate enrichment, that are critical to 
the scientific and agricultural communities, we recommend that AWIC be 
listed as a separate line item. We urge Congress to reject ARS' attempt 
to eliminate AWIC. On the contrary, it is essential to provide an 
appropriation of $1.8 million in fiscal year 2008 for desperately 
needed expansion to meet growing demand for AWIC's expertise on two 
fronts.
    First, as evidenced by the findings of an Office of Inspector 
General (OIG) audit, ``APHIS Animal Care Program Inspection and 
Enforcement Activities,'' there has been an increase in apparent 
violations of the AWA by research facilities over the past few years. 
There appears to be a significant problem with the oversight of IACUCs 
and the audit recommends training for IACUC members. In response to 
this need, we are requesting funds to allow AWIC to do the following:
  --Continue to conduct workshops at locations around the country 
        rather than being limited to conducting them only from the 
        Center's base in Maryland.
  --Hold a symposium on AWA requirements for IACUC nonaffiliated 
        members (i.e., members from the community charged with 
        representing the communities' concerns for the welfare of the 
        animals).
  --Work with Animal Care more closely to identify and assist those 
        licensees and registrants that are cited for AWA violations 
        most frequently.
    Second, increased funding is also necessitated by the expansion of 
AWIC's mandate to include the broader industry regulated under the 
Animal Welfare Act: animal dealers, carriers and handlers, zoos and 
other exhibitors. Other topics covered by the Center include animal 
diseases, animal models, animal training, and environmental enrichment 
for all species. Animal Care's veterinary medical officers and animal 
care inspectors are able to utilize the full range of services provided 
by the AWIC to better fulfill their responsibilities. The AWIC also 
works closely with both Animal Care and with Emergency Veterinary 
Services on emerging crises such as the highly pathogenic Avian 
Influenza. The Center is focused on transmissible spongiform 
encephalopathy, exotic Avian Newcastle disease, tuberculosis, West Nile 
Virus and microbacterial diseases.
    Among other endeavors, the $1.8 million would be used as follows: 
To support the addition of two much-needed positions whose jobs would 
be to expand the content of the Center's database and make it more 
user-friendly and searchable; exhibitions at major scientific 
conferences, including underserved areas of the country; workshops, in 
conjunction with Animal Care, to assist licensees and registrants 
frequently cited for AWA violations; informational workshops at 
research institutions across the country and locally at the Center; 
training for the NAL staff; acquisition of, including electronic access 
to, data; and the overhead that must be provided to the Agricultural 
Research Service and the National Agricultural Library.
    It is ironic that at the same time as the administration calls for 
eliminating AWIC, it seeks additional funding for the Agricultural 
Network Information Center (AgNIC), which provides ``quick and reliable 
access to quality agricultural information and sources'' and in which 
AWIC is a key partner and participant. The budget also proposes to 
improve information services for veterinary practitioners, but, by 
zeroing out AWIC, it in fact deprives those same veterinary 
practitioners--from those who treat companion animals and farm animals 
to those who are responsible for the welfare of research animals--of a 
vital and heavily utilized resource.
    Overall, ARS seeks ``an increase of $1 million for the continued 
improvement and expansion of products and services delivered by the 
National Agricultural Library . . .'' In fulfilling its Congressional 
mandate, AWIC serves this purpose effectively and efficiently and meets 
Performance Measure 2.1, which requires that the services and 
collections of the NAL continue to meet the needs of its customers. 
AWIC's value to the research community, other entities that must comply 
with the Animal Welfare Act, and the general public justifies not 
elimination but rather this modest proposed increase in its budget and 
its designation as a separate line item in the budget.

   APHIS/ANIMAL CARE'S ENFORCEMENT OF THE HORSE PROTECTION ACT (HPA)

Administration Request--$499,000--Support
Additional Request of $251,000, plus a one-time infusion of $1 million
    More than 35 years ago Congress adopted the HPA, yet soring of 
Tennessee Walking Horses continues to be a widespread problem. Soring 
is defined by APHIS as ``the application of any chemical or mechanical 
agent used on any limb of a horse or any practice inflicted upon the 
horse that can be expected to cause it physical pain or distress when 
moving.'' Horses are sored to produce an exaggerated gait, which is 
considered attractive by certain sectors of the equestrian community, 
despite the pain it causes to the horses in question.
    The most effective method to reduce soring and the showing of sored 
horses are to have Animal Care (AC) inspectors present at the shows 
where sored horses are exhibited to enforce the HPA (under which civil 
and criminal penalties may be assessed). Oftentimes, as soon as an AC 
inspector arrives at such a show, there is a rush to put horses back 
into trailers and haul them away so that any signs of soring cannot be 
detected. If the likelihood that an AC inspector will show up increases 
significantly, this will have a huge deterrent effect on those who 
routinely sore their horses. Yet AC was able to attend just 32 of 865 
events in fiscal year 2004 (the last year for which we have 
comprehensive figures)--less than 4 percent of all shows.
    In fact, lack of financial support has made it necessary for Animal 
Care to rely heavily on the Tennessee Walking Horse industry to assume 
responsibility for enforcement of the HPA. This is the very same 
industry that created the need for the HPA and has turned a blind eye 
to compliance with the law since its passage in 1970. Under the Act 
``Designated Qualified Persons'' (DQPs) are assigned by USDA as 
``inspectors'' from industry to assist AC in identifying sored horses 
and pursuing action against the individuals who are responsible. The 
history of the DQPs reveals their failure to achieve the level of 
enforcement of the unbiased, well-trained, professional inspectors who 
work for AC, as illustrated by radically different enforcement rates: 
In 2004 and 2005, the rate of violations cited at a variety of horse 
shows was as much as 23 times higher under USDA inspections versus DQP 
inspections.
    According to USDA, in 2005, of the samples taken by a gas 
chromatography machine (used to test for use of illegal substances to 
sore horses) at the Kentucky Celebration horse show, 100 percent 
indicated the presence of diesel fuel or another similar fuel plus 
numbing agents. Clearly the law is not being taken seriously by the 
industry.
    In September 2006, having ignored repeated warnings from USDA that 
too many horses were showing signs of soring, organizers eventually 
canceled the Shelbyville (TN) Celebration, the prestige event in the 
walking horse industry, after USDA inspectors disqualified seven of the 
ten finalists because of soring. This was an unprecedented action by AC 
and is a testament to USDA's commitment to vigorous enforcement of the 
HPA, despite threats to its inspectors and insufficient resources.
    Currently just eighteen individuals are disqualified from 
exhibiting horses under the HPA. Further, the amount of penalties 
assessed for violations of the law has dropped to a negligible amount. 
In addition to increasing the presence of inspectors, USDA must 
increase the penalties that it assesses or the industry will continue 
to defy the law with impunity. Congress should direct USDA to take this 
step and authorize the funds to enable such enforcement.
    An appropriation of at least $750,000 ($251,000 above the amount 
included in the President's Budget) is essential in fiscal year 2009 to 
permit AC to increase attendance at shows to ensure compliance with the 
Horse Protection Act. USDA also needs a one-time allocation of $1 
million to purchase additional equipment, such as digital radiography 
machines to take radiographs of the hoof to detect changes indicative 
of pressure-shoeing; and algometers, which apply consistent pressure 
during the examination process. Adding these machines to the 
inspectors' tools for verifying the use of soring techniques further 
enhances the objectivity and consistency of the evidence obtained.

 STRENGTHENED ENFORCEMENT OF HUMANE METHODS OF SLAUGHTER ACT (HMSA) BY 
             THE FOOD SAFETY AND INSPECTION SERVICE (FSIS)

    Congress has provided generous support for enforcement of the HMSA 
beginning in 2001. Yet a new report, Crimes Without Consequences: The 
Enforcement of Humane Slaughter Laws in the United States, http://
www.awionline.org/farm/humane_slaughter_report.htm, demonstrates the 
low priority FSIS places on humane treatment of animals at slaughter. 
Further, it would appear that despite the clear direction that monies 
should be used to hire new staff to work in the slaughter plants 
observing the handling, stunning and slaughter of live animals, FSIS 
has failed to do so. Seventeen veterinarians were hired by FSIS with 
funding from Congress, but the majority of their time is spent on other 
tasks.
    Animals are suffering needlessly because FSIS is not assigning 
individuals the sole responsibility of HMSA enforcement and placing 
them full-time (not full-time equivalent) in the plants where they can 
remain focused on assuring the welfare of live animals and immediately 
respond by stopping the line if they observe any apparent violations of 
the law. Egregious acts are occurring that could be prevented by a 
solid FSIS presence. Live conscious animals are being shackled, hoisted 
and cut or rolled into scalding tanks. An inspector in Missouri noted a 
hog whose feet had been removed, yet the animal was moving and appeared 
to be gasping for breath. Another inspector in an Arkansas plant noted 
that: ``At approximately 1:00 p.m. [a Holstein cow] had a 1 cm hole in 
its forehead from a captive bolt stunner. At 1:10 p.m. the cow had not 
been moved and was breathing regularly. An establishment employee tried 
to re-stun the animal twice but the hand held captive bold stunner did 
not fire.''
    Between 2002 and 2005, only 42 enforcement actions beyond issuances 
of deficiency reports for noncompliances with humane slaughter laws 
were taken. Crimes are going undetected, unrecognized or merely 
unreported--and even in the case of those that are reported, 
appropriate remedial action may not be taken. For the period October 1, 
2006 to September 30, 2007, humane handling and slaughter was the 
subject of only 1.9 percent of all USDA verification procedures, 0.6 
percent of all noncompliance records, and 17 percent of all plant 
suspensions.
    We oppose the installation of cameras in plants as an alternative 
to the presence of inspectors. Cameras cannot possibly catch all of the 
activity including the movement of animals off of trucks and through 
the stunning and slaughter process. Some plants have multiple lines and 
multiple shifts of employees. Who is going to watch all of the footage? 
And if violations occur, by the time they are noted it will be too late 
to help the animals who have already suffered before being killed. This 
proposal sounds more like a desperate attempt to dupe the public into 
believing that the problem has been taken care of, rather than a real 
solution.
    Additional funding might permit the hiring of full-time inspectors 
devoted to ensuring humane treatment of live animals. However, does 
FSIS have the will? We are gravely concerned that it does not.
                                 ______
                                 

 Prepared Statement of the Coalition on Funding Agricultural Research 
                                Missions

    The Coalition on Funding Agricultural Research Missions (CoFARM) 
appreciates the opportunity to submit testimony on the fiscal year 2009 
appropriation for the United States Department of Agriculture (USDA). 
CoFARM is a coalition of 24 professional scientific organizations with 
over 200,000 members dedicated to advancing and sustaining a balanced 
investment in our Nation's research portfolio.
    The USDA sponsors research and education programs which contribute 
to solving agricultural problems of high national priority and ensuring 
food availability, nutrition, quality and safety, as well as a 
competitive agricultural economy. Agriculture faces new challenges, 
including threats from emerging infectious diseases in plants and 
animals, climate change, and public concern about food safety and 
security. It is critical to increase the visibility and investment in 
agriculture research to respond to these challenges. We are concerned 
that the NRI has suffered from flat funding since fiscal year 2007. We 
urge the subcommittee to provide a 10 percent increase for the NRI in 
fiscal year 2009. CoFARM recommends $270 million for the NRI in fiscal 
year 2009.
    This recommended funding level will provide a 10 percent, $19 
million, increase for the NRI base programs, and cover the directed 
funding included in the fiscal year 2009 administration request of $42 
million for the proposed transfer of integrated programs, and $19 
million for bioenergy research. A 10 percent increase to the NRI will 
(1) restore funding to this important program; (2) restore lost 
purchasing power that this erosion of funding has caused; and (3) 
provide investments that begin to truly meet the food, energy, and 
environmental challenges facing the Nation.

USDA National Research Initiative Competitive Grants Program
    The National Research Initiative Competitive Grants Program (NRI) 
was established in 1991 in response to recommendations outlined in the 
report, Investing in Research: A Proposal to Strengthen the 
Agricultural, Food and Environmental System, by the National Research 
Council's (NRC) Board of Agriculture. This report called for increased 
funding by USDA of high priority research through a competitive peer-
review process directed at:
  --Increasing the competitiveness of U.S. agriculture.
  --Improving human health and well-being through an abundant, safe, 
        and high-quality food supply.
  --Sustaining the quality and productivity of the natural resources 
        and the environment upon which agriculture depends.
    Stakeholders of the research community continue their interest in 
and support of the NRI, which is reflected in two subsequent NRC 
reports, Investing in the National Research Initiative: An Update of 
the Competitive Grants Program of the U.S. Department of Agriculture, 
published in 1994, and National Research Initiative: A Vital 
Competitive Grants Program in Food, Fiber, and Natural Resources 
Research, published in 2000.
    Today, the NRI, housed within USDA's Cooperative State Research, 
Education, and Extension Service (CSREES), supports research on key 
problems of national and regional importance in biological, 
environmental, nutritional, physical, and social sciences relevant to 
agriculture, food, health and the environment on a peer-reviewed, 
competitive basis. Additionally, NRI enables USDA to develop new 
partnerships with other Federal agencies that advance agricultural 
science like its current collaborations between NRI and DOE and NSF.
    The NRI funds the most cutting-edge agricultural research within 
the United States. In the September 2007 report, ``Economic Returns to 
Public Agriculture Research,'' The USDA Economic Research Service (ERS) 
reviewed over 35 economic studies of the social rate of return to 
investments in agriculture. The report shows the average rate of return 
on public investment in agriculture research is 45 percent or for every 
dollar spent on agricultural research, the return is approximately $10. 
These returns are shared by all levels of the industry, from producers 
to consumers. However, if America is to maintain the most abundant, 
most affordable, and safest food supply in the world, funding levels 
need to be increased towards the NRI's authorized amount of $500 
million.
    Because of the federal investment made since 1991, we have gained 
valuable new knowledge in areas such as:

Food Safety and Nutrition
  --USDA funded competitive research has supported studies to 
        understand incentives for firms to adopt food safety controls 
        and industry response to losses when products are recalled for 
        food safety violations.
  --USDA supported scientists identified a safe and effective new 
        sanitizer (SANOVA) that achieved a 5-log reduction of E. coli, 
        Listeria, and Salmonella on produce even in the presence of 
        large organic loads. The researchers optimized sanitation 
        treatment procedures to ensure good quality of shredded carrot 
        and fresh-cut lettuce while maintaining the effective killing 
        power of the sanitizer. This research is critical considering 
        there are approximately 76 million foodborne illness cases in 
        the United States per year and the findings from this research 
        is especially useful to the fresh produce industry as they 
        provide practical information in selecting a suitable sanitizer 
        to maintain microbial safety and quality of fruits and 
        vegetables.
  --Iowa State University researchers have studied fatty acid 
        composition in beef and dairy cattle through a NRI funded 
        grant. They have discovered a single nucleotide polymorphism 
        that is correlated to content of C14-O (myristic acid, the most 
        atherogenic of saturated fatty acids) of beef. Thus, the marker 
        in the throesterase domain in fatty acid synthase gene can be 
        used to select for healthier beef.
  --University of Illinois scientists are involved with the assessment 
        of general risk posed from transgenic animals, which is 
        important to their future contributions to society. 
        Identification of potentially harmful properties of transgenic 
        livestock is the initial step in a risk assessment. Direct and 
        indirect impacts of potential harmful properties of transgenic 
        livestock are being evaluated at three levels: (1) 
        characterization of how the transgene, the transgene product, 
        and the transgenic livestock behave in their immediate 
        environment, that is, in their barn or pen, (2) determination 
        of possible impacts of large scale release of transgenic 
        livestock, that is, if they were to be integrated into the 
        larger population of food animal livestock, and (3) 
        determination of the more complex environmental and safety 
        consequences of their release into the livestock population. 
        This study will determine whether a mammary specific transgene, 
        bovine a-lactalbumin (Ba-LA) is expressed in tissues other than 
        the mammary gland and whether the transgene (Tg) itself, the 
        transgenic RNA or the transgenic protein cross over into non-
        transgenic (C) animals under various physiological and physical 
        conditions.

Renewable Energy and Fuels
  --In a time of volatile gasoline prices, USDA dollars have helped 
        provide economic and policy analyses for specific renewable 
        energy technologies and will estimate national impacts of 
        certain renewable energy policy alternatives.
  --An April 2005 joint study of the U.S. Departments of Energy and 
        Agriculture found that with continued advances in research 
        there will be enough renewable biomass grown in the United 
        States to meet more than one-third of the current demand for 
        transportation fuels in the Nation, without diverting from food 
        crop production.\1\ With advances in plant and microbial 
        research, land in every state in the Nation could be used to 
        grow plants that produce clean-burning cellulosic ethanol 
        resulting in decreased dependence on foreign oil, reduction of 
        the trade deficit, reduced emissions of stored greenhouse 
        gases, revitalized rural economies and strengthened national 
        security.
---------------------------------------------------------------------------
    \1\ ``Biomass as Feedstock for a Bioenergy and Bioproducts 
Industry: The Technical Feasibility of a Billion-Ton Annual Supply, 
April 2005'' http://www1.eere.energy.gov/biomass/pdfs/
final_billionton_vision_report2.pdf
---------------------------------------------------------------------------
Plant and Animal Health and Well-Being
  --Pennsylvania researchers are developing rapid diagnostic tests to 
        curb avian influenza, a disease that could cripple the state's 
        $700 million poultry industry.
  --Entomologists and Nematologists developed a vaccine for the 
        protection of cattle from the horn fly, a major insect pest in 
        many parts of the world costing the North American cattle 
        industry alone more than $1 billion annually.
  --Iowa State University researchers studied fatty liver syndrome in 
        dairy cattle. They found that daily injections of glucagon can 
        be used to prevent and treat fatty liver in transition dairy 
        cows. A patent has been issued for this technology.

Waste Remediation
  --Researchers in Florida have tested a common fern's ability to soak 
        up arsenic, a cancer-causing heavy metal, from contaminated 
        soils. The market for plant-based remediation of wastes is 
        estimated to be $370 million in 2005.
    The NRI supports research on key issues of timely importance 
relevant to agriculture, economics, energy, the environment, food, and 
nutrition on a competitive, peer-reviewed basis. CoFARM encourages you 
to help move American agricultural research forward through your strong 
fiscal support of the USDA NRI program.
    We urge you to provide $270 million for the NRI in fiscal year 
2009, which will help to continue to boost the American agricultural 
enterprise and improve our economy by increasing food safety, boosting 
production, protecting the environment, finding new uses for renewable 
resources, and enhancing food itself so that food and agricultural 
systems contribute to a stronger and more healthful society. Research 
programs in nutrition and food science help to ensure high-quality, 
safe, and affordable food for consumers, and contribute to the success 
of a food and agricultural system that creates jobs and income in the 
United States.
    CoFARM appreciates the opportunity to provide written testimony and 
would be pleased to assist the subcommittee as the Department of 
Agriculture bill is considered throughout the appropriations process. 
Please contact the Chair, Whitney Tull, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99eeedecf5f5d9f8eaf4eceaf8b7f6ebfe">[email&#160;protected]</a> with any 
questions.
                                 ______
                                 

Prepared Statement of the Colorado River Basin Salinity Control Program

    The Congress concluded that the Colorado River Basin Salinity 
Control Program (Program) should be implemented in the most cost-
effective way. Realizing that agricultural on-farm strategies were some 
of the most cost-effective strategies, the Congress authorized a 
program for the United States Department of Agriculture (USDA) through 
amendment of the Colorado River Basin Salinity Control Act in 1984. 
With the enactment of the Federal Agriculture Improvement and Reform 
Act of 1996 (FAIRA), the Congress directed that the Program should 
continue to be implemented as one of the components of the 
Environmental Quality Incentives Program (EQIP). Since the enactment of 
the Farm Security and Rural Investment Act (FSRIA) in 2002, there have 
been, for the first time in a number of years, opportunities to 
adequately fund the Program within the EQIP. Now it is anticipated that 
Congress will this year with the passage of a new Farm Bill further 
define how the Colorado River Basin States can cost share in a newly 
designated ``Basin States Program.''
    The Program, as set forth in the Colorado River Basin Salinity 
Control Act, is to benefit Lower Basin water users hundreds of miles 
downstream from salt sources in the Upper Basin as the salinity of 
Colorado River water increases as the water flows downstream. There are 
very significant economic damages caused by high salt levels in this 
water source. Agriculturalists in the Upper Basin where the salt must 
be controlled, however, don't first look to downstream water quality 
standards but look for local benefits. These local benefits are in the 
form of enhanced beneficial use and improved crop yields. They submit 
cost-effective proposals to the State Conservationists in Utah, Wyoming 
and Colorado and offer to cost share in the acquisition of new 
irrigation equipment. The Colorado River Basin Salinity Control Act 
provides that the seven Colorado River Basin States will also cost 
share with the Federal funds for this effort. This has brought together 
a remarkable partnership.
    After longstanding urgings from the States and directives from the 
Congress, the USDA has concluded that this program is different than 
small watershed enhancement efforts common to the EQIP. In this case, 
the watershed to be considered stretches more than 1,200 miles from the 
river's headwater in the Rocky Mountains to the river's terminus in the 
Gulf of California in Mexico and receives water from numerous 
tributaries. The USDA has determined that this effort should receive a 
special funding designation and has appointed a coordinator for this 
multi-state effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that over $19 million be used for the Program. The 
Colorado River Basin Salinity Control Forum (Forum) appreciates the 
efforts of the NRCS leadership and the support of this subcommittee. 
The plan for water quality control of the Colorado River was prepared 
by the Forum, adopted by the States, and approved by the United States 
Environmental Protection Agency (EPA). The Colorado River Basin 
Salinity Control Advisory Council has taken the position that the 
funding for the salinity control program should not be below $20 
million per year. Over the last 3 fiscal years, for the first time, 
funding almost reached the needed level. State and local cost-sharing 
is triggered by the Federal appropriation. In fiscal year 2008, it is 
anticipated that the states will cost share with about $8.3 million and 
local agriculture producers will add another $7.5 million. Hence, it is 
anticipated that in fiscal year 2008 the State and local contributions 
will be 45 percent of the total program cost.
    Over the past few years, the NRCS has designated that about 2.5 
percent of the EQIP funds be allocated to the Colorado River salinity 
control program. The Forum believes this is the appropriate future 
level of funding as long as the total EQIP funding nationwide is around 
$1 billion. Funding above this level assists in offsetting pre-fiscal 
year 2003 funding below this level. The Basin States have cost sharing 
dollars available to participate in funding on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are waiting for 
their applications to be considered so that they might improve their 
irrigation equipment and also cost share in the Program.

Overview
    The Program was authorized by the Congress in 1974. The Title I 
portion of the Colorado River Basin Salinity Control Act responded to 
commitments that the United States made, through a Minute of the 
International Boundary and Water Commission, to Mexico specific to the 
quality of water being delivered to Mexico below Imperial Dam. Title II 
of the Act established a program to respond to salinity control needs 
of Colorado River water users in the United States and to comply with 
the mandates of the then newly-enacted Clean Water Act. This testimony 
is in support of funding for the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. The Congress agreed and revised the act in 1984. That 
revision, while keeping the Department of the Interior as lead 
coordinator for Colorado River Basin salinity control efforts, also 
gave new salinity control responsibilities to the USDA. The Congress 
has charged the administration with implementing the most cost-
effective program practicable (measured in dollars per ton of salt 
controlled). It has been determined that the agricultural efforts are 
some of the most cost-effective opportunities.
    Since Congressional mandates of 3 decades ago, much has been 
learned about the impact of salts in the Colorado River system. The 
Bureau of Reclamation (Reclamation) has conducted studies on the 
economic impact of these salts. Reclamation recognizes that the damages 
to United States water users alone are hundreds of millions of dollars 
per year.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report evaluating the salinity of the Colorado 
River, its anticipated future salinity, and the program elements 
necessary to keep the salinity concentrations (measured in Total 
Dissolved Solids--TDS) at or below the levels measured in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations in 1972 have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review of water quality standards 
includes an updated Plan of Implementation. In order to eliminate the 
shortfall in salinity control resulting from inadequate Federal funding 
for a number of years from the USDA, the Forum has determined that 
implementation of the Program needs to be accelerated. The level of 
appropriation requested in this testimony is in keeping with the agreed 
upon plan. If adequate funds are not appropriated, significant damages 
from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salts in the river cause $330 million in 
quantified damages and significantly more in unquantified damages in 
the United States and result in poorer quality water being delivered by 
the United States to Mexico. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    For every 30 mg/L increase in salinity concentrations, there is $75 
million in additional damages in the United States. The Forum, 
therefore, believes implementation of the USDA program needs to be 
funded at 2.5 percent of the total EQIP funding.
    Although the Program thus far has been able to implement salinity 
control measures that comply with the approved plan, recent drought 
years have caused salinity levels to rise in the river. Predictions are 
that this will be the trend for the next several years. This places an 
added urgency for acceleration of the implementation of the Program.

State Cost-Sharing and Technical Assistance
    The authorized cost sharing by the Basin States, as provided by 
FAIRA, was at first difficult to implement as attorneys for the USDA 
concluded that the Basin States were authorized to cost share in the 
effort, but the Congress had not given the USDA authority to receive 
the Basin States' funds. After almost a year of exploring every 
possible solution as to how the cost sharing was to occur, the States, 
in agreement with Reclamation, State officials in Utah, Colorado and 
Wyoming and with NRCS State Conservationists in Utah, Colorado and 
Wyoming, agreed upon a program parallel to the salinity control 
activities provided by the EQIP wherein the States' cost sharing funds 
are being contributed and used. We now have several years of experience 
with that program.
    The Salinity Control Act designates that the Secretary of the 
Interior provide the coordination for the Federal agencies involved in 
the salinity control program. That responsibility has been delegated to 
the United States Bureau of Reclamation (BOR). BOR administers the 
Basin States cost sharing funds that have been used in the Parallel 
Program. The BOR requested that there be enacted clearer authority for 
the use of these funds. In response, there is a provision in the Farm 
Bill now under consideration that would create a ``Basin States 
Program'' that will replace the Parallel Program.
    With respect to the use of Basin States' cost sharing funds in the 
past, the Basin States felt that it was most essential that a portion 
of the Program be associated with technical assistance and education 
activities in the field. Without this necessary support, there is no 
advanced planning, proposals are not well prepared, assertions in the 
proposals cannot be verified, implementation of contracts cannot be 
observed, and valuable partnering and education efforts cannot occur. 
Recognizing these values, the ``parallel'' State cost sharing program 
has expended 40 percent of the funds available on these needed support 
activities made possible by contracts with the NRCS.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2009. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP.
    The Program, as set forth in the act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of million of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin States through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each State develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every three years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2005 titled: 2005 Review, Water Quality Standards for Salinity, 
Colorado River System (2005 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $376 
million in quantified damage in the United States (there are 
significant un-quantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding but at least $20 million annually. Over the 
past few years, the Natural Resources Conservation Service (NRCS) has 
designated 2.5 percent of EQIP funds be allocated to the Colorado River 
Salinity Control program. The Forum suggests that this is an 
appropriate level of funding as long as it does not drop below $20 
million. Funding above this level assists in offsetting pre-fiscal year 
2003 funding below this level. The Colorado River Board supports the 
recommendation of the Forum and urges this subcommittee to support 
funding for the Colorado River Basin Salinity Control Program for 2009 
at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2009, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 

     Prepared Statement of the Colorado River Commission of Nevada

    Dear Chairman Kohl: As a Nevada representative of the Colorado 
River Basin Salinity Control Forum, the Colorado River Commission of 
Nevada (CRC) is writing in support of full funding of the Department of 
Agriculture's fiscal year 2009 appropriations for the Environmental 
Quality Incentives Program (EQIP) and recommends that this Committee 
advise the administration that 2.5 percent of the EQIP funds be 
designated for the Colorado River Basin Salinity Control Program. The 
CRC believes this is the appropriate future level of funding as long as 
the total EQIP funding nationwide is around $1 billion.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations for the Colorado River Basin Salinity 
Control Program is essential to move the program forward so that the 
congressionally directed salinity objectives are achieved.
                                 ______
                                 

                   Prepared Statement of Easter Seals

    Easter Seals appreciates the opportunity to report on the notable 
accomplishments of the USDA Cooperative State Research, Education, and 
Extension Service (CSREES) AgrAbility Program and request that funding 
for the AgrAbility Program be increased to $5 million in fiscal year 
2009. We are also pleased to request a $2 million appropriation for the 
Grants for Expansion of Employment Opportunities for Individuals with 
Disabilities in Rural Areas within USDA Rural Development. We are also 
pleased to share information about other areas where we support USDA 
activity to provide services to rural residents with disabilities.

                               AGRABILITY

What is AgrAbility?
    The AgrAbility Program is an essential, unduplicated, hands-on 
resource for farmers, ranchers, and farmworkers with disabilities and 
their families. AgrAbility is the only USDA program dedicated 
exclusively to helping agricultural producers with disabilities. It 
demonstrates the value of public-private partnership by securing 
donations of funds, talent, and materials to magnify the impact of a 
modest Federal investment. The fiscal year 2008 appropriation of $4.759 
million is funding 21 projects serving 24 States.
    AgrAbility is a program authorized through a provision in the 1990 
Farm Bill that provides information and technical assistance to 
farmers, ranchers, and farmworkers with disabilities. Congress began 
funding the project in 1991 and has continued to do so each year since. 
The U.S. Department of Agriculture Cooperative State Research, 
Education, and Extension Service (CSREES)--a network that links 
research, science, and technology to meet the needs of people where 
they live and work--administers the AgrAbility Program. CSREES awards 
program funds though a competitive grant process to land-grant 
universities that have partnered with at least one nonprofit disability 
service provider to provide education and assistance to agricultural 
workers with disabilities and their families.
    A network comprised of a National AgrAbility Project and numerous 
State AgrAbility Projects provides program services in over half of the 
States in the U.S. Currently, State-level USDA-funded AgrAbility 
projects serve clients in: California, Colorado, Delaware, Georgia, 
Idaho, Indiana, Kansas, Maine, Maryland, Michigan, Minnesota, 
Mississippi, Missouri, Nebraska, New Hampshire, Oklahoma, Pennsylvania, 
Tennessee, Utah, Vermont, Virginia, West Virginia, Wisconsin, and 
Wyoming. In addition, previously USDA-funded projects in Illinois, 
Iowa, Kentucky, Louisiana, North Carolina and Texas continue to serve 
agricultural workers with disabilities and their families.
    The National AgrAbility Project partners, University of Wisconsin-
Extension, Cooperative Extension Service and Easter Seals, collaborate 
to support State AgrAbility Project activities. The State projects 
provide the direct on-site services to farmers, ranchers, and 
farmworkers with disabilities and other chronic health conditions. 
AgrAbility Project services are available to people of all races, 
creeds, genders, abilities, and national origins. The project staff 
works with operators regardless of the size of their operations or 
extent of their resources.

Why is AgrAbility Needed?
    Agricultural production is hazardous. Over 700 farmers and ranchers 
die in work-related incidents yearly and another 120,000 workers 
sustain disabling injuries from work-related incidents (National Safety 
Council, 2002). In addition, the USDA National Agricultural Statistics 
Service estimates that more than 200,000 farmers, ranchers, and other 
agricultural workers experience lost-work-time injuries and 
occupational illnesses every year, approximately 5 percent of which 
have serious and permanent results. Off-farm incidents; health 
conditions, such as heart disease, arthritis, or cancer; and aging 
disable tens of thousands more. Nationwide, approximately 288,000 
agricultural workers between the ages of 15 and 79 have a disability 
that affects their ability to perform one or more essential tasks 
(Bureau of Labor Statistics, 1999).
    Additionally, like their urban counterparts, approximately 20 
percent of children and other family members in agricultural families 
have disabilities, such as cerebral palsy, mental retardation, and 
epilepsy. Physical and attitudinal barriers often prevent these 
children and adults from participating fully in farm and ranch 
operations, and from engaging in social and recreational activities 
enjoyed by other rural residents.
    For most of the over three million Americans earning their livings 
in agriculture, the work is not just their livelihood--it is their way 
of life--a productive and satisfying way of life of which they are very 
proud. This is also true for the majority of people with disabilities 
or chronic health conditions who work or live in agricultural settings. 
These people want to find ways to accommodate their disabilities and 
continue to farm. All too often, however, they are frustrated in their 
attempts. Rural isolation, limited personal resources, limitations in 
rural health delivery systems, and inadequate access to agriculture-
oriented assistance, are among the obstacles they face.

How Does AgrAbility Help?
    The AgrAbility Project offers education and assistance to help 
identify ways to accommodate disabilities and chronic health 
conditions, eliminate barriers, and create a favorable climate among 
rural service providers for people with disabilities. AgrAbility helps 
to prevent people from being forced out of agriculture because of their 
disabilities and provides them with ideas for safe, affordable 
solutions that allow them to maintain their businesses and rural 
lifestyles.

Who Does AgrAbility Serve?
    Farmers, ranchers, and farmworkers involved in all types of 
production agriculture who have any type of disability (physical, 
cognitive, or sensory) or chronic health condition may receive 
services. Family members who have a disability or chronic health 
condition may also receive assistance.

Who are the AgrAbility Clients?
    AgrAbility serves people with all disabilities and people of all 
ages. Rick Eberhart of Ogema, Wisconsin is a great example. Growing up 
a city boy, Mr. Eberhart knew farming was in his future thanks to 
summer visits to his uncle's farm. When a banker told an 18-year-old 
Eberhart that he wouldn't be able to own a farm unless he had a 
relative to inherit from, Eberhart took that as a personal challenge to 
prove the banker wrong.
    Eberhart started out with 80 acres that had not been farmed for 18 
years. Through hard work, long hours, an off-farm job and sheer 
determination, Eberhart did prove the banker wrong about his future in 
farming. However, he's experienced many obstacles on the road to owning 
his now 137-acre dairy farm.
    At a glance, Eberhart appears to have no physical ailments, but 
nearly 5 years ago, he was diagnosed with a form of Leukemia. Three 
months later, he received a bone marrow transplant, and doctors gave 
him a 20 percent chance of survival. At the time of his diagnosis, 
Eberhart had no energy to perform even the simplest task on his farm; 
just walking the length of a cattle trailer exhausted him.
    After the transplant, he spent 39 days in the hospital and only had 
about an hour's worth of energy before becoming exhausted after he 
returned home. Eberhart initially called AgrAbility of Wisconsin when 
he was diagnosed, but he was very apprehensive. According to Eberhart, 
``I thought it was just another bunch of people collecting a 
paycheck.'' When he came home from the hospital he asked himself why he 
was beating his head against the wall trying to farm with his physical 
limitations, and decided to sign up for AgrAbility services.
    After being added to the Division of Vocational Rehabilitation's 
(DVR) waiting list, he was contacted by Carlene Volbrecht, Rural 
Rehabilitation Specialist for the Easter Seals Wisconsin FARM Program 
(ESW). ``When I was finally contacted, I knew there was a light at the 
end of the tunnel,'' Eberhart explained.
    Volbrecht and Gwen Steele, a DVR counselor, worked together to find 
the assistive technology that would work best to help Eberhart with his 
day-to-day activities. Eberhart's rotational grazing program requires 
maintaining and moving fence line, as well as collecting cattle from 
the pasture. He had also developed a higher sensitivity to the weather 
as a result of his cancer. Thus, Volbrecht suggested a utility vehicle 
with a cab. After test-driving several models, Eberhart found the 
Bobcat manufacturer's utility vehicle worked best for entering, 
exiting, and moving around the farm. Eberhart purchased a silo unloader 
at an auction to eliminate the need to climb the silo, but was unable 
to install it himself. With DVR's help, the unloader was professionally 
installed. DVR also helped Eberhart purchase an electric feed cart. The 
electric cart decreases the labor required to feed the cattle inside 
and outside. To further assist Eberhart, a concrete pad will be added 
to the barnyard. This will allow Eberhart to easily move the feed cart 
to feed cattle outside.
    Bedding cattle required Eberhart to climb into the mow, drop bales 
into the barn below and shake the straw out by hand. To reduce the 
amount of energy needed to carry the straw bales and bed, Volbrecht 
suggested fixing the current bedding chopper and installing cow mats in 
the barn to reduce the straw needed on a daily basis.
    With the help of AgrAbility and DVR, Eberhart found it was easier 
to complete his daily tasks. Currently, he can work for about three and 
a half hours before he needs to rest. His goal is to continue to build 
up his strength so he can work longer hours doing what he has always 
loved. Eberhart admits, ``If it hadn't been for Easter Seals [AAW and 
DVR], I probably would have given up.''

What Services Do AgrAbility Clients Receive?
    AgrAbility clients benefit from partnerships between the extension 
services at land-grant universities and nonprofit disability service 
organizations. Together members of each AgrAbility Project staff 
provide clients with direct on-site assistance that includes the 
following activities.
  --Assessing agricultural tasks and providing guidance on how to 
        restructure them to accommodate the clients' disabilities.
  --Reviewing agricultural worksites and equipment and making 
        suggestions for modifications.
  --Identifying ways to prevent secondary injuries and disabilities.
  --Coordinating needed community resources and services by
    --putting them in touch with community volunteers who have the 
            ingenuity and contacts to augment AgrAbility project 
            support;
    --linking them to a network of engineers, health and rehabilitation 
            service providers, agricultural experts, product 
            manufacturers and suppliers, educators, skilled tradesmen, 
            and other rural resources; and
    --helping them access existing services within public agencies, 
            including State vocational rehabilitation agencies and 
            assistive technology centers, to maximize benefits 
            available to them.
  --Referring individuals and family members to and facilitating 
        participation in peer support groups.

How Does Collaboration Benefit Clients?
    The AgrAbility projects build collaborations with State offices of 
vocational rehabilitation, State assistive technology projects, and 
farm and community business organizations, such as agricultural 
cooperatives, Farm Bureau, or Lion's Club. AgrAbility clients benefit 
from the added expertise and resources such collaborations bring to the 
projects. Many AgrAbility projects have developed contractual 
arrangements with their State's vocational rehabilitation office that 
provide a win-win for the client, the project, and the State.

What Services Does the National AgrAbility Project Provide?
    The National AgrAbility Project staff provides training and 
technical assistance, and information on available resources to the 
State AgrAbility project staffs through a variety of means, including:
  --annual National AgrAbility Project Training Workshops,
  --toll-free telephone consultations,
  --an online library of technical resources, and
  --collaboration on and presentations at statewide educational 
        activities.
    In addition, the National AgrAbility Project staff:
  --provides direct technical consultation on developing assistive 
        technology solutions to clients, rehabilitation engineers, and 
        fabricators;
  --presents information about AgrAbility at national agricultural and 
        health-related events; and
  --develops and disseminates new educational materials relevant to 
        farming and ranching with disabilities.
    These and other activities all help to meet the goal of promoting 
awareness that with technical assistance, information, and education 
farmers, ranchers, and farmworkers with disabilities can successfully 
continue to do the work they know and love.

How are Federal Resources Maximized and New Resources Secured?
    National and State project staffs seek to form partnerships and 
alliances with corporations and organizations that will help expand the 
reach and services of the program. Additional efforts are made to 
secure financial and in-kind contributions to augment the base funds 
provided through the USDA-SREES grants. These efforts help maximize the 
Federal support and invest community and corporate leaders in the 
mission and work of the AgrAbility Project--Promoting success in 
agriculture for farmers, ranchers, and farmworkers with disabilities. 
Such efforts also provide these leaders with a tangible way to give 
back to the rural communities in which they live and/or conduct 
business. By supporting the AgrAbility Project, they are helping their 
customers who face the challenges of accommodating their disabilities 
while continuing to work in agricultural production.

Funding Request
    The need for AgrAbility services has never been greater, and its 
accomplishments to date are remarkable by any standard. More States 
than ever are applying for funding in every competitive grant cycle and 
outstanding State projects are not being funded. Easter Seals is proud 
to contribute to the ongoing success of the USDA-CSREES AgrAbility 
Program. Please support the allocation of at least $5 million for 
AgrAbility in fiscal year 2009 to ensure that this valuable public-
private partnership continues to serve rural Americans with 
disabilities and their families. Thank you for this opportunity to 
share the successes and needs of the USDA AgrAbility Program.

 GRANTS FOR EXPANSION OF EMPLOYMENT OPPORTUNITIES FOR INDIVIDUALS WITH 
                      DISABILITIES IN RURAL AREAS

    Easter Seals strongly believes that rural residents with 
disabilities need to have access to the services and supports that help 
them live, learn and play in their communities. About one in five 
Americans lives in a rural area. Of that number, an estimated 12.5 
million are people with disabilities. Compared with metropolitan areas, 
the following is true for rural America.
  --The incidence of disability and chronic health conditions is higher
  --Gaps in service delivery systems and infrastructure are more 
        prevalent
  --Average incomes are lower and job opportunities fewer
  --The percentage of older adults is higher
  --Service providers often lack capacity to assist residents properly
  --Physical and attitudinal barriers are more wide-spread
    There is also a significant impact on the community when families 
are thrust into the caregiving role. Too often, this results in a 
gainfully employed person leaving the workforce or even leaving a 
community to a more urban or suburban area to find services and 
supports.
    To that end, Easter Seals asks Congress to support all rural 
residents with disabilities by focusing on the needs of rural residents 
with disabilities in all USDA programs and by creating unique resources 
within USDA that will support people with disabilities in rural 
communities. This includes strengthening access to services so that 
rural residents with disabilities can get the services they need to 
contribute to the economy and social success of rural communities.
    The Senate version of the Farm Bill reauthorization, currently 
being debated includes authorization for a new program within USDA 
Rural Development titled ``Grants for Expansion of Employment 
Opportunities for Individuals with Disabilities in Rural Areas'' in 
Section 379E of the bill. This program is greatly needed in rural 
communities and will help enhance the ability of small business owners 
in rural communities to be better equipped to recruit, employ and 
retain employees with disabilities and will enhance self-employment and 
entrepreneurship opportunities for rural residents with disabilities. 
The mechanism to achieve this goal is the development of national 
technical assistance and education resources through grants to national 
nonprofit organizations with a strong history of serving rural 
residents with disabilities and a close relationship with USDA.

Funding Request
    The need for support to increase employment opportunities for rural 
residents with disabilities is significant and growing. Easter Seals is 
proud to contribute to the increase in attention to services and 
supports that are needed and currently lacking in rural communities for 
residents with disabilities. Please support the allocation of at least 
$2 million for the ``Grants for Expansion of Employment Opportunities 
for Individuals with Disabilities in Rural Areas'' in fiscal year 2009 
to ensure that this valuable public-private partnership can be 
initiated. Thank you.
                                 ______
                                 

             Prepared Statement of Florida State University

    Florida State University is requesting $5,000,000 in fiscal year 
2009 for the Risk Reduction for Agricultural Crops Program and 
$2,000,000 for the Apalachicola River Coastal Watershed/Marine 
Environment Initiative from the from the U.S. Department of 
Agriculture, Cooperative State Research, Education and Extension 
Service (CSREES)/Federal Administration Account.
    Mr. Chairman, I would like to thank you and the Members of the 
subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $190 
million this past year in research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. Since 
2005, FSU students have won more than 30 nationally competitive 
scholarships and fellowships including 2 Rhodes Scholarships, 2 Truman 
Scholarships, Goldwater, Jack Kent Cooke and 18 Fulbright Fellowships.
    At Florida State University, we are proud of our successes as well 
as our emerging reputation as one of the Nation's top public research 
universities.
    Mr. Chairman, let me summarize two important projects we are 
pursuing this year. The first involves mitigating climate impact for 
agriculture.
    The current drought, which is one of the worst in recent history, 
has had a significant impact on the water resources in Georgia, Alabama 
and Florida. It has reemphasized the vulnerability of the citizens to 
climate variability and climate extremes. The Federal Government can 
reduce these risks by using modern technologies such as climate models, 
which can predict future climate, and decision support tools to help 
mitigate some of these uncertainties and provide adaptation strategies 
for the agricultural and environmental sectors. The Southeast Climate 
Consortium (SECC), which encompasses Florida State University, 
University of Florida, University of Miami, University of Georgia, 
Auburn University, and University of Alabama at Huntsville, has been at 
the forefront of research and extension for the application of climate 
predictions to risk reduction for agriculture and natural resources. 
With support from USDA and NOAA, the SECC has developed new methods to 
predict the consequences of climate variability for agricultural crops, 
forests, and water resources in the southeastern United States. In 
recent real-life tests, these methods have been applied to the problems 
that farmers raising specialty crops face arising from variable 
rainfall, temperature, and wild fires.
    In the SECC, FSU will provide the climate forecasts and risk 
reduction methodology. UF and UG will translate this climate 
information into risks and environmental impacts on agriculture and, 
with Auburn, will work with Extension to provide info to the ag 
community. UM will provide economic modeling. Together we are 
developing new tools to help minimize climate risks to water quality 
and quantity. FSU, on behalf of the SECC, seeks $5.0 million in fiscal 
year 2009 for this activity. These tools and application of agriculture 
and natural resources has strong support of extension programs.
    New tasks this year include developing improved methods to forecast 
droughts for agriculture and forest producers to manage resources to 
reduce risks of losses and environmental damage; developing 
partnerships and methods for incorporating climate forecasts into 
agricultural and water policy decisions; and initiating the development 
of a decision support system for climate forecasts to water resources 
management, especially for agricultural water use. We are requesting 
$5,000,000 in fiscal year 2009 for this important project.
    Our second project involves the health of our Gulf ecosystem.
    FSU is proposing an interdisciplinary research project to 
investigate the linkages between Apalachicola river flow, fishery 
production, and ecosystem health in the northeastern Gulf. By 
establishing ecological linkages between river flow, coastal food webs 
and fisheries, research proposed by the Florida State University will 
inform policies on the conflicting demands on water use that span 
ecological, social, and jurisdictional boundaries. In effect, this 
research will focus on revealing the linkages between the Apalachicola 
River and the immense productivity of the region from inshore to 
nearshore and even offshore regions.
    The proposed research will increase our understanding of linkages 
between coastal watersheds and the marine environment, which will lead 
to an increased capacity to forecast the ecosystem responses to 
anthropogenic stressors and the consequences of those responses. FSU 
proposes to:
  --Characterize Apalachicola river flow and its interactions with 
        nearshore and offshore shelf waters in the northeast Gulf of 
        Mexico on seasonal, annual, and decadal time scales.
  --Establish ecological linkages between river flow, nutrients, and 
        phytoplankton production that support coastal food webs and 
        fisheries (e.g., oysters, groupers) in the northeastern Gulf.
  --Develop models that can be used by decision makers to evaluate the 
        consequences of altered river flow for fishery production and 
        ecosystem health.
  --Systematically inform coastal managers and others charged with 
        protecting and regulating water use, water quality, and habitat 
        protection of our research findings and their relevance for 
        decision making.
    Recent national attention has focused on the management of the 
Apalachicola drainage system because of the current drought conditions 
over the southeastern United States and conflicts over water use in the 
watershed. This debate has highlighted the need for effective science 
than can be used to inform policy decisions. This project will directly 
address these key issues. We are requesting $2,000,000 for this 
project.
    Mr. Chairman, these are projects that will have a great impact on 
our country and I appreciate your consideration.
                                 ______
                                 

                Prepared Statement of Food & Water Watch

    Chairman Kohl, Ranking Member Bennett and members of the 
Subcommittee. My name is Wenonah Hauter and I am executive director of 
the nonprofit consumer organization Food & Water Watch. We were founded 
in November 2005 and we work on food policy and water infrastructure 
issues. I welcome this opportunity to comment on the President's 
proposed fiscal year 2009 budget as it applies to the agencies under 
your jurisdiction.

USDA--Food Safety and Inspection Service
    We commend the subcommittee for its work to require the Food Safety 
and Inspection Service (FSIS) to submit its proposals on risk-based 
inspection (RBI) for processing facilities to the USDA's Office of 
Inspector General (OIG) for a review before the agency proceeded with 
implementation of the new inspection scheme. As most consumer groups 
suspected, the agency was racing toward implementing RBI without having 
the necessary data upon which to make its policy assessments. As you 
know, the OIG released a 142-page audit report in December 2007 that 
outlined the problems with the agency's current information technology 
infrastructure and made 35 separate recommendations for the agency to 
implement before it could proceed with its RBI program.\1\ While the 
agency and the OIG reached management decision on all of these 
recommendations, FSIS is notorious for not implementing OIG 
recommendations in a timely fashion. It will require intense oversight 
by the subcommittee to ensure that FSIS implements OIG's 
recommendations. Since the implementation of RBI is dependent upon the 
development of the Public Health Information Structure (PHIS), we urge 
the subcommittee to request a detailed accounting of this new IT system 
because the agency has not been forthcoming about the final cost for 
creating PHIS.
---------------------------------------------------------------------------
    \1\ See http://www.usda.gov/oig/webdocs/24601_07_HY.pdf
---------------------------------------------------------------------------
    With regard to the agency's Public Health Based Inspection System 
in Poultry Slaughter (PHBISPS), we view this as an expansion of the 
pilot project that the agency has conducted since 1999 called the 
HACCP-based Inspection Models Project (HIMP). We urge the subcommittee 
to proceed cautiously with funding PHBISPS for several reasons: (1) the 
agency still has not conducted a full evaluation of HIMP which was 
promised to stakeholders before any expansion; (2) the agency has been 
slow to respond to a 2006 Freedom of Information Act Request by FWW for 
the non-compliance records from the plants enrolled in HIMP; (3) as was 
the case with the agency's RBI in processing proposal, there seems to 
be a data quality issue with PHBISPS which was raised at the February 
5-6, 2008 meetings of the National Advisory Committee on Meat and 
Poultry Inspection; \2\ (4) recently there was a major Class I recall 
involving one of the plants enrolled in HIMP that calls into question 
whether the privatization of poultry slaughter inspection is protective 
of public health.\3\ Associated with PHBISPS is the Salmonella 
Initiative that was announced in February 2006.\4\ The subcommittee 
should scrutinize this proposal from a number of standpoints. First, 
the Salmonella Initiative is designed to reward poultry slaughter 
facilities that exceed the FSIS salmonella performance standard, a 
standard that has not been updated in nearly a decade, by reducing the 
level of pathogen testing. Second, the agency will permit at least five 
facilities to request waivers of certain regulations, such as line 
speeds, if they exceed the salmonella performance standard. The agency 
has not taken into account the impact on inspector plant worker safety 
with these proposals. In 2005, the Government Accountability Office 
issued a report that recommended that line speeds be studied from an 
occupational safety perspective.\5\ To our knowledge, the Occupational 
Safety and Health Administration has failed to do that. In February 
2008, the Charlotte Observer ran a six part series on the plight of 
employees who work in poultry processing.\6\ Yet, FSIS seems to be 
oblivious that what it is proposing with its Salmonella Initiative 
could lead to increased occupational hazards to workers in the poultry 
industry and to their own inspection workforce. We strongly urge the 
subcommittee not to fund this proposal until all of these issues are 
fully evaluated.
---------------------------------------------------------------------------
    \2\ See transcripts http://www.fsis.usda.gov/About_FSIS/
NACMPI_Transcripts/index.asp
    \3\ March 14, 2008 recall of 943,000 pounds of poultry products 
from Cagle's. Inc., http://www.fsis.usda.gov/News_&_Events/
Recall_010_2008_Release/index.asp
    \4\ See http://www.fsis.usda.gov/News_&_Events/NR_022306_01/
index.asp
    \5\ See http://www.gao.gov/new.items/d0596.pdf
    \6\ See http://www.charlotte.com/poultry/
---------------------------------------------------------------------------
    We would also like to call to the Subcommittee's attention the 
response to a FOIA request we filed last year that details on a monthly 
basis for fiscal year 2007 the level of in-plant inspection vacancies 
broken down by FSIS district.\7\ We commend the subcommittee for 
addressing this issue during the fiscal year 2007 appropriations 
process, yet some FSIS districts still are experiencing double-digit 
vacancy rates--with the Albany district experiencing a 20.25 percent 
vacancy rate at the end of fiscal year 2007. While the agency has 
worked very hard to fill those vacancies, it is also facing an exodus 
of inspection personnel who are either retiring or leaving the agency 
voluntarily.
---------------------------------------------------------------------------
    \7\ See http://www.foodandwaterwatch.org/food/foodsafety/meat-
inspection_1/FOIA.pdf/view
---------------------------------------------------------------------------
    We would also like to call to the Subcommittee's attention the 
results of a 2007 survey of FSIS inspectors conducted by Food & Water 
Watch and the National Joint Council of Food Inspection Local Unions. A 
survey was mailed to nearly 5,700 FSIS inspectors in February 2007 and 
we received 1,320 responses. Among the more disturbing results were:
  --Over 70 percent of the inspectors said staffing shortages impacted 
        their physical and mental health;
  --Nearly 80 percent of slaughter and combination plant inspectors 
        believed that current line speeds were so fast that it made it 
        difficult for them to catch adulteration on carcasses;
  --More than half of slaughter and combination plant inspectors 
        responded that less than half of the regulatory violations they 
        observed were actually recorded on non-compliance reports;
  --Nearly 90 percent of slaughter and combination plant inspectors 
        reported that off-line inspectors (those inspectors responsible 
        for writing non-compliance reports) have been pulled to cover 
        vacancies on the slaughter line (where they cannot write the 
        reports);
  --Nearly 40 percent of inspectors who were on patrol assignments 
        stated that not all processing plants in their circuit were 
        visited at least once per shift and over three-quarters of 
        those inspectors stated that those plants were not visited at 
        least once daily;
  --Nearly 70 percent of inspectors said that plants were not always 
        clean at the start of operations.
    The agency had a very trying year. We are currently in the midst of 
the largest meat recall in the Nation's history involving 143 million 
pounds of beef and beef products that were processed at the Hallmark/
Westland Meat Company in California. In 2007, there were sixty-one 
recalls or public health alerts issued by the agency. So far in 2008, 
there have been another 10 recalls. It is very troubling to us that in 
spite of this less than stellar track record, top agency personnel 
received over $311,000 in performance bonuses in fiscal year 2007. We 
strongly urge the subcommittee to evaluate how the bonus program is 
administered at FSIS because we believe that the money would be better 
served in addressing staffing shortages in the field.
    We also urge the subcommittee to investigate why the proposed rule 
to list retail consignees on FSIS recall press releases--a regulation 
proposed by FSIS on March 7, 2006 and whose comment period closed in 
June 2006--still has not received final clearance. We strongly believe 
implementation of such a rule would assist the agency in recovering 
recalled meat and poultry products.
    The subcommittee should also be made aware that our organization 
filed a petition with FSIS on January 29, 2008 to revoke Canada's 
equivalency status to export meat and poultry products.\8\ We cited 
repeated food safety violations found by FSIS auditors in their annual 
visits to Canadian meat and poultry plants and an increase in recalls 
of meat and poultry products that originated in Canada and made their 
way into U.S. commerce.
---------------------------------------------------------------------------
    \8\ http://www.foodandwaterwatch.org/world/global-trade/
foodandglobaltrade/usda-petition-against-risky-canadian-meat-and-
poultry
---------------------------------------------------------------------------
    We also request that the subcommittee investigate the status of an 
application made by an Australian beef company to export its products 
to the United States using a controversial privatized inspection 
system. We understand that FSIS approval of that application is 
imminent.
    Lastly, we oppose the imposition of $96 million in licensing and 
performance fees proposed by the administration. The functions 
performed by this agency are of a public health nature and its 
functions should be financed through general Treasury funds.

                     AGRICULTURAL MARKETING SERVICE

    While the focus of any investigation on the lapses at the Hallmark/
Westland Meat Company needs to be on the FSIS inspection procedures, 
the audit procedures employed by the Agricultural Marketing Service 
(AMS) also deserve scrutiny. AMS approves vendors who can sell their 
commodities to the various nutrition programs it operates, including 
the National School Lunch Program, and enters into contracts with those 
vendors. For ground beef products, the contract specifications clearly 
state that humane handling practices need to be adhered to and that no 
meat from non-ambulatory animals can be harvested for USDA nutrition 
programs.\9\ It is clear that Hallmark/Westland failed to meet both of 
those requirements. We urge the subcommittee to secure the AMS audit 
reports from Hallmark/Westland. We have attempted to secure AMS audit 
reports in the past and have been denied access on the grounds that 
they are considered to be proprietary information. We also believe the 
subcommittee should evaluate how AMS makes its ``Supplier of the Year'' 
awards, since Hallmark/Westland received that award for the 2003-2004 
school year.
---------------------------------------------------------------------------
    \9\ See http://www.ams.usda.gov/lscp/beef/LSP_SB_TRS_GB-
O7%20APPROVED_08_13_07.pdf
---------------------------------------------------------------------------
    In addition, we urge the subcommittee to use its oversight to 
ensure that the long-delayed country of origin labeling program is 
finally implemented. We applauded the inclusion of COOL in the 2002 
Farm Bill but have been frustrated by the delays in its implementation. 
We believe that labeling provides consumers with vital information they 
need to make informed choices about where their food is from, in 
addition to giving producers an opportunity to distinguish their 
products in an increasingly international marketplace. Consumer support 
for COOL has been strong for years, and demand for information about 
where food is from has only increased in the wake of scandals about 
imported food.
    The House version of the 2007 Farm Bill included language that 
clarifies the intent of the 2002 Farm Bill and addresses many of the 
concerns expressed by industry that have historically opposed mandatory 
labeling. No matter what the outcome of the current Farm Bill process, 
we urge the subcommittee to instruct the agency to implement mandatory 
COOL for meat and produce on schedule by September 30 and to closely 
follow the COOL provisions and report language from H.R. 2419. 
Consumers have waited long enough to find out where their food comes 
from. Further delays in providing country of origin labeling are 
unacceptable.

                      FOOD AND DRUG ADMINISTRATION

    We were disappointed by the paltry increase proposed by the 
administration for the food safety functions of the Food and Drug 
Administration (FDA). The increase barely covers annual inflationary 
costs--in spite of assurances by Health and Human Services Secretary 
Michael Leavitt in December 2007 that FDA would receive a substantial 
increase in the 2008 budget. While we recognize that FDA's food safety 
programs are under-funded, we also believe that there needs to be 
scrutiny of its management structure because we sense that FDA is 
extremely top-heavy and is missing an appropriate sense of urgency for 
the need to put more resources into the field. Agency officials have 
repeatedly stated that putting more inspectors in the field will not 
solve the current food safety crisis.\10\ We do not subscribe to their 
assessment. The agency currently has a staff of over 10,000 employees 
but we do not know what these people do. FWW has attempted to find out 
exactly how many FDA inspectors there are by filing a FOIA request for 
the work plans of the FDA's Office of Regulatory Affairs, but our 
request has been rejected. We are currently exploring legal action to 
obtain those documents.
---------------------------------------------------------------------------
    \10\ See http://www.pbs.org/newshour/bb/health/jan-june07/
foodacheson_06_08.html
---------------------------------------------------------------------------
    While the agency has put forth its ``Food Protection Plan,'' we 
believe that it is riddled with problems and it suffers from a lack of 
detail and transparency. The agency claims that it will use a risk-
based inspection model to conduct food inspections. When pressed about 
the data sources for evaluating risk and constructing their inspection 
system, agency officials admit that FDA has very few from which to 
draw. Second, the agency wants to use ``third party certification'' as 
a way to avoid increasing its own inspection workforce. We are 
adamantly opposed to the privatization of food inspection. This is a 
public health function that should be the government's responsibility--
not the responsibility of a multi-national corporation that has profit 
as its driving motivation.
    Third, we are especially troubled by the January 29, 2008 testimony 
given by Lisa Shames, Director of GAO's Natural Resources and Resources 
Division, before the House Subcommittee on Oversight and Investigations 
in which she said: ``FDA officials have declined to provide specific 
information on how much additional funding it believes will be 
necessary to implement the Food Protection Plan, saying that finalizing 
the amounts will take place during the budget process. Similarly, the 
Food Protection Plan does not discuss the strategies it needs in the 
upcoming years to implement this plan. FDA officials told us that they 
have internal plans for implementing the Food Protection Plan that 
detail timelines, staff actions, and specific deliverables. While FDA 
officials told us they do not intend to make these plans public, they 
do plan to keep the public informed of their progress. Without a clear 
description of resources and strategies, it will be difficult for 
Congress to assess the likelihood of the plan's success in achieving 
its intended results.'' \11\
---------------------------------------------------------------------------
    \11\ See http://energycommerce.house.gov/cmte_mtgs/110-oi-
hrg.012908.Shames-Testimony.PDF
---------------------------------------------------------------------------
    This is truly appalling. How can we trust the same people who 
brought us to the current crisis to develop and execute plans in secret 
without the benefit of public and congressional scrutiny? These are 
some of the same individuals who were advocating the closure of FDA 
laboratories and who received exorbitant bonuses for their outlandish 
proposals. We strongly urge the subcommittee to compel FDA officials to 
make the details of their Food Protection Plan public so that there is 
the benefit of congressional and public scrutiny of their proposals.
    Lastly, as we detailed in our 2007 report, Import Alert,\12\ FDA's 
program to oversee the safety of seafood imports to the United States 
does not live up to the standard that Americans expect from their 
government. Inadequate funding and a poorly designed inspection program 
contributed to FDA physically inspecting less than 2 percent of the 
nearly 860,000 imported seafood shipments in 2006. Only 0.59 percent of 
shipments were tested for contaminants in a laboratory.
---------------------------------------------------------------------------
    \12\ See http://www.foodandwaterwatch.org/fish/copy_of_pubs/
reports/import-alert
---------------------------------------------------------------------------
    Physical inspection gives the greatest assurance of detecting 
safety issues in seafood products, so the low rate of inspection raises 
concerns about the safety of imported seafood sold in U.S. restaurants 
and grocery stores. At the same time, in foreign aquaculture facilities 
the use of numerous antibiotics, fungicides, and pesticides, many of 
which are not approved for use in the United States, is on the rise. In 
June 2007 the FDA issued an import alert for five seafood products from 
China due to chemical contamination. However, it is not just China; 
veterinary drug residues are being detected on imports from more 
countries and more types of seafood.
    Seafood products are responsible for 18 to 20 percent of the 
outbreaks of foodborne illness that affect one in four Americans, or 76 
million people every year. Trends in the global production of seafood--
aquaculture now produces half of the world's seafood--make now the 
critical time for FDA to increase physical inspection of imported 
seafood. There is currently a new bill in the Senate Commerce 
Committee, the Commercial Seafood Consumer Protection Act, which would 
allow the National Oceanic and Atmospheric Administration to ramp up 
efforts on seafood inspections. However, we believe that this is not 
the appropriate focus for an agency that is already over-extended and 
under-funded on its core programs. Rather, FDA, the agency 
traditionally responsible for seafood inspections, needs a better 
inspection regime and adequate resources to implement it. We urge the 
subcommittee to work with the agency to develop an effective seafood 
safety program.
                                 ______
                                 

   Prepared Statement of Friends of Agricultural Research--Beltsville

    Mr. Chairman, and Members of the Subcommittee, thank you for this 
opportunity to present our statement regarding funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville--
promotes the Center's current and long-term agricultural research, 
outreach, and educational missions.
    Our testimony will emphasize these main themes:
    First, we strongly recommend continued funding for certain high-
value, on-going research that the Congress has previously approved for 
BARC. Yet, this crucially needed on-going research is marked for 
termination in the President's fiscal year 2008 budget. We discuss the 
basis and rationale for our recommendation in Part I, below.
    Second, we recommend and endorse continued full support for 
redirected research in the President's budget. We briefly expand the 
basis of our support in Part II.
    Third, we will offer a brief comment on the proposed relocation 
staff and program from the Grand Forks Human Nutrition Research Center 
to Beltsville in Part III.

Part I. High-Value Research Marked for Termination
    Animals Biosciences & Biotechnology Laboratory (ABBL)--
$8,401,123.--ABBL's research mission is to improve the genetic, 
reproductive, and feed efficiency of livestock and poultry. A dedicated 
staff of 32 employees, of which 13 are research scientists, are 
addressing a number of cutting-edge research issues: using pig 
embryonic stem cells to enhance disease resistance in pigs and for 
clinical use in human liver rescue devices; designing novel 
antimicrobial proteins for treatment of human (methicillin-resistant 
staph aureus) and animal (bovine mastitis) diseases; identifying 
genetic markers to reduce fetal pig mortality. This cutting-edge work 
is well regarded in the greater scientific community. Loss of this 
funding will essentially close out the only research of this type in 
ARS. It has been suggested that a reason for the proposed closure is 
inadequacy of facilities. But in the judgment of highly qualified 
scientists, inadequacy of facilities is simply not an issue.
    The research in this laboratory is both basic and applied and is 
valuable to all of the animal industries. The research addresses the 
very issue of genetic improvement of animals for those traits that are 
most desirable to consumers and profitable for producers. In addition, 
this research has proven to be very valuable to the biomedical 
community because the information obtained is useful to promote human 
health. Restoration of funding for this invaluable research is 
critically needed.
    Biomedical Materials in Plants--$1,808,253.--Plants can be used as 
factories to manufacture vaccines and other pharmaceuticals for animals 
and humans. This research focuses on development of tobacco as a crop 
with this beneficial use. We recommend restoring full funding.
    Bioremediation Research--$118,167.--Munitions storage sites and 
bombing ranges in parts of the United States have left huge tracts of 
soils and lands contaminated by highly toxic residues from such 
explosives as TNT. Those soils and lands now are limited 
environmentally for commercial or agricultural purposes. These funds 
support ongoing research to determine if forage plants can remove TNT 
and its metabolites from contaminated sites. Beltsville is a world 
recognized leader in the field of bioremediation. This work is not done 
anywhere else in ARS. We recommend funding for this research.
    Foundry Sand By-Products Utilization--$680,205.--Waste sands from 
the metal casting industry currently are dumped in landfills. This 
project is working with industry on guidelines for beneficial uses of 
these sands. We recommend that this research continue.
    Poultry Diseases--$434,934.--Coccidiosis, a parasitic poultry 
disease, costs the industry almost $3 billion per year. This research 
focuses on understanding the genetics of both the parasite and the host 
chicken to identify targets that will allow better disease prevention 
and control. We recommend that this research continue.
    Potato Diseases--$64,545.--These funds are used for research 
activities on genetic improvement of potato and for diseases of potato. 
While a small amount of money, these funds are used to supplement 
ongoing efforts in this important area. We recommend that this research 
continue.

Part ll. Redirected Research
    The budgetary items listed here have not appeared in our testimony 
of previous years. In terms of overall BARC funding, they are revenue 
neutral. Essentially, these are ``new'' programs replacing similar but 
lower-priority, on-going programs that would be closed out. Ideally, 
all the research programs, new and old, would continue. All are 
important lines of research, and we would prefer to see new funding 
rather than redirection. Nevertheless, BARC can manage within these 
redirections if there is no option. We strongly support funding for 
this research.
    Crop Health--$947,322.
    Obesity Prevention Initiative--$1,937,649.
    Food Safety--$1,045,629.
    Crop Genetic Improvement--$938,385.

Part III. Relocation Staff and Program From the Grand Forks Human 
        Nutrition Research Center to Beltsville
    The fiscal year 2009 budget also proposes to relocate a significant 
number of staff and program from the Grand Forks Human Nutrition 
Research Center to Beltsville. We are neutral about this redirection.
    Mr. Chairman, that concludes our statement. We again thank you for 
the opportunity to present our testimony and for your generous support.
                                 ______
                                 

        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2009 for 
various agencies and programs under the jurisdiction of the 
subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 36,000 members and nearly 300 chapters 
nationwide. Our members are committed to advancing common sense 
policies that safeguard wildlife and habitat, support community-based 
conservation, and address pressing environmental issues. The League has 
been a partner with farmers and a participant in forming agriculture 
policy since the 1930s. The following pertains to conservation programs 
administered by the U.S. Department of Agriculture.
    The League believes Congress should prioritize investment in 
conservation programs in order to protect natural resources and to meet 
the demonstrated demand for conservation services. Two of every three 
eligible applicants for Federal conservation programs are being turned 
away due to lack of funding. Over the 5-year term of the 2002 Farm 
Bill, $13.5 billion in requests from more than 487,000 farmers and 
ranchers went unfunded. During the same period, Congress cut funding 
for conservation by more than $5 billion below levels authorized by the 
2002 farm bill.
    Prioritizing funding for conservation is even more important in 
light of recent developments in the agricultural economy. Land values 
have skyrocketed more than 50 percent in the past 3 years and continue 
to climb. As land prices rise, the purchasing power of each 
conservation dollar decreases. Record prices for crops are also driving 
a land rush. The push for increased production is threatening the 
conservation gains that have been achieved through the Conservation 
Reserve Program and Wetlands Reserve Program. Additionally, expanding 
production highlights the necessity of boosting the Conservation 
Security Program, which promotes farming practices that protect 
wildlife and natural resources.
    Finally, in the broader scope, USDA researchers have identified 
additional positive opportunities for prioritizing conservation. 
Specifically, natural amenities such as pleasant landscapes and 
opportunities for outdoor recreation generate economic growth in rural 
areas. According to USDA's Economic Research Service: ``Natural 
amenities are highly correlated with population and employment growth--
they even shape agriculture . . . [The] number of farms has increased 
in counties with high levels of natural amenities.'' The conservation 
programs that protect and enhance natural resources also protect and 
enhance rural economies.
    The League is concerned that the administration has proposed to 
significantly cut funding for critical conservation programs. We 
recognize the challenges and uncertainty the subcommittee faces as 
negotiations over a new farm bill drag on. We profoundly hope that a 
new farm bill will be enacted before the subcommittee marks up its 
bill. As the subcommittee develops the fiscal year 2009 Agriculture 
bill, the League appreciates the opportunity to address funding for 
specific conservation programs.

      USDA FARM SERVICE AGENCY, CONSERVATION RESERVE PROGRAM (CRP)

    The administration requests $1.95 billion for fiscal year 2009 down 
from approximately $2 billion in fiscal year 2008. Grain prices have 
reached record levels and land values are experiencing correspondingly 
dramatic increases. Reducing CRP funding would exacerbate current 
conditions while even level funding will not allow USDA to enroll as 
many acres due to rapidly escalating land prices. In order to maintain 
core acreage, the League encourages the subcommittee to appropriate at 
least $2 billion for CRP in fiscal year 2009.

 USDA NATURAL RESOURCES CONSERVATION SERVICE, WETLANDS RESERVE PROGRAM 
                                 (WRP)

    The administration requests $181 million down from $455 million 
appropriated for this fiscal year. Furthermore, the budget indicates 
that funds will not be requested for fiscal year 2010 and beyond 
because authority for the program would expire unless a new farm bill 
is enacted. This is a particularly damaging blow because the 
administration provided full funding in the past 2 years to achieve the 
WRP's goal of 250,000 restored wetland and upland acres per year. The 
League urges the subcommittee to provide $455 million in fiscal year 
2009.

  USDA NATURAL RESOURCES CONSERVATION SERVICE, CONSERVATION SECURITY 
                             PROGRAM (CSP)

    The President's budget proposes to cut the program below baseline 
funding. If approved, this would effectively prevent new enrollments. 
CSP applies to the full spectrum of working agricultural lands from 
cropland to pasture to rangeland. In the program's first 3 years, 
contracts were signed with more than 19,000 producers nationwide who 
agreed to implement conservation practices on over 15.6 million acres. 
Moreover, as detailed in League-supported research, CSP pays for 
practices that provide substantial wildlife benefits. In case studies 
from Missouri and Minnesota, for instance, 88 and 85 percent of CSP 
payments, respectively, supported practices that provide wildlife 
habitat benefits. The importance of CSP is growing in direct proportion 
to the current market-driven expansion of agricultural production. The 
League encourages the subcommittee to appropriate $444 million for CSP 
in fiscal year 2009, which is equal to the baseline established by the 
Congressional Budget Office. This level of support would enable the 
program to serve eligible farmers and ranchers nationwide who want to 
participate.

     USDA NATURAL RESOURCES CONSERVATION SERVICE, WILDLIFE HABITAT 
                       INCENTIVES PROGRAM (WHIP)

    Although Congress appropriated $85 million for WHIP in fiscal year 
2008, the administration is proposing to terminate it. WHIP provides 
technical and financial assistance to landowners and others to develop 
upland, wetland, riparian and aquatic habitat areas on their property. 
According to USDA, between 2002 and 2006, the program established 1.8 
million acres of habitat. However, during that same period, eligible 
applications totaling $136 million were turned away due to lack of 
funds. We urge the subcommittee to reject the administration's proposal 
and to appropriate at least $85 million for WHIP in fiscal year 2009.

USDA NATURAL RESOURCES CONSERVATION SERVICE, GRASSLAND RESERVE PROGRAM 
                                 (GRP)

    The administration proposes to terminate this program as well. 
Unfortunately, GRP was not funded under the fiscal year 2008 omnibus 
appropriations bill. Like WHIP, demand for GRP is overwhelming. In the 
space of 2 years, USDA had to turn away approximately 16,500 eligible 
participants seeking to protect 11 million acres of crucial grasslands. 
Without a pledge of support from the White House, providing protection 
for grasslands--one of the most threatened ecosystems globally--will be 
entirely up to Congress during the appropriations process. Although 
IWLA supports GRP funding in the farm bill at $240 million annually, we 
urge the subcommittee to provide at least $50 million in its bill to 
maintain the vital service performed by this program.
                                 ______
                                 

    Prepared Statement of the National Association of State Energy 
                               Officials

    Chairman Kohl and members of the Subcommittee, I am Dub Taylor, 
Chairman of the National Association of State Energy Officials (NASEO). 
NASEO is submitting this testimony in support of funding of the Energy 
Title (Title IX) of the 2002 Farm Bill, especially Section 9006. 
Section 9006 provides funding for energy efficiency and renewable 
energy efforts for farmers, ranchers and rural small businesses. We 
strongly recommend funding of no less than $60 million for Section 
9006, and we would certainly urge consideration for $5 million of 
funding for the Section 9005 energy audit/assessment program within 
this funding level. NASEO has worked with farmers, our State 
agricultural agencies and rural interests to promote this successful 
program. As we face dramatically increasing energy bills for all 
sectors of the economy, it is critical that we do more to address the 
energy problems of rural America.
    Chairman Kohl, we know that you recognize the importance of the 
agricultural energy programs, as well as the State energy activities. 
All the State energy offices are indebted to you for your contribution 
to a broad-based national energy policy.
    As the debate continues over the new Farm Bill, we strongly urge 
you to fund the critical energy programs within the 2002 Farm, and we 
hope a robust energy title will be passed as part of the new Farm Bill. 
We hope that in calendar year 2009 (and hopefully fiscal year 2009), 
Congress and the administration will jointly push forward with a 
comprehensive energy funding program, including robust appropriations 
for the agriculture sector. Greater energy efficiency and renewable 
energy use in the farm sector will help create jobs, reduce climate 
change, increase agricultural productivity and improve the environment. 
If significantly increased energy funding can be provided for the 
energy title of a new Farm Bill, then we would hope that rural schools 
and other public institutions could be covered by Section 9006. This is 
the approach offered by Senator Harkin in the so-called ``REAP'' bill. 
This could effectively combine with efforts through the Energy and 
Water Development Appropriations Bill, such as the State Energy 
Program, biorefineries, expanded alternative fuels programs, 
alternative fuels infrastructure, etc. On the tax side, a long-term 
extension of the production tax credit and investment tax credit for 
renewable energy, energy efficiency tax credits and deductions and 
other related programs, could combine with these appropriations and 
energy policy changes to bring about significant improvements in our 
Nation's approach to energy.
    In fiscal year 2007, $73 million was requested from applicants for 
Section 9006 loans and grants. In fiscal year 2008 Congress provided 
$36 million for the Section 9006 program. A minimum of $60 million for 
this effort in fiscal year 2009 is necessary to maintain the momentum 
and expand participation. We hope for even more funding in the future.
    The Nation cannot afford any greater lag in funding the energy 
provisions of the Farm Bill. With gasoline prices approaching $4/
gallon, diesel prices even higher, propane prices used for crop drying 
and rural domestic energy use at historically high levels, this 
appropriations bill must be a vehicle for an aggressive change in 
energy policy to implement the authorization bills. The country cannot 
wait.
                                 ______
                                 

 Prepared Statement of the National Association of State Universities 
   and Land-Grant Colleges (NASULGC) Board on Natural Resources (BNR)

    We thank you for the opportunity to submit testimony. We request 
the following funds within the Cooperative State Research, Education 
and Extension Service: $30.008 million for McIntire-Stennis Cooperative 
Forestry (McIntire-Stennis); $8 million for the Renewable Resources 
Extension Act (RREA); and $256.5 million for the National Research 
Initiative (NRI). In fiscal year 2008, McIntire-Stennis received $24.8 
million, while the administration's fiscal year 2009 request is $19.5 
million. In fiscal year 2008, RREA received $4.008 million, while the 
administration's fiscal year 2009 request is $4.052 million. In fiscal 
year 2008, NRI received $190.9 million, while the administration's 
fiscal year 2009 request is $256.5 million.
    NASULGC BNR requests funding support for the McIntire-Stennis 
program at $30.008 million, the same level of support provided in 
fiscal year 2007.
    America is blessed with tremendous forest resources--approximately 
one-third of our landmass is forested. In the coming years as we 
develop cellulosic ethanol, the Nation will likely rely more and more 
on our forests for fuel stocks. Sustaining these forests in a healthy 
and productive condition is a national priority demanding a strong, 
continuing commitment to scientific research and graduate education.
    Principal financial support for university-based forestry research 
and graduate education comes from the McIntire-Stennis program. 
McIntire-Stennis funds are currently distributed according to a 
statutory formula to each of the 50 States, Puerto Rico, Guam, and the 
Virgin Islands, with a dollar-for-dollar match required from the 
States.
    Congress has recently recognized the need to expand the McIntire-
Stennis program and provided funding of $30 million in fiscal year 2007 
and $25 million in fiscal year 2008. The schools and colleges of 
forestry and natural resources responded in 2007 by producing a 
McIntire-Stennis strategic plant. Unfortunately, the President's fiscal 
year 2009 budget would cut McIntire-Stennis funding by $5 million 
(compared to fiscal year 2008) and make $12 million of the remainder 
subject to new competitive multistate procedures.
    If enacted, these changes could result in as much as a 74 percent 
reduction to some universities. We deplore these cuts and ask that you 
reject the administration's proposal.
    As outlined in the 2007 strategic plan, McIntire-Stennis funding is 
critical to:
  --Deliver scientific results and management technologies to forest 
        land owners, managers, and policy makers;
  --Prepare the future workforce in forestry and related natural 
        resource science for the 21st Century.
    NASULGC BNR requests funding support for the Renewable Resources 
Extension Act (RREA) program at $8 million.
    In the U.S., 58 percent of the forest is held in private 
ownerships--mostly individual and family forests. These ownerships 
total nearly 291,000,000 acres. Given the geographic breadth of private 
ownerships and the astounding 10,000,000+ owners, informed stewardship 
of these forests promotes a secure future for the environmental and 
economic well-being of all our Nation's forests.
    In 1978 Congress recognized that private forest and rangeland 
owners contribute significantly to the Nation's vitality and enacted 
RREA. This decree called for ``expanded extension programs for forest 
and rangeland resources:'' to enhance the sustainability of these 
renewable natural resources.
    Today with the support of RREA, 69 land-grant universities provide 
educational programs to empower private forestland and rangeland owners 
in the many counties and parishes across our Nation. Landowners' 
ability to efficiently manage their properties is strengthened through 
educational workshops and seminars related to the eight RREA strategic 
issues: (1) Forest stewardship and health; (2) Wildlife and fisheries 
resources; (3) Rangeland stewardship and health; (4) Invasive species; 
(5) Economic opportunities; (6) Forestland conversion and 
fragmentation; (7) Diverse audiences; (8) Public policy and 
participation.
    Many landowners are interested and adopt new practices once they 
know and understand them. Education can lead to properly applied and 
sustainable practices.
    Recent reported outcomes from the program include:
  --937 income-generating businesses created or expanded;
  --2,390 new jobs created;
  --27,300 landowners increased their awareness of forest or rangeland 
        resources;
  --21,100 landowners implemented at least one new renewable resource 
        practice;
  --$17,810,000 estimate dollars earned or saved by landowners;
  --$198,571,756 earned or saved by loggers adopting new harvesting 
        technologies.
    Every Federal dollar spent in RREA leverages from $5-15 from State, 
county, and other sources.
    Continued and increased funding will allow for:
  --Equitable funding to the 1890 land-grant institutions and an 
        increase in competitive funding;
  --Create virtual centers of excellence with teams of USDA Forest 
        Service scientists and Extension educators to develop extension 
        programs and applied research for complex forest and rangeland 
        ecosystems issues, such as climate change and bioenergy;
  --Implement landscape-scale projects to compliment county- and State-
        based programs;
  --Use of new techniques to segment the audience and use stewardship 
        messages that have meaning for them;
  --Continued use of proven educational settings for selected 
        audiences: workshops, field days, schools, printed 
        publications;
  --Expanded use of new technologies: web-based learning centers, 
        webinars, podcasts, eXtension, mobile networking, Web 2.0 
        tools, print-on-demand.
    NASULGC BNR requests funding support for the National Research 
Initiative (NRI) program at $256.5 million.
    The United States has a university-based system that integrates 
agriculture, health, and environmental research with higher education 
and public outreach activities. This unique system is a partnership 
between America's land-grant and related universities and the USDA's 
Cooperative State Research, Education, and Extension Service (CSREES).
    Some CSREES programs are administered under formulae that provide 
each State and territory with sufficient funds to underwrite vital 
agriculture and natural resources research stations and extension 
offices. However, many other programs--most notably the National 
Research Initiative--require scientists and professionals from 
universities across the Nation to compete directly against each other 
in peer-reviewed competitions.
    Both Congress and the administration have recognized the enormous 
value of CSREES competitive programs in recent years by providing 
modest increase to the NRI. However, much more must be done:
  --American's farmers and foresters need additional genomic data and 
        biotechnology tools to expand food and fiber production, 
        process, and international trade;
  --U.S. healthcare professionals need greater insight into the 
        relationships between diet and health;
  --Extension specialist and their clients need expanded knowledge 
        about water quality to help protect the environment and 
        safeguard our food system;
  --University educators need additional funding to train new 
        generations of food, agriculture, and natural resources 
        scientists (many of whom are turning to better-funded 
        disciplines).
    We urge you to support these important forest and natural resources 
programs.

About NASULGC
    NASULGC is the Nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions . . . located in all 50 
States. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.

About the Board on Natural Resources
    The Board's mission is to promote university-based programs dealing 
with natural resources, fish and wildlife, ecology, minerals and 
energy, and the environment. Most NASULGC institutions are represented 
on the Board. Present membership exceeds 500 scientists and educators, 
who are some of the Nation's leading research and educational expertise 
in environmental and natural-resource disciplines.
    This testimony was developed for the BNR by the Chair of the BNR's 
Forestry Section, Dr. George Hopper, Dean, College of Forest Resources, 
Director, Forest and Wildlife Center, Mississippi State University.
    Thank you for the opportunity to share our views with the 
Committee.
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                              Association

    The Honorable Herb Kohl, Mr. Chairman and subcommittee members, I 
am Matt Gassen, President of the National Commodity Supplemental Food 
Program Association (NCSFPA). Thank you for this opportunity to present 
information regarding the Commodity Supplemental Food Program (CSFP).
    CSFP was our Nation's first food assistance effort with monthly 
food packages designed to provide protein, calcium, iron, and vitamins 
A and C. It began in 1969 for low-income mothers and children, 
preceding the Special Supplemental Nutrition Program for Women, 
Infants, and Children known as WIC. Pilot programs in 1983 added low-
income seniors to the list of eligible participants and they now 
comprise 93 percent all participants.
    CSFP is a unique Federal/State and public/private effort. The USDA 
purchases specific nutrient-rich foods at wholesale prices for 
distribution. State agencies such as the departments of health, 
agriculture or education provide administration and oversight. These 
agencies contract with community and faith based organizations to 
warehouse and distribute food, certify eligibility and educate 
participants. The local organizations build broad collaboration among 
non-profits, health units, and Area Agencies on Aging so that seniors 
and others can quickly be qualified for enrollment and receive their 
monthly supplemental food package along with nutrition education to 
improve their health and quality of life. This unique public/private 
partnership reaches even homebound seniors in both rural and urban 
settings with vital nutrition.
    The foods provided through CSFP include canned fruits and 
vegetables, juices, meats, fish, peanut butter, cereals and grain 
products, cheese, and other dairy products targeted to increase healthy 
food consumption among these low-income populations.
    The CSFP is also an important ``market'' for commodities supported 
under various farm programs, as well as an increasingly important 
instrument in meeting the nutritional and dietary needs of special low-
income populations.
    In fiscal year 2007, the CSFP provided services through 150 non-
profit community and faith-based organizations at over 1,800 sites 
located in 32 States, the District of Columbia, and two Indian 
reservations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our concern 
and disappointment regarding the reduction of available CSFP resources 
for fiscal year 2009.
    At a time when many Americans must choose between food or medicine, 
utilities, and other basic expenses, the Federal Government should not 
be reducing benefits for our most vulnerable citizens.
    CSFP's 39 years of service stands as testimony to the power of 
partnerships among community and faith-based organizations, farmers, 
private industry and government agencies. The CSFP offers a unique 
combination of advantages unparalleled by any other food assistance 
program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: young children and low-income seniors.
  --The CSFP provides a monthly selection of food packages tailored to 
        the nutritional needs of the population served. Eligible 
        participants are guaranteed [by law] a certain level of 
        nutritional assistance every month in addition to nutrition 
        education regarding how to prepare and incorporate these foods 
        into their diets as prescribed by their health care provider.
  --The CSFP purchases foods at wholesale prices, which directly 
        supports the farming community. The average food package for 
        fiscal year 2008 is $18.57, and the retail value is 
        approximately $50.00.
  --The CSFP involves the entire community in confronting the problem 
        of hunger. There are thousands of volunteers as well as many 
        private companies who donate money, equipment, and most 
        importantly time and effort to deliver food to needy and 
        homebound seniors. These volunteers not only bring food but 
        companionship and other assistance to seniors who might have no 
        other source of support. (See Attachment 1)
    The White House proposed budget for fiscal year 2009 would 
eliminate CSFP completely, and would eliminate all of this effort and 
support of those 39 years. This proposal has shocked the entire CSFP 
community as well as legislators, anti-hunger and senior service 
organizations and the concerned citizens as they have become aware of 
it. America's Second Harvest, AARP, and FRAC have all voiced their 
opposition to the elimination of CSFP. It is unconscionable to 
eliminate benefits for some of our most vulnerable citizens and to 
eliminate the hope of those waiting for participation in the program. 
It is the cruelest cut for the greatest generation.
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. Of those respondents 
from two-person households, more than half reported an income of less 
than $1,000 per month. Fewer than 25 percent reported being enrolled in 
the Food Stamp Program. Over 50 percent said they ran out of food 
during the month. Also, close to 70 percent senior respondents say they 
use money for medical bills not food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. Last year this subcommittee and all of 
Congress provided funding for CSFP in direct opposition to its proposed 
elimination. This year, your support is again needed to provide 
adequate resources for the 473,473 mothers, children and seniors 
currently receiving benefits, 20,500 low-income participants currently 
waiting in 5 new States and 104,137 seniors waiting in current States 
for this vital nutrition program.
    There is no discernible plan to address the long-term needs of 
those affected by the elimination of CSFP. The proposed transition plan 
provides that seniors being removed from CSFP will be provided a Food 
Stamp Program (FSP) benefit of $20 per month for up to 6 months, or 
until the participant actually enrolls in the FSP, whichever comes 
first. Simply transferring seniors to the FSP is an inadequate 
solution. It is essential for seniors to have access to services which 
they feel are offered with dignity and respect. Many will outright 
reject the idea of applying for FSP benefits. According to the ERS 
Evaluation of the USDA Elderly Nutrition Demonstrations: Volume I:

    ``The Commodity alternative benefit demonstration in North Carolina 
was popular both among new applicants and among existing FSP 
participants. Clients eligible for low FSP benefits were more likely to 
get the commodity packages, which had a retail value substantially 
greater than their FSP benefits''. ``In particular, seniors described 
the anxiety of using FSP benefits in stores, where they felt shoppers 
and store clerks looked down on them''. ``The demonstrations attracted 
a particularly large share of clients eligible for the $10 benefit 
because the retail value of the commodity packages was worth $60-$70.''

    Depending on their non-cash assets, seniors may not qualify for a 
FSP benefit level equivalent to the CSFP food package. Seniors 
receiving the minimum benefit would not be eligible for the $20/month 
transitional benefit. The 25 percent of current CSFP participants who 
already enrolled in the FSP will lose the benefits of CSFP and those 
benefits will not be replaced at a time when they are struggling to 
make ends meet. CSFP and FSP are supplemental programs. They work 
together to make up the shortfall that many of our seniors are facing 
each month. Both programs need to continue to be available as part of 
the ``safety net'' for our low-income participants.
    USDA reports that the average benefit paid to senior citizens is 
about $67 per month, but in reality, many senior citizens receive only 
the minimum monthly benefit of $10, which has not been updated since 
1975. USDA figures also report households rather than individual 
participants and include households with disabled family members.
    The proposed transition plan for women, infants and children 
enrolled in the CSFP is to transfer them to WIC. However, due to 
increasing coordination between WIC and CSFP at the State and community 
levels, the number of WIC-eligible mothers and children enrolled in the 
CSFP is steadily declining. In some States, this figure is less than 2 
percent of all enrolled women and children, eradicating supplemental 
food and nutrition benefits for that population as well. Also of 
importance is the fact the CSFP covers the non-WIC eligible populations 
of post-partum mothers from 6monts to 1 year and children up to age 6.
    As referenced earlier, CSFP provides a food package that costs USDA 
about $19 per month. It has a retail value of approximately $50. How 
does someone use $20 to purchase $50 worth of nutritious foods? What 
happens at the end of 6 months?
    The National Commodity Supplemental Food Program Association 
respectfully requests that the Senate Agriculture Appropriations 
Subcommittee take the appropriate actions to funding CSFP for fiscal 
year 2009 at $175 million as illustrated below:
    To continue serving the 473,473 needy seniors (93 percent of 
participants), women, infants and children (7 percent of participants) 
currently enrolled in CSFP--$142 Million.
    To meet USDA's commodity procurement expenses--$0.7 Million.
    To begin meeting the needs of 20,500 eligible seniors in the 5 
States with USDA approved plans: Arkansas (5,000), Delaware (2,500), 
Oklahoma (5,000), New Jersey (5,000) and Utah (3,000)--$6.2 Million.
    To serve an additional 104,137 individuals among of our nation's 
most vulnerable individuals in the 32 States with existing programs and 
documented additional needs--$23.4 Million.
    Total Appropriation needed to maximize this program's effectiveness 
in serving 617,251 seniors and women and their infants and young 
children challenged by hunger--$175 Million Total.
    With the aging of America, CSFP must be an integral part of USDA 
Senior Nutrition Policy as well as comprehensive plans to support the 
productivity, health, independence, and quality of life for America's 
seniors.
    Measures to show the positive outcomes of nutrition assistance to 
seniors must be strengthened. A 1997 report by the National Policy and 
Resource Center on Nutrition and Aging at Florida International 
University, Miami--Elder Insecurities: Poverty, Hunger, and 
Malnutrition indicated that malnourished elderly patients experience 2 
to 20 times more medical complications, have up to 100 percent longer 
hospital stays, and incurs hospital costs $2,000 to $10,000 higher per 
stay. Proper nutrition promotes health, treats chronic disease, 
decreases hospital length of stay and saves health care dollars.
    Rather than eliminating the program, the NCSFPA recommends the 
following initiatives to strengthen CSFP:
  --Develop a formal evaluation process to demonstrate individual and 
        program outcomes of CSFP with Federal, State, and local CSFP 
        managers included in the study design;
  --Set ``greatest need within a project area'' as the priority for 
        service or let each State set its priority for service under a 
        plan approved by the Secretary of Agriculture;
  --Support and expand the program in those States that have 
        demonstrated an interest in the CSFP, including the 5 States 
        that already have USDA-approved plans to operate CSFP 
        (Arkansas, Delaware, New Jersey, Oklahoma and Utah) or that 
        have demonstrated a willingness to continue and expand current 
        CSFP services.
    This program continues with committed grassroots operators and 
dedicated volunteers. The mission is to provide quality nutrition 
assistance economically, efficiently, and responsibly always keeping 
the needs and dignity of our participants first. We commend the Food 
and Nutrition Service of the Department of Agriculture and particularly 
the Food Distribution Division for their continued innovations to 
strengthen the quality of the food package and streamline 
administration. We also remain committed to providing quality services 
in collaboration with the community organizations and volunteers that 
contribute nearly 50 percent of the resources used in providing these 
services. We appreciate the continued support from so many diverse 
senators and attach the letter currently being circulated in support of 
our program by Senators Stabenow and Domenici. A final, signed copy of 
the letter should soon be submitted to your committee from your 
colleagues.

                                                  ATTACHMENT 1.--NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE VALUE SURVEY FISCAL YEAR 2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Goods &                                                       Extra Goods
                                                                       USDA       Not Reimbursed       CSFP          Services        Volunteer     Annual Total    Percent Paid     donated to
                            Programs                                Reimbursed     by USDA Cash    Expenditures     donated to      Labor Hours    Program Value      by USDA          CSFP
                                                                       Cash                            Cash        agency Value        Value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $416,648         $13,227        $429,875          $6,650       $4108,235        $544,760              76          $2,625
New York........................................................       1,804,443          45,000       1,849,443           1,000         296,307       2,146,750              84          12,755
Vermont FB......................................................         246,524         300,000         546,524  ..............          90,200         636,724              39           2,000
Washington DC...................................................         439,098       1,600,000       2,039,098         800,000         172,318       3,011,416              15  ..............
Pennsylvania....................................................         835,702          53,197         888,899          22,885         186,985       1,098,769              76          92,638
Kentucky........................................................         898,857         162,681       1,061,538          22,180         704,282       1,788,000              50         714,055
Mississippi.....................................................         400,448  ..............         400,448         160,370         561,766       1,122,584              36  ..............
North Carolina..................................................          74,583          30,000         104,583  ..............  ..............         104,583              71           5,000
South Carolina..................................................         212,744  ..............         212,744  ..............          58,883         271,627              78           2,500
Tennessee \1\...................................................         804,260  ..............         804,260  ..............  ..............         804,260             100  ..............
Illinois........................................................         885,767           3,000         888,767  ..............         477,447       1,366,214              65  ..............
Indiana.........................................................         246,603          28,072         274,675          22,000         396,880         693,555              36             443
Michigan........................................................       4,490,742         601,805       5,092,547         356,773       2,161,385       7,610,705              59         769,301
Minnesota.......................................................         802,557         103,225         905,782          19,000         173,068       1,097,850              73         199,000
Red Lake, MN....................................................           5,841  ..............           5,841  ..............  ..............           5,841             100  ..............
Ohio............................................................         709,662          94,228         803,890          65,000         368,251       1,237,141              57         302,000
Wisconsin.......................................................         276,228          56,458         332,686           3,150         300,691         636,527              43          41,845
Louisiana.......................................................       4,505,386         250,000       4,755,386         452,000         825,330       6,032,716              75  ..............
New Mexico......................................................       1,009,150         272,139       1,281,289          97,987         350,283       1,729,559              58         446,378
Texas...........................................................         708,521          70,000         778,521          15,000         405,900       1,199,421              59          12,000
Colorado........................................................       1,193,799         204,168       1,397,967          30,474         612,151       2,040,592              59         878,389
Iowa............................................................         222,652         520,767         743,419  ..............          29,712         773,131              29  ..............
Kansas..........................................................         333,423          45,715         379,138          46,200         209,986         635,323              52          51,400
Missouri........................................................         532,997          29,000         561,997           2,400         398,455         962,852              55       1,010,950
Montana.........................................................         385,402          35,525         420,927         107,333       2,163,357       2,691,617              14          78,825
Nebraska........................................................         756,827          87,486         844,313          21,580         308,475       1,174,369              64          89,709
North Dakota....................................................         160,216           7,800         168,016  ..............         235,729         403,745              40  ..............
South Dakota....................................................         160,962          33,520         194,482  ..............          32,842         227,324              71  ..............
Ogala Sioux, SD.................................................          37,341  ..............          37,341  ..............  ..............          37,341             100  ..............
Alaska..........................................................         130,334          48,038         178,372          10,000          45,100         233,472              56  ..............
Arizona.........................................................         883,204         450,000       1,333,204           4,516       1,549,401       2,887,121              31         580,460
California......................................................       3,078,203       1,265,849       4,344,052          68,600       2,492,966       6,905,618              45         772,308
Nevada..........................................................         352,044          97,629         449,673  ..............          84,788         534,461              66         113,000
Oregon..........................................................          78,299          48,000         126,299  ..............          75,768         202,067              39  ..............
Washington......................................................         132,094          25,000         157,094             250          39,544         196,888              67  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
       Grand Total..............................................      28,211,561       6,581,529      34,793,090       2,335,348      15,916,481      53,044,919              53      6,177,579
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No information provided.

                                 ______
                                 

    Prepared Statement of the National Congress of American Indians

    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), we are pleased to present our recommendations 
on the administration's fiscal year 2009 budget for Indian programs.
    Agriculture is the second leading employer in Indian Country, and 
is the backbone of the economy for approximately 130 Native American 
Tribes. During the last agriculture census in 2002, American Indians 
operated 56.8 million acres of land and sold $1.64 billion of 
agricultural products, including $781 million of crops and $857 million 
of livestock.\1\ Agriculture will continue to be an economic driver on 
Indian Reservations, and USDA programs and services will continue to 
play a crucial role in the progression of economic development, and 
agriculture and natural resource programs throughout Indian Country.
---------------------------------------------------------------------------
    \1\ 2002 National Agricultural Statistics Service (NASS).
---------------------------------------------------------------------------
                          NUTRITION ASSISTANCE

    The Food Distribution Program on Indian Reservations (FDPIR) 
provides food assistance to nearly 250 tribes across the country in 
lieu of participation in the Food Stamp Program. FDPIR is more than 
simply a supplemental program, in many cases it is the sole source of 
food for low income tribal members living on or near geographically 
isolated reservations.
    Historically, food packages have included what remains of Federal 
commodity programs, such as bleached flour, sugar, potatoes, corn, and 
butter. The immediate and drastic shift from healthy subsistence and 
traditional foods to foods high in sugar, starch and fat created a 
quiet epidemic across Indian reservations: diabetes and obesity. It is 
imperative that food assistance to Indian tribes be improved to deliver 
better foods to improve human health for tribal members receiving foods 
from FDPIR.
    For decades the USDA's answer to Tribal requests for the inclusion 
of healthier and more traditional Native foods in the FDPIR food 
packages has been that the program has insufficient funds. The FDPIR is 
a crucial program for Indian Tribes, and increased funding is needed to 
improve the nutrition content of food packages and offset rising 
transportation and maintenance costs.
    The FDPIR budget includes the costs of program administration by 
the Indian Tribal Organization (ITO) or State agency, food storage, 
food delivery, vehicle maintenance, employee salaries, nutrition 
education as well as the purchase of foods for distribution.
  --NCAI urges Congress to increase funding to FDPIR above $90 million 
        to support this essential program for Indian tribes.

              EXTENSION INDIAN RESERVATION PROGRAM (EIRP)

    Congress mandates and funds research and extension services in 
every county in the Nation except on Indian reservations. The Extension 
Indian Reservation Program (EIRP) provides the only Federal source for 
funding to cover the cost of placing extension agents on Indian 
reservations. Indian reservations have only had access to USDA Offices 
since 1990, when EIRP was established to provide Indian farmers and 
ranchers direct access to USDA programs and information. EIRP was 
authorized to deliver USDA offices on 85 large reservations. Funding, 
however, has remained low, at only $3 million for fiscal year 2007-
2008, and only provides the Federal match for 31 USDA offices, well 
short of the 85 that were intended.
  --NCAI asks that the EIRP program be funded at $8 million a year to 
        improve USDA services to Indian tribes by placing more 
        extension agents on reservations.

                    INDIAN LAND ACQUISITION PROGRAM

    Tribes have been subjected to a myriad of Federal policies that 
have distributed and redistributed our homelands into an often 
confusing array of checkerboard land ownership, which significantly 
stunts efficient agricultural and economic development in Indian 
Country. USDA provides loans to tribal governments to purchase ``highly 
fractionated'' lands under a process delineated in the Indian Land 
Consolidation Act Amendments of 2004. These loans allow tribes to 
purchase parcels of land that are considered ``highly fractionated,'' 
defined as lands that have over 100 individual owners or where no one 
owner owns more than 10 percent of the parcel). Fractionated land 
hampers agriculture by taking land out of production while 
simultaneously becoming grounds for invasive species. Moreover, 
tracking fractionated land costs the Federal Government significant 
amounts of money annually, taking away from providing beneficial 
services to Indian communities. It was estimated in 2002 that it would 
cost just over $2 billion to consolidate all fractionated interests.
  --The Indian Land Acquisition Program was authorized at $12 million a 
        year, but has never been funded over $2 million. NCAI requests 
        that this program be funded at $12 million in order to tackle 
        one of the most pressing and longstanding problems in Indian 
        Country.

 OUTREACH TO SOCIALLY DISADVANTAGED FARMERS AND RANCHERS (2501 PROGRAM)

    The 2501 Program provides outreach and technical assistance to 
Socially Disadvantaged Farmers and Ranchers, including Indian tribes. 
This has been the primary source of outreach from the USDA to many 
minority farmers, and helps to promote agriculture to rural 
communities. Most tribal communities do not have access to USDA 
offices, and the 2501 Program provides an opportunity for small 
communities to participate in agriculture.
  --The 2501 Program, Outreach to Socially Disadvantaged Farmers and 
        Ranchers, should be funded at $15 million to improve USDA 
        delivery to tribal communities.

     1994 (TRIBAL COLLEGES & UNIVERSITIES) LAND GRANT INSTITUTIONS

    Tribal Colleges are the heart and soul of higher education in 
Indian Country. They are considered one of the most important steps in 
revitalizing education, culture and language, and the economy in Indian 
Country. Nonetheless, despite their many obligations and roles, TCUs 
remain the most poorly funded institutions of higher education in this 
country.
    Over a dozen years since securing land grant status TCUs have yet 
to be recognized and funded as full partners in the nation's land grant 
system. Funding at the requested levels is a small but critical first 
step in addressing disparities that currently exist in the land grant 
system, and with supporting higher education for Native Americans. 
(Chart adjusted from March 12, 2008 NCAI Budget Recommendations)

                        [In millions of dollars]
------------------------------------------------------------------------
                                          Fiscal year   Fiscal year 2009
             Program name                    2008         NCAI request
------------------------------------------------------------------------
1994 Institutions' Extension Program..          $3.221              $5
1994 Institutions' Equity Grant                  3.342               3.3
 Program..............................
1994 Institutions' Endowment Fund.....          11.880              12
1994 Institutions' Research Program...           1.544               3
1994 Institutions' Community                         4               5
 Facilities...........................
Tribal College Essential Community                   4               5
 Facilities Program--(Rural
 Development).........................
------------------------------------------------------------------------

                                 ______
                                 

      Prepared Statement of the National Corn Growers Association

    The National Corn Growers Association (NCGA) appreciates the 
opportunity to share with the subcommittee our energy and water 
development appropriations priorities for fiscal year 2009, and we 
respectfully requests this statement be made part of the official 
hearing record. In general, our agriculture appropriations priorities 
include support for the Plant Genomic Research, APHIS Biotechnology 
Regulatory Service, FAS SPS Issues Resolution, FAS Market Access 
Program, National Corn to Ethanol Research Center, Ethanol Co-product 
Utilization, and the Value-Added Product Market Development Grant 
program.
    NCGA's mission is to create and increase opportunities for corn 
growers. NCGA represents more than 33,000 members and 48 affiliated 
state organizations and hundreds of thousands of growers who contribute 
to state checkoff programs.

Genomic Research
    The entire corn industry, including the academic research 
community, grain handlers, growers, industry and seed companies 
strongly believe that research on plant and plant genomes has 
substantial long-term benefits. NCGA supports the plant genome research 
conducted by ARS through its genetic resources, genome sequencing and 
genome bioinformatics programs. Specifically, this research includes 
plant and fungal genomics exploration to determine what drives 
aflatoxin production, what causes susceptibility, and helps us 
understand plant and fungal nutrient and environmental needs.
    NCGA also supports the Cooperative State Research, Education and 
Extension Service's National Research Initiative. Our research policy 
supports competitive grants where appropriate

APHIS Biotechnology Regulatory Service
    NCGA supports the President's budget request of $16.306 million for 
the Animal and Plant Health Inspection Service's Biotechnology 
Regulatory Service program as well as the separate funding stream 
requested in the budget from the Office of the Secretary that allows 
for additional potential funds towards the same. This funding request 
is $4.578 million more than the fiscal year 2008 enacted BRS budget of 
$11.728 million. These resources are necessary to ensure the agency 
properly manages its functions associated with this expanding 
technology to maintain consumer and customer confidence in our strong 
science-based regulatory structure.

FAS SPS Issues Resolution
    NCGA supports the President's budget request for the Foreign 
Agricultural Service (FAS) Sanitary and Phytosanitary (SPS) program. 
Unnecessarily restrictive regulations to address plant health risks are 
major impediments to U.S. market expansion. As trade barriers have been 
reduced, there has been a dramatic increase in non-tariff trade 
barriers to trade.

FAS Market Access
    NCGA supports the President's budget request of $200 million for 
the Market Access Program (MAP) within the Foreign Agricultural 
Service. This program has been successful in maintaining and expanding 
U.S. agricultural exports and strengthening farm income.

National Corn to Ethanol Research Center
    In 2007, fuel ethanol production from corn generated 6.5 billion 
gallons of ethanol, displacing 5 percent of petroleum imports. Economic 
forecasting estimates that the United States is capable of producing in 
excess of 15 billion gallons of ethanol by 2015. Such production is 
critical to our national economy, energy security and the environment. 
The National Corn-to-Ethanol Research Center (NCERC) at Southern 
Illinois University--Edwardsville is in a perfect position to: continue 
generation of baseline data, serve as training center for Workforce 
Development and expand as a Lignocellulosic Center of Excellence. To 
fulfill these objectives, NCGA is seeking additional funding on behalf 
of NCERC.
    The (NCERC) houses a state-of-the-art pilot plant which mimics the 
commercial production of fuel ethanol. Updated baseline data is 
continuously re.quired to be reflective of industry changes and their 
impact on ethanol yields and efficiencies. The goal of this objective 
is to continue generating baseline data under typical industry 
operating conditions reflective of changing industry practices and 
changes in inputs (e.g. fractionization, corn hybrids, enzymes, yeast 
practices). The baseline data generated by the NCERC is of significant 
interest to academic, government, industry and trade association 
researchers as well as ethanol plant operators. The baseline data 
generated by NCERC provides a critical benchmark for industry and 
institutional comparison testing. We encourage the committee to provide 
$400,000 to NCERC for this purpose.
    A key component to the success of the ethanol industry over the 
next decade is to ensure the industry has a ready and available 
workforce. The rapid growth and expansion of the ethanol industry has 
created a need for thousands of qualified plant process operations 
personnel. The NCERC has created a unique Education and Workforce 
Training Program to address this need. The initial launch of this 
program, in January 2007, saw 24 displaced auto workers and skilled 
trades-people successfully complete a comprehensive 5-day ethanol 
process operator training program. In the past calendar year, the NCERC 
conducted six installments of Workforce Training with 150 persons 
successfully completing 50 hours of training in the ``Fundamentals of 
Applied Ethanol Process Operations''.
    More so, NCERC is well-positioned to train an immediately 
productive workforce as it plays a unique role in serving the 
educational mission of the university NCERC provides a year-long, 
hands-on workforce training program to student interns while conducting 
commercial testing trials. Since opening in late 2003, nearly 45 
interns have helped with the successful operation of the plant and 
labs.
    NCGA requests an additional $1,000,000 to expand the current 
internship program to meet the growing needs of the industry. Through 
this endeavor, NCERC will develop and implement a National Biofuels 
Workforce Training Center.
    For cellulose to be a viable feedstock, the process of converting 
cellulose to ethanol must be optimized. The three ``process points'' of 
optimization in the cellulose to ethanol process are: pre-treatment 
method, enzyme functionality and fermentation organisms (yeast). The 
NCERC is a research leader in the conversion of corn to ethanol and its 
co-product. Therefore, the NCERC is able to more cost-effectively stay 
on the cutting edge of technology as we enter a new era of converting 
cellulose to ethanol.
    The NCERC is well-positioned to work directly with USDA/ARS, the 
Department of Energy, and Academic and Industry researchers who are 
conducting scientific discovery research on the conversion of cellulose 
to ethanol. This work will spur unlimited investment by private 
industry as they will make that crucially important decision to enter 
the cellulose to ethanol market. We encourage the committee to consider 
NCERC as Lignocellulosic Center of Excellence.

Ethanol Coproduct Utilization
    One of the major benefits of using corn as a feedstock for ethanol 
production is the ability to retain the protein, fat, fiber, vitamins 
and minerals for use as an animal feed. The co-product of ethanol 
production, distillers dried grain with solubles (DDGS), results from 
the concentration and drying of the components remaining after the 
starch portion of corn is converted to ethanol. Strong global demand 
for DDGS will be critical in maximizing the potential and profitability 
of fuel ethanol production from corn while ensuring livestock feed 
needs are met.
    While nearly 16 million tons of DDGS was fed domestically or 
exported in 2007, use of this alternative feed ingredient may be 
limited in the future because of real and perceived issues relating to 
DDGS consistency, quality, flowability and feed efficiency. NCGA 
encourages the committee to dedicate the resources necessary to greatly 
expand ARS's efforts in this area, particularly as they relate to DDGS 
flowability, contaminant mitigation, nutritional value, and nutrient 
and mineral management issues.

Value-Added Grants
    Since its establishment, the Value-Added Producer Grants Program 
has been a tremendous success. This matching fund program has provided 
grants to over 900 individual producers, producer-controlled 
organizations and farmer cooperatives across the Nation since its 
inception.
    With those funds, recipients are empowered to capitalize on new 
value-added business opportunities that would have otherwise gone 
unexplored. Their successes have translated into greater and more 
stable income for producers from the marketplace. It has also served to 
promote economic development and create needed jobs, especially in 
rural areas where employment opportunities are often limited. Potential 
technologies include processing identity-preserved corn varieties and 
adding value to the non-fermentable components of the corn feedstock.
    The benefits of this program far exceed the cost. Given its track 
record of success, we believe that strong justification exists to 
provide full funding for USDA's Value-Added Producer Grants Program.
    Thank you for the support and assistance you have provided to corn 
growers over the years. Please feel free to contact Jon Doggett at 202-
628-7001 if you need any additional information.
                                 ______
                                 

   Prepared Statement of the National Council of Farmer Cooperatives

    Mr. Chairman, members of the Subcommittee, we would like to thank 
you for your continued leadership and support for U.S. agriculture. The 
National Council of Farmer Cooperatives (NCFC) appreciates this 
opportunity to submit its views regarding the fiscal year 2009 
agriculture appropriations bill, and respectfully requests this 
statement be made part of the official hearing record.
    NCFC represents the interests of America's farmer cooperatives. 
There are nearly 3,000 farmer cooperatives across the United States 
whose members include a majority of our Nation's more than 2 million 
farmers.
    We believe that our farmer cooperative members offer the best 
opportunity for America to realize the farmer-focused ideal of American 
agricultural policy. These farmer cooperatives allow individual farmers 
the ability to own and lead organizations that are essential for 
continued competitiveness in both the domestic and international 
markets.
    America's farmer-owned cooperatives provide a comprehensive array 
of services for their members. These diverse organizations handle, 
process and market virtually every type of agricultural commodity 
produced. They also provide farmers with access to infrastructure 
necessary to manufacture, distribute and sell a variety of farm inputs. 
Additionally, they provide credit and related financial services, 
including export financing.
    In all cases farmers are empowered, as elected board members, to 
make decisions affecting the current and future activities of their 
cooperative. Earnings derived from these activities are returned by 
cooperatives to their farmer-members on a patronage basis thereby 
enhancing their overall farm income.
    America's farmer cooperatives also generate benefits that 
strengthen our national economy. They provide jobs for nearly 250,000 
Americans with a combined payroll over $8 billion. Many of these jobs 
are in rural areas where employment opportunities are often limited.
    Congress faces many challenges in the current budget environment 
and we appreciate the difficulty of your task. However, we want to 
emphasize the continued importance of policies under the current Farm 
Bill that promote an economically healthy and competitive U.S. 
agricultural sector.
    These programs serve a variety of purposes including: meeting the 
food and fiber needs of consumers worldwide, strengthening farm income, 
improving our balance of trade, promoting rural development, and 
creating needed jobs.
    There is a long history of congressional support for farmer 
cooperatives, recognizing that they serve a variety of essential 
functions for American agriculture. Some of these functions include: 
enhancing producers' overall income, managing their risk, capitalizing 
on new market opportunities, and helping individual farmers work 
together to compete more effectively in a global economy.
    Given these vital tasks that farmer cooperatives perform on behalf 
of their members, it is extremely important that they retain the 
flexibility to modernize and adapt to the current and future 
marketplace confronting U.S. agriculture. Accordingly, in addition to 
supporting basic farm and commodity programs under the current Farm 
Bill, we recommend the following:

USDA's Rural Business-Cooperative Service (RB-CS)
    Several years ago, the Cooperative Service was eliminated as a 
separate agency within USDA. Since that time, the focus of research, 
education and technical assistance for farmer cooperatives has eroded. 
Funding for such purposes has generally been provided through the 
salary and expense budget relating to rural development.
    For fiscal year 2009, the administration's budget proposal provides 
$700 million in both budget authority and program level for salaries 
and expenses for the rural development mission area, compared to $685 
million for fiscal year 2008.
    Since there is no separate line item relating to programs in 
support of farmer cooperatives, we recommend that specific language be 
included, as Congress has approved in the past, relating to farmer 
cooperatives. Those directives should ensure that programs to encourage 
the development and continued competitiveness of farmer cooperatives be 
given a high priority.

Value-Added Agricultural Product Market Development Grants
    USDA's Value-Added Agricultural Product Market Development Grants 
Program encourages and enhances farmer (and farmer cooperative) 
participation in value-added businesses. These new ventures are 
intended to help producers capture a larger share of the value of their 
production and improve their overall income from the marketplace. These 
activities also promote economic development and create needed jobs in 
rural areas.
    The program is administered on a matching-fund basis, thereby 
doubling the impact of such grants and helping encourage investment in 
rural America. As a cost-share program, it has served as an excellent 
example of an effective public-private partnership. Despite abbreviated 
funding levels, successful applicants have brought a number of self-
sustaining products to market with the initial help of this program.
    Since the program's inception, NCFC has been a leader of a 
coalition of farmers, cooperatives and related rural interests that 
utilize and strongly support the Value-Added Agricultural Product 
Market Development Grants Program. Given the importance and success of 
the program in promoting efforts by farmers to develop new, higher-
value products and sustainable increases in farm sector income, the 
coalition is recommending an increase to $60 million annually in 
mandatory spending under the upcoming Farm Bill. We are hopeful that 
the subcommittee will look favorably upon the full level of mandatory 
funds authorized under that upcoming legislation.

Commodity Purchase Programs
    USDA annually purchases a variety of commodities for use in 
domestic and international feeding programs, including the school lunch 
program. NCFC strongly supports such programs to: (1) meet the food and 
nutrition needs of eligible consumers and (2) help strengthen farm 
income by encouraging orderly marketing and providing farmers with an 
important market outlet, especially during periods of surplus 
production.
    In addition to providing needed funding for such programs, it is 
important to ensure that farmers who choose to cooperatively market 
their products should remain fully eligible for them. Similarly, farmer 
cooperatives should not be limited or excluded from utilizing these 
programs, and must remain fully eligible.
    As you are well aware, decades of public policy has reinforced the 
fact that the cooperative stands in the shoes of its farmer-owners, as 
they act for their mutual benefit. This is consistent with USDA's 
historical mission in support of such cooperative efforts and essential 
to ensure the continued availability of high quality products on a 
competitive basis.
    We urge the committee to again include provisions to ensure 
continued eligibility by farmer cooperatives to the benefit of their 
farmer members.

B&I Loan Guarantee Program and Farmer Cooperatives
    Access to equity capital is one of the major challenges facing 
farmer cooperatives. A successful resolution of this challenge is 
essential in helping farmers capture more of the value of what they 
produce beyond the farm gate.
    In approving the current Farm Bill, Congress made a number of 
changes to USDA's Business and Industry (B&I) guaranteed loan program 
to better meet the needs of farmer cooperatives and their farmer 
members. These included changes to allow farmers to qualify for 
guaranteed loans for the purchase of stock in both new and existing 
cooperatives to provide the equity capital needed to encourage more 
involvement and participation in value-added activities.
    For fiscal year 2009, the administration's budget proposal provides 
an overall program level of $700 million, which represents a decrease 
from the $993 million in loans estimated to be guaranteed in fiscal 
year 2008. Accordingly, we recommend that resources be increased to at 
least the fiscal year 2008 estimated level.

Rural Business Investment Program
    The Rural Business Investment Program was authorized under the 
current Farm Bill to help foster rural economic development by 
encouraging and facilitating equity investments in rural business 
enterprises, including farmer cooperatives. Again, providing improved 
access to equity capital is essential if farmers are going to be able 
to capitalize on value-added business opportunities through farmer 
cooperatives. For these reasons, we urge that the program be fully 
funded as authorized and implemented as Congress intended.

USDA Export Programs
    We would also like to take this opportunity to express our strong 
support for USDA's export programs. These programs are vital to 
maintaining and expanding U.S. agricultural exports, counter subsidized 
foreign competition, meet humanitarian needs, protect American jobs, 
and strengthen farm income.
    NCFC is a longstanding member of the Coalition to Promote U.S. 
Agricultural Exports. That coalition is urging that mandatory funding 
for the Market Access Program be provided at $325 million, together 
with $50 million for the Foreign Market Development program, under the 
upcoming Farm Bill. We urge that the subcommittee support the full 
authorized funding levels for these essential programs.
    In addition, we urge full funding for the Export Credit Guarantee 
Programs, the Export Enhancement Program, Dairy Export Incentive 
Program, Technical Assistance for Specialty Crops, Food for Progress, 
as well as Public Law 480 and other food assistance programs, including 
McGovern-Dole.

Food Aid
    NCFC is a member of the Food Aid coalition and strongly supports 
their testimony. Public Law 480's long history of success has created 
significant congressional and private sector confidence in the program. 
Farmer cooperatives have seen these benefits first-hand through our 
involvement in agricultural development programs with international NGO 
ACDI/VOCA.
    With that background, we urge the subcommittee to reject any 
proposals to divert funds from Title 1 and Title II of the Public Law 
480 program. Though we recognize that the Europeans maintain a 
different policy in regard to their food aid programs, it is unwise to 
undermine our strong position in the World Trade Organization 
negotiations by unilaterally amending Public Law 480.

Foreign Agricultural Service
    Additionally, we also want to take this opportunity to urge support 
for needed funding and resources for USDA's Foreign Agricultural 
Service. This funding is crucial if we are to continue to effectively 
carry out such programs and to provide the technical assistance and 
support needed to help maintain and expand U.S. agricultural exports.

Research
    Another important area of emphasis when it comes to enhancing the 
global competitiveness of farmer cooperatives and American agriculture 
is research. NCFC supports the National Coalition for Food and 
Agriculture Research's goal of doubling Federal funding over the next 5 
years.

Conservation
    We also want to express our strong support for important 
conservation and related programs administered by USDA's Natural 
Resources Conservation Service (NRCS). Many of these programs were 
significantly expanded under the current Farm Bill and provide 
financial and technical assistance to help farmers and others who are 
eligible to develop and carry out conservation and related activities 
to achieve important environmental goals.
    NRCS is also the lead technical agency within USDA offering ``on-
farm'' technical and financial assistance. We strongly support such 
programs, involving technical assistance activities that may be carried 
out in partnership with the private sector involving farmer 
cooperatives.
    Farmer cooperatives have invested heavily in developing the 
technical skills of their employees to help their farmer members 
address environmental concerns. It is estimated that 90 percent of all 
members of the Certified Crop Advisor (CCA) program, for example, are 
employed by the private sector and majority of those are employed by 
farmer cooperatives.
    It is important that USDA have the resources to provide these 
important funds and that the Department continues to refine the 
technical service program (TSP).

Conclusion
    Thank you again, Mr. Chairman and members of the Subcommittee, for 
the opportunity to share our views. We look forward to working with the 
committee to ensure continued benefits for rural communities, 
consumers, American agriculture and our Nation as a whole.
                                 ______
                                 

    Prepared Statement of the National Drinking Water Clearinghouse 
                Programs for Small and Rural Communities

Summary
    The National Drinking Water Clearinghouse (NDWC) asks for your 
continued support for our work to assist small and rural communities in 
the United States in maintaining safe, affordable drinking water. We 
request a total of $2 million in fiscal year 2009 to support our 
regular outreach programs under the NDWC ($1.6 million) and for a 
focused activity called Special Services to Small Communities ($0.4 
million). Our nation-wide services provide information, technical 
assistance, training, education, and outreach to citizens, government 
officials, service providers, and regulators for communities with 
populations of 10,000 or less. The NDWC is supported through the 
Technical Assistance and Training grants administered under the USDA 
account for the Rural Community Assistance Program (RCAP). The first 
two pages of our testimony outline the need and justification for our 
services. The remainder of the testimony provides descriptive 
information about the NDWC and Special Services programs.

                     PROGRAM NEED AND JUSTIFICATION

Need for Federal Programs
    The recent media attention given to reports of large amounts of 
pharmaceuticals found in our drinking water has lead to a public outcry 
for more stringent treatment of drinking water and wastewater and the 
implementation of higher standards for water quality. The Environmental 
Protection Agency (EPA) drinking water survey conducted in 1999 
indicated the need for drinking water systems and/or system upgrades to 
be $48.1 billion for communities of 10,000 or less, and $31.2 billion 
for communities of 3,300 or less. Regardless of community size, water 
systems are required to comply with regulations mandated by the Safe 
Drinking Water Act to ensure safe drinking water to the populace.
    The expense of upgrading or installing new water systems is a 
progressively heavy financial burden on smaller communities. With their 
limited resources, these communities often lack a solid financial base, 
adequate equipment, and properly trained water system operators. Faced 
with regular turn-over in personnel due to constraints on salaries and 
their lower budgets for installing infrastructure, small and rural 
communities require Federal services such as training for technical 
personnel and community officials and information on low-cost options 
for system designs and maintenance if these communities are to keep 
expenses within their budget. Without adequate water resources, these 
communities are not able to grow and prosper. Safe, affordable water 
infrastructure is an investment in the economic viability and public 
health of rural America.

Program Justification
    To assist small and rural communities address their drinking water 
challenges, the Technical Assistance and Training [TAT] grants program 
was started under USDA's Rural Community Advancement Program. The TAT 
program makes it possible for small and rural communities to maximize 
their investments in water infrastructure through assistance provided 
to them for technology selection, operation and maintenance, capacity 
development, and asset management.
    Funding for drinking water and waste water assistance is mandated 
through the Farm Bill (e.g. the Consolidated Farm and Rural Development 
Act). The administration requests funding for these assistance programs 
through the TAT account. However, the amount of funding that the 
administration requests for the TAT program has been decreasing each 
year while inflation pressures require the need for more funding just 
to maintain the same level of effort. The programs of the NDWC provide 
cost-effective solutions to help small community water systems meet the 
challenges they face, improve their abilities to comply with the Safe 
Drinking Water Act (SDWA), and protect public health.
    Given the integral role that the NDWC plays in implementing the 
USDA mandate in providing drinking water assistance services, we seek 
continued congressional support to maintain our level of activity and 
are requesting a congressionally directed appropriation through the 
RCAP TAT program for $2 million. By providing Federal funds to support 
the NDWC programs, the U.S. Government benefits through the economy-of-
scale of supporting one organization (the NDWC) to develop a suite of 
assistance packages offered free to small communities which do not have 
the extensive resources needed to develop such programs and services 
from their own budgets.

             NDWC AND SPECIAL SERVICES PROGRAM DESCRIPTIONS

National Drinking Water Clearinghouse Program
    For 17 years, the National Drinking Water Clearinghouse at West 
Virginia University has helped small and rural communities with their 
water infrastructure management. We have provided assistance in utility 
security issues since 2001. The NDWC is currently funded at 
approximately $1 million from fiscal year 2007 funds. fiscal year 2008 
funding is pending and would be allocated in September, 2008.
    The NDWC provides a range of assistance for small and rural 
communities. Telephone callers can obtain toll-free technical 
assistance from our staff of engineers and scientists. Our quarterly 
publication ``On Tap,'' a magazine about drinking water treatment, 
financing, and management options, helps communities and small water 
systems operate, manage and maintain their facilities, while keeping 
them financially viable. Our comprehensive web site and databases with 
thousands of entries provide round the clock access to contemporary 
information on small water systems. Training sessions customized for 
small and rural areas, teleconferences, web casts and more than 400 
free and low-cost educational products give people the instruction and 
tools they need to address their most pressing water issues. Our 
services are structured to be of assistance to callers from any 
community across the Nation and are well received by small community 
officials and service providers.

Special Services to Small Communities Program
    In addition to the National Drinking Water Clearinghouse's 
knowledge base and technical support, the NDWC is expanding its 
assistance to underserved communities through technical field support. 
Underserved communities populate rural Appalachia, the Mississippi 
Delta, and the U.S.-Mexico Border communities, or ``Colonias,'' and 
Native American Tribes. The NDWC's funding currently does not provide 
for direct services to underserved communities. To initiate this 
program, West Virginia University has provided internal funding to 
pilot an effort to honor requests for site specific technical support. 
This support has given small and very small communities assistance 
through site assessments and feasibility studies that they might not 
otherwise be able to access for planning needed infrastructure 
improvements, their financing, and management. We are requesting 
congressional support for this program which could then be offered free 
of charge on a wider scale to selected communities across the Nation.
    We would appreciate your continued support for the valuable 
services provided by the National Drinking Water Clearinghouse. Thank 
you for the opportunity to offer testimony on the USDA programs.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2009 funding for 
the National Fish and Wildlife Foundation (Foundation). We appreciate 
the Subcommittee's past support and respectfully request your approval 
of $4 million through the Natural Resources Conservation Service (NRCS) 
fiscal year 2009 appropriation.
    This funding request is well within the authorized levels and would 
allow the Foundation to uphold our mission and expand our successful 
partnership with NRCS. Mr. Chairman, I want to make one very important 
point: we are asking for your support of a well-established 
conservation program with national significance. The Foundation is an 
honest broker for the Federal agencies and we have a remarkable track 
record of bringing private partners together to leverage Federal funds 
and maximize conservation impacts.
    During fiscal year 2000-2006, the Foundation received an average 
appropriation of $3 million annually to further the mission of NRCS 
through a matching grant program focused on private lands conservation. 
We respectfully request that the subcommittee restore the NRCS 
appropriation for the Foundation in fiscal year 2009 to expand our 
partnership with NRCS. Together, NRCS and the Foundation have supported 
nearly 500 grants to conservation districts, universities, Resource 
Conservation and Development Councils, and non-profit organizations who 
partner with farmers, ranchers, and foresters to support conservation 
efforts on private land. Through these efforts, the Foundation 
leveraged $21 million in NRCS funds into more than $85 million to 
conserve fish and wildlife habitat, reduce agricultural runoff, and 
remove invasive species in 49 States, the Caribbean, and the Pacific 
Islands.
    Since the Foundation's establishment by Congress in 1984, the 
Foundation has built strong partnerships with Federal agencies by 
convening cooperative efforts to further the conservation of fish, 
wildlife and plants. In addition to NRCS, the Foundation works closely 
with the U.S. Fish and Wildlife Service and other Department of 
Interior agencies, U.S. Forest Service, National Oceanic and 
Atmospheric Administration, and the Environmental Protection Agency, 
among others. While the Foundation's Congressional charter requires a 
minimum of a 1:1 match for federally appropriated dollars, three or 
more matching dollars are typically leveraged from the non-Federal 
sector for conservation projects. Therefore, a NRCS appropriation of $4 
million in fiscal year 2009 has the potential to turn into $16 million 
or more for on-the-ground conservation. Funds appropriated by this 
subcommittee are fully dedicated to project grants and do not cover any 
overhead expenses of the Foundation.
    The Foundation continues to excel in grant-making while providing 
thought leadership, accountability and sustainable conservation 
outcomes. Our unique ability to organize Federal agencies and private 
partners to work together to achieve mutual conservation goals through 
on-the-ground and in-the-water grant programs is notable and there is 
significant potential to advance these efforts in fiscal year 2009 and 
beyond.
    Renewal of NRCS funding for the Foundation will attract private 
sector interest in conservation through corporate sponsorship and 
direct gifts. With past support from NRCS, the Foundation was 
successful in attracting $750,000 of matching funds through the Kellogg 
Foundation to support innovative and sustainable conservation 
activities on agricultural lands. The Foundation also has strong 
partnerships with Anheuser-Busch, Southern Company, and the McKnight 
Foundation, all of whom have a special interest in conserving habitat 
on private agricultural lands.
    Reinstatement of NRCS appropriations will encourage new corporate 
partnerships to further leverage Federal funds for fish and wildlife 
conservation on private lands. Through our targeted grants, the 
Foundation strategically invests Federal funds entrusted to us to 
achieve measurable success in ``moving the needle'' on collaborative 
conservation objectives over the next 5 to 10-year period.

Conserving Fish, Wildlife, Plants and Habitats
    Fiscal year 2009 appropriations through NRCS will be focused on 
mutually agreed upon projects across the country according to our 
Keystone Initiatives and the objectives of the Foundation's Special 
Grant Programs, which are specific to a geographic area, group of 
species, or conservation concern. The Keystone Initiatives represent 
the new core portfolio of the Foundation's grant making with clearly 
defined long-term goals, well-articulated strategies, and defined 
budgets to reach desired outcomes. The Foundation continued 
implementing a new strategic plan and developing targeted Keystone 
Initiatives, with the goal of achieving sustainable and measurable 
conservation impacts.
    Four Keystone Initiatives were launched by the Foundation in 2007: 
(1) Birds (2) Wildlife and Habitats (3) Fish and (4) Marine and Coastal 
Conservation. Each grant approved under a Keystone Initiative will be 
designed to provide a measurable outcome that brings us one step closer 
to the final long-term conservation goal of the Initiative. Achieving 
success through our Keystone Initiatives will also help to fulfill the 
objectives of the National Fish Habitat Action Plan, North American 
Waterfowl Management Plan, and Partners in Flight, among others.
    With NRCS appropriations, the Foundation can accelerate our 
collaborative efforts to achieve long-term conservation impacts for 
fish and wildlife through our Keystone Initiatives. Increased funding 
in fiscal year 2009 will also help to strengthen the Foundation's 
Special Grant Programs, a few of which are highlighted below:
  --The Great Lakes Watershed Restoration Fund is a partnership between 
        NRCS, U.S. Fish and Wildlife Service, U.S. Forest Service, 
        Environmental Protection Agency, and NOAA to promote ecosystem 
        restoration in the Great Lakes watershed. Since 2005, the 
        Foundation has leveraged $1.9 million in Federal funds with 
        $3.8 million in partner contributions and matching funds to 
        support 36 projects throughout the watershed. In 2008, the 
        program is anticipated to award an additional $1.5 million to 
        restore and enhance fish and wildlife habitat in the Great 
        Lakes Basin. In January, the Foundation announced a new 
        corporate partnership with ArcelorMittal, an international 
        steel company, which will provide an additional $2.1 million 
        over 3 years for our grant-making in the watershed and help to 
        implement the habitat objectives of the Great Lakes Regional 
        Collaboration.
  --The Upper Mississippi River Watershed Fund was established in 
        partnership with the U.S. Forest Service and NRCS to restore 
        and protect the forest ecosystems and watersheds of the Upper 
        Mississippi River drainage area. Intensive land use and 
        expanding navigation of the river have transformed the river 
        and its watershed. Forest restoration and sustainable 
        stewardship is critical to the area's fish and wildlife 
        populations and the ability to address water quality issues. 
        Projects emphasize restoration of bottomland hardwoods, 
        wetlands, and riparian areas to benefit migratory birds, 
        amphibians, fish and other aquatic species. Since 2006, 
        $600,000 in Federal funds was leveraged with $1.4 million in 
        non-Federal funds to support eight projects in five States of 
        the Upper Mississippi River Watershed.
  --The Chesapeake Bay Stewardship Fund is a partnership among NRCS, 
        Environmental Protection Agency (EPA), U.S. Fish and Wildlife 
        Service, National Oceanic and Atmospheric Administration, and 
        the U.S. Forest Service to restore and protect water quality 
        and vital habitats within the Chesapeake Bay watershed. As part 
        of the Fund, the Foundation administers EPA's Chesapeake Bay 
        Target Watershed Grants and Small Watershed Grants. In 2008, 
        the Foundation will also partner with NRCS to manage $5 million 
        through their Chesapeake Bay Conservation Innovation Grants 
        program. By convening Federal partners through the Fund, the 
        Foundation serves as a ``one-stop-shop'' for grantees and plays 
        an important role in maximizing conservation outcomes.
    Other Special Grant Programs, including the Pulling Together 
Initiative, Bring Back the Natives, Coral Reef Conservation Fund, and 
the Delaware Estuary Watershed Grant Program, continued positive 
results in 2007 with grantee requests far exceeding available funds. As 
mentioned, the Foundation is successfully building bridges between the 
government and private sector to benefit NRCS's mission. With support 
from this Subcommittee, we can accelerate our investment in common-
sense, innovative, cooperative approaches that directly benefit diverse 
habitats, water quality and quantity, and a wide range fish and 
wildlife species.

A Tradition of Successful and Accountable Performance
    Since 1984, the Foundation has awarded nearly 9,500 grants to over 
3,000 organizations in the United States and abroad and leveraged--with 
its partners--more than $400 million in Federal funds into over $1.3 
billion for conservation. NFWF is recognized by Charity Navigator with 
a 4-star rating for efficiency and effectiveness.
    The Foundation has taken important strides to improve our grant 
review and contracting process to ensure we maximize efficiency while 
maintaining strict financial and evaluation-based requirements. 
Interactive tools through our website have improved communication with 
our stakeholders and helped to streamline our grant making process. We 
expect that as of spring 2008, the Foundation will be operating under a 
paperless application system.
    Grant-making through our Keystone Initiatives and Special Grant 
Programs involves a thorough internal and external review process. Peer 
reviews involve Federal and State agencies, affected industry, non-
profit organizations, and academics. Grants are also reviewed by the 
Foundation's Keystone Initiative staff, as well as evaluation staff, 
before being recommended to the Board of Directors for approval. In 
addition, according to our Congressional Charter, the Foundation 
provides a 30-day notification to the Members of Congress for the 
congressional district and State in which a grant will be funded, prior 
to making a funding decision.
    Once again, Mr. Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the 
Foundation in fiscal year 2009.
                                 ______
                                 

          Prepared Statement of the National Organic Coalition

    Chairman Kohl, Ranking Member Bennett, and Members of the 
Subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the National Organic Coalition (NOC) to detail our requests 
for fiscal year 2009 funding for several USDA marketing, research, and 
conservation programs of importance to organic agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers, cooperative retailers and others involved 
in organic agriculture. The current members of NOC are the Beyond 
Pesticides, Center for Food Safety, Equal Exchange, Food and Water 
Watch, Maine Organic Farmers and Gardeners Association, Midwest Organic 
and Sustainable Education Service, National Cooperative Grocers 
Association, Northeast Organic Dairy Producers Alliance, Northeast 
Organic Farming Association-Interstate Policy Council, Rural 
Advancement Foundation International-USA, and the Union of Concerned 
Scientists.
    We urge the Subcommittee's strong consideration of the following 
funding requests for various USDA programs of importance to organic 
farmers, marketers and consumers:

USDA/Agricultural Marketing Service (AMS)
    Organic Standards--Request: $6 million.
    In fiscal years 2006 and 2007, funding of $2.026 was appropriated 
for the National Organic Program within the AMS budget. For fiscal year 
2008, in keeping with the President's budget request for the program, 
$3.18 million was appropriated for the National Organic Program. The 
President's fiscal year 2009 budget proposes that the National Organic 
Program be funded at $3.98 million.
    With the rapid expansion of the organic market in the United States 
and abroad, the tasks facing the National Organic Program are numerous, 
yet the resources of the agency are few. The responsibilities of the 
NOP staff are exploding, as they attempt to enforce the standards 
governing the growing organic sector. If the funding for this program 
does not expand significantly to meet the growing needs, we fear that 
the important work of the NOP will suffer, the integrity of the organic 
standards will be jeopardized, and public confidence in the USDA 
organic label will be eroded.
    Without a doubt, Congress has been very responsive to the funding 
needs of the NOP in recent years, in most cases fully funding the 
increases proposed by the President's budget each year. However, we 
believe that funding increase requested in the President's budget this 
year may not be adequate to address the exploding growth of the organic 
sector.
    Some of the difficulties that the NOP has faced in implementing and 
overseeing the organic standards can be attributed to budget problems. 
Rulemaking efforts important to organic farmers, consumers, processors 
and retailers are languishing. For example, USDA has been promising for 
nearly 2 years to move forward on the proposal of a new, updated 
pasture standard to govern organic livestock, yet no formal action has 
taken place. Also, a regulation to clarify the standards for origin of 
livestock in organic dairy operations is also greatly needed.
    In addition, some unfulfilled statutory requirements are still 
unanswered, despite Congressional prodding.
    Specifically, the Senate report language in fiscal years 2004, 
2005, 2006, 2007, and 2008 called on the NOP to establish an on-going 
Peer Review Panel, as called for in Section 2117 of the Organic Foods 
Production Act of 1990 and Section 205.509 of the Organic rule, to 
provide oversight and advice to the NOP regarding the accreditation 
process for organic certifiers.
    In recognition of the growing pains that the NOP was experiencing 
in implementing the new organic standards, the agency wisely sought 
outside advice for recommendations for program improvements. The NOP 
contracted with the American National Standards Institute (ANSI) to 
perform an outside audit of the agency, the results of which were 
presented in late 2004. The ANSI audit noted numerous technical and 
procedural deficiencies in the NOP's operations and suggested 
corrective actions in several areas. In addition, USDA's own Inspector 
General's office released an audit report regarding the National 
Organic Program in July of 2005, which was very critical of the 
National Organic Program's operations, and also suggested several 
corrective actions that could be taken by the Agency to resolve the 
problems. The Members of the National Organic Coalition concur with the 
recommendations of the ANSI and Office of Inspector General (OIG) 
audits, and believe that if the NOP were to implement these 
recommendations, it would be a significant step to resolving many of 
the concerns that have been raised by the organic community regarding 
the NOP's operations. However, it is unclear whether these 
recommendations are being implemented. We believe that the House and 
Senate Agriculture Appropriations Subcommittees should be kept informed 
by NOP with regular reports on their progress in complying with these 
recommendations.
    In order to provide the National Organic Program with greater 
resources to fulfill these required tasks, and for certifier training, 
National Organic Standards Board support, enforcement, and rulemaking 
processes, we are requesting $6 million for AMS/National Organic 
Program, and we are also requesting that the following report language 
be included:
    The Committee is aware that an audit performed by the American 
National Standards Institute (ANSI) in 2004 and by the USDA Office of 
Inspector General (OIG) in 2005 made strong recommendations about 
changes needed in the administration of the National Organic Program. 
The Committee expects the Agency to take the necessary actions to 
comply with these recommendations, and to provide a detailed written 
report to the Committee by December of 2008 regarding progress in 
implementing these recommendations. The Committee also notes that the 
agency is long-overdue in publishing regulations for new, updated 
pasture standards for organic ruminants, and that conflicting standards 
governing the origin of livestock used in organic dairy operations may 
require rulemaking on that topic as well. The Committee hopes to see 
action taken by NOP on these matters during fiscal year 2009. Finally, 
the Committee expects the NOP to work closely with the National Organic 
Standards Board to implement the accreditation Peer Review Panel 
requirements of OFPA and USDA's organic regulations.

USDA/Organic Data Initiatives
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative States that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' The 
pending 2008 Farm Bill includes draft language continues and enhance 
this data collection effort as well. As the organic industry matures 
and grows at a rapid rate, the lack of national data for the 
production, pricing, and marketing of organic products has been an 
impediment to further development of the industry and to the effective 
functioning of many organic programs within USDA. Because of the multi-
agency nature of data collection within USDA, the effort to improve 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department:

Economic Research Service (ERS)
    Collection and Analysis of Organic Economic Data--Request: 
$750,000.
    Since fiscal year 2006, Congress has appropriated $500,000 to 
USDA's Economic Research Service to continue the collection of valuable 
acreage and production data, as required by Section 7407 of the 2002 
farm bill.
    Because increased ability to conduct economic analysis for the 
organic farming sector is greatly needed, we request $750,000 to be 
appropriated to the USDA ERS to implement the ``Organic Production and 
Market Data Initiative'' included in Section 7407 of the 2002 Farm 
Bill.

Agricultural Marketing Service (AMS)
    Organic Price Collection--Request: language supporting continued 
funding from RMA to AMS for organic price collection.
    Accurate, public reporting of agricultural price ranges and trends 
helps to level the playing field for producers. Wholesale and retail 
price information on a regional basis is critical to farmers and 
ranchers, but organic producers have fewer sources of price information 
available to them than conventional producers. Additionally, the lack 
of appropriate actuarial data has made it difficult for organic farmers 
to apply for and receive equitable Federal crop insurance. AMS Market 
News is involved in tracking product prices for conventional 
agricultural products. During the last couple of years, the Risk 
Management Agency (RMA) has provided some funding to the AMS, through a 
Memorandum of Understanding, to begin the collection of organic price 
data for a few selected commodities. We request that the Committee 
express its support for the continuation and expansion of this MOU 
between RMA and AMS.

USDA/CSREES
    Organic Transitions Program--Request: $5 million.
    The Organic Transition Program, funded through the CSREES budget, 
is a research grant program that helps farmers surmount some of the 
challenges of organic production and marketing. As the organic industry 
grows, the demand for research on topics related to organic agriculture 
is experiencing significant growth as well. The benefits of this 
research are far-reaching, with broad applications to all sectors of 
U.S. agriculture, even beyond the organic sector. Yet funding for 
organic research is minuscule in relation to the relative economic 
importance of organic agriculture and marketing in this Nation.
    The CSREES Organic Transition Program was funded at $2.1 million in 
fiscal year 2003, $1.9 million in fiscal year 2004, $1.88 million for 
both fiscal years 2005 and 2006, and $1.855 million for fiscal years 
2007 and 2008. Given the rapid increase in demand for organic foods and 
other products, and the growing importance of organic agriculture, the 
research needs of the organic community are expanding commensurately. 
Therefore, we are requesting that the program be funded at $5 million 
in fiscal year 2009, consistent with the funding providing in the 
House's initial fiscal year 2007 Agriculture Appropriations bill. In 
addition, we are requesting that the Organic Transition Program remain 
a separate program, and urge the Committee to reject the 
administration's proposal to subsume the funding for this program with 
the NRI.

USDA/CSREES
    National Research Initiative (NRI)--Request: Language directing 
CSREES to add a new NRI program area to foster classical plant and 
animal breeding.
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. Unfortunately, this shift has significantly curtailed the 
public access to plant and animal germplasm, and limited the diversity 
of seed variety and animal breed development. This problem has been 
particularly acute for organic and sustainable farmers, who seek access 
to germplasm well suited to their unique cropping systems and their 
local environment. Without renewed funding in this arena, the public 
capacity for plant and animal breeding will disappear.
    In fiscal years 2005, 2006, and 2007, the Senate Agriculture 
Appropriations Subcommittee included report language raising concerns 
about this problem, and urging CSREES to give greater consideration to 
research needs related to classical plant and animal breeding, when 
setting priorities within the National Research Initiative. Despite 
this report language, research proposals for classical plant and animal 
breeding that have sought NRI funding in the recent years have been 
consistently declined. Further, the shift in NRI toward work on 
genomics and biotechnology continues, to the exclusion of classical 
plant and animal breeding.
    Both the House and Senate versions of the Farm Bill include 
language to make classical plant and animal breeding a priority within 
the CSREES competitive grant process. The House version includes this 
language in the Initiative for Future Agriculture and Food Systems 
(IFAFS) program, whereas the Senate version includes this language 
within the National Research Initiative (NRI). Whichever version of the 
language is enacted in final Farm Bill, it will be very helpful to have 
the point reiterated by the Appropriations Committee.
    Therefore, we are encouraging the inclusion of strong report 
language in the CSREES section of the fiscal year 2009 Agriculture 
Appropriations bill, to reiterate that CSREES should be making 
classical plant and animal breeding a priority.
    The following report language is offered as a suggestion, though it 
may need to be modified based on the outcome of the Farm Bill:
    Section X of the X Act of 2008 (H.R. 2419) specifies that CSREES 
make classical plant and animal breeding activities a priority within 
the (NRI or IFAFS) program. The Committee strongly concurs with the 
intent of this section, and requests a report from the agency as to its 
plans for implementing the intent of this important requirement

USDA/CSREES
    Sustainable Agriculture Research and Education (SARE)--Request: $15 
million (Chapter 1) and $5 million (Chapter 3).
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. We are requesting $15 million for Chapter 1 and $5 million for 
Chapter 3 for fiscal year 2009.

USDA/Rural Business Cooperative Service
    Appropriate Technology Transfer for Rural Areas (ATTRA)--Request: 
$3 million.
    ATTRA is a national sustainable agriculture information service, 
which provides practical information and technical assistance to 
farmers, ranchers, Extension agents, educators and others interested in 
sustainable agriculture. ATTRA interacts with the public, not only 
through its call-in service and website, but also provides numerous 
publications written to help address some of the most frequently asked 
questions of farmers and educators. Much of the real-world assistance 
provided by ATTRA is extremely helpful to the organic community. As a 
result, the growth in demand for ATTRA services has increased 
significantly, both through the website-based information services and 
through the growing requests for workshops. We are requesting $3 
million for ATTRA for fiscal year 2009.

USDA/ARS
    Organic Agricultural Systems Research--Request: Devote ARS research 
dollars commensurate with organic's retail market share.
    USDA research programs have not kept pace with the growth of 
organic agriculture in the marketplace. Although organic currently 
represents roughly 3.5 percent of total U.S. food retail market, the 
share of USDA research targeted to organic agriculture and marketing is 
significantly less. With regard to ARS specifically, efforts have been 
made to devote greater resources to organic research. In fiscal year 
2007, ARS expended approximately $15 million on organic research. While 
this figure is an increase from previous years, a ``fair share'' of 
expenditures would be closer to $40 million annually using organic's 
retail market share as a basis of comparison. In fact, both the House 
and Senate versions of the Farm Bill include Sense of Congress language 
that ARS funding should be dedicated to organic research at a rate 
commensurate with organic's retail market share.
    Not only is organic research not receiving an appropriate share of 
research dollars, but the ARS research location cuts proposed in the 
President's fiscal year 2009 budget would result in a disproportionate 
cut in ARS research. Specifically, much of the flagship organic 
research being conducted by ARS originates from the Orono, Maine, 
University Park, Pennsylvania, Urbana, Illinois and Morris, Minnesota 
research locations. All of these locations are slated for closure under 
the President's budget request.
    Therefore, we are requesting that language be added to the fiscal 
year 2009 Agriculture Appropriations bill to require ARS to devote 
dollars toward organic research at a rate commensurate with organic's 
retail market share, and to reject the President's proposal to close 
the Orono, Maine, University Park, Pennsylvania, Urbana, Illinois and 
Morris, Minnesota research locations.

USDA/NRCS
    Conservation Security Program--Request: No Funding Limitation.

USDA/Rural Business Cooperative Service
    Value-Added Producer Grants--Request: $40 million.
    The Conservation Security Program (authorized by Section 2001 of 
the 2002 farm bill) and the Value-Added Producer Grant (authorized by 
Section 6401 of the 2002 farm bill) have great potential to benefit 
organic and conventional producers in their efforts to conserve natural 
resources and to explore new, value-added enterprises as part of their 
operations. Unfortunately, while these programs were authorized to 
operate with mandatory funding, their usefulness has been limited by 
funding restrictions imposed through the annual appropriations process. 
We are urging that the Conservation Security Program be permitted to 
operate with unrestricted mandatory funding, and that the Value-Added 
Producer Grant Program receive an appropriation of $40 million for 
fiscal year 2009.
    Thank you for this opportunity to testify and for your 
consideration on these critical funding requests.
                                 ______
                                 

           Prepared Statement of the National Potato Council

    My name is Ed Schneider. I am a potato farmer from Pasco, 
Washington and current Vice President, Legislative/Government Affairs 
for the National Potato Council (NPC). On behalf of the NPC, we thank 
you for your attention to the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 States. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production is 
estimated at 437,888,000 cwt. with a farm value of $3.2 billion. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The potato is the most popular of all vegetables grown and consumed 
in the United States and one of the most popular in the world. Annual 
per capita consumption was 136.5 pounds in 2003, up from 104 pounds in 
1962 and is increasing due to the advent of new products and heightened 
public awareness of the potato's excellent nutritional value. Potatoes 
are considered a nutritious consumer commodity and an integral, 
delicious component of the American diet.
    The NPC's fiscal year 2009 appropriations priorities are as 
follows:

                            POTATO RESEARCH

Cooperative State Research Education and Extension Service (CSREES)
    The NPC urges that Congress not support the President's fiscal year 
2009 budget request to eliminate the CSREES Special Grant Programs. The 
Potato Special Grant Program supports and fine tunes important 
university research work that helps our growers remain competitive in 
today's domestic and world marketplace.
    The NPC supports an appropriation of $1,800,000 for the Special 
Potato Grant program for fiscal year 2009. The Congress appropriated 
$1,482,000 in fiscal year 2006 and recommended the same amount in 
fiscal year 2007. However, the program only received $1,112,000 in 
fiscal year 2008 which was further reduced by the across-the-board cut. 
The House Subcommittee recommended $1.4 million while the Senate 
Subcommittee recommended only $750,000. This has been a highly 
successful program and the number of funding requests from various 
potato-producing regions is increasing.
    The NPC also urges that the Congress include Committee report 
language as follows:
    ``Potato Research.--The Committee expects the Department to ensure 
that funds provided to CSREES for potato research are utilized for 
varietal development testing. Further, these funds are to be awarded 
after review by the Potato Industry Working Group.''

                  AGRICULTURAL RESEARCH SERVICE (ARS)

    The Congress provided funds for a number of important ARS potato 
research projects and, due to previous direction by the Congress, the 
ARS continues to work with the NPC on how overall research funds can 
best be utilized for grower priorities.
    In addition, the Potato Cyst Nematode Laboratory at Cornell 
University is structurally deficient and may lose its Federal license 
to operate as a quarantine facility. Its demise would not only 
jeopardize New York agriculture but also put the U.S. potato industry 
at risk. Equally important is the risk to the Western United States 
from the Idaho and Alberta outbreaks. There is also a need for a 
similar facility in Idaho. A coordinated National Program is critical 
if export markets are to be maintained and this quarantined pest is to 
be contained.
    The NPC urges that $2.5 million per site be provided for the 
construction and/or the expansion of such a facility at each location. 
As an expansion of the Insect Containment Facility at Cornell 
University (CU), the eastern facility could be operated similarly to 
the current facility. A potential scenario might envisage a new 
facility built on CU-donated land with the State of New York providing 
continued maintenance and utility support and ARS providing research 
program support. The Western facility could be constructed on 
University of Idaho land where an existing nematologist is present and 
a core ARS presence already exists.
    Both species of Potato Cyst Nematode (PCN), Golden and Pale, are 
quarantine pests of potatoes. The Golden nematode was discovered in New 
York in 1941. The Pale Cyst Nematode was discovered in Idaho in 2006. 
The Pale Cyst Nematode has also been detected in potato production 
areas in Alberta, Canada that supply seed potatoes primarily to the 
Northwestern United States, but also to States such as Florida and 
North Carolina. Eradication of PCN is difficult because PCN cysts 
remain viable in the soil for 20 plus years and can be found at soil 
depths up to 40 inches.
    The Quarantine and Management program in New York has confined the 
nematode to limited acreage for 60 plus years due to yearly surveys by 
APHIS and New York State Ag and Markets, and the implementation of 
effective management plans developed by ARS and Cornell University 
scientists. The continued success of the program has been challenged by 
a recent discovery of a new race of PCN in New York and first-time 
discoveries of PCN in Idaho, Quebec and Alberta. If PCN expands into 
other States, the entire U.S. potato industry will be affected, not 
only from direct damage by the pest (up to 80 percent yield loss), but 
more importantly, by embargoes disrupting interstate and international 
trade.
    Breeding nematode resistant potato varieties is the cornerstone of 
the New York PCN research team. Access to resistant varieties allows 
continued production and international marketing of New York potatoes. 
The New York PCN research team, currently the only one in the United 
States, is uniquely positioned to develop potato germplasm with viable 
broad spectrum and durable resistance to PCN and to provide material to 
other breeding programs in the United States and Canada. Already the 
New York PCN team has been a major resource for establishing PCN 
detection programs in Idaho and Quebec, and is providing leadership, 
resources and expertise to a newly established U.S. PCN working group 
and to Canadian provincial agencies. Almost 60 percent of the U.S. 
potato production is in the Pacific Northwest. Without a program to 
test for resistance as part of the Northwest Potato Breeding program, 
to support the current containment and eradication program in Idaho and 
to aggressively survey for possible infections from Alberta, the entire 
U.S. industry is at risk.
    The PCN Laboratory at Cornell is the only U.S. facility that 
conducts laboratory and greenhouse research on PCN. It is structurally 
deficient and in danger of being denied its Federal license to operate 
as a quarantine facility. Constructed as a temporary building prior to 
1960, Cornell University engineers have determined that major 
renovations are not economically feasible. Its demise would put New 
York agriculture and the U.S. potato industry at risk. Similarly, 
without a Western facility to conduct this research under Western 
growing conditions, over 60 percent of the U.S. production is in 
jeopardy.

                       FOREIGN MARKET DEVELOPMENT

Market Access Program (MAP)
    The NPC also urges that the Congress maintain the spending level 
for the Market Access Program (MAP) at the authorized level determined 
by the final version of the new Farm Bill.

Foreign Agriculture Service (FAS)
    The NPC supports the President's fiscal year 2009 budget request of 
$279 million for salaries and expenses of the USDA Foreign Agriculture 
Service. This level is the minimum necessary for the Agency given the 
multitude of trade negotiations and discussions currently underway. The 
Agency has had to absorb pay cost increases, as well as higher 
operating costs for its overseas offices, such as increased payments to 
the Department of State for services provided at overseas posts. Recent 
declines in the value of the dollar, coupled with overseas inflation 
and rising wage rates, have led to sharply higher operating costs that 
must be accommodated if FAS is to maintain its overseas presence. 
However, this minimal budget request does not allow for expanded 
enforcement activities to assure that various trade agreements are 
being properly implemented. The Congress should consider increasing the 
budget request to allow for more FAS trade enforcement activities.

                           FOOD AID PROGRAMS

McGovern-Dole
    The NPC supports the administration's fiscal year 2009 budget 
request of $108 million for the McGovern-Dole International Food Aid 
Program. PVO's have been including potato products in their 
applications for this program.

                      PEST AND DISEASE MANAGEMENT

Animal and Plant Health Inspection Service (APHIS)
    Golden Nematode Quarantine.--The NPC supports an appropriation of 
$1,266,000 for this quarantine which is what is believed to be 
necessary for USDA and the State of New York to assure official control 
of this pest. Failure to do so could adversely impact potato exports. 
The administration's request is only $800,000.
    Given the transfer of Agriculture Quarantine Inspection (AQI) 
personnel at U.S. ports to the Department of Homeland Security, it is 
important that certain USDA-APHIS programs be adequately funded to 
ensure progress on export petitions and protection of the U.S. potato 
growers from invasive and harmful pests and diseases. Even though DHS 
staffing has increased, agriculture priorities have not yet been 
adequately addressed.
    Pest Detection.--The NPC supports $45 million for fiscal year 2009 
which was the administration's budget request for fiscal year 2008. 
This increase is essential for the Plant Protection and Quarantine 
Service's (PPQ) efforts against potato pests and diseases, such as 
Ralstonia and the Potato Cyst Nematode, and funds many cooperative pest 
and disease programs. The administration's fiscal year 2009 request is 
reduced to $31 million.
    Emerging Plant Pests.--The President requests $145 million in 
fiscal year 2009 which the NPC supports. However, this budget request 
includes only $7.7 million for potato cyst nematode regulatory, control 
and survey activity. The NPC urges that this program be increased to at 
least the fiscal year 2008 level of $9.5 million.
    The NPC supports having the Congress, once again, include language 
to prohibit the issuance of a final rule that shifts the costs of pest 
and disease eradication and control to the States and cooperators.
    Trade Issues Resolution Management.--$12,457,000 appropriated in 
fiscal year 2008 and the President requests $19 million in fiscal year 
2009. The NPC supports this increase ONLY if it is specifically 
earmarked for plant protection and quarantine activities. These 
activities are of increased importance, yet none of these funds are 
used directly for plant protection activities. As new trade agreements 
are negotiated, the agency must have the necessary staff and technology 
to work on plant-related import/export issues. The NPC also relies 
heavily on APHIS-PPQ resources to resolve phytosanitary trade barriers 
in a timely manner.

                        AGRICULTURAL STATISTICS

National Agricultural Statistics Service (NASS)
    The NPC supports sufficient funds and guiding language to assure 
that the potato objective yield and grade and size surveys are 
continued. The NPC also urges that additional funds be appropriated so 
that the agency can continue its vegetable pesticide use surveys, which 
provide valuable data to the EPA for use in registration and 
reregistration decisions for key chemical tools. NASS has discontinued 
these chemical use surveys for fruits and vegetables.
USDA IR-4 Program
    For fiscal year 2009 the administration requests $14.795 million 
for CSREES programs and $4.545 million for ARS programs. The NPC 
supports this as a minimum. The Program received $11.3 million for the 
CSREES and $3.8 million for ARS.
                                 ______
                                 

   Prepared Statement of the National Telecommunications Cooperative 
                              Association

    The ubiquitous deployment of state of the art communications 
infrastructure that is capable of ensuring all Americans have access to 
the array of communications services that are so essential to our 
national, economic, and personal security remains a critical national 
priority.
    With this in mind, obviously the communications infrastructure and 
community development financing programs that are operated under the 
U.S. Department of Agriculture's Rural Utilities Service (RUS) and 
Rural Business Cooperative Service (RBCS) are without question more 
important today than ever before.
    Congress and the President alike continue to uniformly advocate the 
necessity of making advanced broadband services available to every 
American--including those in the most remote far reaches of our vast 
Nation. Accomplishing this objective will require the ongoing 
dedication and commitment of the industry as well as the continuing 
availability of the strong financing programs that exist within the RUS 
and RBCS today.
    Consequently, NTCA strongly urges policymakers to adopt the 
following specific fiscal year 2009 funding recommendations for these 
critical programs.

Rural Utilities Service
  --Support the provisions of the President's budget proposal calling 
        for the required subsidy to fully fund the RUS 
        Telecommunications Loan Program's Hardship Account at a $145 
        million level, Cost of Money Account at a $250 million level, 
        and the Guaranteed Account at a $295 million level.
  --Support the provisions of the President's budget proposal calling 
        for the required subsidy to fund the RUS Distance Learning, 
        Telemedicine, and Broadband Program's Broadband 
        Telecommunications Loan Account at $297,923,000 and opposing 
        the President's proposed rescission of the Account's unexpended 
        subsidy amounts from prior fiscal years.
  --Request an additional $15 million over the President's budget 
        proposal to maintain funding for the RUS Distance Learning, 
        Telemedicine, and Broadband Program's Telemedicine and Distance 
        Learning Grants Account at the fiscal year 2008 appropriated 
        level of $35 million.
  --Reject the President's budget proposal to zero out the Distance 
        Learning and Telemedicine Loan Account under the Distance 
        Learning, Telemedicine, and Broadband Program, and instead 
        provide a level of subsidy to sustain this loan account at a 
        $30 million level.
  --Oppose the President's proposed cut of $804,000, from $38,623,000 
        to $37,819,000, for administration and staffing at the agency. 
        Considering all the new responsibilities the agency has taken 
        on and that policymakers want the loanmaking process to move 
        faster, the agency needs more, not fewer, resources.

Rural Business--Cooperative Service
  --The Rural Economic Development Grants Program and the Rural 
        Economic Development Loans Program that are both authorized 
        under Section 313 of the Rural Electrification Act are programs 
        that should be under the purview of the RUS rather than the 
        RBCS as they are authorized by the act established to provide 
        financing options for rural telecommunications and electric 
        utilities. In addition, these Section 313 programs have 
        traditionally been funded in part via interest earnings that 
        are associated with loan prepayments by rural 
        telecommunications and electric borrowers of the various RUS 
        financing programs. The Section 313 loan and grant programs now 
        under RBCS were moved there during the mid-1990s reorganization 
        of the USDA purely as a means of providing the newly formed 
        RBCS with enough programs to administer to legitimize its 
        creation. Sadly the impact of this move has been for the 
        program to move out of the view of the very borrowers it was 
        intended to be available to and who largely fund it via their 
        cushion of credit prepayment interest earnings.
  --Preserve the Rural Economic Development Loan Program at an 
        appropriate level corresponding to the need and interest that 
        exists in RUS borrower communities for such assistance.
  --Oppose the provisions of the President's budget which seek to 
        permanently cancel and sweep the funds derived for the Rural 
        Economic Development Grant Program Account from the Section 313 
        cushion of credit payments.
  --Encourage the Committee to include the following suggested language 
        to prohibit the sweeping of interest earned on cushion of 
        credit payments to the Treasury or other USDA programs: 
        Notwithstanding any other provision of law, none of the funds 
        appropriated or otherwise made available in this Act may be 
        used to transfer or sweep to the Treasury or other USDA 
        programs any funds derived from interest on the cushion of 
        credit payments, as authorized by Section 313 of the Rural 
        Electrification Act of 1936.
                                 ______
                                 

     Prepared Statement of the National Turfgrass Federation, Inc.

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Turfgrass Federation (NTF), I appreciate the opportunity to 
present to you the turfgrass industry's need and justification for 
continuation of the $490,000 appropriated in the fiscal year 2009 
budget for turfgrass research within the Agricultural Research Service 
(ARS) at Beltsville, MD. Also, we ask for your support of $450,000 in 
separate continuing funding for ongoing research programs in Beaver, 
WV, and $450,000 for Logan, UT. All funding provided by the Committee 
is requested to go directly to USDA-ARS, not the industry per se.

Restoration of Funding for the Existing ARS Scientist Position and 
        Related Support Activities at Beltsville, MD ($490,000)
    NTF and the turfgrass industry are requesting the Subcommittee's 
support for $490,000 to continue funding for the full-time scientist 
staff position within the USDA, ARS at Beltsville, MD, focusing on 
turfgrass research, that was provided by the Committee in the fiscal 
year 2007 budget, and in the five previous budget cycles. We consider 
this funding our Congressional ``baseline'', i.e. that funding which is 
central to and critical for the mission of the National Turfgrass 
Research Initiative. We are very grateful for this support and hope the 
Committee will continue this funding.
    Turfgrass is a 50,000,000 acre, $40 billion per year industry in 
the United States, that is growing exponentially each year. Turfgrass 
provides multiple benefits to society including child safety on 
athletic fields, environmental protection of groundwater, reduction of 
silt and other contaminants in runoff, and green space in home lawns, 
parks and golf courses. Therefore, by cooperating with NTF, USDA has a 
unique opportunity to take positive action in support of the turfgrass 
industry. While the vast majority of the USDA's funds have been and 
will continue to be directed toward traditional ``food and fiber'' 
segments of U.S. agriculture, it is important to note that turfgrasses 
(e.g., sod production) are defined as agriculture in the farm bill and 
by many other departments and agencies. It should also be noted that 
the turfgrass industry is the fastest growing segment of U.S. 
agriculture, while it receives essentially no Federal support. There 
are no subsidy programs for turfgrass, nor are any desired.
    For the past 70 years, the USDA's support for the turfgrass 
industry has been modest at best. The turfgrass industry's rapid 
growth, importance to our urban environments, and impact on our daily 
lives warrant more commitment and support from USDA.
    A new turfgrass research scientist position within USDA/ARS was 
created by Congress
    in the fiscal year 2001 budget. Additional funding was added in 
fiscal year 2002 with the total at $490,000. A research scientist was 
hired, and is now working at the ARS, Beltsville, MD center. A research 
plan was developed and approved by ARS. This scientist has used the 
funding for a full-time technician, equipment and supplies to initiate 
the research plan and for collaborative research with universities. We 
have an excellent scientist in place, and he is making good progress in 
establishing a solid program. At this point, losing the funding for the 
position would be devastating to the turf industry, as significant 
research has begun.

Request Funding of Ongoing Programs and two ARS Scientist Positions at 
        two ARS Installations @ $450,000 Each (Total: $900,000)
    The turfgrass industry also requests that the subcommittee 
appropriate an additional $900,000 for funding first allocated in 
fiscal year 2005, and continued in fiscal year 2006 and fiscal year 
2007 bills. As a part of the National Turfgrass Research Initiative, 
the research conducted at Logan, UT and Beaver, WV is vital to the turf 
industry. We are asking for $450,000 at each location. Following is a 
brief description of the research that ARS will conduct with this 
funding:
    Beaver, WV, ($450,000).--The lab at Beaver has significant 
expertise in soils and by-products research. They have excellent staff 
and facilities already in place. For the turfgrass industry, they are 
working on improving soil conditions and management systems to make 
athletic fields softer and with improved turf cover, thereby increasing 
safety. They also are considering the use of local by-products to 
develop improved soil systems for parks, lawns, athletic fields and 
golf courses. Besides being vital to the turf industry, this research 
is very important to the regional economy and many industrial concerns.
    Logan, UT, ($450,000).--Logan, UT is an ideal location for research 
on drought tolerant grasses and how they function. The Logan lab is 
world renowned for its efforts in collecting and improving grasses and 
other native plants for forage and range purposes. With the funding 
that was initiated in fiscal year 2005, they have directed additional 
efforts research on breeding and genetics of turfgrass, with emphasis 
on identifying plant material with superior drought and salt tolerance. 
Reducing water use, through more drought tolerant plant material, is 
the number one priority of the turfgrass industry. This research needs 
to be continued and expanded because of the excellent ongoing research 
as well as the potential for the future.

               THE NATIONAL TURFGRASS RESEARCH INITIATIVE

    This Initiative has been developed by USDA/ARS in partnership with 
the turfgrass industry. The USDA needs to initiate and maintain ongoing 
research on turfgrass development and improvement for the following 
reasons:
  --The value of the turfgrass industry in the United States is $40 
        billion annually. There are an estimated 50,000,000 acres of 
        turfgrass in the U.S. Turfgrass is the number one or two 
        agricultural crop in value and acreage in many states (e.g., 
        MD, PA, FL, NJ, NC).
  --As our society becomes more urbanized, the acreage of turfgrass 
        will increase significantly. In addition, state and local 
        municipalities are requiring the reduction of water, pesticides 
        and fertilizers on turfgrass. However, demand on recreational 
        facilities will increase while these facilities will still be 
        required to provide safe turfgrass surfaces.
  --Currently, the industry itself spends about $10 million annually on 
        applied and proprietary turfgrass research. However, private 
        and university research programs do not have the time nor the 
        resources to conduct basic research and to identify completely 
        new sources of beneficial genes for stress tolerance. ARS 
        turfgrass scientists will enhance the ongoing research 
        currently underway in the public and private sectors. Because 
        of its mission to conduct the nation's research for 
        agricultural commodities, ARS is the proper delivery system for 
        this research.
  --Water management is a key component of healthy turf and has direct 
        impact on nutrient and pesticide losses into the environment. 
        Increasing demands and competition for potable water make it 
        necessary to use water more efficiently. Also, drought 
        situations in many regions have limited the water available 
        and, therefore, have severely impacted the turf industry as 
        well as homeowners and young athletes. Therefore, new and 
        improved technologies are needed to monitor turf stresses and 
        to schedule irrigation to achieve the desired quality. 
        Technologies are also needed to more efficiently and uniformly 
        irrigate turfgrasses. Drought tolerant grasses need to be 
        developed. In addition, to increase water available for 
        irrigation, waste water (treated and untreated) must be 
        utilized. Some of these waste waters contain contaminants such 
        as pathogens, heavy metals, and organic compounds. The movement 
        and accumulation of these contaminants in the environment must 
        be determined.
  --USDA conducted significant turfgrass research from 1920-1988. 
        However, since 1988, no full-time scientist has been employed 
        by USDA, Agricultural Research Service (ARS) to conduct 
        turfgrass research specifically, until the recently 
        appropriated funds became available.
    ARS and the turfgrass industry enjoy a special, collaborative 
relationship, and have even entered into a cooperative Memorandum of 
Understanding (MOU). The turfgrass industry has met on numerous 
occasions with USDA/ARS officials to discuss the new turfgrass 
scientist positions, necessary facilities, and future research 
opportunities. In January 2002, ARS held a customer workshop to gain 
valuable input from turfgrass researchers, golf course superintendents, 
sod producers, lawn care operators, athletic field managers and others 
on the research needs of the turfgrass industry. As a result of the 
workshop, ARS and the turfgrass industry have developed the National 
Turfgrass Research Initiative. The highlights of this strategy are as 
follows:
    ARS, as the lead agency at USDA for this initiative, has graciously 
devoted a significant amount of time to the effort. Like the industry, 
ARS is in this research endeavor for the long-term. To ARS' credit, the 
agency has committed staff, planning and technical resources to this 
effort. Last year was the first time ARS has been able to include some 
funding in the President's budget for the Turfgrass Research 
Initiative. However, there are so many issues and needs, that the 
industry is desperate for answers. Thus, to address the critical 
research needs, the industry is left with no alternative but to come 
directly to Congress for assistance through the appropriations process.
    The role and leadership of the Federal Government and USDA in this 
research are justifiable and grounded in solid public policy rationale. 
ARS is poised and prepared to work with the turfgrass industry in this 
major research initiative. However, ARS needs additional resources to 
undertake this mission.
    The turfgrass industry is very excited about this new proposal and 
wholeheartedly supports the efforts of ARS. Since the customers at the 
workshop identified turfgrass genetics/germplasm and water quality/use 
as their top priority areas for ARS research, for fiscal year 2008, the 
turfgrass industry requests that the six positions above be established 
within USDA/ARS.
    For this research we propose an ARS-University partnership, with 
funding allocated to ARS for in-house research as well as in 
cooperation with university partners. For each of the individual 
scientist positions, we are requesting $300,000 for each ARS scientist 
position with an additional $150,000 attached to each position to be 
distributed to university partners, for a total of $450,000 per 
position. We are also asking that the funding be directed to ARS and 
then distributed by ARS to those university partners selected by ARS 
and industry representatives.
    In addition, the Committee should be receiving the Members' 
requests for funding of each of the positions described above. We 
appreciate your strong consideration of each individual member request 
for the turfgrass research position in his or her respective state.
    In conclusion, on behalf of the National Turfgrass Federation and 
the turfgrass industry across America, I respectfully request that the 
subcommittee continue in fiscal year 2009 the funding appropriated in 
fiscal year 2008 for Beltsville, MD, ($490,000) within the Agricultural 
Research Service. I also request the Subcommittee's support of ongoing 
research programs at Beaver, WV and Logan, UT @ $450,000 each.
    Thank you very much for your consideration and support.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This Statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program. 
Prior to the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, the salinity control program had not been funded at 
the level necessary to control salinity with respect to water quality 
standards since the enactment of the Federal Agriculture Improvement 
and Reform Act (FAIRA) of 1996. Inadequate funding of the salinity 
control program also negatively impacts the quality of water delivered 
to Mexico pursuant to Minute 242 of the International Boundary and 
Water Commission. Adequate funding for EQIP, from which the U.S. 
Department of Agriculture (USDA) funds the salinity program, is needed 
to implement salinity control measures. The President's budget for 
fiscal year 2009 requests an appropriation of $1.05 billion for EQIP, 
with the actual amount to be set by the new Farm Bill. I urge the 
subcommittee to support an appropriation of at least $1.05 billion to 
be appropriated for EQIP. I request that the subcommittee designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin salinity control program. I request that 
adequate funds be appropriated for technical assistance and education 
activities directed to salinity control program participants.

                               STATEMENT

    The seven Colorado River Basin States, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum (Forum). Comprised of gubernatorial 
appointees from the seven Basin States, the Forum was created to 
provide for interstate cooperation in response to the Clean Water Act, 
and to provide the States with information to comply with Sections 
303(a) and (b) of the act. The Forum has become the primary means for 
the seven Basin States to coordinate with Federal agencies and Congress 
to support the implementation of the Salinity control program.
    Congress authorized the Colorado River Basin salinity control 
program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the act in 1984 to give new responsibilities to the 
USDA. While retaining the Department of the Interior as the lead 
coordinator for the salinity control program, the amended act 
recognized the importance of the USDA operating under its authorities 
to meet the objectives of the salinity control program. Many of the 
most cost-effective projects undertaken by the salinity control program 
to date have occurred since implementation of the USDA's authorization 
for the program. Now, Congress is considering enactment of a new Farm 
Bill to further define how the Colorado River Basin States can cost-
share in a newly designated salinity control program known as the 
``Basin States Program.''
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $376,000,000 per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75,000,000 per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. It is essential 
to the cost-effectiveness of the salinity control program that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
Lower Basin States and Mexico.
    Congress concluded, with the enactment FAIRA in 1996, that the 
salinity control program could be most effectively implemented as a 
component of EQIP. However, until 2004, the salinity control program 
since the enactment of FAIRA was not funded at an adequate level to 
protect the Basin State-adopted and Environmental Protection Agency 
approved water quality standards for salinity in the Colorado River. 
Appropriations for EQIP prior to 2004 were insufficient to adequately 
control salinity impacts from water delivered to the downstream States, 
and hampered the required quality of water delivered to Mexico pursuant 
to Minute No. 242 of the International Boundary and Water Commission, 
United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
target small watershed improvements which do not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding are ranked in the 
States of Utah, Wyoming and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-state, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the salinity control program. 
The NRCS concluded that the salinity control program is different from 
the small watershed approach of EQIP. The watershed for the salinity 
control program stretches almost 1,200 miles from the headwaters of the 
river through the salt-laden soils of the Upper Basin to the river's 
termination at the Gulf of California in Mexico. NRCS is to be 
commended for its efforts to comply with the USDA's responsibilities 
under the Colorado River Basin Salinity Control Act, as amended. 
Irrigated agriculture in the Upper Basin realizes significant local 
benefits of improved irrigation practices, and agricultural producers 
have succeeded in submitting cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the Forum finding that 
the salinity control program needs acceleration to maintain the water 
quality criteria of the Colorado River Water Quality Standards for 
Salinity. Since the enactment of FSRIA in 2002, an opportunity to 
adequately fund the salinity control program now exists. The 
President's budget request of $1.05 billion accomplishes the needs of 
the NRCS salinity control program if the USDA continues its practice of 
designating 2.5 percent of the EQIP funds appropriated. The requested 
funding of 2.5 percent, but no less than $20 million, of the EQIP 
funding will continue to be needed each year for at least the next few 
fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. Federal funding for the NRCS salinity control 
program of about $19.5 million for fiscal year 2008 has generated about 
$15.8 million in cost-sharing from the Colorado River Basin States and 
agricultural producers, or about an 80 percent match of the Federal 
funds appropriated for the fiscal year.
    USDA salinity control projects have proven to be a most cost-
effective component of the salinity control program. USDA has indicated 
that a more adequately funded EQIP program would result in more funds 
being allocated to the salinity program. The Basin States have cost-
sharing dollars available to participate in on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are willing to 
cost-share their portion and are awaiting funding for their 
applications to be considered.
    The Basin States expend 40 percent of the State funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be a severe impediment to 
accomplishing successful implementation of the salinity control 
program. Recent acknowledgement by the administration that technical 
assistance and education activities must be better funded has 
encouraged the Basin States and local producers that cost-share with 
the EQIP funding for implementation of the essential salinity control 
work. I request that adequate funds be appropriated to NRCS technical 
assistance and education activities directed to the salinity control 
program participants (producers).
    I urge the Congress to appropriate at least $1.05 billion in fiscal 
year 2009 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin salinity control program.
                                 ______
                                 

     Prepared Statement of the Organic Farming Research Foundation

    The Organic Farming Research Foundation (OFRF) appreciates the 
opportunity to present our funding requests for the fiscal year 2009 
Agriculture, Rural Development, FDA and Related Agencies Appropriations 
Bill. OFRF is a grower-directed, non-profit foundation working to 
foster the improvement and widespread adoption of organic farming 
systems. Organic agriculture plays an important and growing role in 
U.S. agriculture. Relatively modest investments in organic research and 
education can significantly increase the economic benefits and 
environmental services provided by organic systems. As a result, we 
urge the subcommittee to provide additional resources for organic 
agriculture in fiscal year 2009.
    As the subcommittee begins to fashion an fiscal year 2009 
Appropriations Bill, we ask that the subcommittee take note of a new 
report and recommendations by the USDA National Agricultural Research, 
Extension, Education and Economics (NAREEE) Advisory Board. The 
Advisory Board has noted and endorsed the initial efforts of the REE 
agencies to address organic research and education needs, and 
``encourages further development of [these] programs.'' \1\ A number of 
specific recommendations are made, including the creation of a National 
Program Leader for Organic Agriculture within USDA-CSREES. The 
recommendations have been transmitted to Secretary Schafer and the 
Agriculture and Appropriations Committees of both the Senate and House 
for further consideration and action.
---------------------------------------------------------------------------
    \1\ ``Report and Recommendations from a Focus Session on Organic 
Agriculture Conducted at the Advisory Board Meeting held in Washington, 
D.C. on October 29-3 1, 2007''. Page 3. National Agricultural Research, 
Extension, Education and Economics Advisory Board. Transmitted to the 
Agriculture Secretary and Senate and House Committees on Agriculture, 
and Appropriations, March 5, 2008.
---------------------------------------------------------------------------
    Unfortunately, the President's fiscal year 2009 budget submission 
for emerging organic REE programs is completely at odds with the NAREEE 
Advisory Board's recommendations for greater investigation and 
development of organic agriculture. Not only does the administration's 
budget not include an increase in resources for organic research, but 
it actually proposes severe cuts to current funding levels for organic 
research, including zero funding for the two main organic research 
grant programs. As the current funding levels for organic research are 
already severely inadequate to begin with, we urge the subcommittee to 
reject the administration's proposed cuts and allocate modest increases 
for organic research in fiscal year 2009.
    Organic product sales are rapidly approaching 4 percent of the 
domestic food retail market, yet USDAREE expenditures directed 
explicitly to research and information programs for organic agriculture 
in fiscal year 2007 reached only slightly above 1 percent of total REE 
spending. This discrepancy in the share of research funding spent on 
organics is detrimental to an industry that relies intensively on 
management and information for its success. By rejecting the 
administration's proposed cuts to organic research and providing modest 
increases as outlined below, the subcommittee can help address this 
discrepancy and promote progress towards the ``fair share'' benchmark 
for organic research.
    usda-cooperative state research, extension and education service
Organic Agriculture Research and Extension Initiative (OREI) \2\
---------------------------------------------------------------------------
    \2\ The Organic Agriculture Research and Extension Initiative 
(OREI) is authorized by Section 7218 of the Farm Security and Rural 
Investment Act of 2002 which amended Section 1672B of the Food, 
Agriculture, Conservation, and Trade Act of 1990 (7 U.S.C. 5925b).
---------------------------------------------------------------------------
    Request--Protect mandatory funding.
    OREI is USDA's premier competitive research and education grant 
program specifically dedicated to investigation of organic agriculture. 
Due to its success, the program is slated to receive an increase in 
mandatory funding in the 2008 Farm Bill and we ask that the 
subcommittee protect the funding level prescribed in the final bill. 
Even if OREI were to receive the highest number proposed in the Senate 
Bill ($16 million) the program would still be less than 0.7 percent of 
total USDA-REE expenditures in fiscal year 2007, but would mark an 
important step towards reaching the fair share benchmark.. If the 
program receives a mix of mandatory funding and an authorization for 
appropriations, or receives only an authorization for appropriations we 
ask that the Subcommittee provide discretionary funds to the program.
Organic Transitions Research Program (ORG \3\)
---------------------------------------------------------------------------
    \3\ The Organic Transitions Program (ORG) is authorized by Section 
406 of the Agricultural Research, Extension, and Education Reform Act 
of 1998 (AREERA) (7 U.S.C. 7626).
---------------------------------------------------------------------------
    Request: $5 million.
    The Organic Transitions Research Program is one of only two USDA 
competitive grant programs dedicated to organic research and education. 
This competitive grants program funds integrated (research, extension, 
and higher education) projects that specifically focus on helping 
farmers overcome the production and marketing challenges of 
transitioning to organic production. ORG-funded projects are currently 
underway in 15 States. The program is working to deliver the knowledge 
farmers need to successfully transition to organic production, but the 
number of funded projects still falls far short of meeting the needs of 
producers across the country.
    After reaching its highest level of funding of $2.1 million in 
fiscal year 2003, the Organic Transitions Research Program has suffered 
a sustained cut over the last 5 years. The House of Representatives 
recognized this imprudent treatment of the Organic Transitions Program 
by approving $5 million for the program during fiscal year 2007 
appropriations deliberations. The subcommittee should begin with this 
figure in formulating its fiscal year 2009 legislation.

                  USDA--AGRICULTURAL RESEARCH SERVICE

Organic Agricultural Systems Research
    Request:
  --Restore funding to specific organic research projects proposed for 
        elimination.
  --Direct ARS to continue increasing the size and breadth of its 
        organic systems research portfolio.
  --Provide $100,000 to disseminate research results through the 
        National Agriculture Library's Alternative Farming Systems 
        Information Center.
    Although Agricultural Research Service spending on direct organic 
research reached 1.5 percent in fiscal year 2007, it is still far short 
of achieving the fair share goal of matching the organic share of the 
domestic food retail market, which is now approaching 4 percent. In 
fiscal year 2009, instead of closing this gap, the President's budget 
would actually widen it by cutting funding to some of the most 
important ARS research being conducted on organic systems, as part of 
an overall 7.5 percent cut in the ARS budget. Specific organic research 
projects marked for elimination in the President's proposal include: 
the Pasture Systems and Watershed Management Research at University 
Park, PA; Invasive Weed Management Research at Urbana, IL, and the New 
England Plant Soil and Water Research at Orono, ME. We request that the 
Subcommittee include continued funding for the organic research 
projects/units that are slated for cuts; and include strong report 
language directing the agency to continue the growth of its research 
activity directly focused on organic agriculture.
    Subcommittee efforts to direct increased ARS spending on organic 
research will likely be supported by a Sense of Congress provision set 
to be included in the 2008 Farm Bill, encouraging ARS to spend a fair 
share of its research dollars on organic research. Intent to increase 
funding for the National Agriculture Library's Alternative Farming 
Systems Information Center will also likely be part of the provision. 
As a result, we urge the Subcommittee to act upon the intent of 
Congress and include strong report language directing ARS to increase 
its expenditures towards a fair share for organic research, with a 
portion of the increase for usage by National Agriculture Library's 
Alternative Farming Systems Information Center to disseminate research 
results. This recommendation is also included in the NAREEEAB report in 
recommendation #4.

   USDA--ECONOMIC RESEARCH SERVICE/NATIONAL AGRICULTURAL STATISTICS 
                 SERVICE/AGRICULTURAL MARKETING SERVICE

Organic Data Initiative \4\
---------------------------------------------------------------------------
    \4\ The Organic Data Initiative is authorized by Section 7407 of 
the Farm Security and Rural Investment Act of 2002.
---------------------------------------------------------------------------
    Request: $1 Million.
    Data on prices, yields and markets are vital to farmers who are 
planning what to plant, accessing markets, and applying for crop 
insurance. Unfortunately, the organic sector is still without vital 
comprehensive data on par with what is provided by USDA for 
conventional agriculture, putting organic farmers at a great 
disadvantage. Despite the growing demand and need, funding for organic 
data collection has remained stagnant. Although the final 2008 Farm 
Bill may include some mandatory funding for organic data collection, we 
urge the Subcommittee to provide additional discretionary funding to 
help address the large backlog of work that is needed to provide a fair 
playing field for organic producers.
    The data collection and analysis is a cooperative effort among 
various agencies. For purposes of the Organic Data Initiative, 
allocation of funds among agencies should be at the discretion of the 
Secretary.
    Organic agriculture is one of the fastest growing segments of 
American agriculture, but it has not received the level of support that 
it deserves. The 2008 Farm Bill will likely provide important increases 
to organic programs, but it will still fall far short of providing a 
fair share for organic agriculture. It is our hope that the 
Subcommittee will work to close the fair share gap by protecting any 
gains made in the 2008 Farm Bill, rejecting the President's fiscal year 
2009 proposed budgetary cuts to organic programs, and providing long 
overdue increases in the organic programs under the Subcommittee's 
purview for fiscal year 2009.
    Disclosure.--Organic Farming Research Foundation was a 
subcontractor for a grant awarded by the USDA-CSREES Integrated Organic 
Program. Grant #2207-01384. ``Midwest Organic Research Symposium.''
                                 ______
                                 

     Prepared Statement of the Organization for the Promotion and 
           Advancement of Small Telecommunications Companies

Summary of Request
    The Organization for the Promotion and Advancement of Small 
Telecommunications Companies (OPASTCO) seeks the Subcommittee's support 
for fiscal year 2009 loan levels for the telecommunications loans 
program administered by the Rural Utilities Service (RUS) in the 
following amounts:

                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Telecommunication hardship loans........................             145
Treasury telecommunications (cost of money) loans.......             250
FFB telecommunications (guaranteed) loans...............             300
------------------------------------------------------------------------

    In addition, OPASTCO requests that the distance learning, 
telemedicine, and broadband program be funded at sufficient levels.
    OPASTCO is a national trade association of more than 600 small 
telecommunications carriers serving primarily rural areas of the United 
States. Its members, which include both commercial companies and 
cooperatives, together serve over 5.5 million customers in 47 States.
    Perhaps at no time since the inception of the RUS (formerly the 
REA) has the telecommunications loans program been so vital to the 
future of rural America. The telecommunications industry is at a 
crossroads, both in terms of technology and public policy. Rapid 
advances in telecommunications technology in recent years are 
delivering on the promise of a new ``information age.'' Both Federal 
and State policymakers have made ubiquitous availability of advanced 
communications services a top priority. However, without continued 
support of RUS's telecommunications loans program, rural 
telecommunications carriers will be hard pressed to continue deploying 
the infrastructure necessary to achieve policymakers' goals.
    Contrary to the belief of some critics, RUS's job is not finished. 
Actually, in a sense, it has just begun. We have entered a time when 
advanced services and technology--such as fiber optics, packet 
switching and transmission, and digital subscriber line (DSL) 
technology--are expected by customers in all areas of the country, both 
urban and rural. Moreover, the ability of consumers to use increasingly 
popular voice over Internet protocol (VoIP) services requires that they 
first have a broadband connection from a facilities-based carrier. 
Unfortunately, the inherently higher costs of upgrading the rural 
wireline network, both for voice and data communications, has not 
abated.
    Rural telecommunications continues to be more capital intensive and 
involves fewer paying customers per square mile than its urban 
counterpart. In the Federal Communications Commission's (FCC) September 
2004 report on the deployment of advanced telecommunications 
capability, the Commission noted that ``[r]ural areas are typically 
characterized by sparse and disperse populations, great distances 
between the customer and the service provider, and difficult terrain. 
These factors present a unique set of difficulties for providers 
attempting to deploy broadband services.'' More recently, the FCC's 
October 2007 release of statistics on high-speed connections to the 
Internet in the United States illustrated that low population density 
has an inverse association with reports that high-speed subscribers are 
present in an area. Thus, in order for rural telecommunications 
carriers to continue modernizing their networks and providing consumers 
with advanced services at reasonable rates, they must have access to 
reliable low-cost financing.
    The relative isolation of rural areas increases the value of 
telecommunications for these citizens. For example, the availability of 
broadband connections can make it possible for rural residents to 
telecommute to otherwise far-away jobs. A modern telecommunications 
infrastructure can also enable existing businesses in rural areas to 
grow and expand as well as attract new businesses to the area. 
Certainly, telecommunications plays a major role in any rural 
community's economic development strategy.
    It is important to note that even after a broadband-capable network 
has initially been deployed in a rural area, the modernization effort 
is not over. Continual investment is crucial, because the broadband 
networks that are deployed today are not the networks that will enable 
rural areas and the rest of the country to compete globally 5 years 
from now. Broadband is an evolving concept, subject to constant changes 
in technology and consumer expectations. As the services and 
applications that ride over the broadband infrastructure become more 
bandwidth intensive, carriers will need to expand their broadband 
network capabilities in order to make these new tools available to the 
businesses and residences in their areas. The evolving nature of 
broadband requires continual investment, and the telecommunications 
loans program will enable rural telecommunications carriers to do so.
    While it has been said many times before, it bears repeating that 
RUS's telecommunications loans program is not a grant program. The 
funds loaned by RUS are used to leverage substantial private capital, 
creating public/private partnerships. For a very small cost, the 
government is encouraging tremendous amounts of private investment in 
rural telecommunications infrastructure. Most importantly, the program 
is tremendously successful. Borrowers actually build the infrastructure 
and the government is reimbursed with interest.
    In addition to RUS's telecommunications loans program, OPASTCO 
supports sufficient funding of the distance learning, telemedicine, and 
broadband program. Through distance learning, rural students gain 
access to advanced classes which will help them prepare for college and 
jobs of the future. Telemedicine provides rural residents with access 
to specialized health care services without traveling great distances 
to urban hospitals. Furthermore, funding that is targeted to finance 
the installation of broadband transmission capacity will allow more 
rural communities to gain high-speed access to the Internet and receive 
other advanced services. In light of the Telecommunications Act's 
purpose of encouraging deployment of advanced technologies and services 
to all Americans--including schools and health care providers--
sufficient targeted funding for these purposes is essential in fiscal 
year 2009.

Conclusion
    The transformation of the nationwide telecommunications network 
into an information superhighway, as envisioned by policymakers, will 
help rural America survive and prosper in any market--whether local, 
regional, national, or global. However, without the availability of 
low-cost RUS funds, building and upgrading the information superhighway 
in communities that are isolated and thinly populated will be 
untenable. By supporting the RUS telecommunications programs at the 
requested levels, the subcommittee will be making a significant 
contribution to the future of rural America.
                                 ______
                                 

        Prepared Statement of Pickle Packers International, Inc.

    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer and diabetes supports this 
policy. Vitamins (particularly A, C, and folic acid), minerals, and a 
variety of antioxidant phytochemicals in plant foods are thought to be 
the basis for correlation's between high fruit and vegetable 
consumption and reduced incidence of these debilitating and deadly 
diseases. The problem is that many Americans choose not to consume the 
variety and quantities of fruits and vegetables that are needed for 
better health.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. 
Likewise, the people of this country represent an ever-broadening array 
of expectations, tastes and preferences derived from many cultural 
backgrounds. Everyone, however, faces the common dilemma that food 
costs should remain stable and preparation time continues to be 
squeezed by the other demands of life. This industry can grow by 
meeting these expectations and demands with reasonably priced products 
of good texture and flavor that are high in nutritional value, low in 
negative environmental impacts, and produced with assured safety from 
pathogenic microorganisms and from those who would use food as a 
vehicle for terror. With strong research to back us up, we believe our 
industry can make a greater contribution toward reducing product costs 
and improving human diets and health for all economic strata of U.S. 
society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as ``minor'' crops. None of these crops is in any 
``commodity program'' and as such, do not rely upon taxpayer subsidies. 
However, current farm value for just cucumbers, onions and garlic is 
$2.3 billion with an estimated processed value of $5.8 billion. These 
crops represent important sources of income to farmers, and the 
processing operations are important employers in rural communities 
around the United States. Growers, processing plant employees and 
employees of suppliers to this industry reside in all 50 States. To 
realize its potential in the rapidly changing American economy, this 
industry will rely upon a growing stream of appropriately directed 
basic and applied research from four important research programs within 
the Agricultural Research Service.

        VEGETABLE CROPS RESEARCH LABORATORY, MADISON, WISCONSIN

    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions and garlic. Three scientists 
in this unit account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their past efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
virus and nematode resistance) not available in commercial varieties 
using long-term high risk research efforts. The U.S. vegetable seed 
industry develops new varieties of cucumbers, carrots, onions, and 
garlic and over twenty other vegetables used by thousands of vegetable 
growers. The U.S. vegetable seed, grower, and processing industry, 
relies upon the USDA/ARS Vegetable Crops Research Lab for unique 
genetic stocks to improve varieties in the same way the U.S. health 
care and pharmaceutical industries depend on fundamental research from 
the National Institutes of Health. Their innovations meet long-term 
needs and bring innovations in these crops for the United States and 
export markets, for which the United States has successfully competed. 
Past accomplishments by this USDA group have been cornerstones for the 
U.S. vegetable industry that have resulted in increased profitability, 
and improved product nutrition and quality.
    Both consumers and the vegetable production and processing industry 
would like to see fewer pesticides applied to food and into the 
environment in a cost-effective manner. Scientists in this unit have 
developed genetic resistance for many major vegetable diseases that are 
perhaps the most important threat to sustained production of a 
marketable crop for all vegetables. Genetic resistance assures 
sustainable crop production for growers and reduces pesticide residues 
in our food and environment. Value of this genetic resistance developed 
by the vegetable crops unit is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research in Madison has resulted in 
cucumbers with improved disease resistance, pickling quality and 
suitability for machine harvesting. New sources of genetic resistance 
to viral and fungal diseases, environmental stress resistance like heat 
and cold, and higher yield have recently been mapped on cucumber 
chromosomes to provide a ready tool for our seed industry to 
significantly accelerate the development of resistant cultivars for 
U.S. growers. Nematodes in the soil deform carrot roots to reduce yield 
from 10 percent to over 70 percent in major production areas. A new 
genetic resistance to nematode attack was found to almost completely 
protect the carrot crop from one major nematode. This group improved 
both consumer quality and processing quality of vegetables with a 
resulting increase in production efficiency and consumer appeal. Baby 
carrots were founded on germplasm developed in Madison, Wisconsin. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. Using new biotechnological methods, a system for rapidly 
and simply identifying seed production ability in onions has been 
developed that reduces the breeding process up to 6 years! A genetic 
map of onion flavor and nutrition will be used to develop onions that 
are more appealing and healthy for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets could certainly be enhanced. Genetic improvement of 
all the attributes of these valuable crops are at hand through the 
unique USDA lines and populations (i.e., germplasm) that are available 
and the new biotechnological methodologies that are being developed by 
the group. The achievement of these goals will involve the utilization 
of a wide range of biological diversity available in the germplasm 
collections for these crops. Classical plant breeding methods combined 
with bio-technological tools such as DNA marker-assisted selection and 
genome maps of cucumber, carrot and onion will be the methods to 
implement these genetic improvements. With this, new high-value 
vegetable products based upon genetic improvements developed by our 
USDA laboratories can offer vegetable processors and growers expanded 
economic opportunities for United States and export markets.

       U.S. FOOD FERMENTATION LABORATORY, RALEIGH, NORTH CAROLINA

    The USDA/ARS Food Fermentation Laboratory in Raleigh, NC is the 
major public laboratory that this industry looks to as a source for new 
scientific information on the safety of our products and development of 
new processing technologies related to fermented and acidified 
vegetables. Over the years this laboratory has been a source for 
innovations, which have helped this industry remain competitive in the 
current global trade environment. We expect the research done in this 
laboratory to lead to new processing and product ideas that will 
increase the economic value of this industry and provide consumers with 
safe, high quality, healthful vegetable products.
    We seek additional funding to support two new research initiatives 
for this laboratory that have substantial economic potential for our 
industry and health benefits for the American public. These are: (1) 
Preservation of a variety of high nutrient/high antioxidant vegetables 
using fermentation or acidification techniques so as to maintain the 
natural levels of beneficial phyotochemicals in convenient to use 
value-added products; (2) development of techniques to deliver living 
pro-biotic microorganisms to consumers in fermented or acidified 
vegetable products.
    Certain vitamins (Vitamin C, folic acid) and beneficial 
phytochemicals in vegetables are stabilized by the low pH in acidified 
and fermented foods. In addition, low pH makes it possible to preserve 
vegetables with low heat or, ideally, no heat, which typically 
minimizes nutrient loss. While many high nutrient/high antioxidant 
vegetables are pickled to a very limited extent, traditional processes 
include steps, such as preserving in very high salt or acid followed by 
washing out the excess salt or acid, that result in loss many of the 
health-promoting components that diet authorities emphasize when they 
urge people to increase their consumption of fruits and vegetables. The 
objective will be develop new low acid/low salt preservation techniques 
for broccoli, Brussel sprouts, sweet potato, cauliflower, and peppers 
that will provide high levels of vitamin C, folic acid, carotenoids, 
glucosinolates, and phenolic compounds to maximize the health benefits 
of these vegetables in products that are convenient and attractive to 
consumers.
    Most of what we hear about bacteria in foods concerns the pathogens 
that cause disease. However, lactic acid bacteria are intentionally 
grown in fermented foods because they are needed to give foods like 
sauerkraut, yoghurt, cheeses, and fermented salami the characteristic 
flavors and textures that we desire. There is a growing body of 
research to indicate that certain living lactic acid bacteria are 
``pro-biotic'' and can improve human health by remaining in the 
intestinal tract after they are consumed. Fermented or acidified 
vegetables may be a good way to deliver such pro-biotic bacteria to 
consumers. The objective will be to identify pro-biotic lactic acid 
bacteria that can survive in high numbers in selected vegetable 
products and investigate the potential for using vegetables as 
healthful delivery vehicles for pro-biotic organisms.

       SUGAR BEET AND BEAN RESEARCH UNIT, EAST LANSING, MICHIGAN

    The USDA/ARS East Lansing, Michigan location has the only federally 
funded research program that is devoted to developing new and/or 
improved engineering technologies and systems for assessing, retaining, 
and assuring postharvest quality and marketability of pickling 
cucumbers and other vegetable products. The postharvest engineering 
research program currently has a full-time research agricultural 
engineer whose research is primarily focused on tree fruits. Over the 
past few years, the Sugar Beet and Bean Research Unit has developed a 
number of innovative engineering technologies for rapid, nondestructive 
measurement and inspection of postharvest quality of tree fruits and 
vegetables, including a novel laser-based multi-spectral scattering 
technology for assessing the texture and flavor of fruits. The 
technology may be used for inspecting a variety of vegetable crops. 
Recently, an advanced hyperspectral imaging system was developed for 
automated detection of quality/defect of pickling cucumbers.
    Currently the location's cucumber postharvest engineering research 
is grossly under funded. It is crucial that additional funds be 
provided so that the location can hire a research engineer to carry out 
research on postharvest sorting, grading and handling of pickling 
vegetable products at full scale. With the increasing demands from 
consumers and the government's regulatory agencies for high quality and 
safe food products, it is crucial that an effective quality inspection 
and assurance system be implemented throughout the handling steps 
between harvest and retail. While new sensors and automated inspection 
systems are being used in many pickle processing facilities, there 
still exists considerable room for improving existing technologies and 
developing new and more efficient sensors and automated methods for 
postharvest handling and processing of pickling vegetables. Methods 
currently available for measuring and grading quality of cucumbers and 
other vegetables are still ineffective or time consuming. Labor 
required for postharvest handling and processing operations represents 
a significant portion of the total production cost. New and/or improved 
technologies are needed to assess, inspect and grade fresh cucumbers 
rapidly and accurately for various internal and external quality 
characteristics so that raw products can be directed to, or removed 
from, appropriate processing or marketing avenues. This will minimize 
postharvest losses of food that has already been produced and ensure 
high quality, consistent final product and end-user satisfaction. 
Research at East Lansing will lead to new inspection and grading 
technology that will help the pickling industry in delivering high-
quality safe products to the marketplace and achieving labor cost 
savings.

         U.S. VEGETABLE LABORATORY, CHARLESTON, SOUTH CAROLINA

    The research program at the USDA/ARS Vegetable Laboratory in 
Charleston, South Carolina, addresses national problems in vegetable 
crop production and protection with emphasis on the southeastern United 
States. This research program is internationally recognized for its 
accomplishments, which have resulted in development of over 150 new 
vegetable varieties and lines along with the development of many new 
and improved disease and pest management practices. This laboratory's 
program currently addresses 14 vegetable crops including those in the 
cabbage, cucumber, and pepper families, which are of major importance 
to the pickling industry. The mission of the laboratory is to (a) 
develop disease and pest resistant vegetable crops and (b) develop new, 
reliable, environmentally sound disease and pest management programs 
that do not rely on conventional pesticides.
    Continued expansion of the Charleston program is crucial. Vegetable 
growers depend heavily on synthetic pesticides to control diseases and 
pests. Cancellation and/or restrictions on the use of many effective 
pesticide compounds are having a considerable influence on the future 
of vegetable crop production. Without the use of certain pesticides, 
growers will experience crop failures unless other effective, non-
pesticide control methods are found quickly. The research on improved, 
more efficient and environmentally compatible vegetable production 
practices and genetically resistant varieties at the U.S. Vegetable 
Laboratory continues to be absolutely essential. This gives U.S. 
growers the competitive edge they must have to sustain and keep this 
important industry and allow it to expand in the face of increasing 
foreign competition. Current cucumber varieties are highly susceptible 
to a new strain of the downy mildew pathogen; this new strain has 
caused considerable damage to commercial cucumber production in some 
South Atlantic and Midwestern States during the past 3 years, and a new 
plant pathologist position needs to be established to address this 
critical situation.

                      FUNDING NEEDS FOR THE FUTURE

    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally-sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short term (6-24 months) and long term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.

U.S. Vegetable Laboratory, Charleston, South Carolina
    The newly constructed laboratory-office building at the U.S. 
Vegetable Laboratory was occupied in April 2003. Design of the 
accompanying greenhouse and head house was completed in July 2004. 
Construction of the head house was completed in 2006. The initial phase 
of the greenhouse complex is now under construction with an expected 
completion date in late spring 2008. In fiscal year 2005, $2.976 
million was appropriated for construction of greenhouses. In fiscal 
year 2006, an additional $1.980 million was appropriated for 
construction of greenhouses, but $7.794 million is still needed for the 
planned $12.750 million greenhouse complex. This new facility replaces 
and consolidates outmoded laboratory areas that were housed in 1930s-
era buildings and trailers. Completion of the total research complex 
will provide for the effective continuation and expansion of the 
excellent vegetable crops research program that has been conducted by 
the Agricultural Research Service at Charleston for over 70 years.
    New funds are needed to establish a plant pathology position to 
address cucumber diseases, especially the disease caused by a new 
strain of the downy mildew pathogen that has caused extensive damage to 
cucumber production in some South Atlantic and Midwestern States during 
the past 2 years. The plant pathologist is needed to characterize 
pathogen strains using molecular methodologies and to develop new 
management approaches and resistant cucumber lines. This new plant 
pathologist position will greatly contribute to the accomplishment of 
research that will provide for the effective protection of cucumbers 
from disease without the use of conventional pesticides. This position 
will require a funding level of $500,000 for its establishment.

------------------------------------------------------------------------
           Construction                Current status      Funds needed
------------------------------------------------------------------------
Greenhouse........................  Needed..............      $7,794,000
                                                         ---------------
Appropriations to Restore.........  ....................       7,794,000
------------------------------------------------------------------------


------------------------------------------------------------------------
    New scientific staff needed        Current status      Funds needed
------------------------------------------------------------------------
Plant Pathologist (cucumber         Needed..............         500,000
 disease).
                                                         ---------------
New Funds Needed..................  ....................        $500,000
------------------------------------------------------------------------

Food Fermentation Laboratory, Raleigh, North Carolina
    The current funding for the laboratory is $1,274,000. To carry out 
the new research initiatives to maximize retention of beneficial 
components in high nutrient/high antioxidant vegetables and to develop 
systems to deliver pro-biotic lactic acid bacteria in acidified and 
fermented vegetable products, we request additional support for the 
Food Fermentation Laboratory of $200,000 in fiscal year 2009. This will 
provide support for Post-Doctoral or Pre-Doctoral research associates 
along with necessary equipment and supplies to develop these new areas 
of research.

------------------------------------------------------------------------
         Scientific staff              Current status      Funds needed
------------------------------------------------------------------------
Microbiologist....................  Active..............        $318,500
Chemist...........................  Active..............         318,500
Food Technologist/Biochemist......  Active..............         318,500
Microbial Physiologist............  Active..............         318,500
Fiscal Year 2009 Post-doctoral or   Needed..............         200,000
 Predoctoral Research Associates..
                                                         ---------------
      Total Funding Required......  ....................       1,474,000
      Presidential Budget (fiscal   ....................       1,274,000
       year 2009).
                                                         ---------------
      New Funds Needed............  ....................         200,000
------------------------------------------------------------------------

Vegetable Crops Research Laboratory Unit, Madison, Wisconsin
    Current base funding for three scientists is $868,757, of which 
$200,000 was added in fiscal year 2002. Emerging diseases, such as 
downy mildew of cucumber, threaten production of the crop in all 
production areas. Therefore, we request an additional $200,000 to fully 
fund the scientists and support staff, including graduate students and 
post-doctorates for new research searching for genetic resistance to 
emerging diseases.

------------------------------------------------------------------------
     Scientific Staff in Place         Current Status      Funds Needed
------------------------------------------------------------------------
Geneticist........................  Active..............        $320,000
Horticulturist....................  Active..............         320,000
Geneticist........................  Active..............         320,000
                                                         ---------------
      Total Funding Required......  ....................         960,000
      Presidential Budget (fiscal   ....................         868,757
       year 2009).
                                                         ---------------
      Appropriations to Restore...  ....................          91,243
      New Funds Needed............  ....................         200,000
------------------------------------------------------------------------

    A temporary addition of $200,000 was provided to enhance the 
research effort of this program in fiscal year 2002, and we greatly 
appreciate that additional support, but that addition is being proposed 
for reduction in fiscal year 2009. Thus, the restoration of the funds 
proposed for reduction, is urgently requested. We request a $291,243 
permanent addition this year to sustain the long-term research of this 
group.

Sugar Beet and Bean Research Unit, East Lansing, Michigan
    The location urgently needs to hire a full-time research engineer 
to develop a comprehensive research program on nondestructive 
inspection, sorting and grading of pickling cucumbers and other 
vegetable crops to assure the processing and keeping quality of pickled 
products. The current base funding for the cucumber engineering 
research is $200,000. An increase of $150,000 in the current base 
funding level would be needed to fund the research engineer position.

------------------------------------------------------------------------
     Scientific Staff in Place         Current Status      Funds Needed
------------------------------------------------------------------------
Postdoctoral Research Associate...  Active..............        $200,000
Research Engineer.................  Needed..............         150,000
                                                         ---------------
      Total Funding Required......  ....................         350,000
Current Funding...................  ....................         200,000
                                                         ---------------
      New Funds Needed............  ....................         150,000
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the Committee, I am Wayne Dowd, and I 
am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin. 
(Enclosure 1).
    The Resolutions contained herein were adopted by the Association 
during its 83rd Annual Meeting in Shreveport, Louisiana on February 21, 
2008, and represent the combined concerns of the citizens of the Red 
River Basin Area as they pertain to the goals of the Association. 
(Enclosure 2).
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (NRCS). We understand that attention and resources must be 
given to our national security and the war in Iraq; however, we cannot 
sacrifice what has been accomplished on our Nation's lands. NRCS 
programs are a model of how conservation programs should be 
administered and our testimony will address the needs of the Nation as 
well as our region.
    The President's fiscal year 2009 budget for NRCS indicates a 
decrease of $142,641,000 (15 percent decrease) from what Congress 
appropriated in fiscal year 2008, $943,414,000. In addition, the 
administration eliminated three crucial programs: Watershed & Flood 
Prevention Operations, Watershed Survey & Planning and RC&D. Along with 
drastic reductions in the other programs, NRCS manpower for fiscal year 
2009 would have to decrease by over 1,500 staff years, if the 
President's budget is implemented. This is unacceptable.
    This means that NRCS conservation assistance to landowners will not 
be adequately funded, to the detriment of the Nation and our natural 
resources. We would like to address several of the programs 
administered by NRCS. Failure to adequately fund these initiatives 
would reduce assistance to those who want it and the resources that 
need protection.
    Conservation Operations.--This account has been in steady decline, 
in real dollars, over the past several years. The President's budget 
included $794,773,000, which is a decrease of $45,553,000 million from 
what Congress appropriated in fiscal year 2008. Mandated increases in 
pay and benefits, continuing increases in the ``cost of doing business' 
and budget reductions greatly reduces the effective work that can be 
accomplished in this account. Allocations should be increased not 
decreased.
    We request a total of $930 million be appropriated for Conservation 
Operations for NRCS to meet the demands it faces today.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all ``working 
lands'' not just those fortunate few who are able to enroll in a 
Federal program. Working lands are not just crops and pasture 
(commodity staples) but includes forests, wildlife habitat and coastal 
marshes. The problem is that NRCS personnel funded from ``mandatory 
programs'' can only provide technical assistance to those enrolled in 
these programs, leaving the majority of the agricultural community 
without technical assistance. We recommend that adequate funding be 
placed in ``Conservation Technical Assistance'', and allow NRCS to 
provide assistance to all who are in need of assistance.
    It is our understanding that the Technical Service Providers (TSP) 
program has not lived up to its expectations. Experience indicates 
landowners are hesitant to use the program. This program funds projects 
at a level estimated if NRCS conducted the work. Usually the TSP cost 
exceeds this estimate and the landowner is responsible for the 
difference, effectively making the landowner cost share. We believe 
that TSPs should be used only after NRCS staffing is brought up to 
levels commensurate with the increase in workload caused by the Farm 
Bill, not to replace NRCS staffing.
    Watershed and Flood Prevention Operations (Public Law 566 & 534).--
We are greatly disappointed that the President's Budget provided no 
funding for watershed operations in the last three fiscal years. There 
is no doubt that this is a Federal responsibility, in conjunction with 
a local sponsor. This program addresses all watershed needs to include: 
flood protection, water quality, water supply and the ecosystem. There 
is no Corps of Engineer, Bureau of Reclamation or FEMA program to 
address small watershed needs, before disaster strikes. We recommend 
that Congress continue to hold oversight hearings to understand the 
importance and hear how popular this program is to our communities.
    Over the past 50 years these projects have developed a $15 billion 
infrastructure that is providing $1.5 billion in annual benefits to 
over 47 million people. It is not a Federal program, but a federally 
assisted program. This partnership between local communities, State 
agencies and NRCS has been successful for over 50 years. It would take 
$1.6 billion to fund the existing Federal commitment to local project 
sponsors. This cost only increases every year if adequate funding is 
not provided.
    All ongoing contracts will be terminated, if you allow this program 
to end. This will ultimately lead to lawsuits and tort claims filed by 
both sponsors and contractors, due to the Federal Government not 
fulfilling its contractual obligation.
    We are very appreciative for the funding level of $30 million 
enacted in fiscal year 2008, but we remind you that no funding was 
provided in fiscal year 2007, the year Congress turned over the budget 
to the administration--we can not allow that to happen again. For every 
$1 spent, the Nation realizes $2 in benefits. Congress must take back 
responsibility for this program.
    There are many new projects, which are awaiting funds for 
construction under this program. We strongly recommend that a funding 
level of $190 million be appropriated for Watershed Operations 
Programs, Public Law 534 ($20 million) and Public Law 566 ($170 
million).
    The Red River has proven, through studies and existing irrigation, 
to be a great water source for ``supplemental'' irrigation. The two 
projects mentioned below, will use existing, natural bayous to deliver 
water for landowners to draw from. The majority of expense will be for 
the pump system to take water from the Red River to the bayous. These 
projects will provide the ability to move from ground water dependency 
to surface water, an effort encouraged throughout the Nation. Both will 
enhance the environmental quality and economic vitality of the small 
communities adjacent to the projects.
  --Walnut Bayou Irrigation Project, AR.--Plans and specifications have 
        been completed and it is ready to proceed into the construction 
        phase. An irrigation district has been formed and they are 
        prepared to take on the responsibility to generate the income 
        for the O&M required to support this project. We request that 
        $4,000,000 be appropriated for these projects in fiscal year 
        2009.
  --Red Bayou Irrigation Project, LA.--The plans and specifications 
        have been completed, making this project ready for construction 
        in fiscal year 2007. An irrigation district has been formed and 
        is prepared to collect funds to support the O&M for this 
        proposed system. We request that $2,500,000 be specifically 
        appropriated to begin construction in fiscal year 2009.
    Watershed Rehabilitation.--More than 10,400 individual watershed 
structures have been installed nationally, with approximately one-third 
in the Red River Valley. They have contributed greatly to conservation, 
environmental protection and enhancement, economic development and the 
social well being of our communities. More than half of these 
structures are over 30 years old and several hundred are approaching 
their 50-year life expectancy. Today you hear a lot about the watershed 
approach to resource management. They protect more people and 
communities from flooding now than when they were first constructed. 
The benefit to cost ratio for this program has been evaluated to be 
2.2:1. What other Federal program can claim such success?
    In the next 5 years over 900 watershed structures will require over 
$570 million for rehabilitation. Each year this number increases as 
more dams reach their 50-year life. There is no questioning the value 
of this program. The cost of losing this infrastructure exceeds the 
cost to reinvest in our existing watersheds. Without repairing and 
upgrading the safety of existing structures, we miss the opportunity to 
keep our communities alive and prosperous. It would be irresponsible to 
dismantle a program that has demonstrated such great return and is 
supported by our citizens. We cannot wait for a catastrophe to occur, 
where life is lost, to decide to take on this important work.
    The President's budget neglects the safety and well being of our 
community needs and only recommends $6 million for this program. This 
is drastically lower than the levels authorized in the 2002 Farm Bill, 
which authorized $600 million for rehabilitation for 2003-2007.
    We request that $65 million be appropriated to provide financial 
and technical assistance to those watershed projects where sponsors are 
prepared (35 percent cost share) to commence rehabilitation.
    Watershed Survey and Planning.--In fiscal year 2006, $6.1 million 
was appropriated to support this extremely important community program. 
Again, no funding was provided in fiscal year 2007 and Congress did not 
provide funding for fiscal year 2008. NRCS has become a facilitator for 
the different community interest groups, State and Federal agencies. In 
our States such studies are helping identify resource needs and 
solutions where populations are encroaching into rural areas. The 
administration and Congress has decided not to fund this program. We 
disagree with this and ask Congress to fund this program at the 
appropriate level.
    Proper planning and cooperative efforts can prevent problems and 
insure that water resource issues are addressed. Zeroing out the 
planning process assumes the economy will not grow and there is no need 
for future projects. We do not believe anyone supports or believes 
this. Another serious outcome is that NRCS will lose its planning 
expertise, which is invaluable.
    We request this program be funded at a level of $35 million.
    We request that the following two studies be specifically 
identified and funded in the fiscal year 2009 appropriation bill.
  --Maniece Bayou Irrigation Project, AR.--This is a project in its 
        initial stage of planning. An irrigation district is being 
        formed to be the local sponsor. This project transfers water 
        from the Red River into Maniece Bayou where landowners would 
        draw water for supplemental irrigation. We request that 
        $200,000 be appropriated to initiate the plans and 
        specifications.
  --Lower Cane River Irrigation Project, LA.--The transfer of water 
        from the Red River to the Lower Cane River will provide 
        opportunities for irrigation and economic development. Funds 
        are needed to initiate a Cooperative River Basin Study. We 
        request that $250,000 be appropriated for this study.
    Resource Conservation and Development (RC&D).--This has 
traditionally been a well-received program by the administration, but 
not this year. Their budget proposal zeroes out this important program. 
This program leverages its resources at 4 to 1, with communities, local 
sponsors and non-government organizations. The benefits are realized at 
over 14 to 1, average per project. We are truly surprised the 
administration would do this.
    We request that $51 million be appropriated for this program, at 
the same level as in fiscal year 2008.
    Mandatory Accounts (CCC) Technical Assistance (TA).--Request for 
assistance through the CCC programs has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Adequate funding for TA must be provided at the full 
cost for program delivery. This includes program administration, 
conservation planning and contracting with each applicant. Congress, in 
the 2002 Farm Bill, wisely increased conservation programs each year. 
This increased investment, will increase the NRCS workload. It is 
imperative that NRCS receive the TA funding levels required to 
administer these programs. If they do not receive full funding these 
programs will not realize their full capability.
    It has been mandated that a set percent of TA, from the CCC 
Program, must be used for TSPs, approximately $40 million. This is 
equivalent to losing 600 staff years from NRCS manpower. This is 
another unacceptable policy, which will reduce the effectiveness of 
NRCS. This mandate must be eliminated.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not be served adequately to apply conservation 
measures needed to sustain our natural resources for future 
generations. Technical Assistance cannot be contracted out to private 
companies.
    We are all aware of the issue with TMDL levels in our waterways. If 
our Nation is to seriously address this we must look at the impacts 
from our farmlands. Assistance for land treatment plans and plan 
implementation is exactly what the NRCS Watershed programs are intended 
to address. Watershed programs should be receiving an increase in 
funds, not zeroed out!
    With these new clean water initiatives why do we ignore the agency 
that has a proven record for implementing watershed conservation 
programs? Congress must decide; will NRCS continue to provide the 
leadership within our communities to build upon the partnerships 
already established? It is up to Congress to insure NRCS is properly 
funded and staffed to provide the needed assistance to our taxpayers 
for conservation programs.
    These NRCS studies and watershed projects are an example of true 
``cooperative conservation'' initiatives. There is an interface with 
communities and local sponsors at each step of the process and local 
sponsors do cost share at the levels expected of them.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
Nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process. Please direct your 
comments and questions to our Executive Director, Richard Brontoli, 
P.O. Box 709, Shreveport, LA 71162, (318) 221-5233, E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="daa8bfbea8b3acbfa8acbb9ab2b5aeb7bbb3b6f4b9b5b7f4">[email&#160;protected]</a>
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the 2 previous fiscal years.

               ENCLOSURE 1.--RED RIVER VALLEY ASSOCIATION

    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well 
being of the citizens of the four State Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 80 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts, Municipalities and other local 
governmental entities in developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 83rd Annual Meeting in Shreveport, Louisiana on February 21, 
2008, and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Irrigation
  --Bank Stabilization
  --A Clean Water Supply for Municipal, Industrial and Agricultural 
        Uses
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
Federal budget, and has kept those constraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested. We can be contacted at 
(318) 221-5233 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="780a1d1c0a110e1d0a0e193810170c15191114561b171556">[email&#160;protected]</a>

                              ENCLOSURE 2

   RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2009 APPROPRIATIONS--NATURAL RESOURCES CONSERVATION SERVICE (NRCS)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year      RRVA 2009      Pres. 2009
                     Discretionary Accounts                         2008 Approp       Request         Budget
----------------------------------------------------------------------------------------------------------------
Conservation Operations.........................................         840,326         930,000         794,773
Watershed & Flood Prevention Operations.........................          30,000         190,000  ..............
    Walnut Bayou Irrigation Project, AR.........................  ..............           4,000  ..............
    Red Bayou Irrigation Project, LA............................  ..............           1,600  ..............
Watershed Rehabilitation........................................          20,000          65,000           6,000
Watershed Survey & Planning.....................................  ..............          35,000  ..............
    Maniece Bayou Irrigation Project, AR........................  ..............             200  ..............
    North Wallace Lake Watershed, LA............................  ..............             250  ..............
Resource Conservation & Development.............................          51,088          51,000  ..............
Healthy Forest Reserve Program..................................           2,000           5,000  ..............
----------------------------------------------------------------------------------------------------------------
NOTE: The President's fiscal year 2009 budget is 15 percent less than Congress appropriated in fiscal year 2008!

                                 ______
                                 

   Prepared Statement of the Society for Women's Health Research and 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit testimony 
in support of increased funding for the Food and Drug Administration 
(FDA), and more specifically for the Office of Women's Health, a 
critical focal point within the Agency on women's health.
    The Society is the only national non-profit women's health 
organization whose mission is to improve the health of women through 
research, education, and advocacy. Founded in 1990, the Society brought 
to national attention the need for the appropriate inclusion of women 
in major medical research studies and the need for more information 
about conditions affecting women disproportionately, predominately, or 
differently than men.
    The Coalition was created by the Society in 1999 to give a voice to 
scientists and researchers from across the country that are concerned 
and committed to improving women's health research. The Coalition now 
has more than 650 members, including leaders within the scientific 
community and medical researchers from many of the country's leading 
universities and medical centers, as well as leading voluntary health 
associations, and pharmaceutical and biotechnology companies.
    The Society and the Coalition are committed to advancing the health 
status of women through the discovery of new and useful scientific 
knowledge. We strongly believe that appropriate funding of the FDA by 
Congress is absolutely critical for the Agency to be able to maintain 
basic functions and to assure the American public of the safety of our 
food and drugs. Unfortunately, the present state of the FDA does not 
permit for scientific growth or adequate food and drug protection. In 
reality, the FDA infrastructure is failing and it cannot prepare for 
the future as it is still trying to catch up from the past. It has been 
chronically under funded and lacks strength in areas needed most, 
specifically information technology (IT). The administration's current 
proposed budget of $1.72 billion, a $50 million increase for fiscal 
year 2009 does not even begin to address the major short falls of the 
FDA. Therefore, the Society urges Congress to provide the FDA with an 
increase of $380 million, bringing the FDA's fiscal year 2009 budget to 
$2.1 billion. This increase in funding would be a major stepping stone 
for the FDA to start rebuilding its infrastructure so it may provide 
citizens with the food and drug protection promised in its mission, and 
begin to address the shortage of resources and failing IT systems.
    In addition, many Offices and Centers within the FDA have suffered 
under the chronic underfunding. The Office of Women's Health (OWH) is 
one such example. To address years of flat funding, we recommend that 
Congress increase funding for OWH. OWH's women's health programs, often 
conducted with the Agency centers, are necessary if we are to maintain 
any focus on women's health within the FDA. They are critical to 
improved care and increased awareness of disease-specific impacts to 
women. OWH endeavors to ensure, for example, that sex and gender 
differences in the efficacy of drugs (such as metabolism rates), 
devices (sizes and functionality) and diagnostics are taken into 
consideration in reviews. Therefore, we strongly urge Congress to 
support a $6 million budget for OWH for fiscal year 2009 within the 
budget for the FDA. In addition, we also recommend that the current 
budget is not only increased in the future, but should also never be 
less than the administration's current proposed budget of $5 million 
for fiscal year 2009.

                   FDA INFORMATION TECHNOLOGY SYSTEMS

    Under recent evaluation by the Science Board to the FDA, the FDA's 
IT systems were found to be inefficient and incapable of handling the 
current demands placed on the Agency, thus preventing the FDA from 
fulfilling its mission to protect its citizens. Equipment is outdated, 
often unsupported by maintenance, and regularly breaks down. While 83 
percent of the budget goes towards workforce support, IT is privately 
contracted out to keep costs lower. The IT system simply cannot keep up 
with current scientific data and market trends, and will only continue 
to worsen as server age beyond usefulness increases, and serviceability 
and email networks fail multiple times per day for a system that needs 
to function 24/7.
    The antiquated nature of the IT systems makes the agency unable to 
conduct safety analyses for product marketing applications, track the 
natural history and disease models for rare disorders, and access huge 
amounts of clinical data. In addition, one central database does not 
exist, therefore the system cannot query a centralized repository for 
all relevant facts about a certain product including where, when and 
how the product was made. There is a desperate need to create one 
single database for all relevant information to be stored across 
agencies, so as to maximize functionality not only of FDA but of 
expected research and analysis needed by the American public.
    Estimations have shown that it would take $200 million ($40 
million/year) over the course of 5 years to begin the process of 
improving the IT system. However, with the administration's proposed 
fiscal year 2009 budget of only $50 million for the entire agency, this 
update will be close to impossible. It is up to Congress to address the 
shortfall to the FDA and provide it a $380 increase to begin IT 
transformation among many other improvements.

                        OFFICE OF WOMEN'S HEALTH

    The Office of Women's Health (OWH) at the FDA, established in 1994, 
plays a critical role in women's health, both within and outside the 
Agency, supporting sex- and gender-based research, areas in which the 
Society has long been a proponent. OWH provides scientific and policy 
expertise on sex and gender sensitive regulatory and oversight issues; 
endeavors to correct sex and gender disparities in the areas for which 
the FDA is responsible--drugs, devices, and biologics; and monitors 
women's health priorities, providing both leadership and an integrated 
approach across the FDA. Despite inadequate funding, OWH provides all 
women with invaluable tools for their health.
    With little difficulty, OWH exhausts its tiny budget each year. For 
the previous 5 years, OWH had been provided a flat budget of $4 
million. That is, in essence, a decrease due to required Federal cost 
of living adjustments, benefit cost increases and other related issues. 
Despite this squeeze, the office has managed to advance its mission 
both within the Agency and externally through it research grants, drug 
and disease pamphlets and outreach programs. OWH's pamphlets are the 
most requested of any documents at the government printing facility in 
New Mexico. (More than 3.5 million pieces are distributed to women 
across the Nation including target populations such as Hispanic 
communities, seniors and low income citizens.)
    Despite the $1 million increase the OWH received for fiscal year 
2008, it has been flat lined for fiscal year 2009. The OWH is in 
desperate need of increased funding so that it may not only continue 
work on current projects, but also expand for the future.
    Since its beginning, OWH has funded high quality scientific 
research to serve as the foundation for Agency activities that improve 
women's health. To date, OWH has funded over 100 research projects with 
approximately $15.2 million intramural grants, supporting projects 
within the FDA that address knowledge gaps or set new directions for 
sex and gender research. Extramural contracts leverage a wealth of 
expertise and other resources outside the FDA to provide insight on 
regulatory questions pertinent to women's health. All contracts and 
grants are awarded through a competitive process. A large number of 
these studies are published and appear in peer reviewed journals.
    OWH funds research to more fully understand heart disease in women. 
Despite being the number one cause of death, women with heart disease 
face misdiagnosis, delayed diagnosis, under-treatment, and mistreatment 
due to their under-representation in heart-related research studies. 
Extramural research funded by OWH is looking into the use of coronary 
stents in women and problems associated with breast interference in 
interpretation of heart catherization studies. Most recently, they 
participated in a Sister-2-Sister Women's Heart Day conference in 
Washington, DC.
    As part of its educational outreach efforts to consumers, OWH 
continues to work closely with women's advocacy and health professional 
organizations to provide clarity on the results of the Women's Health 
Initiative. Due to OWH efforts, an informational fact sheet about 
menopause and hormones and a purse-sized questionnaire to review with 
the doctor were distributed to national and local print, radio, and 
Internet advertisements. OWH's website received over three million hits 
to download campaign materials. This website provides free, 
downloadable fact sheets on over 40 different illnesses, diseases, and 
health related issues.
    In addition, OWH has completed medication charts on seven chronic 
diseases. These are unique within the Agency. These charts list, in one 
place, all the medications that are prescribed and available for each 
disease. Again, the information is available on the website and is 
ideal for women to use in talking to their doctors, pharmacists or 
nurses about their treatment options.
    OWH continues to improve the health of women through new research 
initiatives. Most recently, they have conducted projects addressing the 
participation of women and racial minorities in clinical trials for 
diabetes mellitus medications. They have collaborated with Pharmacy 
Choice, Inc. to create a web portal solely dedicated to FDA consumer 
health education materials, providing access to fact sheets and 
medication guides.
    As a result of the FDA antiquated IT system, combined with the 
inability to keep pace with IT needs due to budget constraints, the OWH 
has been unable to conduct much needed data analysis on women's health 
and sex-related differences. This effort originally started in 2001, 
when the Society submitted testimony on behalf of the OWH in support of 
a centralized FDA database to coordinate clinical trial oversight, 
monitor the inclusion of women in clinical trials, oversee the 
parameters of informed consent, and identify health provider training 
needs. As a result of Society efforts and this Committee's commitment, 
in 2002 Congress provided the OWH with funds to develop an agency-wide 
database focused on women's health activities to include demographic 
data on clinical trials. OWH did begin developing this database, now 
known as the ``Demographic Information and Data Repository,'' to review 
clinical studies, enhance product labeling, identify knowledge gaps, 
and coordinate data collection. While $500,000 was granted for this 
project, the OWH was unable to design a system to communicate with the 
current IT system and could not access data that remained in a paper/
manual process. The reason for this and other projects failures is 
attributed to the severely inadequate IT system at the FDA.
    Currently, the FDA receives large volumes of information in 
applications from drug manufacturers for review and evaluation. The FDA 
reviewers must manually comb through the submitted drug trial reports 
and digital data in as many as twelve formats to evaluate a new drug's 
safety and effectiveness. With no uniform system or database, reviewers 
must handpick sex, age, and ethnicity information manually from stacks 
of paper reports and craft their own data comparisons. This is time 
consuming, makes the review process less efficient, is error-prone and 
delays access to important information.
    Scientific and medical advances are occurring rapidly and the 
public needs and deserves access to the most recent and accurate 
information regarding their health. Therefore, in order to fully 
capitalize on the potential of the data warehouse and the resulting 
wealth of information, we urge Congress to commit $1 million to OWH for 
the Demographic Information and Data Repository. It is time for us all 
to recognize that the Agency must utilize up-to-date information 
technology and that it sorely needs the resources to maintain them.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain, to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes, with even more information forthcoming as a result of 
the sequencing of the X chromosome.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. The inclusion of women in study populations by itself is 
insufficient to address the inequities in our knowledge of human 
biology and medicine, and only by the careful study of sex differences 
at all levels, from genes to behavior, will science achieve the goal of 
optimal health care for both men and women. Sex differences play an 
important role in disease susceptibility, prevalence, time of onset and 
severity and are evident in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and other illnesses. 
Physiological and hormonal fluctuations may also play a role in the 
rate of drug metabolism and effectiveness of response in females and 
males. This research must be supported and encouraged.
    Building upon sex differences research, the Society encourages the 
establishment of drug-labeling requirements that ensure labels include 
language about differences experienced by women and men. Furthermore, 
we advocate for research on the comparative effectiveness of drugs with 
specific emphasis on data analysis by sex. When available, this 
information should be on labels.
    Our country's drug development process has succeeded in delivering 
new and better medications to ensure the health of both women and men. 
However, there is no requirement that the data acquired during research 
of a new drug's safety and effectiveness be analyzed as a function of 
sex or that information about the ways drugs may differ in various 
populations (e.g., women requiring a lower dosage because of different 
rates of absorption or chemical breakdown) be included in prescription 
drug labels and other patient educational and instructional materials.
    The Society believes the opportunity is now before us to 
communicate sex differences data discovered from clinical trials to the 
medical community and to consumers through drug labeling and packaging 
inserts and other forms of alerts. As part of advancing the need to 
analyze and report sex differences, the Society encourages the FDA to 
continue adequately addressing the need for accurate drug labeling in 
order to identify important sex differences, as well as to ensure that 
appropriate data analysis of post-market surveillance reporting for 
these differences is placed in the hands of physicians and the patient.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for the FDA and women's health and your 
commitment to OWH. We recommend that you increase the overall fiscal 
year 2009 budget for the FDA by $380 million, so that it may 
dramatically improve upon current operations while also rebuilding its 
IT infrastructure. Secondly, we urge you to allocate $6 million for the 
Office of Women's Health for fiscal year 2009, and to ensure that 
future budget appropriations for the OWH are never below current 
funding levels. We look forward to continuing to work with you to build 
a healthier future for all Americans.
                                 ______
                                 

      Prepared Statement of the Sustainable Agriculture Coalition

    Thank you for the opportunity to present our funding requests for 
the fiscal year 2009 Agriculture, Rural Development, FDA and Related 
Agencies appropriations bill.
    The Sustainable Agriculture Coalition is an alliance of national, 
regional, and local grassroots farm, rural, and conservation 
organizations that together advocate for public policies that support 
the long-term economic, social, and environmental sustainability of 
agriculture, natural resources, and rural communities.\1\ Through our 
member organizations, we work with and represent thousands of farmers 
and other rural citizens who are engaged in creating a more sustainable 
farm and food system.
---------------------------------------------------------------------------
    \1\ Our member organizations include: the Agriculture and Land 
Based Training Association, American Natural Heritage Foundation, 
California FarmLink, C.A.S.A. del Llano (Communities Assuring a 
Sustainable Agriculture), Center for Rural Affairs, Community Alliance 
with Family Farmers, Dakota Rural Action, Delta Land and Community, 
Inc., Ecological Farming Association, Future Harvest/CASA (Chesapeake 
Alliance for Sustainable Agriculture), Illinois Stewardship Alliance, 
Institute for Agriculture and Trade Policy, Iowa Environmental Council, 
Iowa Natural Heritage Foundation, Izaak Walton League, Kansas Rural 
Center, Kerr Center for Sustainable Agriculture, Land Stewardship 
Project, Michael Fields Agricultural Institute, Michigan Integrated 
Food and Farming Systems, Michigan Land Use Institute, Midwest Organic 
and Sustainable Education Service (MOSES), The Minnesota Project, 
National Catholic Rural Life Conference, National Center for 
Appropriate Technology, Northern Plains Sustainable Agriculture 
Society, Ohio Ecological Food and Farm Association, Organic Farming 
Research Foundation, Pennsylvania Association for Sustainable 
Agriculture, Practical Farmers of Iowa, Rural Advancement Foundation 
International-USA, Sierra Club Agriculture Committee, Washington 
Sustainable Food and Farming Network, and the Union of Concerned 
Scientists (Food and Environment Program).
---------------------------------------------------------------------------
    As you begin work on the fiscal year 2009 appropriations bill, we 
want to applaud the subcommittee for reversing many of the damaging 
proposals made in the USDA budget request for fiscal year 2008 in 
conservation, research, marketing, and rural development. We also 
welcome the subcommittee's decision in the current fiscal year bill to 
keep cuts to a minimum for mandatory farm bill conservation, research, 
and rural development programs. We remain tremendously disheartened by 
the nearly $6 billion that has been gutted from mandatory conservation 
spending since passage of the 2002 Farm Bill, with the majority of cuts 
coming through regular and emergency supplemental appropriations bills 
and some by way of budget reconciliation. While the absolute amount is 
greatest for conservation, the limitations on mandatory spending in 
research and rural development have been even greater on a percentage 
basis. Over a third of total mandatory spending in conservation, rural 
development, and research has been cut and reallocated to other uses, 
despite the underlying programs being meritorious and greatly 
oversubscribed. We, therefore, encourage you to continue the practice 
started in the fiscal year 2008 bill of being modest and discriminating 
in limitations to mandatory spending.

                            CSREES PROGRAMS

    Sustainable Agriculture Research and Education (SARE) Program.--We 
urge you to support an appropriation of $20 million in fiscal year 2009 
for the SARE competitive grants program, divided between research and 
education grants ($15 million) and extension and professional 
development grants ($5 million). SARE is a regionally-delivered 
national competitive grants program that funds farmer-driven, outcome-
oriented research, education, and outreach on agricultural production 
practices and market-based initiatives that are environmentally sound 
and profitable for farmers and ranchers and their communities. The 
program is responsible for many of the systems and practices being 
utilized by farmers today to farm in concert with the environment while 
increasing farm income and providing consumers with high quality 
nutritious foods. With continued and enhanced investment, the program 
will help create a more sustainable farm and food system for a new 
generation of farmers and consumers.
    We applaud the subcommittee for increasing the SARE budget in 
fiscal year 2008. After 4 years of repeated small cuts, the increase 
could not have come at a more important moment, as the program is now 
in its 20th year of operation and demand for the program continues to 
grow. While we truly hoped the program would reach $20 million for the 
20th year, we also truly appreciate the increase to $19 million in 
fiscal year 2008.
    We urge you to reject the President's fiscal year 2009 proposal to 
severely cut program funding to 20 percent below the lowest level of 
funding the SARE program has received in the last 5 years and urge the 
subcommittee to provide an increase from $19 million to $20 million in 
fiscal year 2009. Over the next few years, we strongly urge an 
increased commitment to SARE in the context of a more balanced approach 
to overall competitive grants funding and consistent with sustainable 
agriculture's expanding role within our food and farming system and 
with the program's award-winning and cost-effective delivery of 
services.
    Organic Research.--Although the organic share of the domestic food 
retail market is currently approaching 4 percent, USDA spent a little 
less than 1.5 percent of its total research budget on organic research 
in fiscal year 2007, representing just the first time USDA spending on 
organic research reached above 1 percent. Despite this discrepancy, the 
President's fiscal year 2009 budget proposes zero funding for the two 
main organic research programs--the Organic Agriculture Research and 
Extension Initiative (OREI) and the Organic Transitions Program (ORG).
    At this writing, it appears likely that OREI will continue to 
receive mandatory funding in the 2008 Farm Bill, in which case we ask 
that the subcommittee protect that funding level and reject any 
limitation provisions. On the other hand, if the program does not 
continue to receive mandatory funding, we urge you to provide 
discretionary funding. The Organic Transitions Program is not dependent 
upon the outcome of the Farm Bill and relies on appropriations. We urge 
the committee to include $5 million in fiscal year 2009 for Organic 
Transitions Research. The combined funding would still be far short of 
a fair share for organic research, but would constitute a strong 
movement in the right direction.
    Furthermore, we oppose the President's request to transfer most 
Section 406 integrated program activities, including Organic 
Transitions, into the National Research Initiative (NRI). While we 
support expanding resources for the NRI and increasing the NRI's 
attention to integrated programs, we do not believe ending important 
existing integrated programs in water quality, organic transition, pest 
management, and other topics and simply consolidating them at NRI 
without a clear plan for enhancing these program functions is good 
policy or good process.
    National Research Initiative (NRI).--We strongly support the 
President's request to increase from 22 percent to 30 percent the set-
aside within the NRI competitive grants program for integrated and 
applied research supporting the goals and priorities of the Initiative 
for Future Agriculture and Food Systems (IFAFS). We support a funding 
increase in the NRI provided that the percentage for integrated 
projects consistent with IFAFS is raised to at least 30 percent.
    Beginning Farmer and Rancher Development Program (BFRDP).--The 
BFRDP was authorized in the 2002 Farm Bill but unfortunately, to date, 
has not received any appropriations. The House version of the 2008 Farm 
Bill would provide the program with $15 million in annual mandatory 
funding. If the House prevails in conference, we urge you to protect 
this vital new program and keep it clear of limitation provisions. If, 
however, mandatory funding is not provided in the Farm Bill, we urge 
you to provide the program with significant discretionary funding.
    New farm entry rates have decreased dramatically and there are 
twice as many farmers over the age of 65 than under the age of 35. The 
BFRDP, a competitive grants program supporting education, extension, 
and technical assistance initiatives directed at new farming 
opportunities, can help address these challenges. The BFRDP supports 
collaborative local, State, and regionally-based networks and 
partnerships to supply financial and entrepreneurial training, 
mentoring and apprenticeship programs, ``land link'' programs, and 
education and outreach activities to assist beginning farmers and 
ranchers, including targeted funds for socially disadvantaged 
producers. The program would be the very first program for beginning 
farmers at USDA other than debt financing credit programs.
    Outreach and Assistance for Socially Disadvantaged Farmers and 
Ranchers (Section 2501).--For the past 16 years, the Section 2501 
program has provided much-needed technical information and training to 
socially disadvantaged farmers and ranchers. Since its inception, the 
program has served more than 100,000 rural constituents in more than 
400 counties and has effectively reduced the decline in the number of 
minority farmers. In spite of this success, and a 2002 Farm Bill 
authorization of $25 million per year, the program has never received 
more than $7 million in funding in any 1 year. As a result, many 
farmers who qualify for assistance under the program have been unable 
to receive it. For fiscal year 2009, we recommend $10 million in 
funding for Section 2501. The House version of the 2008 Farm Bill would 
provide the program with $15 million in annual mandatory funding. If 
the House prevails in conference, we urge you to protect that funding 
level.
    Rural Entrepreneurship Education and Enterprise Facilitation 
Program.--The 2008 Farm Bill will likely include a new program subject 
to appropriations to provide educational resources and services to 
rural areas to foster entrepreneurial strategies to rural development, 
with the stated goal of creating jobs, spurring community innovation, 
and increasing the start-up rate and reducing the failure rate of small 
businesses. With a goal of creating entrepreneurial networks, providing 
technical training, and conducting applied research, the program will 
also provide a complement to the Rural Mircoenterprise Assistance 
Program, which seeks to target specific individuals who have already 
opened a small business, or are poised to do so. We urge the committee 
to fund this program at $4 million for fiscal year 2009.

                              AMS PROGRAMS

    Farmers' Market Promotion Program (FMPP).--The FMPP provides grants 
on a competitive basis to agricultural cooperatives, local governments, 
non-profits, economic development corporations and other entities to 
establish, expand, and promote local farmers markets and other forms of 
direct farmer-to-consumer markets. Prior to fiscal year 2006, AMS 
resources for direct marketing were limited to technical assistance, 
with no financial assistance available to expand direct farmerto-
consumer links that increase farm profitability, consumer health and 
well being, and community development. Bipartisan support for this 
program resulted in Congress providing $1 million in first-year funding 
for fiscal year 2006, and the same for both fiscal year 2007 and fiscal 
year 2008. In just its first year of funding, the program received 367 
applications for grants totaling $19.9 million. An allocation of $5 
million in fiscal year 2009 will begin to fill a major gap in marketing 
assistance and help complete the AMS direct marketing toolbox. It is 
also quite possible that the 2008 Farm Bill will provide mandatory 
funding of an equivalent amount, in which case we urge you to protect 
that funding and to not limit it in any way.

                          FARM SERVICE AGENCY

    Direct Farm Ownership and Direct Operating Loans.--Direct loans 
play a very significant role in helping beginning farmers and ranchers 
get established in agriculture and deserve continuing support. The 
pending 2008 Farm Bill will modernize and update the loan limitation 
level for both types of loans and also create a parallel increase in 
the authorization for appropriation in order to not have the per loan 
limit increase shrink the number of borrowers served. The new Farm Bill 
will also include expansion and improvement of the conservation loan 
program, a provision sponsored by the chair of this subcommittee. In 
light of those changes in the Farm Bill, we strongly urge you to adopt 
a program funding level of at least $300 million for ownership loans 
and $650 million for operating loans for fiscal year 2009.

            NATURAL RESOURCES CONSERVATION SERVICE PROGRAMS

    Conservation Stewardship Program (CSP).--In our view, the CSP is 
the most important and innovative of all agricultural conservation 
programs. The CSP is crucial to agriculture's world trade agreement 
objectives and to equalizing support across the whole range of U.S. 
agriculture and orienting that support to the public good. The CSP 
correctly focuses attention on working farm and ranch land 
conservation, and emphasizes conservation systems that also maximize 
off-farm environmental benefits.
    The CSP has unfortunately been made subject to limitation 
provisions in previous appropriations bills as well as in supplementals 
and in budget reconciliation. We thank you for allowing the program to 
move forward in fiscal year 2008 without a limitation. We urge you to 
continue in that new pattern and to reject the President's fiscal year 
2009 request to return to a limitation on mandatory spending which in 
this case would cut the program by $141 million. We strongly recommend 
that the CSP not suffer any limitations in fiscal year 2009 and be 
allowed to fulfill its promise without any further appropriation 
restrictions throughout the term of the new farm bill cycle.
    Wetlands Reserve Program (WRP).--The 2008 Farm Bill will 
reauthorize the WRP and provide it with a new mandatory-funded acreage 
cap. We hope the Farm Bill will continue to provide sufficient 
resources to enroll 250,000 acres of restored wetlands each year. We 
also hope and urge the subcommittee to allow the program to move 
forward without limitations on the mandatory funding provided by the 
Farm Bill. The WRP is the frontline in the Nation's efforts to achieve 
no-net-loss or hopefully positive wetland and associated habitat and 
water quality and conservation gains.

              RURAL BUSINESS COOPERATIVE SERVICE PROGRAMS

    Appropriate Technology Transfer for Rural Areas (ATTRA) Program.--
We recommend $3 million in fiscal year 2009, a slight increase over the 
$2.6 million the program received in fiscal year 2008. Originally 
authorized as part of the research title of the 1985 Farm Bill and 
about to be newly authorized in the 2008 Farm Bill, ATTRA provides 
readily accessible sustainable and organic farming information to 
farmers and ranchers nationwide. ATTRA' professional staff answers a 
wide variety of agronomic, livestock, marketing, and entrepreneurial 
questions from farmers and ranchers. ATTRA launched a National Farm 
Energy Initiative in 2006 to help farmers better understand how they 
use energy, and how to best manage energy use to reduce operating 
costs. Modestly increasing ATTRA's funding will ensure the Energy 
Initiative continues to provide efficient, accurate, and timely 
information to farmers seeking to increase agriculture-based energy 
sources, and create sustainable economic growth in their communities.
    Value-Added Producer Grants Program (VAPG).--We urge you to support 
funding in fiscal year 2009 for the VAPG program at the $40 million 
level provided by the 2002 Farm Bill or whatever mandatory funding 
level is provided in the 2008 Farm Bill. If mandatory funding is not 
provided through the 2008 Farm Bill, we urge you to provide 
discretionary funding at no less than $30 million.
    The VAPG is a competitive grants program administered by the Rural 
Business Cooperative Service. The program makes grants to producers and 
producer-owned entities to develop value-added businesses and thereby 
enhance farm income, rural self-employment opportunities, local 
economic development, better consumer food choices, and natural 
resource protection. Value-added products include those converted from 
raw products through processing to increase market value through higher 
prices, expanded markets, or both. Products are also considered value-
added if they possess incremental value resulting from inherent 
attributes such as geographical location of production, environmental 
stewardship, food quality or safety, or seek to communicate these 
attributes through labeling or certification activities.
    Rural Microenterprise Assistance Program.--The Rural 
Microenterprise Program is very likely to be authorized in the 2008 
Farm Bill, and may also receive mandatory funding. We urge the 
subcommittee to fund this program at $10 million in fiscal year 2009 
should the Farm Bill fail to provide mandatory funding. The program 
would provide technical and financial assistance to rural ``micro-
enterprises''--especially economically disadvantaged entrepreneurs not 
otherwise able to access credit. The program would provide direct 
training and technical assistance as well as low interest loans and 
grants to individuals currently operating, or seeking to operate, small 
businesses. Commonly recognized as the single most effective method of 
promoting rural economic development, small business growth will be 
supported through targeting individuals who have already opened a small 
business or are poised to do so.
                                 ______
                                 

                Prepared Statement of The Humane Society

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to the Agriculture, 
Rural Development, Food and Drug Administration, and Related Agencies 
Subcommittee on fiscal year 2009 items of great importance to The 
Humane Society of the United States (HSUS) and its 10.5 million 
supporters nationwide.

                   ENFORCEMENT OF ANIMAL WELFARE LAWS

    We thank you for your outstanding support during recent years for 
improved enforcement by the U.S. Department of Agriculture of key 
animal welfare laws and we urge you to sustain this effort in fiscal 
year 2009. Your leadership is making a great difference in helping to 
protect the welfare of millions of animals across the country. As you 
know, better enforcement will also benefit people by helping to 
prevent: (1) food safety risks to consumers from sick animals who can 
transmit illness, and injuries to slaughterhouse workers from suffering 
animals; (2) orchestrated dogfights and cockfights that often involve 
illegal gambling, drug trafficking, and human violence, and can 
contribute to the spread of costly illnesses such as bird flu; (3) the 
sale of unhealthy pets by commercial breeders, commonly referred to as 
``puppy mills''; (4) laboratory conditions that may impair the 
scientific integrity of animal based research; (5) risks of disease 
transmission from, and dangerous encounters with, wild animals in or 
during public exhibition; and (6) injuries and deaths of pets on 
commercial airline flights due to mishandling and exposure to adverse 
environmental conditions. In order to continue the important work made 
possible by the Committee's prior support, we request the following for 
fiscal year 2009:

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                           (HMSA) ENFORCEMENT

    We Request Funding and Language to Ensure Strengthened HMSA 
Enforcement.--The Nation was shocked by the findings of our recent 
undercover investigation that revealed egregious abuse of ``downer'' 
cows too sick and injured to stand and walk on their own--by a company 
that was the #2 beef supplier to the National School Lunch Program and 
had been honored by USDA as ``Supplier of the Year'' for the 2004-2005 
academic year. Unfortunately, the blatant and recurrent violations of 
food safety and humane rules documented in our 6-week hidden camera 
investigation were not reported by 5 USDA inspection personnel at the 
plant. This situation has focused national attention on the urgent need 
for more effective USDA oversight of humane handling and food safety 
rules. We urge the Committee to make this a high priority in order to 
better protect consumers and animals. In particular, we urge your 
consideration of the needed reforms outlined later in this testimony.

               APHIS/ANIMAL WELFARE ACT (AWA) ENFORCEMENT

    We Request That you Support the President's Request of $21,522,000 
for AWA Enforcement Under the Animal and Plant Health Inspection 
Service (APHIS).--We commend the Committee for responding in recent 
years to the urgent need for increased funding for the Animal Care 
division to improve its inspections of more than 14,000 sites, 
including commercial breeding facilities, laboratories, zoos, circuses, 
and airlines, to ensure compliance with AWA standards. Animal Care now 
has 105 inspectors (with 6 positions in the process of being filled), 
compared to 64 inspectors at the end of the 1990s. We are pleased that 
the President's fiscal year 2009 budget recommends an increase of 
$1,024,000 (counting allowance for pay costs) to cover hiring new 
inspectors to handle additional responsibilities as the number of 
licensed/registered facilities continues to grow.

              APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES

    We Request That you Support the President's Request of $13,694,000 
for APHIS Investigative and Enforcement Services (IES).--We appreciate 
the Committee's consistent support for this division, which handles 
many important responsibilities, including the investigation of alleged 
violations of the AWA and the initiation of appropriate enforcement 
actions. The President's budget recommends an increase of $1,343,066 
(counting allowance for pay costs) for IES in fiscal year 2009, of 
which $725,000 will be used to improve enforcement of Federal animal 
welfare laws. The volume of animal welfare cases is rising 
significantly as new facilities become licensed and registered.

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

    We Request That You Support the President's Requested Increase of 
$6,274,852 for the Office of Inspector General (OIG) to Maintain Staff, 
Improve Effectiveness, and Allow Investigations in Various Areas, 
Including Enforcement of Animal Fighting Laws.--We appreciate the 
Committee's inclusion of funding and language in recent years for 
USDA's OIG to focus on animal fighting cases. Congress first prohibited 
most interstate and foreign commerce of animals for fighting in 1976, 
tightened loopholes in the law in 2002, and established felony 
penalties in 2007. We are pleased that USDA is taking seriously its 
responsibility to enforce this law, working with State and local 
agencies to complement their efforts. The Michael Vick case is the 
highest profile example of new Federal efforts that have helped shine a 
spotlight on the barbaric practices of dogfighting and cockfighting. 
Dogs bred and trained to fight endanger public safety, and some 
dogfighters steal pets to use as bait for training their dogs. 
Cockfighting was linked to an outbreak of Exotic Newcastle Disease in 
2002-2003 that cost taxpayers more than $200 million to contain. It's 
also been linked to the death of at least 9 people in Asia reportedly 
exposed through cockfighting activity to bird flu. Given the potential 
for further costly disease transmission, as well as the animal cruelty 
involved, we believe it is a sound investment for the Federal 
Government to increase its efforts to combat illegal animal fighting 
activity. We also support the OIG's auditing and investigative work to 
improve compliance with the humane slaughter law and downed animal 
rules.

     COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE /
                  VETERINARY STUDENT LOAN FORGIVENESS

    We Request $1,000,000 to Begin to Fully Implement the National 
Veterinary Medical Service Act (Public Law 108-161), Specifically 
Authorized in 2003, That Received Initial Funding of $500,000 in Each 
of Fiscal Year 2006 and Fiscal Year 2007, and $869,000 in Fiscal Year 
2008.--We appreciate that Congress has begun to address the critical 
shortage of veterinarians practicing in rural and inner-city areas, as 
well as in government positions at FSIS (Food Safety and Inspection 
Service) and APHIS. Having adequate veterinary care is a core animal 
welfare concern. A study released in June 2006 demonstrated the acute 
and worsening shortage of veterinarians working in rural farm animal 
practice, while domestic pets in both rural and urban areas are often 
left without necessary medical care. Veterinarians support our Nation's 
defense against bioterrorism (the Centers for Disease Control estimate 
that 80 percent of potential bioterrorism agents are zoonotic--
transmitted from animals to human). They are also on the front lines 
addressing public health problems associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, bovine spongiform 
encephalopathy (``mad cow'' disease), and a host of other concerns. To 
ensure adequate oversight of humane handling and food safety rules, 
FSIS must be able to fill vacancies in inspector positions. Veterinary 
school graduates face a crushing debt burden of over $100,000 on 
average, and the lowest pay of any of the medical professions, with an 
average starting salary of $46,000. For those who choose employment in 
underserved rural or inner-city areas or public health practice, the 
National Veterinary Medical Service Act authorizes the Secretary of 
Agriculture to forgive student debt. It also authorizes financial 
assistance for those who provide services during Federal emergency 
situations such as disease outbreaks. We hope you will build on the 
initial funding provided in order to expand this needed program under 
CSREES or such other account as the Committee deems appropriate.

    APHIS/EMERGENCY MANAGEMENT SYSTEMS/DISASTER PLANNING FOR ANIMALS

    We Request That you Support the President's Request of $996,000 for 
Animal Care Under APHIS' Emergency Management Systems Line Item.--
Hurricanes Katrina and Rita demonstrated that many people refuse to 
evacuate if they are forced to leave their pets behind. The Animal Care 
division has been asked to develop infrastructure to help prepare for 
and respond to animal issues in a disaster and incorporate lessons 
learned from previous disasters. These funds will be used for staff 
time and resources to support State and local governments' and humane 
organizations' efforts to plan for protection of people with animals. 
The additional resources will enable the agency to participate, in 
partnership with FEMA, in the newly revised National Response Plan 
without jeopardizing other Animal Care programs.

                 APHIS/HORSE PROTECTION ACT ENFORCEMENT

    We Hope you will Provide $750,000 (an add-on of $251,000 Above the 
Amount Requested by the President for Fiscal Year 2009) Plus A one-time 
Appropriation of $1 Million for Specialized Equipment, and we Urge the 
Committee to Oppose any Effort to Restrict USDA From Enforcing This law 
to the Maximum Extent Possible.--Congress enacted the Horse Protection 
Act in 1970 to end the obvious cruelty of physically soring the feet 
and legs of show horses. In an effort to exaggerate the high stepping 
gait of Tennessee Walking Horses and gain an unfair competitive 
advantage at industry horse shows, unscrupulous trainers use a variety 
of methods to inflict pain on sensitive areas of horses' feet and legs. 
This cruel practice continues unabated by the well-intentioned but 
seriously understaffed APHIS inspection program. The most effective way 
to meet the goal of the Horse Protection Act--to reduce the showing of 
sored horses--is to have Animal Care inspectors present at the shows. 
Owners who sore their horses go to great lengths to avoid detection, 
including leaving a show when USDA inspectors arrive. The greater the 
likelihood of a USDA inspection, the greater the deterrent effect on 
those who routinely sore their horses. Unfortunately, Animal Care is 
able to attend fewer than 10 percent of the 500-plus shows held 
annually. Funding of $750,000 is needed to maintain a modest level of 
compliance with the Horse Protection Act by trained Animal Care 
professionals. Moreover, a one-time infusion of $1 million is needed to 
enable Animal Care to buy specialized equipment, such as thermography 
machines, that would enhance the ability of USDA inspectors to detect 
evidence of soring.

DOWNED ANIMALS AND BSE--NEEDED REFORMS TO ADDRESS PROBLEMS REVEALED BY 
                     HSUS UNDERCOVER INVESTIGATION

    Close Loophole.--An unequivocal, truly comprehensive ban on the 
slaughter of downed animals for human consumption is needed to protect 
food safety and animal welfare. The current protocol that allows 
inspection personnel to ``determine on a case-by-case basis the 
disposition of cattle that become nonambulatory after they have passed 
antemortem inspection'' is unrealistic, unworkable, and reckless. It 
places an impossible expectation on inspectors, who can't accurately 
determine the reason(s) an animal became non-ambulatory. Injury and 
illness are often interrelated--an animal may stumble and break a leg 
because of a disease that causes weakness and disorientation. Of the 
BSE cases identified in Canada and the United States to date, 13 out of 
16 have involved downers, and at least 3 of these were identified as 
downed due to injuries, including the 2003 U.S. case (``calving 
injuries'') and a 2005 case in Canada (``slipped on ice/broken leg''). 
Major consumer groups including Consumers Union and Consumer Federation 
of America, support groups for victims of food-borne illness such as 
Safe Tables Our Priority (S.T.O.P.), Creutzfeldt-Jakob Disease 
Foundation, and CJD Voice, food safety organizations, companies such as 
McDonald's and Wendy's, and many others have all pointed out how 
reckless it is to rely on inspectors trying to sort out which downers 
are ``safe.'' Besides the heightened incidence of BSE, downers may also 
be at higher risk for other foodborne transmissible pathogens, 
including E. coli and Salmonella, which kill hundreds of Americans 
every year, as these animals often lie in bacteria-laden waste and may 
have higher levels of intestinal pathogens due to stress.
    From an animal welfare perspective, a comprehensive ban is needed 
because a downed animal with a broken leg suffers just as much as a 
sick one if he or she is dragged through a slaughterplant--maybe even 
more, when one considers how painful fractures are. A ban on use of all 
downers for human food would also provide an incentive for producers to 
treat animals humanely and prevent farm animals from going down. Even 
before the 2004 administrative ban, USDA estimated that only 0.4 
percent to 0.8 percent of all cows processed annually were non-
ambulatory. A clear downer ban would encourage producers and 
transporters to engage in responsible husbandry and handling practices, 
so that this percentage could be reduced to levels approaching zero. 
Temple Grandin--advisor to the American Meat Institute and others in 
the meat industry--has noted that as many as 90 percent of all downers 
are preventable. Cases that involve broken bones and other injuries are 
perhaps the most preventable with improved husbandry.
    Most Americans had no idea that animals too sick or injured to walk 
were being dragged with chains or pushed by forklifts en route to the 
food supply. When that fact came to light in December 2003, USDA's 
prompt announcement to ban all downer cattle from human food calmed 
consumers. More than 99 percent of the more than 22,000 public comments 
USDA received on its downer ban called on the agency to maintain and 
strengthen its downer ban, with most asking that other species be 
included. For a report on the comments received by the agency, please 
go to: http://files.hsus.org/web-files/PDF/
2004_06_16_rept_USDA_comments.pdf.
    USDA testimony before various congressional committees has made 
clear that the agency need not rely on slaughterplant testing of 
downers for BSE surveillance purposes. Surveillance of downers can and 
should be conducted at rendering plants and on farms.
    Unfortunately, as we have learned from a January 2006 audit by the 
USDA Office of Inspector General and further from our late 2007 
investigation, the loophole in administrative policy has substantially 
undercut the agency's so-called ``ban.'' It has created financial 
incentives for precisely the abuses that were documented in our 
undercover footage. A highly visible and vigorously enforced total no-
downer rule is the right policy. For the animals, removing current 
incentives that encourage workers to try every cruel tactic imaginable 
to move downers to the kill box will alleviate suffering. If crippled 
animals cannot be sold for food, slaughterplants have no reason to 
prolong their misery to try to get them through the slaughter process. 
Closing the loophole will also establish incentives for all involved in 
the production chain to minimize hazards that can cause animals to 
become downed in the first place, and make clear that there is no value 
to sending an already downed animal to a slaughterplant.
    USDA can revise its rule immediately, restoring the language it 
promulgated in January 2004. And the Congress can pass legislation to 
codify a clear no-downer policy.
    Strengthen Enforcement.--The USDA must rework its inspection 
program to ensure meaningful compliance. We recommend a combination of 
measures. More inspectors observing live animals are needed, and all 
inspectors should be trained and directed to monitor the treatment of 
live animals to ensure that they are handled humanely. Inspectors must 
understand that their oversight responsibilities begin at the moment 
animals arrive at slaughter premises, including when the animals are on 
trucks at slaughter facilities. An inspector should meet each truck 
when it arrives on the premises and should order the immediate humane 
euthanasia and condemnation of any cattle who are non-ambulatory. 
Egregious conduct such as forcefully striking an animal with an object, 
dragging an animal, ramming or otherwise attempting to move an animal 
with heavy machinery, or using electric shock, water pressure, or other 
extreme methods should be explicitly prohibited and those policies 
established in a formal rule to take effect immediately. Inspections 
should be unannounced and not on a predictable schedule. They should 
include undetectable inspections through video surveillance accessible 
for viewing by independent third parties. Slaughterplants should be 
required to install video cameras that would allow for viewing of all 
of the animal handling prior to slaughter. Finally, it would be helpful 
to rotate inspectors to ensure that they do not become too close with 
plant personnel.
    Establish Criminal Penalties.--Current Federal law does not provide 
for criminal penalties, even in cases of repeat or egregious offenses, 
for violations of humane handling standards.
    Ensure Humane Federal Procurement.--H.R. 1726, the Farm Animal 
Stewardship Purchasing Act, would set basic animal welfare standards 
for producers who sell food to the National School Lunch Program and 
other Federal programs, including requiring veterinary treatment or 
humane euthanasia for downed animals.
    In addition to the downer and humane slaughter issues, we hope the 
Committee will provide adequate funding to ensure meaningful 
enforcement by the Food and Drug Administration of its ``feed ban,'' 
designed to prevent BSE-contaminated animal products from being fed to 
other animals. We are concerned that inspectors visit facilities 
infrequently and rely on self-reporting by those facilities and 
paperwork checking rather than first-hand evaluation of feed content 
and dedicated production lines. We are also concerned that FDA relies a 
great deal on State agencies to conduct this oversight, when most 
States face severe budget constraints that may compromise their ability 
to handle this job. Preventing the spread of BSE is vital to the Nation 
as a whole, for public health, the agricultural industry, and animal 
welfare. Vigorous enforcement of the feed ban is an essential component 
of this effort. We hope adequate Federal funds will be provided in 
fiscal year 2009 to meet this challenge.

                ANIMAL WELFARE INFORMATION CENTER (AWIC)

    AWIC was established by the 1985 amendment to the Animal Welfare 
Act (the Improved Standards for Laboratory Animals Act) to serve as a 
clearinghouse, training center, and educational resource for 
institutions using animals in research, testing and teaching. This 
Center is the single most important resource for helping personnel at 
more than 1,200 U.S. research facilities meet their responsibilities 
under the AWA. Supported by a modest funding level, its services are 
available to all individuals at these institutions, from cage washers 
to Institutional Animal Care and Use Committee (IACUC) representatives 
and the Institutional Official. Given its indispensability not only in 
assisting with compliance with the AWA but also in providing up-to-date 
information on issues ranging from BSE to primate enrichment that are 
critical to the scientific and agricultural communities, we recommend 
that AWIC be listed as a separate line item. We respectfully urge 
Congress to reject the ARS plan to eliminate AWIC; rather, it is 
essential to provide an appropriation of $1.8 million in fiscal year 
2009 to support ongoing services as well as critically needed expansion 
and other improvements to meet the growing demand for AWIC's expertise.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act of fiscal year 2009. We appreciate the 
Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2009 budgets for the Animal Plant 
Health Inspection Service (APHIS), Cooperative State Research, 
Education and Extension Services (CSREES), and Natural Resources 
Conservation Service (NRCS). The Wildlife Society represents over 8,000 
professional wildlife biologists and managers dedicated to sound 
wildlife stewardship through science and education. The Wildlife 
Society is committed to strengthening all Federal programs that benefit 
wildlife and their habitats on agricultural and other private land.
Animal and Plant Health Inspection Service
    The Wildlife Society is concerned that the fiscal year 2009 budget 
request would decrease the operations subactivity of Wildlife Services 
by $1.66 million and redirect $5.34 million. This would effectively 
reduce by $7 million Wildlife Services' ability to control wildlife 
damage to agriculture, aquaculture, forest, range, and other natural 
resources; control wildlife-borne diseases; and control wildlife at 
airports. The Wildlife Society strongly recommends that Congress 
increase the appropriation for this subactivity by $7.0 million to 
account for these reductions and redirections. We also recommend that 
Congress provide an additional $300,000 to fully fund uncontrollables.
    We appreciate the recognition of the need to safeguard our Nation 
against highly pathogenic avian influenza and applaud the added fiscal 
resources to address this critical issue. The potential for this 
disease to spread to the North American continent and severely impact 
wildlife, domestic poultry, and humans highlights the importance of 
continued surveillance and monitoring during the coming years. The 
fiscal year 2006 supplemental and subsequent appropriations have 
allowed State fish and wildlife agencies to provide much-needed 
resources to ensure a coordinated, continent-wide effort. This effort 
must continue to ensure that America's citizens and resources are 
protected. The Wildlife Society strongly recommends an increase to $10 
million for surveillance and monitoring of avian influenza.
    The Wildlife Society is concerned about the proposed reduction in 
the Brucellosis Program budget. Because of its presence in wild elk and 
bison, brucellosis in the Greater Yellowstone Area will be especially 
difficult to control or eliminate and will require more, not less, 
fiscal resources to accomplish. We recommend Congress restore 
brucellosis funding to $11 million in fiscal year 2009 and that USDA-
APHIS-Veterinary Services continue to utilize the authorities and 
expertise of the Greater Yellowstone Interagency Brucellosis Committee 
to address domestic livestock interactions with wild elk and bison in 
the region.
    The Wildlife Society commends APHIS-Veterinary Services for 
providing funding to State wildlife management agencies for Chronic 
Wasting Disease (CWD) surveillance and management in free-ranging deer 
and elk. Additionally, The Wildlife Society strongly supports APHIS' 
efforts to eliminate CWD from captive cervids in order to eliminate the 
risk of spread of the disease from these animals to free-ranging deer 
and elk. The surveillance and monitoring efforts conducted by all 50 
States between 2004 and 2006 would not have been possible without this 
cooperative funding. Additionally, knowledge of the presence and 
prevalence of CWD has been enhanced by this program. Without continued 
funding, States will be unable to maintain the level of CWD 
surveillance necessary to track incidence of the disease. The Wildlife 
Society is very concerned by the proposal to cut this budget by $7.3 
million, and by the proposed State match requirement. Such a 
requirement could result in many States no longer being able to perform 
CWD surveillance of wild cervids, reducing our capacity to prevent the 
spread of the disease. The Wildlife Society recommends increasing 
Chronic Wasting Disease funding to $20 million in fiscal year 2009.
Cooperative State Research, Education, and Extension Service
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater today than ever because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million, as 
authorized in the 2002 Farm Bill.
    The proposed budget for fiscal year 2009 reflects a decrease for 
the McIntire-Stennis Cooperative Forestry program. The proposal would 
also direct 67 percent of program funding to a multi-State research 
program. These funds are essential to the future of resource management 
on non-industrial private forestlands, as forest products are produced 
while conserving natural resources, including fish and wildlife. As 
demand for forest products grow, private-land forests will increasingly 
be needed to supplement supplies, but trees suitable for harvest take 
decades to produce (versus the single year in which crops such as corn 
and soybeans can be harvested). In the absence of long-term and on-
going research, such as provided through McIntire-Stennis, the Nation 
could be unable to meet future forest-product needs. Replacement of 
McIntire-Stennis funding with competitive grants will leave long-term, 
stable forest research to chance. The Wildlife Society strongly 
believes that the reasons for continuing the McIntire-Stennis 
Cooperative Forestry program into the future are compelling and urges 
Congress to increase the fiscal year 2009 budget to $25 million, an 
amount more consistent with historic levels.
    The Wildlife Society supports the administration's request of $257 
million for National Research Initiative Competitive Grants. However, 
this includes an increase of $19 million for bioenergy and biofuels 
research and a redirection of $42 million for water quality, food 
safety, organic transitions, and pest management. While The Wildlife 
Society does not oppose this consolidation, Congress should ensure that 
sufficient funding is available to support all of these efforts at no 
less than their fiscal year 2008 levels. The Society also notes, that 
if not done properly, biofuels production could have a negative effect 
on wildlife resources.

Natural Resources Conservation Service
    Reauthorization of the Farm Bill is expected to be completed in the 
first half of 2008. Until such a reauthorization is passed, we are 
operating under the program and funding levels created or reauthorized 
in the 2002 Farm Bill. The Farm Bill conservation programs are now more 
important than ever given huge backlogs of qualified applicants for 
these programs, increased pressure on farmland from the biofuels boom, 
sprawling development, and the ongoing declines in wildlife habitat and 
water quality. The Wildlife Society recommends that the Farm Bill 
conservation programs be funded at the levels mandated in the 2002 Farm 
Bill until the current Farm Bill reauthorization is completed.
    The fiscal year 2009 budget should anticipate the authorization of 
new enrollments in the Grasslands Reserve Program, a strong 
Conservation Security Program, and should fully fund the remaining 
programs at their mandatory spending levels:
  --Conservation Reserve Program--39.2 million acres
  --Grasslands Reserve Program--$50 million
  --Wetlands Reserve Program--250,000 acres
  --Wildlife Habitat Incentive Program--$85 million
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

 Prepared Statement of the University of Southern Mississippi and the 
                     Mississippi Polymer Institute

    Mr. Chairman, distinguished Members of the Subcommittee, thank you 
for this opportunity to provide testimony describing ongoing research 
and commercializing efforts of The University of Southern Mississippi 
(USM) and the Mississippi Polymer Institute. I am very grateful to the 
subcommittee for its leadership and continued support of the Institute 
and its work. This testimony includes an update of the Institute's 
achievements since my testimony of approximately 1 year ago. Our 
efforts focused principally on two areas for commercialization. One 
involves our novel, agricultural-based inventions in emulsion 
polymerizations, and the second was to produce a commercial quality, 
formaldehyde-free, soybean based adhesive for composite board 
materials, specifically, particleboard. During the past year, we made 
significant advances in emulsion polymerization technology, and in the 
refinement of soy adhesive utility. Particleboards made in our 
laboratory with the soy adhesive (formaldehyde free) exceed all 
required specifications for particleboard manufacture. Both 
technologies described above are ready for commercialization and future 
efforts will focus on movement of each technology into the market 
place. We therefore respectfully request $2.0 million in Federal 
funding to more fully exploit the potential of commercializing the 
technologies described herein. I will discuss the progress for each 
thrust to provide maximum clarity to our past efforts.
    Three patent applications were generated in 2007. Additionally in 
2007, four manuscripts were published, thirteen presentations were 
given, and one student won a research award. We remain energized, 
active, and successful at utilizing funding to increase the value of 
agricultural products and co-products, as they are valuable 
alternatives or supplements to petroleum-derived materials. Both 
technologies noted above depends on use of agricultural materials as 
primary building blocks, and clearly offers opportunities for ag-
derived materials as a basic feedstock in the polymer industry. Both 
are groundbreaking technologies and one only has to consider the use of 
formaldehyde-free adhesives as the ultimate example. It is well known 
that formaldehyde is a carcinogen and we have developed an alternative 
to formaldehyde in the form of soybeans. The recent focus on FEMA 
trailer contamination simply amplifies what the scientific community 
has known for years; formaldehyde is a carcinogen and should not be 
used in composite board manufacture. Our patented technology remains 
the only performance proven alternative 100 percent formaldehyde free 
based on an agricultural product, i.e. soybeans.
    Our 2007-08 work also included several pilot plant trials and 
statistical validation for commercial scale production of vegetable 
oil-based monomers and polymers. Vegetable oil macromonomers (VOMMs) 
have proven value for the manufacture of zero volatile organic content 
(VOC) paints and coatings. Navy Haze Gray paints, manufactured via our 
novel technology, free of VOC content, and matching and/or exceeding 
all performance requirements will be applied shipboard within weeks of 
this testimonies writing.
    This past year's work has resulted in the discovery of methods to 
tailor polymers with desired use properties, a key to widespread 
utilization in other areas of need.

Vegetable Oil Macromonomers (VOMM) Research and Development
    In the past year, vegetable oil macromonomer synthesis was moved 
from the traditional laboratory research category to pilot plant 
trials. Specifically, VOMMs of soybean oil, high oleic safflower oil, 
safflower oil, sunflower oil, and coconut oil were scaled, synthesized, 
and evaluated for utility. This work validates the commercial viability 
and amplifies the value of this technology for many vegetable oil 
types. Specifically, our work has shown that it is possible to 
manufacture polymers that flow and level easily at room temperature, 
yet will harden upon ambient conditions and achieve high performance 
characteristics. This is clearly a step change in tailoring polymer 
performance. This technology is now mature enough to take its rightful 
place in commercial markets.
    The example below was provided in past testimonies yet remains 
valid today. It summarizes opportunities and impact potential for 
biobased VOMM polymers. In 2004, sales of low gloss water thinned 
paints (including tinting bases) were 181 million gallons, with a value 
of $1,551 million (www.census.gov.mcd). Only a 1 percent share of this 
market would require manufacture of 1.81 million gallons of low gloss 
paint. A typical flat latex paint contains 1,200 g of latex per gallon. 
With latexes containing 20 percent soybean oil derivatives, this market 
share would consume 950,000 lbs of soybean oil or 89,540 bushels of 
soybeans. It would not be unrealistic to expect that in five years, a 
market share of 5 percent could be achieved and thus require 
consumption of 447,700 bushels of soybeans for high performance, value-
added decorative and protective coatings. The environmental impact 
potential to reduce volatile organic emissions by 3.6 million lbs per 
year at only a 1 percent market share (data 250 g/L VOC 3.78L/gal, 1.81 
million gallons and 1 percent market share) is magnanimous.

Formaldehyde-Free Soy Based Adhesives
    During the last year, our efforts increased the amount of soy 
protein in the adhesive formulation from 28 percent to 55 percent. In 
2006-2007, the main barrier to commercialization and processing was the 
soy protein adhesives solids content at less than 28 percent, making it 
difficult to transport, handle, and utilize efficiently, and that 
barrier to commercialization was overcome. As the utility of the 
experimental adhesive increases it is important to keep in mind that 
our platform is the only patented technology to our knowledge that is 
solely based upon soybean protein and is 100 percent formaldehyde free. 
An estimated 150,000 FEMA trailers were distributed in Mississippi, 
Louisiana, Florida, Alabama, and Texas following hurricanes in 2005. In 
May 2006, the Sierra Club, a public interest group conducting indoor 
air testing in Federal Emergency Management Agency (FEMA)-issued 
trailers in Louisiana and Mississippi reported that in Mississippi, 29 
of the 31 trailers (94 percent) tested had indoor levels of 
formaldehyde in excess of that identified by the Environmental 
Protection Agency (EPA) and Consumer Products Safety Commission (CPSC) 
as triggering adverse health effects in humans. In Alabama and 
Louisiana, 83 percent of the 52 trailers were above the OSHA specified 
limit of 0.10 parts per million, 4 were at the limit, while 13 percent 
were below the limit. Formaldehyde concentration as high as 0.34 parts 
per million was found in one trailer--a level nearly equal to what a 
professional embalmer using industry-proscribed safety equipment would 
be exposed to on the job.
    Our efforts remain focused on creation of technology platforms 
facilitating commercialization of alternative agricultural crops for 
use in the polymer industry. The reasons for these efforts are made 
clear when it is realized that the polymer industry maintains its 
position as the single largest consumer of petroleum chemical 
intermediates in the world. The finite supply, and increasingly higher 
costs of petroleum resources, demands alternatives be developed. Thus, 
the theme of our work is to develop high performance and 
environmentally responsible technologies from agricultural 
intermediates. In this way, we as a Nation will improve our 
environment, reduce our dependence on imported petroleum, and keep 
America's farmlands in production. As farm products meet the industrial 
needs of the American society, rural America is the benefactor. 
Heretofore, these successful efforts to utilize alternative 
agricultural products as an industrial feedstock continue to receive 
more and more attention but drastically less than these high tech 
innovations and opportunities warrant. Your decisions are crucial to 
the accomplishment of these goals as funding from this subcommittee has 
enabled us to implement and maintain an active group of university-
based polymer scientists whose energies are devoted to commercializing 
alternative crops. We are most grateful to you for this support, and 
ask for your continued commitment.
    Polymers, which include fibers, plastics, composites, coatings, 
adhesives, inks, and elastomers, play a key role in the materials 
industry. They are used in a wide range of industries including 
textiles, aerospace, automotive, packaging, construction, medical 
prosthesis, and health care. In the aerospace and automotive 
applications, reduced weight and high strength make them increasingly 
important as fuel savers. Their non-metallic character and almost 
unlimited design potential support their use for many national defense 
purposes. Moreover, select polymers are possible substitutes for so-
called strategic materials, some of which come from potentially 
unreliable sources.
    As a polymer scientist, I am intrigued by the vast opportunities 
offered by American agriculture. As a professor, however, I continue to 
be disappointed that few of our science and business students receive 
training in the polymer-agricultural discipline despite its enormous 
potential. At The University of Southern Mississippi, we are making a 
difference by showing others what can be accomplished if appropriate 
time, energy, and resources are devoted to understanding the immense 
value of ag-based products. For more than 40 years, I have watched the 
evolution of polymers where almost each new product introduced into the 
market place offered the opportunity for many more. Although polymer 
science as a discipline has experienced expansion and a degree of 
public acceptance, alternative agricultural materials in the polymer 
industry continue to be an underutilized national treasure. Now is the 
time for agricultural materials to make significant inroads as 
environmentally-responsible, biodegradable, and renewable raw 
materials. Our national needs and economy cannot wait; we must act now.
    U.S. agriculture has made the transition from the farm fields to 
the kitchen tables, but America's industrial community continues to be 
frightfully slow in adopting the use of ag-based industrial materials. 
The prior sentence was included in my last five testimonies but 
continues to ring true, even as I write this report. We are making 
progress and we must persist. We must aggressively pursue this 
opportunity and in doing so:
  --Intensify U.S. efforts to commercialize alternative crops and 
        dramatically reduce atmospheric VOC emissions and odor for a 
        much cleaner and less noxious air for all Americans.
  --Reduce U.S. reliance on imported petroleum.
  --Maintain a healthy and prosperous farm economy.
  --Foster new cooperative opportunities between American farmers and 
        American industry.
  --Create advanced polymer technology-based jobs that are not easily 
        exported to foreign lands
  --Maintain our innovative and developmental competitive edge over 
        other less environmentally-responsible countries and less 
        competitive economies.
    Mr. Chairman, your leadership and support are deeply appreciated by 
The University of Southern Mississippi community. While I can greatly 
appreciate the financial restraints facing your Subcommittee, I feel 
confident that further support of the Mississippi Polymer Institute 
will continue to pay dividends by way of increasing commercialization 
opportunities for agricultural materials in the American industry. 
Advances in polymer research are crucial to food, transportation, 
housing, and defense industries. Our work has clearly established the 
value of ag products as industrial raw materials, and we must move it 
from the laboratories to the industrial manufacturing sector. Only then 
can the United States enjoy the cleaner and safer environment that 
these technologies offer, as well as new jobs, and expanded 
opportunities for the U.S. farmer. We are most grateful for the support 
provided by you in the past. The funding you provided has facilitated 
laboratory work to be conducted, manufacturing scale-up to be 
accomplished, and ensured sales (although limited) of products based on 
this technology. However, additional funds are needed to commercialize 
technologies. For instance, pilot scale processes are necessary to move 
this technology into the market place, and will be the principal focus 
of our upcoming work. Of course, while working to achieve 
commercialization, we are committed to continue technology advancement.
    Since our testimony last year, our commercializing efforts have 
shown that sustained work will expand the viability of agricultural 
crops as industrial intermediates. Indeed, the technology is maturing, 
which must be followed by marketing and sales to realize full 
potential. Thus, we are asking for your support to advance these 
technologies to the market place, and to continue our development of 
other useful ag-derived technologies. We therefore respectfully request 
$2.0 million in Federal funding to more fully exploit the potential of 
commercializing the technologies described herein. We have shown that 
we can be successful, yet we need additional resources to optimize the 
potential of the knowledge creation. Our efforts will be recognized as 
instrumental in developing a ``process'' for the commercialization of 
new ag-based products. We have proven that we are successful in 
developing technologies from the ``idea'' stage to scale-up for 
commercialization in several market areas. Thank you, Mr. Chairman and 
Members of the Subcommittee, for your support and consideration.
                                 ______
                                 

             Prepared Statement of the USA Rice Federation

    This is to convey the rice industry's request for fiscal year 2009 
funding for selected programs under the jurisdiction of your respective 
subcommittees. The USA Rice Federation appreciates your assistance in 
making this letter a part of the hearing record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants and allied businesses. USA 
Rice members are active in all major rice-producing states: Arkansas, 
California, Florida, Louisiana, Mississippi, Missouri, and Texas. The 
USA Rice Producers' Group, the USA Rice Council, the USA Rice Millers' 
Association, and the USA Rice Merchants' Association are members of the 
USA Rice Federation.
    USA Rice understands the budget constraints the subcommittees face 
when developing the fiscal year 2009 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the Farm Bill. Therefore, we oppose any attempts to 
modify the support levels provided by this vital legislation through 
more restrictive payment limitations or other means and encourage the 
subcommittees and committees to resist such efforts during the 
appropriations process, in particular with the Farm Bill 
reauthorization currently underway.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2009 are as follows:

                           FUNDING PRIORITIES

Research and APHIS
    The Dale Bumpers National Rice Research Center should receive 
continued funding at the fiscal year 2008 approved level, which was 
$7.775 million, and appropriate additional funding to reflect any 
increased administrative and operations costs. This center conducts 
research to help keep the U.S. rice industry competitive in the global 
marketplace by assuring high yields, superior grain quality, pest 
resistance, and stress tolerance. We urge you to provide full funding 
to the Dale Bumpers National Rice Research Center.
    For the Western Regional Research Center, in Albany, California, we 
support the administration's budget proposal for the Renewable Energy 
Resources project within the Agricultural Research Service (ARS) 
account. We understand a portion of the funding is to be directed to 
the Albany, CA facility for research on modification of plant cell 
walls in energy crops and crop residues for efficient conversion to 
biofuels.
    This research will play a key role in the ability to utilize rice 
straw and other rice crop residues for the production of biofuels. Rice 
straw represents a current and ready-made feedstock that could meet a 
substantial portion of the demand for biofuels production in the 
regions of the country where rice is produced, including the Sacramento 
Valley of California. We urge you to fully fund this request as our 
researchers work to develop the technologies necessary to meet the 
ambitious goals for biofuels production set before us.
    For APHIS-Wildlife Services, we encourage the subcommittees to fund 
the Louisiana blackbird control project at $150,000. This program 
annually saves rice farmers in Southwest Louisiana over $4,000 per 
farm, or $2.9 million total.
Market Access
    Exports are critical to the U.S. rice industry. Historically, 40-50 
percent of annual U.S. rice production has been shipped overseas. Thus, 
building healthy export demand for U.S. rice is a high priority.
    The Foreign Market Development Program (FMD) allows USA Rice to 
focus on importer, foodservice, and other non-retail promotion 
activities around the world. We support increased funding for FMD as 
being considered in the pending farm bill, but for fiscal year 2009, 
FMD should be fully funded at no less than $34.5 million.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. Again, we support increased funding for MAP as being considered 
in the pending farm bill, but for fiscal year 2009, MAP should be 
funded at no less than $200 million.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.

Food Safety
    Food safety, including the safety of imported food, is one of the 
national issues that deserves significantly more funding. The USA Rice 
Federation appreciates greatly the increased funding that Congress 
appropriated for Food and Drug Administration (FDA) fiscal year 2008 
food safety purposes and accompanying report language directing the use 
of some of the funds to hire more domestic and imported food 
inspectors. We urge Congress to continue this funding direction by 
appropriating significant increases for the agency's fiscal year 2009 
food safety personnel, programs, and related technology, including 
continuing to ensure the safety of imported food.
    Significant funding increases would allow the FDA to help reassure 
consumers and speed innovation in food safety and technology. A 
significant increase would permit FDA to administer its food safety 
inspections and other related activities more fully and effectively, 
speed approvals for safe, new food technologies and products, and 
provide leadership in protecting the food supply from intentional 
threats.

Food Aid
    We urge the subcommittees to fund Public Law 480 Title I. No Title 
I funding was provided in fiscal year 2008. At a minimum, fiscal year 
2009 funding should be the same as 2006, the last year in which the 
program was funded. Public Law 480 Title 1 is our top food-aid priority 
and we support continued funding in order to meet international demand. 
Food-aid sales historically account for an important portion of U.S. 
rice exports.
    For Public Law 480 Title II, we support funding for fiscal year 
2009 at the increased level of $1.8 billion in order to satisfy the 2.5 
million MT required by statute. We encourage the subcommittees to fund 
Title II at this level to ensure consistent tonnage amounts for the 
rice industry. We oppose any shifting of funds, as all Title II funds 
have traditionally been contained within USDA's budget. We believe all 
food-aid funds should continue to be used for food-aid purchases of 
rice and other commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels, at 
a minimum, for the Food for Progress Program's Public Law 480 Title I-
sourced funding and at fiscal year 2008 levels, at a minimum, for the 
program's Commodity Credit Corporation funding component. Funding for 
this program is important to improve food security for food-deficit 
nations.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multi-year programming. USA Rice supports 
funding at the $300 million level for this education initiative because 
it efficiently delivers food to its targeted group, children, while 
also encouraging education, a primary stepping-stone for populations to 
improve economic conditions.

Other
    Farm Service Agency.--We encourage the subcommittees to provide 
adequate funding so the agency can deliver essential programs and 
services. The Agency has been hard hit by staff reductions and our 
members fear a reduction in service if sufficient funds are not 
allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittees receive 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
                                 ______
                                 

      Prepared Statement of the United States Telecom Association

                           SUMMARY OF REQUEST

Project Involved
    Telecommunications Loan and Grant Programs Administered by the 
Rural Utilities Service of the U.S. Department of Agriculture.

Actions Proposed
    Supporting RUS loan levels and the associated funding subsidy, as 
required, for the 5 percent direct loan program ($145 million) and cost 
of money program ($250 million) in fiscal year 2009 in the amounts 
requested in the President's budget.
    Supporting Section 306 guaranteed loans in the amount ($295 
million) requested in the President's budget.
    Supporting the President's budget request of $297,923,000 and the 
associated funding subsidy, as required, for broadband 
telecommunications loans.
    Continuation of the general provision contained in previous 
appropriations acts that would prohibit RUS from drafting or 
implementing any regulation or rule requiring recertification of rural 
status for telephone borrowers.
    Supporting the continued elimination of the 7 percent cap on cost 
of money loans.
    Supporting continued funding, as requested in the President's 
budget, in the amount of $20 million for telemedicine and distance 
learning grants in rural areas.
    Seeking language strengthening and improving the operation of the 
broadband loan program in the Committee Report accompanying the bill.
    Supporting provision of sufficient funds for staff, including legal 
staff, to properly administer the telecommunications and broadband 
programs.
    I am Walter B. McCormick, Jr., President and CEO of the United 
States Telecom Association (USTelecom). I submit this testimony in the 
interests of the members of USTelecom and the customers they serve. 
USTelecom represents innovative companies ranging from the smallest 
rural telecoms in the Nation to some of the largest corporations in the 
U.S. economy. Our member companies offer a wide range of services 
across the communications landscape, including voice, video and data 
over local exchange, long distance, Internet and cable networks.
    USTelecom members firmly believe that the targeted assistance 
offered by a strong RUS telecommunications loan and grant program 
remains essential to a healthy and growing rural telecommunications 
industry that contributes to the provision of universal telecom 
service. We appreciate the strong support this Committee has provided 
for the RUS telecom program since its inception in 1949 and look 
forward to a vigorous program for the future.

              RURAL AREAS NEED ACCESS TO BROADBAND SERVICE

    Access to a reliable source of capital such as the RUS loan 
programs is key to the system upgrades which will enable rural areas to 
experience the economic growth and job creation that a freely 
competitive market with ready access to fairly priced capital can 
provide.
    It is critically important that rural areas be included in the 
nationwide drive for greater bandwidth capacity. In order to provide 
higher speed services, outside plant must be modernized to accommodate 
technologies such as Digital Subscriber Line (DSL) or even fiber optic 
connections to the Internet, and switching must be migrated to new 
platforms. These investments may not be justified by market conditions 
in low density high cost rural areas, so the RUS program provides 
important financial incentives for additional investment which 
encourages rural telecommunications companies to build facilities which 
allow advanced services, including distance learning and telemedicine, 
to be provided. The externalities measured in terms of economic 
development and human development more than justify this investment in 
the future by the Federal Government.
    Greater bandwidth and packet switching capabilities are crucial 
infrastructure elements which will allow rural businesses, schools and 
health care facilities to take advantage of the other programs 
available to them as end users. The money spent on having the most 
modern and sophisticated equipment available at the premises of 
businesses, schools or clinics is wasted if the local 
telecommunications company cannot afford to build facilities that 
quickly transport and switch the large amounts of voice, video and data 
that these entities generate. RUS funding enhances the synergies among 
the FCC and RUS programs targeted at improving rural education and 
health care through telecommunications.
    RUS endures because it is a brilliantly conceived public-private 
partnership in which the borrowers are the conduits for the Federal 
Government benefits that flow to rural telecom customers, the true 
beneficiaries of the RUS program. The government's contribution is 
leveraged by the equity, technical expertise and dedication of local 
telecom companies. The small amount of government capital involved is 
more than paid back through a historically perfect repayment record by 
telecom borrowers, as well as the additional tax revenues generated by 
the jobs and economic development resulting from the provision and 
upgrading of telecommunications infrastructure. RUS is the ideal 
government program--it provides incentives where the market does not 
for private companies to invest in infrastructure promoting needed 
rural economic development, it allows citizens to have access to 
services which can mean the difference between life and death, and it 
has never lost a nickel of taxpayer money because of a telecom carrier 
default.

                            RECOMMENDATIONS

    For fiscal year 2009, this Committee should set the loan levels and 
necessary associated subsidy amounts for the 5 percent direct loan 
program and cost of money loan programs consistent with the levels 
recommended in the President's budget. The guaranteed 
telecommunications loan program should also be funded at the level 
requested in the budget.
    Congress and the President have recognized the tremendous potential 
of broadband technology to enhance human and economic development in 
rural areas by establishing as a priority loans for the deployment of 
such technology in rural areas. USTelecom urges the provision of 
funding for these loans sufficient to support $297,923,000, the amount 
recommended in the President's budget. The capital intensive nature of 
the telecommunications industry, particularly with respect to 
implementation of broadband, requires a stable and predictable source 
of funds. Congress should be lauded for its recognition of the 
importance of broadband deployment to our Nation's economy and 
particularly for the recognition, through support of the RUS program, 
of the tremendous impact broadband telecommunications can have on 
economic growth and development in rural America.
    Congress Should Adopt the Farm Bill, H.R. 2419, to Improve the 
Efficiency and Effectiveness of the Broadband Program.--Both the House 
and Senate versions of the Farm Bill better target the scarce resources 
dedicated to extending broadband deployment to high cost rural areas. 
They accomplish this by prioritizing lending to areas with no broadband 
service and by tightening up the definition of rural area for purposes 
of the lending program. Furthermore, both bills increase the 
availability and feasibility of RUS broadband loans, thereby better 
directing loan funds to areas that are more challenging to serve and 
are therefore most in need of government assistance. Both bills modify 
or eliminate the statutory exclusion of companies with more than 2 
percent of that Nation's access lines from the broadband program. The 
language in the current statute is an unfortunate policy decision that 
limits the effectiveness of RUS in targeting funds to unserved areas. 
The RUS telephone program contains no such exclusion. Rural customers, 
the true beneficiaries of the RUS program, should not be denied its 
benefits because of the identity of the carrier from which they receive 
service. Similarly, both bills modify the statutory requirement that 
the term of broadband loans cannot exceed the expected useful life of 
the facilities being financed--a policy change which will decrease the 
size of periodic loan repayments and enhance loan feasibility without 
harming the government's loan security. Since RUS has a lien on all the 
property of the borrower, not just the new facilities, in most 
instances there is more than sufficient security for the loan for the 
broadband equipment. As long as the security of the government's loan 
is sufficient, the term of the loan in relation to the life of the 
facilities financed is irrelevant.

Improving the Effectiveness of the RUS Broadband Program
    Redirecting Broadband Program Funding to Unserved Areas.--Absent 
adoption of a new Farm Bill this year with reforms to the RUS broadband 
program, RUS could still make substantial improvements to the operation 
of the broadband loan program through adoption of new rules. Since the 
inception of the broadband program, RUS has used a substantial portion 
of the available funds to make loans to areas that already have 
broadband service. RUS justifies these loans for duplicative facilities 
with the contention that service in these areas is inadequate and so 
the areas are ``underserved'', thereby permitting such duplication. For 
purposes of making broadband loans, RUS defines broadband service as 
200 kbps. Yet when determining whether an area is underserved, RUS will 
make a loan to any entity which promises a faster speed than is 
provided by the incumbent, even if the incumbent is providing service 
far in excess of the 200kbps standard RUS has set for new loans. RUS 
should be directed to use the same standard for new broadband loans as 
for the determination that an area is ``underserved''.
    RUS also has determined that an area is underserved if the 
applicant seeking to provide duplicative service will offer a 
substantial price differential relative to the incumbent. RUS has no 
objective standard for determining what constitutes a ``substantial 
price differential''.
    The RUS broadband program should exclusively focus on extending the 
reach of broadband in rural America with a goal of ubiquitous 
deployment. Making loans for duplicative facilities and service, when 
other citizens in rural America reside in areas with no service at all, 
is a waste of scarce government resources. To properly redirect 
government funds to areas unserved by broadband, Congress should 
clarify that loans funds not be used for duplicative facilities, and 
should reaffirm that the non-duplication requirements of Title II of 
the Rural Electrification Act are equally applicable to the Title VI 
broadband program. The Undersecretary for Rural Development should be 
required to make a legal finding that any loan for broadband will not 
result in a duplication of facilities. To assist the Undersecretary in 
making this finding, RUS broadband applications should include the 
identity, list of services and charges as well as the service areas of 
the incumbent provider. Also, to the extent that they do not conflict, 
Congress should reaffirm that all the provisions of Title II, such as 
those relating to area coverage and loan feasibility, are equally 
applicable to the Title VI broadband program.

Elimination of the 7 Percent Cap on the Interest Rate for the ``Cost of 
        Money'' Program
    For a number of years, through the appropriations process, Congress 
has eliminated the 7 percent ``cap'' placed on the insured cost-of-
money loan program. The elimination of the cap should continue. If long 
term Treasury interest rates exceeded the 7 percent ceiling contained 
in the authorizing act, the subsidy would not be adequate to support 
the program at the authorized level. This would be extremely disruptive 
and hinder the program from accomplishing its statutory goals. 
Accordingly, USTelecom supports continuation of the elimination of the 
7 percent cap on cost-of-money insured loans in fiscal year 2009.

Recommended Loan Levels
    USTelecom recommends that the telephone program loan levels for 
fiscal year 2009 be set as follows:

------------------------------------------------------------------------

------------------------------------------------------------------------
Insured 5 percent Direct Loans..........................    $145,000,000
Insured Cost-of-Money Loans.............................     250,000,000
Loan Guarantees.........................................     295,000,000
Broadband Telecommunications Loans......................     297,293,000
                                                         ---------------
      Total.............................................     987,293,000
------------------------------------------------------------------------

Loans and Grants for Telemedicine and Distance Learning
    USTelecom supports the inclusion of $20 million in grants for 
distance learning and telemedicine, as provided in the President's 
budget. As we move into the Information Age with the tremendous 
potential of the Internet to increase productivity, economic 
development, education and medicine, such funds can help continue the 
historic mission of RUS to support the extension of vital new services 
to rural America.

Recertification of Rural Status Would Be Disruptive and Chill Rural 
        Telecom Investment
    The administration's budget notes that USDA will propose rule 
changes to require recertification of rural status for each electric 
and telecommunications borrower on the first loan request received in 
or after 2009 and on the first loan request received after each 
subsequent Census. Telecom construction and investment is a long term 
continuous process, not a project by project proposition. The 
uncertainty created by the possibility of decertifying a borrower as 
rural after it has established a relationship with RUS and begun 
borrowing funds for expansion and upgrading according to a long term 
plan would be disruptive and discourage borrowers from participating in 
the RUS program, thereby denying its benefits to subscribers. The 
``once rural always rural'' practice of RUS has been extraordinarily 
successful at providing needed long term capital, at a careful and 
measured pace, to telecom carriers intent on expanding and upgrading 
service to promote rural economic development. Congress should deny 
funding in fiscal year 2009 for such a rule change.

                               CONCLUSION

    Our members take pleasure and pride in reminding the Committee that 
the RUS telecommunications program continues its perfect record of no 
defaults by telecommunications carriers in over a half century of 
existence. RUS telecom borrowers take seriously their obligations to 
their government, their Nation and their subscribers. They will 
continue to invest in our rural communities, use government loan funds 
carefully and judiciously, and do their best to assure the continued 
affordability of telecommunications services in rural America. Our 
members have confidence that the Committee will continue to recognize 
the importance of assuring a strong and effective RUS 
Telecommunications and Broadband Program through authorization of 
sufficient funding and loan levels.
                                 ______
                                 

             Prepared Statement of the WildEarth Guardians

Re: Request to cut Funding for the USDA-APHIS-WS's Wild Carnivore-
        Killing Program
    We the 30 undersigned organizations, and on behalf of our 10.9 
million members across the Nation, respectfully submit the following 
request that lethal predator control funding be discontinued for the 
U.S. Department of Agriculture (USDA)--Animal and Plant Health 
Inspection Service (APHIS)--Wildlife Services (WS). Most Americans 
strongly support protection of wildlife, endangered species, and 
carnivores. Several reasons for discontinuing Federal support for 
predator control exist. Predator control activities are (1) generally 
ineffective and ecologically harmful; (2) fiscally irresponsible; (3) 
inhumane and against the public's interest; and (4) a national security 
hazard. It is time for a change that reflects these facts and that 
embodies a more enlightened set of values, the weight of public 
opinion, and public safety.

The WS's Program is Ineffective, Ecologically Harmful, & Fiscally 
        Irresponsible
    Large-scale predator eradication is biologically harmful, 
economically expensive, and inherently non-selective (Treves and 
Karanth 2003, Mitchell et al. 2004, Stolzenburg 2006). In fact, there 
is no correlation between the number of coyotes killed and the number 
of lambs lost (Knowlton et al. 1999, Mitchell et al. 2004). Lethal 
predator controls do little to benefit the sheep industry; market 
forces--primarily the price of hay, wages, and lambs--play a far 
greater role in the decline of the sheep industry than do predators 
(Berger 2006).
    On behalf of agribusiness, over 100,000 native carnivores such as 
coyotes, bobcats, foxes, bears and wolves are killed each year (in 
fiscal year 2006, WS killed 117,113). The numbers of predators killed 
to protect livestock is highly disproportionate--one study showed that 
somewhere on the order of between 1.5 to 9.7 million animals were 
killed for the benefit of agricultural interests ``without cause,'' or 
indiscriminately, by Federal agents during the period 1996 to 2001 
(Treves and Karanth 2003). These high levels of predator killing have 
been aptly dubbed the ``sledgehammer'' approach to wildlife management 
(Logan and Sweanor 2001, Mitchell et al. 2004, Stolzenburg 2006). 
Lethal controls, including poisons, are unselective for specific 
animals, and are used to remove the most individuals from an area 
(Mitchell et al. 2004). Yet carnivores are important ecosystem actors. 
Native carnivores such as wolves, mountain lions, and coyotes increase 
the richness and complexity of animal life and indirectly contribute to 
better ecosystem function.\1\
---------------------------------------------------------------------------
    \1\ Prior to 1995 in Yellowstone National Park, elk had decimated 
willow and aspen stands. When wolves were reintroduced, elk were forced 
to be more mobile to avoid predation. With less elk herbivory, willow 
and aspen communities returned. Beavers followed; they used the new 
trees and shrubs to build their dams and lodges. Those structures not 
only brought water from underground to the surface, but made water flow 
more dependable. As a result, neotropical and water-wading birds and 
moose populations increased and diversified (Smith et al. 2003). 
Secondly, the presence of mountain lions in desert ecosystems can have 
the same top-down effects resulting in increased biological diversity 
and functionality of rare riparian systems (Ripple and Beschta 2006). 
Third, coyotes regulate populations of medium-sized carnivores such as 
skunks, raccoons, and house cats. Thus coyotes indirectly benefit 
ground-nesting birds (Crooks and Soule 1999) and make rodent species 
diversity more robust (Henke and Bryant 1999). Mezquida et al. (2006) 
found that coyotes indirectly benefit sage grouse populations--a 
species on the brink.
---------------------------------------------------------------------------
    Between 2004 and 2006, WS killed 6,156,223 total animals to protect 
agricultural interests--at an average annual cost of $100 million. 
(Table 1.) Most animals were killed with lethal poisons, others with 
traps and guns. Many were shot from aircraft (see www.goAGRO.org). In 
the past decade, Wildlife Services has killed an increasing number of 
species that are protected under the Endangered Species Act.

                               TABLE 1.--WILDLIFE SERVICES' ANNUAL BUDGET & KILLS
----------------------------------------------------------------------------------------------------------------
                                                   Total animals   Total killed                   Mammals killed
              Year                    Budget          killed         per hour     Mammals killed     per hour
----------------------------------------------------------------------------------------------------------------
2004............................    $101,490,740       2,767,152             316         179,251              20
2005............................      99,792,976       1,746,248             199         170,814              19
2006............................     108,590,001       1,642,823             188         207,341              24
----------------------------------------------------------------------------------------------------------------

Sheep and Cattle Losses from Predators are Miniscule and do Not Justify 
        Wildlife Services' Aggressive Killing Schemes
    Despite calls from agribusiness for more WS's funding, Congress 
should consider the tiny effect predators have on livestock; instead, a 
reduction in is justified. The USDA's own data show that few cattle and 
sheep die from predation (see Tables 2 through 5).
    Every year the USDA's National Agricultural Statistics Service 
(NASS) reports on the U.S. cattle and sheep production inventory. Every 
5 years, NASS counts unintended cattle and sheep deaths from predation, 
weather, disease, and other causes. The most recent report released for 
cattle deaths is 2006 and, for sheep, 2005. The reports reflect data 
from the previous calendar year.
    In 2004, sheep producers raised 7,650,000 animals nationwide (USDA 
NASS 2005b) (USDA NASS 2005b). Native carnivores and domestic dogs 
killed 3 percent of the total production, or 224,200 sheep (USDA NASS 
2005c). In comparison, 5 percent of sheep died from illness, 
dehydration, falling on their backs or other causes (USDA NASS 2005c) 
[Tables 2 & 3].

 TABLE 2.--SHEEP AND LAMBS PRODUCED IN 2004 & TOTAL UNINTENDED MORTALITY
                           TOTAL SHEEP & LAMBS
------------------------------------------------------------------------
                                                            Percent of
                                           Total number        total
                                                            production
------------------------------------------------------------------------
Total sheep & lambs produced in the U.S.       7,650,000             100
Total predator-caused sheep deaths......         224,000             2.9
Total sheep deaths from other causes....         376,100             4.9
------------------------------------------------------------------------


                TABLE 3.--OTHER CAUSES OF SHEEP MORTALITY
------------------------------------------------------------------------
                                                              Number
------------------------------------------------------------------------
Illness/disease.........................................         159,350
Lambing.................................................          53,400
Unknown.................................................          48,100
Old age.................................................          39,900
Weather.................................................          39,450
Starve, dehydrate, fire.................................          19,400
Poison..................................................          10,300
On their back...........................................           3,800
Theft...................................................           2,400
                                                         ---------------
      Total.............................................         376,100
------------------------------------------------------------------------

    The Colorado Woolgrowers website claims that Colorado is the fifth 
largest sheep producer in the U.S. (CWGA 2008). A report by the 
Colorado Agricultural Statistics Service (July 2007) shows that the 
sheep industry decline 48 percent since 1990. Even Colorado WS admits 
that ``the sheep and wool market had declined making it uneconomical to 
raise sheep'' (WS June 2005 CO PDM EA at 11, emphasis added). Yet, WS 
provides devoted attention to protecting sheep--an industry hammered by 
global markets, not predators.
    In 2005, U.S. producers raised 104.5 million head of cattle (USDA 
NASS 2005a). Of the 104.5 million cattle that were produced in 2005, 
190,000 (or 0.18 percent) died as the result of predation from coyotes, 
domestic dogs, and other carnivores (USDA NASS 2006). In comparison, 
livestock producers lost 3.9 million head of cattle (3.69 percent) to 
maladies, weather, or theft (USDA NASS 2006) [Tables 4 & 5].

 TABLE 4.--CATTLE & CALVES PRODUCED IN 2005 & TOTAL UNINTENDED MORTALITY
                    TOTAL CATTLE (BEEF, DAIRY, ETC.)
------------------------------------------------------------------------
                                                            Percent of
                                              Number           total
                                                            production
------------------------------------------------------------------------
Total cattle (beef, dairy, etc) produced     104,500,000             100
Predator-caused cattle deaths...........         190,000              18
Cattle death from other causes..........       3,861,000            3.69
------------------------------------------------------------------------

The Public's Interest in Wildlife & Balancing the Economic Equation
    According to the Bureau of Land Management (BLM) (2004), ``ranching 
tends to be a low- or negative-profit enterprise, and public land 
ranchers are no exception.'' The BLM (2004) adds, ``data show that 
operations in all regions had, on average, negative returns.'' The 
Federal agency charged with managing most of the ranches in the West 
acknowledges that ranching is a poor way to make a living--even when 
grazing fees are enormously subsidized by the government, and even 
though Wildlife Services provides heavily subsidized predator-control 
activities.
    The impulse to ranch, suggests the BLM, is not for profit but for 
social considerations such as ``family, tradition, and a desirable way 
of life'' (USDI BLM 2004). There are roughly 23,000 public lands 
ranching permittees. In one study of Forest Service and BLM ranchers, 
two general groups of ranchers emerged: hobby ranchers, which 
represented 50.5 percent of the total, had diversified income sources, 
and generally had small operations; and, secondly, dependent ranchers, 
who represented 49.5 percent of the total, were more dependent on 
ranching income, and ran larger operations which used public lands 
(USDI BLM 2004). Thus, most ranchers in the West are in the business 
for pleasure and social reasons, or as a hobby, but not to make a 
living. Compare 23,000 ranching permittees, half of which are hobby 
ranchers, with the number of other citizens who appreciate wildlife and 
spend billions to engage in their various recreational pursuits. [Table 
6].

              TABLE 5.--CATTLE DEATHS FROM ALL OTHER CAUSES
------------------------------------------------------------------------
                                                              Number
------------------------------------------------------------------------
Respiratory problems....................................       1,110,000
Digestive problems......................................         648,000
Calving.................................................         572,000
Unknown.................................................         474,000
Weather.................................................         275,000
Other...................................................         271,000
Disease.................................................         174,000
Lameness/injury.........................................         132,000
Metabolic problems......................................          78,000
Mastitis................................................          67,000
Poison..................................................          39,000
Theft...................................................          21,000
                                                         ---------------
      Total.............................................       3,861,000
------------------------------------------------------------------------

    The U.S. Department of Interior, FWS et al. (2007) reported that in 
the United States in 2006, 12.5 million people hunted, 30 million 
fished, but 71.1 million people watched wildlife (USDI FWS 2007). 
[Table 6.] The wildlife-watching group increased substantially from the 
2001 study, while the number of hunters and anglers declined (USDI FWS 
2001a). The $100 billion spent annually to pursue these pursuits is 
enormous, especially when compared to the flagging ranching sector.
    The fundamental question with regards to wildlife management in the 
agricultural sector is this: Do taxpayers owe agribusiness a living? If 
so, at what cost to the public's interest in wildlife protection?
    Americans should not be required to further subsidize unnecessary 
predator control activities serving a select segment of the population. 
Given that the entire public lands ranching community is made up of 
23,000 permittees and that more than half of those produce livestock 
for social and not economical reasons, WS's funding should, in fact, be 
reduced, and the predator-control program eliminated.
Wildlife-Killing Programs are Inhumane
    Humaneness issues vex WS. WS's own agents admit they have had 
``diminishing acceptance''--even among wildlife colleagues--when it 
comes to ``guns, traps, and poisons'' (US GAO 2001). Muth et al. (2006) 
studied the response of over 3,000 wildlife professionals and found 
that most favor a ban on trapping. That is because these kill methods--
particularly poisons and traps--are inherently indiscriminate, can be 
excruciatingly painful, stressful, and injurious (Mason and Littin 
2003, Littin and Mellor 2005, Muth et al. 2006, Iossa et al. 2007).
Wildlife Services is a National Security Hazard
    WS has failed numerous Federal audits that put the public at risk.
    In 2002, the Office of Inspector General (OIG) found that ``APHIS 
could not account for 60 pounds of strychnine-treated bait and over 
2,000 capsules containing sodium cyanide'' (USDA OIG 2002). The 
following year, APHIS-WS could account for these toxins, but failed to 
put in place an ``adequate chemical inventory and tracking system'' 
(USDA OIG 2004). In her 2002 statement before Congress, Joyce 
Fleishman, Acting Inspector General for the USDA reported, ``we found 
that APHIS lacks adequate accountability and control over hazardous 
pesticides and drugs maintained by some of its State offices for use in 
wildlife damage control'' (Fleischman 2002).
    In a 2004 OIG report, Assistant Inspector General Robert Young 
found that WS could not ``fully account for its inventories of 
hazardous pesticides and controlled drugs'' and that the materials were 
stored in unsafe and insecure ways leaving hazardous material 
``vulnerable to undetected theft and unauthorized use, and may pose a 
threat to human and animal safety'' (USDA OIG 2004).

 TABLE 6.--NATIONAL SURVEY OF FISHING, HUNTING, AND WILDLIFE-ASSOCIATED
                               RECREATION
------------------------------------------------------------------------
                                                No
                                           participants    Expenditures
                                             (million)       (billion)
------------------------------------------------------------------------
Hunters.................................            12.5           $22.9
Anglers.................................            30.0            42.2
Wildlife watchers.......................            71.1            45.7
------------------------------------------------------------------------

    In 2005 and 2006, the USDA OIG failed APHIS in two audits because 
the agency was not in compliance with the Bioterrorism Preparedness and 
Response Act. In the first, the OIG found that APHIS had not secured 
``dangerous biological agents and toxins'' (USDA OIG 2006a). In the 
second, the OIG found that APHIS-WS was not in compliance with 
regulations; unauthorized persons had access to toxicants; individuals 
using toxicants had inadequate training; and that inventories of 
hazardous toxicants were open to theft, transfer, or sale (USDA OIG 
2006b). Of the sites OIG visited, none were in compliance (USDA OIG 
2006b).
    In its November 5, 2007 stakeholder newsletter, WS issued an 
astonishing revelation:
    In the wake of several accidents in WS' programs, WS is conducting 
a nationwide safety review focusing on aviation and aerial operations, 
explosives and pyrotechnics, firearms, hazardous chemicals, 
immobilization and euthanasia, pesticides, vehicles, watercraft, and 
wildlife disease activities. The review will be conducted by subject 
matter experts from WS, Federal and State government, and private 
industry. We expect the review to be completed in the next year. 
(Emphasis added.)
    WS experienced two aircraft crashes in 2007 as part of its aerial-
gunning program. The June, Utah event ended in two fatalities, and the 
September, Texas one resulted in two serious injuries (see 
www.goAGRO.org). WS's news of a ``wake of several accidents'' comes on 
the heels of several failed Federal audits relative to WS's storage, 
inventory, and access to its toxics supply.
    After WS's November 2007 disclosure, Sinapu (n/k/a WildEarth 
Guardians) and PEER requested that WS conduct the national safety 
review with public transparency. WS dismissed our concerns. In a 
November 14 response, Deputy Administrator William Clay wrote that the 
agency itself would select auditors who ``demonstrated professional 
expertise'' and who were ``unaffiliated'' with the agency. WS plans to 
embed the outside auditors with an agency insider. Mr. Clay told Sinapu 
and PEER that the public would have the opportunity to ``read the final 
[national safety review] document'' upon completion.
Congressional Precedent for Reform & Conclusion
    Through a plethora of investigations, committee reports and 
attempts at reform over a period of eight decades, the agency that 
kills wildlife to benefit agribusiness has only limited its activities 
when compelled to do so. Congress has played an important role in 
making reform happen.
    In 1964, Secretary of the Interior Stewart L. Udall's Advisory 
Board on Wildlife and Game Management, issued the ``Leopold Report'' 
(named for its chairman, Dr. A. Starker Leopold, son of pioneering 
ecologist Aldo Leopold). The Leopold Report described the killing 
agency as a ```semi-autonomous bureaucracy whose function in many 
localities bears scant relationship to real need and less still to 
scientific management''' (Robinson 2005). The Leopold Report offered 
reform recommendations to Congress.
    In 1971, Secretary of the Interior C. B. Morton convened another 
investigative committee, this time, chaired by Dr. Stanley A. Cain. The 
207-page ``Cain Report'' lamented that the predator--control program 
``contains a high degree of built-in resistance to change'' and that 
monetary considerations that favored the livestock industry served to 
harm native wildlife populations (Cain et al. 1971). The Report called 
for substantive changes to wildlife management regimes by changing 
personnel and control methods, valuing ``the whole spectrum of public 
interests and values'', and asserting protections for native wildlife 
(Cain et al. 1971, Robinson 200).
    Without firm Congressional resolve, the USDA-WS will continue to 
test limits that are beyond the pale. WS's sloppy practices have 
resulted in failed safety audit after failed audit. The agency's 
``sledgehammer'' approach cannot be justified by its numerous costs and 
risks. Sheep and cattle losses from predators are insignificant, 3 
percent and .18 percent, respectively, and yet $100 million is spent 
each year to kill millions of animals in a way that many find abhorrent 
and disagreeable. It is taxation without representation, to paraphrase 
a founding father. Compare the ranching industry's 23,000 public lands 
permittees to the 71.1 million people who spend $54.7 billion to watch 
wildlife each year. Our request presents Congress with a unique 
opportunity to trim the Federal budget, protect public safety, and 
conserve native wildlife populations.
                                 ______
                                 

   Prepared Statement of the Ag Council of California; Agricultural 
 Cooperative Council of Oregon; Blue Diamond Growers; CalCot; CoBank; 
  Colorado Cooperative Council; Diamond Foods, Inc.; GROWMARK; Kansas 
   Cooperative Council; Land O'Lakes; Meadowbrook Farms Cooperative; 
     National Corn Growers Association; National Council of Farmer 
  Cooperatives; National Grape Cooperative Association/Welch's; Olive 
 Growers Council of California; Sunkist Growers, Inc.; SunMaid Growers 
 of California; Sunsweet Growers, Inc.; Texas Agricultural Cooperative 
                  Council; Valley Fig; and WineAmerica

    Dear Chairman Kohl and Ranking Member Bennett: In advance of the 
fiscal year 2009 Agriculture Appropriations Bill, we are writing to 
urge your strong support for full funding for USDA's Value-Added 
Producer Grants Program.
    Since its establishment, the Value-Added Producer Grants Program 
has been a tremendous success. This matching fund program has provided 
grants to over 900 individual producers, producer-controlled 
organizations and farmer cooperatives across the Nation.
    With those funds, recipients are empowered to capitalize on new 
value-added business opportunities that would have otherwise gone 
unexplored. Their successful, self-sustaining products have translated 
into greater and more stable income for producers from the marketplace. 
It has also served to promote economic development and create needed 
jobs, especially in rural areas where employment opportunities are 
often limited.
    The benefits of this program far exceed the cost. Given its track 
record of success, we believe that strong justification exists to 
provide full resources to this important program.
    Your leadership and support on this issue would be greatly 
appreciated.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
